<html>
<title> - U.S. MILITARY OPERATIONS AND STABILIZATION ACTIVITIES IN IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 109-386]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-386
 
   U.S. MILITARY OPERATIONS AND STABILIZATION ACTIVITIES IN IRAQ AND 
                              AFGHANISTAN

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                FEBRUARY 3, JUNE 23, SEPTEMBER 29, 2005

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
27-523 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

        Judith A. Ansley, Staff Director,  before August 1, 2005

        Charles S. Abell, Staff Director,  after August 1, 2005

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   U.S. Military Operations and Stabilization Activities in Iraq and 
                              Afghanistan

                            february 3, 2005

                                                                   Page

Wolfowitz, Hon. Paul, Deputy Secretary of Defense................     6
Myers, Gen. Richard B., USAF, Chief, Joint Chiefs of Staff.......    22
Schlicher, Ronald L., Deputy Assistant Secretary of State, 
  Coordinator for Iraq...........................................    24
Quinn, Maureen, Deputy Assistant Secretary of State, Coordinator 
  for Afghanistan................................................   129

             U.S. Military Strategy and Operations in Iraq

                             june 23, 2005

Rumsfeld, Hon. Donald H., U.S. Secretary of Defense..............   158
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....   165
Abizaid, GEN John P., USA, Commander, U.S. Central Command.......   166
Casey, GEN George W., USA, Commanding General, Multi-National 
  Force-Iraq.....................................................   167

             U.S. Military Strategy and Operations in Iraq

                           september 29, 2005

Rumsfeld, Hon. Donald H., Secretary of Defense...................   245
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....   246
Abizaid, GEN John P., USA, Commander, U.S. Central Command.......   247
Casey, GEN George W., USA, Commanding General, Multi-National 
  Force-Iraq.....................................................   255

                                 (iii)


   U.S. MILITARY OPERATIONS AND STABILIZATION ACTIVITIES IN IRAQ AND 
                              AFGHANISTAN

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Talent, Dole, Thune, Levin, Kennedy, Byrd, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, 
Dayton, Bayh, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Lynn F. Rusten, 
professional staff member; Scott W. Stucky, general counsel; 
and Diana G. Tabler, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Gerald J. Leeling, minority counsel; Peter K. Levine, minority 
counsel; and William G.P. Monahan, minority counsel.
    Staff assistants present: Alison E. Brill, Catherine E. 
Sendak, and Nicholas W. West.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Chris Arnold, assistant to Senator 
Roberts; Arch Galloway II, assistant to Senator Sessions; James 
P. Dohoney, Jr. and Mackenzie M. Eaglen, assistants to Senator 
Collins; Lindsey R. Neas, assistant to Senator Talent; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Meredith Moseley, 
assistant to Senator Graham; Christine O. Hill, assistant to 
Senator Dole; Sharon L. Waxman and Mieke Y. Eoyang, assistants 
to Senator Kennedy; Christine Evans and Erik Raven, assistants 
to Senator Byrd; Frederick M. Downey, assisant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi and Richard Kessler, assistants to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Todd Rosenblum, 
assistant to Senator Bayh; and Andrew Shapiro, assistant to 
Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
receive the testimony of Secretary Wolfowitz, General Myers, 
and Mr. Schlicher on the broad range of issues relating to 
Iraq, Afghanistan, and the other trouble spots in the world. It 
is the hope of the chair, and I think joined by the ranking 
member, that we can move along swiftly.
    I am going to ask unanimous consent that my full opening 
statement be placed into the record. But I do want to observe 
that this past weekend the world had the observation of a 
courageous people, the Iraqi people, fulfilling the dreams that 
have been repressed in that nation some half century. That is 
one dream that we accept on a daily basis here in this great 
nation, the right to vote.
    It was an extraordinary moment, not just in Iraqi history, 
but world history. It sent a strong message far beyond the 
borders of Iraq. That event took place because of the 
sacrifices of the men and women of the Armed Forces of the 
United States, the men and women of the Iraqi Armed Forces, and 
most importantly the sacrifices of the courageous people of 
Iraq.
    On March 20, 2003, U.S. and coalition forces crossed the 
borders to start the liberation of those people. We are not 
finished yet. We will dwell this morning in some detail on 
where the professional witnesses here view this situation and 
what remains to be done.
    But our President I think most eloquently stated on the 
afternoon of the election, ``Today the people of Iraq have 
spoken to the world and the world is hearing the voice of 
freedom from the center of the Middle East.''
    We should also be very mindful that in Afghanistan the 
elections have been held, after a brutal battle against the 
Taliban and efforts to eliminate the forces of al Qaeda. These 
elections were held on October 9, 2004. President Karzai was 
inaugurated on December 8.
    In the aftermath of these historic elections, the committee 
meets today to receive this testimony, and we have foremost in 
our mind the sacrifices of so many that made them possible. 
There were 200 instances of terrorism in the course of the 
weekend of the elections. The Iraqi forces deserve great credit 
in showing their professionalism to step up and deal with the 
polling places and the security situations to enable this 
election. Coalition forces were at the ready, but, in the words 
of General Casey, they were really there but not called on. The 
Iraqi security forces did the job.
    We hope that harkens for the future, because our plans are 
to strengthen in every way possible the effort to train these 
forces, and we are anxious to hear from General Myers 
particularly this morning as to the plans of Generals Abizaid 
and Casey and the recommendations of General Luck and his team 
that went over there.
    We learned that there will probably be a concept of 
integrating small numbers of our forces into the Iraqi units. 
It seems to this Senator a very wise and sound tactic. But I 
congratulate certainly our President, the Secretary of Defense, 
the Deputy, the Chairman, the Secretary of State and his team, 
and all that made it possible for these accomplishments to date 
and making clear what remains to be done.
    We will hear, I think, from the Secretary this morning in 
some detail the steps that must be now taken to put in place 
the new government. It is going to be somewhat time-consuming 
in the judgment of this Senator. The election results have to 
be confirmed, then a series of steps must be taken to put in 
place a prime minister, and a series of other ministers have to 
be ratified. The basic security for each of these individuals 
must be developed as well as the infrastructure in which to 
bring this enlarged and new interim government, preparing to 
write a constitution and to have subsequent elections in 
December.
    So I conclude by again expressing my deep reverence and 
concern and compassion for all the sacrifices that have taken 
place to enable the success that we have had thus far.
    The Iraqis understand, however, very clearly the need for 
U.S. and coalition forces to stay and assist them in developing 
the capacity to ensure the security of their country. I quote 
interim President al-Yawer, who stated on Monday: ``It is only 
complete nonsense to ask the troops to leave in this chaos and 
vacuum of power.''
    I commend our distinguished colleague Senator Lieberman, 
who earlier today in a public setting addressed the issues as 
he saw them--and I agree with you, Senator--on what lays ahead 
on the road for the eventual return of our forces and other 
coalition forces.
    So with that I conclude and put the balance of my statement 
in the record, and I turn to our distinguished colleague the 
ranking member.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    On March 20, 2003, U.S. and coalition forces crossed the Iraq-
Kuwait border and began the liberation of Iraq. Twenty-three months 
later--last Sunday--the Iraqi people took a bold, courageous step--in 
defiance of the terrorists--on the path to liberation. This important 
milestone would not have been possible without the contributions of the 
men and women of the U.S. Armed Forces, their coalition partners, and 
the Iraqi security forces. President Bush characterized it eloquently 
on Sunday afternoon when he said, ``Today the people of Iraq have 
spoken to the world and the world is hearing the voice of freedom from 
the center of the Middle East.''
    Similarly, 3 years after U.S. forces initiated operations to 
liberate Afghanistan from the brutal rule of the Taliban and to 
eliminate al Qaeda training bases and sanctuaries, elections were held 
on October 9, 2004 and President Karzai was inaugurated on December 8. 
The Taliban is gone and al Qaeda is scattered and on the run. The 
Afghan people have spoken in favor of freedom and democracy.
    In the aftermath of these historic elections, the committee meets 
today to receive testimony on continuing U.S. policy and military 
operations in Iraq and Afghanistan. We welcome our witnesses: Deputy 
Secretary of Defense Paul Wolfowitz; General Richard B. Myers, USAF, 
Chairman of the Joint Chiefs of Staff; and Ronald L. Schlicher, Deputy 
Assistant Secretary of State for Iraqi Affairs. We look forward to your 
testimony.
    Many of us take the freedoms and liberties we have in our country 
for granted. How humbling and awe-inspiring it was to watch the Iraqi 
people--in defiance of the terrorists--go in large numbers to vote, in 
pursuit of their dream for a free, prosperous nation. How heartening it 
was to see the Iraqi security forces step up to the task, and perform 
admirably in providing a relatively secure environment for the voters. 
This has inspired pride and confidence in the Iraqi security forces, as 
evidenced by the fact that over 3,000 Iraqis volunteered to join the 
new Iraqi Army in the days immediately after the election.
    Clearly, there remains much to be done to help the Iraqi people 
realize their dream, but they have seized the moment to free themselves 
of a tyrannical past and to soundly reject the insurgent violence of 
the moment. We can be justly proud of being their partners in this 
worthy endeavor.
    I want to congratulate each of you, and the countless men and women 
who you represent, for this historic accomplishment. Many had begun to 
question whether the sacrifices our soldiers and diplomats were making 
in a decidedly difficult environment were justified. The efforts of 
these brave Americans were given a strong vote of confidence on Sunday 
by the courage of the Iraqi people.
    The elections in Iraq and Afghanistan have stoked the fires of 
liberty and democracy in these lands and in the entire region. In this 
moment of optimism for the future, our thoughts and prayers are with 
the families of those who have been lost or seriously wounded defending 
liberty on distant shores, helping oppressed nations find their way to 
freedom.
    While I do believe that a measure of optimism is warranted, we 
should harbor no illusions about the difficult work ahead. The Iraqis 
must construct a constitution and a government that is inclusive of all 
ethnic, religious, and tribal elements that represent the richness of 
the Iraqi nation and its heritage. We must help them develop the 
security forces that will enable political and economic development.
    As we absorb the significance and meaning of this election, the 
question highest in the minds of the American people is: ``When are our 
troops coming home?'' It is an important question, but a complex one, 
and one our witnesses will address today.
    The question of an exit strategy has been the subject of much 
discussion in recent days. I prefer to talk about an overall strategy 
to achieve our goals--goals that are tied to clear milestones and 
objectives; not to dates on a calendar. Once those goals are achieved, 
we can and should begin an orderly departure.
    The Iraqis understand the need for U.S. and coalition forces to 
stay and assist them in developing the capacity to ensure the security 
of their country. As President al-Yawer stated on Monday, ``It's only 
complete nonsense to ask the troops to leave in this chaos and vacuum 
of power.''
    As we discuss the way ahead, we must make it clear to Iraqis and 
all others that we remain committed to successfully completing the 
mission. We will adjust tactics as goals are achieved, giving the Iraqi 
forces as much responsibility as they believe they can assume. It 
worked in this election; it can work in the future.
    It has become apparent in recent months that a key element of our 
strategy in Iraq is the training, equipping, and mentoring of the Iraqi 
security forces--in sufficient numbers and sufficient quality--so that 
they will be able to take over responsibility for defending their 
nation from both external and internal threats. The performance of 
these forces in providing security for the elections was a promising 
sign, but they are far from ready for the full range of current and 
future missions.
    Over the past several months, many members of this committee have 
traveled to the region. Most of us have met with General Casey and 
Lieutenant General Petraeus to discuss the security situation and the 
status of efforts to train the Iraqi security forces. It is a difficult 
undertaking. We all recognize that a young person who has just gone 
through a few weeks of training is not a seasoned, ready combat troop 
or a street smart cop. Readiness to take over full responsibility for 
security involves many dimensions in addition to the number of 
``trained and equipped'' soldiers or police. It involves competent, 
trustworthy leadership; equipment readiness; patriotism; unit cohesion; 
and acceptance by the people, among many other things. Building forces 
fully prepared to undertake these responsibilities takes time. The 
committee received a comprehensive briefing from the Department 
yesterday on this mission and what remains to be done. We must not lose 
patience now when the path to success is clear.
    The days and months ahead will not be easy and more sacrifice of 
American lives and treasure will be required to transform Sunday's 
election into the permanent symbol of Iraq's march to democracy it 
deserves to be. The insurgency will not go away immediately. Those 
determined to return to the past will not give up easily. They can be 
defeated however, with our help and with our willingness to stay the 
course, not only militarily, but across the broad spectrum of 
political, economic, and social development.
    Finishing the liberation and democratization of Iraq is a worthy 
cause, and a cause about which our men and women in uniform can be 
justifiably proud. It is my sincere hope that the elections and the 
optimism they have produced will be perceived as a great opportunity 
for more nations to join in this noble endeavor. It is not only the 
United States and its coalition partners that have a stake in Iraq. The 
whole world will be a better, safer place with a free, democratic, 
prosperous Iraq that will serve as a model of hope and inspiration for 
the region and beyond. 

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you.
    Last weekend millions of Iraqis, many at great personal 
risk and many who walked long distances, exercised their right 
to vote in the elections. They walked through a door that was 
opened by our soldiers and marines, who worked so bravely and 
tirelessly in the development and execution of a complex 
security plan that made the election possible.
    The challenge now is to defeat the continuing insurgency, 
to find a way to involve the Sunnis in the political process, 
and to ensure that minority rights are enshrined in a new 
constitution, which is scheduled to be considered by referendum 
this fall. It is essential that we develop what should have 
been developed before we initiated military operations: an exit 
strategy. Once we see who the new government is, we should 
discuss with that government what our exit strategy will be.
    Part of that strategy should be to promptly end our status 
as an occupying power. The insurgents have used that status 
against us in their propaganda. If the new Iraqi Government 
invites the international community, including us, to stay on, 
that invitation would end our status as an occupying power 
because we would then be there at the invitation of a 
democratically elected Iraqi Government, just as we are in 
South Korea at the invitation of a democratically elected South 
Korean Government.
    Such an invitation from an Iraqi Government could also for 
the first time bring the military forces of Muslim nations into 
the international coalition.
    In the meantime, we should move ahead on an accelerated 
basis with the training and equipping of the Iraqi security 
forces. Part of that effort must be a realistic assessment of 
the capabilities of those forces now. We should stop 
exaggerating the number of Iraqi security forces that have 
already been fully trained and are capable and willing to take 
on the insurgency. We need to mix a healthy dose of realism 
with our hopes. Currently we have no way of measuring the 
capabilities of Iraqi security forces. We have to establish 
badly needed training and equipping standards for Iraqi units, 
which will allow an assessment of their readiness and 
capability.
    We already have a model in the unit status report system, 
by which we judge the readiness of our own military forces. 
Only in that way will we be able to determine and apply the 
resources required to establish and maintain the necessary 
readiness and capabilities in Iraqi units which will allow 
American units to turn over security responsibilities to 
Iraqis.
    The elections in Iraq were an important milestone in a long 
process. That process will continue to require sacrifices of 
our military personnel and significant additional resources. I 
am satisfied those resources should be provided and will be 
provided. Regardless of the differences over the policies which 
isolated us from most of the world and all of the Muslim world 
when we went into Iraq, regardless of the mistakes that were 
made in failing to have a plan for the post-combat stability 
phase and in thoughtlessly disbanding the Iraqi Army, it is 
essential that we support our troops. Now that we are there, we 
must succeed in leaving Iraq secure and free of major civil 
strife.
    I look forward to the testimony of our witnesses laying out 
the plans for the next phase in Iraq, as well as addressing the 
next steps in Afghanistan.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    I note that yesterday afternoon this committee had an 
extensive briefing from members of the Department of Defense 
(DOD). I know other members present here expressed their 
appreciation for a detailed briefing which I believe, Senator 
Levin, went a long way to clarify the means by which we are 
assessing the degree of achievement in training and the 
professional capabilities of the Iraqi spectrum of security 
forces from police through and including the Guard and Reserve.
    That by necessity was behind closed doors, but I feel that 
our witnesses today will make some reference to the same 
material we received yesterday.
    I also am very pleased to note the presence, at the 
invitation of the chair and the ranking member, of Ambassador 
Maureen Quinn, the Coordinator for Afghanistan. Good morning, 
Madam Ambassador. We thank you and perhaps at some point in the 
course of the questioning we will ask you to join the panel.
    Secretary Wolfowitz.

 STATEMENT OF HON. PAUL WOLFOWITZ, DEPUTY SECRETARY OF DEFENSE

    Secretary Wolfowitz. Mr. Chairman, thank you for this 
opportunity. We meet in an historic week in the history of Iraq 
and our relations with Iraq. There are some appropriate 
cautions that people give about avoiding euphoria at this 
moment. I think those cautions are correct. I think the right 
way to think of what happened on Sunday is that it was a major 
victorious battle in a war that is still not yet won, and it is 
appropriate to celebrate that victory, but it is also important 
to think about the way ahead.
    As we do so, I think it is particularly appropriate to pay 
honor to the memory of the 1,417 Americans that have been 
killed so far in this effort, but also to the 1,342 Iraqi 
police and army that have been killed and 126 other coalition 
members that have been killed. This has been a victory that has 
been won at considerable cost.
    That sacrifice has not been lost on the Iraqi people 
themselves. An Iraqi blogger--which are the people who post 
their news on Web sites--this one named Allah, publishes his 
views on a Web site called ``The Mesopotamian.'' He stated it 
eloquently on election day when he wrote: ``My condolences to 
the great American people for their recent tragic losses of 
soldiers. The blood of Iraqis and Americans is being shed on 
the soil of Mesopotamia, a baptism with blood, a baptism of a 
lasting friendship and alliance for many years to come through 
thick and thin. We shall never forget the brave soldiers fallen 
while defending our freedom in the future.'' I think we had a 
most vivid expression of that in that remarkable hug that we 
all witnessed last night.
    I would like to thank the members of this committee and the 
entire Congress for your continued support to our great men and 
women in uniform and to their civilian counterparts, including 
several State Department officers who have made the ultimate 
sacrifice in Iraq.
    At the end of the day, the indispensable heroes of Sunday's 
historic events were the Iraqi voters who risked their lives, 
and at least 35 of whom paid with their lives to vote for their 
government representatives for the first time in their lives. 
As Lieutenant General Thomas Metz, the Commander of the 
Multinational Corps Iraq, said in congratulating his troops for 
the magnificent job they did on January 30: ``The one thing we 
could not do for the Iraqis was vote and, impressively, 
millions of them had the courage to do so.''
    One of the most impressive examples of that courage 
occurred in Baghdad when a bomber approached the line of voters 
outside a primary school polling place. A 14-year police 
veteran named Abdul Amir al-Shuwayli pushed the bomber away, 
yelling: ``Let me save my people, let me save my friends.'' As 
a result of al-Shuwayli's heroism, the bomber was only able to 
detonate his belt of explosives 50 feet away from the voting 
line, saving the lives of countless Iraqis but taking the life 
of this brave Iraqi policeman. This is one of several instances 
in which Iraqi police and soldiers gave their lives to shield 
Iraqi voters from suicide bombers and insurgents trying to 
penetrate the security rings around polling sites.
    I think it might be appropriate on this occasion, Mr. 
Chairman, to put up the article from USA Today and the picture 
of Sergeant al-Shuwayli. I think he deserves that kind of 
recognition.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    I would note that in fact, according to our reports, of 
eight attempted suicide bombings, every one of them was stopped 
by Iraqi security forces at the outer security perimeter. That 
is a pretty impressive 100 percent record. From what we can 
tell from reports--and we are still checking on this--that 
life-giving sacrifice by Policeman al-Shuwayli was not the only 
such incident. There seems to be another one in which a 
policeman was inspecting an attacker when he discovered the 
explosive-laden belt. The attacker pushed him to the ground, 
ran toward the polling station, and this policeman pursued him, 
tackling him outside the station in a body embrace that 
triggered the explosives. There seem to be, from what we can 
tell, two separate instances of devotion far above and beyond 
the call of duty.
    Although the final tally of votes will not be known for 
several days, it is already clear that Sunday's election has 
been an epoch-making event. But as impressive as that election 
was, Iraq still faces a very difficult road ahead to defeat the 
terrorist threat and to achieve stability, much less freedom 
and democracy. Nevertheless, I think it is appropriate to take 
just a few moments to dwell on the breath-taking images we saw 
this past weekend.
    In fact, Mr. Chairman, I thought, since a picture is worth 
a thousand words, I could save you many words and some minutes 
by handing out this packet of photos that my staff pulled off 
the Internet. I am not quite sure about copyright, so I am a 
little concerned about distributing beyond the members of the 
committee. But I think if you look at them, there is just an 
incredible story there of Iraqi passion for democracy.

    [The packet of photographs referenced by Deputy Secretary Wolfowitz 
has been retained in committee files.]

    Two of my favorites, if I could hold them up for a minute, 
are this one of an old man crying as he puts his ballot in; and 
then this one of two young women hugging each other and crying.
    We saw an incredible display of passion for democracy. But 
I would say even more significantly, we saw incredible bravery. 
It is important to remember that. This demonstration of Iraqi 
commitment to the newfound democracy took place in the face of 
a systematic campaign of terror and intimidation that is almost 
unimaginable to most Americans. It included assassinations and 
beheadings of election workers. It included threats to the 
children of candidates and threats to ordinary voters, not just 
risking their lives when they went to the polls, but fearful of 
what might happen to them afterwards.
    We who are lucky enough to take for granted that our 
elections will take place in complete peace and security can 
not appreciate the significance of what Iraqi voters have just 
done. Indeed, I think some of the most remarkable stories from 
last Sunday are about the courage of these voters. Two in 
particular that I heard from General Hamm, who is our commander 
up in Mosul, are worth repeating.
    At one polling station in Mosul--and I would point out it 
was in a Sunni Arab neighborhood--the polls had been open for 2 
hours and no one had come to vote, but there was a crowd 
gathered some distance from the polls to watch what happened. 
Finally, an old woman who seemed to be in her late sixties came 
forward and said, ``I have waited all my life for this 
opportunity,'' and she came forward to vote and the rest of the 
crowd followed.
    At another polling place in Mosul, also in a Sunni Arab 
neighborhood, the enemy actually brought a line of voters under 
small arms fire, wounding one of the voters. No doubt they 
expected the other voters to run. They did exactly the 
opposite. They stayed in line. They shifted the line and 
crouched down to protect the wounded voter while Iraqi soldiers 
evacuated him to a hospital.
    Forty-four Iraqis lost their lives attempting to cast their 
ballots. By 1 p.m. Sunday, terrorists had launched a record 
seven suicide bombings in Baghdad and one south of Baghdad. 
Despite that violence, the Iraqis did not leave the lines that 
they had waited all their lives for.
    Before the election there was concern that this purple dye 
that was used to mark voters' fingers--as a fraud prevention 
measure--could become an intimidation instrument, that people 
would be fearful that it would target them from the terrorists. 
But rather than deterring people, these marks have become a 
purple badge of courage, as you will see in these photos I am 
sure you have seen already.
    One Sunni voter raised his forefinger and declared: ``This 
is my badge of honor and, no, I am not keeping my hand in my 
pocket.'' Another Iraqi wrote: ``When I moved to mark my finger 
with ink, I dipped it in deep, as if I was poking the eyes of 
all the world's tyrants.''
    Mr. Chairman, this election also helps to clarify without a 
doubt who the enemy is in Iraq. Our enemy in Iraq is not the 
Iraqi people. It is not a nationalist insurgency. It is an 
unholy alliance of old terrorists and new terrorists. The old 
terrorists are the ones who brutalized and tortured the country 
and murdered hundreds of thousands of their countrymen over the 
course of 3\1/2\ decades.
    These secret security forces of the former regime, best 
analogized I think to the Gestapo and the SS of the Nazi 
regime, are now allied with the new terrorists drawn from 
across the region. Like their Baathist allies, these new 
terrorists are ideologically opposed to democracy and fearful 
of what the success of freedom in this important Arab country 
will mean for them.
    Just 1 month before the election, Osama bin Laden declared, 
``Any Iraqi who takes part in this election consciously and 
willingly is an infidel.'' With that statement, bin Laden made 
preventing the Iraqi election one of al Qaeda's highest 
priorities and provided ideological justification for murdering 
Iraqi voters.
    Abu Musab al-Zarqawi, bin Laden's appointed prince in Iraq, 
also denounced the election. Indeed, he denounced democracy 
more broadly, declaring ``a fierce war on this evil principle 
of democracy and those who follow this wrong ideology.'' 
``Democracy,'' he said, ``is based on the right to choose your 
representatives and that is against the rule of God.''
    Through their opposition to elections and democracy, the 
terrorists have demonstrated that they are not interested in 
winning hearts and minds, but rather to simply intimidate the 
Iraqi people into submission. Unlike almost every other 
historical insurgency, they offer no positive agenda beyond 
their own pursuit of power, and they explicitly seek to deny 
Iraqis a voice in their future. That is why Iraqis refer to 
such men as Abdul Latif Humain, a so-called ``religious'' 
adviser to Saddam before the fall of the regime, who fled the 
country with large amounts of money, leaving his recruits 
behind, as terrorists.
    Yet the determination of the terrorists to disrupt the 
election was defeated by the overwhelming majority of Iraqis, 
who want democracy to prevail. As Major General John Batiste, 
commander of our 1st Infantry Division, said, ``Iraq votes are 
bullets to the hearts of the terrorists.'' Iraqis know who they 
are fighting and they know they are fighting people who want to 
take them backwards to some new form of dictatorship as 
terrible as the one they have just been liberated from.
    Mr. Chairman, as dramatic a moment as these elections were, 
this is not a time to sit on our hands congratulating 
ourselves, nor to declare victory and abandon a task that is 
only half accomplished. Although I find it hard to agree with 
anyone who would say that the election was just the easy part--
it was hardly easy--there is no question that there is still 
much hard work to be done, principally by the Iraqis 
themselves, but also by those of us upon whom they still depend 
for support.
    While the election clearly demonstrated that the hearts and 
minds of the Iraqi people do not lie with the terrorists, no 
one should imagine for one moment that these would-be tyrants 
will quit just because of Sunday's vote. The next few months 
will be particularly challenging because, while this election 
will produce a national assembly, that body will still face a 
formidable challenge to putting together a government, and it 
must do so in the face of a continuing war against a brutal 
enemy.
    Mr. Chairman, while attempting to think about our immediate 
focused efforts in the next few months, I would suggest there 
are five. First is to recognize that success in this effort 
will require the integration of all elements of national power, 
both U.S. and Iraqi, as well as those of our coalition partners 
and hopefully others who may join in now. This is not a 
military effort alone and there must be equal and parallel 
efforts in governance and infrastructure, in economic 
development, in strategic information. Governance in particular 
presents important challenges, not only in standing up a 
government and writing a constitution, but in establishing 
government ministries that can both function effectively, which 
is enough of a challenge, but also that will serve the 
interests of the people, not their own personal agendas. The 
entire international community has an interest in the success 
of that effort.
    Second, there will be many difficult compromises that will 
have to be made among different Iraqi groups, on everything 
from fundamental constitutional questions to practical 
questions involving the sharing of power and resources. Iraqis 
will have to work out these compromises. That is a big part of 
what democracy is really about. But we have enormous influence 
in Iraq and we should use it, not to advance our own agenda, 
but to constantly remind Iraqis of the importance of resolving 
these issues in ways that preserve national unity in the face 
of a ruthless enemy.
    Third--and I will talk more about this in a few minutes--on 
the military side, the key to victory clearly lies in 
developing more and increasingly capable Iraqi security forces. 
That effort has produced important successes so far and we need 
to learn the lessons from those successes so that we can build 
on it and hopefully accelerate it.
    Fourth, we and the Iraqis need to attach high priority to 
the development of an effective legal and judicial system, one 
that enforces the rule of law, that punishes the guilty, that 
protects the rights of all citizens, and that provides the 
equal justice under law that is not only a key hallmark of 
democracy, but which is also crucial for fighting corruption 
and promoting economic development.
    Iraq's currently weak judicial system is not yet able to 
punish lawbreakers effectively, even those who are guilty of 
the most serious crimes against the Iraqi people and against 
coalition forces. Finding ways to protect judges from 
intimidation needs to be a high priority. We also need to help 
the Iraqi Government strengthen the tools of law enforcement 
through everything from better communications equipment to 
identification systems for criminals and foreigners to forensic 
bomb analysis capability.
    Fifth, we need to work with the Iraqi Government to keep up 
pressure on neighboring countries, particularly Syria, to stop 
the activities of Baathists and other terrorist supporters 
working from outside Iraqi and to stop the flow of foreign 
fighters into the country. Some of Iraq's neighbors probably 
fear a free Iraq, but they need to understand that it will be 
much more harmful for them if they try to obstruct Iraq's 
progress toward freedom.
    Let us remember that we are facing an enemy who is not only 
ruthless, but adaptive and fiendlishly clever, an enemy who 
obviously did not give up just because Baghdad was liberated, 
that did not give up just because Saddam Hussein was captured, 
and that did not give up just because the interim government 
was stood up successfully on June 28. It is an enemy that will 
adapt, and we need to be prepared for its adaptations and 
anticipate them and try to be ahead of them.
    But the good news, Mr. Chairman, is that this enemy does 
not offer anything positive to the Iraqi people. It is not an 
enemy that can ever defeat our soldiers one for one on the 
battlefield. It is an enemy that has shown itself to be 
horribly clever and viciously evil, with no respect for the 
laws of civilization or for the Iraqi people. But that will be 
their undoing. Ultimately it is the Iraqi people who will 
defeat them, with our continued help.
    Mr. Chairman, Mr. Schlicher I think will discuss in more 
detail the political process going forward. I have already 
emphasized the critical importance in that process of 
compromise. There has been a lot of attention given to the fact 
that the election results may be distorted by the fact that 
intimidation was much more severe in predominantly Sunni areas, 
not because I think Sunnis predominantly support the 
insurgency, but because the insurgents are predominantly Sunni 
and that is where they live. That is I think why the vote was 
particularly low in places like the Al-Anbar Province.
    What I find encouraging is that the non-Sunnis have been 
very forceful in expressions like this one that came from the 
Supreme Council for Islamic Revolution in Iraq (SCIRI) chief, 
Abdul Aziz al-Hakim, who leads, I believe, or is near the top 
of this United Iraq Alliance list. ``The National Assembly''--
and this from a Shia cleric--shall represent all Iraqi strata 
and we will make an all-out effort to this end. We will defend 
the rights of our Sunni brothers just the same way we do for 
those of the Shiites.''
    I think these statements are good indicators that Iraqis 
will work to form a transitional government that will attend to 
the interests of all Iraqis, including those Sunni Arabs whose 
vote was suppressed by severe intimidation in some places.
    Mr. Chairman, I know this committee has a particular 
interest, as do we in the DOD, in the development of Iraqi 
security forces. I think it is worth recalling that last year 
we intercepted a letter from Abu Musab al-Zarqawi to his al 
Qaeda colleagues in Afghanistan. In that letter he warned of 
the dangers of Iraqi sovereignty and especially the creation of 
capable Iraqi security forces. He wrote, ``With the spread of 
the Iraqi Army and the police, our future is becoming 
frightening. You end up having an army and police connected by 
lineage, blood, and appearance to the people of the region. How 
can we kill their cousins and sons? This is a democracy; we 
will have no pretext.''
    Mr. Chairman, the endeavor to create those forces has not 
been without setbacks and disappointments. Most significantly, 
barbaric acts of intimidation have targeted Iraqi soldiers and 
police and their families, thinning the ranks of some units and 
rendering others ineffective. Let me recall that since June 
2003 nearly 1,400 Iraqi soldiers and policemen--I would say 
that is by our count, which may well be an underestimate--
nearly 1,400 Iraqi soldiers and policemen have been killed in 
the line of duty as they sought to defend their newfound 
freedom.
    Through it all, however, the coalition and the Iraqis have 
continued to press forward, modifying training programs, 
adapting operational constructs, and increasing equipment 
authorizations. Throughout that we have had strong support from 
this committee and from the U.S. Congress that has been 
critical in making that progress possible.
    Mr. Chairman, this progress does not always transfer into 
quantifiable measures, and the quantifiable measures we come up 
with are sometimes undone by the shifting in categories. The 
shifting in categories is a necessary adaptation to 
circumstances and I know it gets confusing, even to those of us 
who track it every day.
    One that I think has caused particular confusion, and let 
me just try to clear it up, has to do with this change when we 
were carrying numbers on the order of 200,000 and it seemed to 
suddenly drop to 130,000. Those 70,000 people are people we had 
always identified as the least trained, I sometimes call them a 
kind of Pinkerton Guard Force, the so-called Facilities 
Protection Service, and we took them out of our counts, 
frankly, because the Iraqis took them out of the Ministry of 
Defense and the Ministry of Interior and shifted them over to 
individual ministries where they were protecting oil or 
protecting electricity. Since they are not part of the training 
responsibility of General Petraeus's command, we thought it was 
better not to keep them in the number count. They are still 
there. They performed even on election day.
    More generally, we have repeatedly tried to caution against 
making too much of raw numbers when there are large qualitative 
differences that are generally more important. The term 
``trained and equipped'' when applied to Iraqi forces cannot be 
analogized to how we measure readiness in American military 
units.
    One impressive metric is the one I mentioned last Sunday, 
the number of suicide bombers that were stopped at the outer 
security perimeter of the polling sites. That was 100 percent 
out of a total of eight attempted attacks and it is an 
impressive record.
    Measurement is also complicated by the fact that there has 
been a consistent development of new kinds of units with 
different capabilities. One such unit is the special police 
commando battalions, which are an entirely Iraqi invention. The 
first one I believe was formed only last November. They are 
among a number of different kinds of units that have the 
important capability that they can be deployed anywhere in the 
country, not just in their local area.
    Since Prime Minister Allawi took office last June, 44 
deployable military and police battalions out of a total of 85 
battalions overall have been established. The additional 
battalions include regionally-oriented National Guard 
battalions that were recently incorporated into the Iraqi Army. 
These deployable battalions have the feature that they can be 
moved anywhere in the country and in many cases currently are 
deployed in the most challenging areas. They are responsible in 
no small measure for the successful security that we achieved 
in Mosul and Baghdad on election day. There were seven such 
battalions helping maintain security in Mosul, nine in 
Fallujah, three in Samarra, and at least seven in Baghdad.
    At the same time, none of these Iraqi forces are capable of 
replacing coalition units on a one for one basis. In fact, they 
may never be one for one the equivalent of our forces. But in 
some respects they will always be superior. What do I mean by 
that? I mean that they bring to the fight skills that our 
soldiers will never possess, particularly their understanding 
of the languages and cultures of Iraq, their ability to 
immediately recognize just by how someone speaks whether he is 
an Iraqi or a foreigner--that is no small talent--and they will 
contribute even more as we and Iraq leaders continue their 
development, replace their losses, and help develop their 
higher headquarters, combat support elements, and logistical 
units and systems needed for their support.
    As we try to increase the speed with which they grow and 
with which, more importantly, they improve qualitatively, a 
major component in the effort will be the substantially 
increased emphasis that General Casey, our great commander in 
Iraqi, has directed be given to Iraqi security force 
development this year. Increasingly, I think you could say 
Iraqis have what I would call the hardware force component of 
personnel, equipment, and infrastructure. Their most important 
gaps are in the intangible components that all successful 
military units need, what you might call the software: 
leadership, command and control arrangements, experience, and 
unit cohesion. These intangibles take time to develop. Some of 
them are, frankly, best developed by actual combat experience. 
Some of the most important development will therefore take 
place on the job, in active military operations.
    Mr. Chairman, the President and Secretary Rumsfeld are 
committed to providing the resources needed for this endeavor 
and the forthcoming request for supplemental funding will 
include a substantial funding request for expansion of the 
Iraqi security force effort. We are counting on your support 
and I am confident we will have it.
    In sum, we believe that considerable momentum has been 
achieved in the development of Iraqi security forces. However, 
much remains to be done as we help Iraq build not just 
battalions, brigades, and divisions, but the institutions that 
support them and the civilian ministries that direct them. That 
is an enormous endeavor. It is historically unprecedented. It 
has encountered challenges and suffered setbacks. But in recent 
months we have seen the results of the coalition's 
investigation, most importantly in the performance of Iraqi 
units deployed to hot spots on January 30.
    Mr. Chairman, democracy is on the march in Iraq and this 
past Sunday Iraq's own army and police force helped to 
safeguard that march. Their performance was captured in an 
anecdote related by another Iraqi blogger, this one named Ali, 
on his Web site, which is called ``Iraqi Lib,'' I guess meaning 
``liberation.'' He describes an encounter with one of the 
guards. He does not say whether he was a soldier or a 
policeman. The guard actually apologized to the voters for 
searching them. He said: ``We do not know how to thank you; 
please excuse any inconvenience on our part. We wish we did not 
have to search you or limit your freedom. You are heroes.''
    I think that politeness from an Iraq soldier was something 
that is probably also a bit unprecedented in that country. This 
Iraqi voter said: ``I thanked him back and told him that he and 
his comrades are the true heroes and that we can never be 
grateful enough for their services.''
    Mr. Chairman, today we all share that gratitude for the 
courage of the Iraqi forces and for the courage and sacrifice 
of American service men and women who have done so much to help 
bring Iraq to this moment and, hopefully, soon to many more 
like it.
    Thank you. I look forward to your questions.
    [The prepared statement of Secretary Wolfowitz follows:]

              Prepared Statement by Hon. Paul D. Wolfowitz

                         HEROISM AND SACRIFICE

    Mr. Chairman, Senator Levin, members of the committee, I am happy 
to be here today to testify on the Iraqi election and on our strategy 
for Iraq in the coming months. On the eve of the election, an American 
lieutenant stationed near Baquba wrote:

        The soldiers of 2-63 armor battalion are out there hardening 
        the election sites and working around the clock to provide 
        security for the Iraqis. I'm pretty excited about being out 
        there for something historical. Not all my soldiers can be out 
        there but I have guys begging to be taken out in sector. Seeing 
        how bad these locals want the elections to happen has been 
        pretty inspiring for us.

    I believe it goes without saying that Sunday's events, both in the 
bravery of the Iraqi people, as well as in the dedication of our men 
and women in uniform, is inspiring to all of us as well.
    It is impossible to say enough about the heroism and sacrifice that 
it took to make this day possible. U.S. troops and our Iraqi and other 
coalition partners did an incredible job in preparation for the 
election, safely moving more than 3 million tons of election programs, 
and helping to secure more than 5,000 polling stations throughout Iraq.
    American soldiers, marines, sailors, airmen, and coast guardsmen, 
as well as their civilian colleagues serving in Iraq, have performed 
magnificently, not just on election day but throughout Operation Iraqi 
Freedom. Each day for almost 2 years, American men and women have put 
their lives on the line to protect our security, and to help bring 
freedom to Iraq. Whether rooting terrorists out of strongholds such as 
Najaf and Fallujah, or rolling up their sleeves to rebuild and paint 
Iraqi schools, they have performed their duties nobly and without 
complaint. They have done everything that has been asked of them and 
more. More than 1,400 Americans have lost their lives in the process, 
and thousands more have been wounded.
    This sacrifice has not been lost on the Iraqi people themselves. 
The Iraqi blogger named ``Alaa''--who publishes his views on the Web 
site called The Mesopotamian--stated it eloquently on election day when 
he wrote:

        ``My condolences to the great American people for the tragic 
        recent losses of soldiers. The blood of Iraqis and Americans is 
        being shed on the soil of Mesopotamia; a baptism with blood. A 
        baptism of a lasting friendship and alliance, for many years to 
        come, through thick and thin, we shall never forget the brave 
        soldiers fallen while defending our freedom and future.''

    Mr. Chairman, on behalf of these brave young Americans, I'd like to 
thank the members of this committee and the entire Congress for their 
continued support to our great men and women in uniform and to their 
civilian counterparts.
    At the end of the day the indispensable heroes of Sunday's historic 
events were the Iraqi voters who risked their lives--and at least 35 of 
whom paid with their lives--to vote for their government 
representatives for the first time in their lives. As Lieuteant General 
Thomas Metz, Commander of the Multinational Corps-Iraq, said in 
congratulating his troops for the magnificent job they did on January 
30, ``the one thing we could not do for the Iraqis was vote''--and, 
impressively, millions of them had the courage to do so.
    Sunday's election in Iraq was also a heartening testament to the 
growing capabilities of the Iraqi security forces. On election day, 
those forces--and millions of Iraqi citizens--stood very tall, 
demonstrating courage and determination in the face of over 100 
attempts to disrupt the voting process.
    Coalition planning, backup, and assistance were very important on 
Sunday; however, it was alert, determined Iraqis who ensured that the 
elections were not disrupted throughout the country--and who suffered 
the vast majority of the casualties.
    One of the most impressive examples of Iraqi heroism occurred in 
Baghdad when a bomber approached the line of voters outside the Al-
Zahour Primary School. Fourteen-year police veteran Abdul Amir al-
Shuwayli pushed him away yelling, ``Let me save my people. Let me save 
my friends.'' As a result of al Shuwayli's heroism, the bomber was only 
able to detonate his belt of explosives 50 feet away from the voting 
line, saving the lives of countless Iraqis, but taking the life of this 
brave Iraqi policeman. This is one of several instances in which Iraqi 
police and soldiers gave their lives shielding Iraqi voters from 
suicide bombers and insurgents trying to penetrate the security rings 
around polling sites.
    The performance of Iraqi soldiers and police this past week is the 
most visible and tangible evidence of progress from our substantial 
investment in Iraqi security forces over the past year--and, in 
particular, over the past 6 months.

                         AN EPOCH-MAKING EVENT

    Although the final tally of votes will not be known for several 
days, it is already clear that Sunday's election in Iraq has been an 
epoch-making event. As President Bush noted, by successfully conducting 
free elections, Iraqi men and women have taken rightful control of 
their country's destiny, and have chosen a future of freedom and of 
peace. There is almost no precedent for this event in modem Arab 
history, where too often the voice of tyrants and terrorists has 
predominated. But on Sunday, the voice of liberty resounded from the 
center of the Middle East.
    As impressive as Sunday's election was, Iraq still faces a 
difficult road ahead to defeat the terrorist threat and achieve 
stability, much less freedom and democracy. Nevertheless, it is 
appropriate to take a moment to dwell on the breathtaking images we saw 
this past weekend, and the stories of Iraqi bravery and fortitude that 
have emerged from this election, because this election was not only a 
demonstration of the passion of the Iraqi people for the opportunity 
they have been given for self-government--although it was certainly 
that. It also had strategic significance in the ongoing war, because it 
was a demonstration of Iraqi bravery and also a statement of the 
``correlation of forces,'' a statement to both the old terrorists who 
used to run the country and the new terrorists like Zarqawi who have 
joined them to fight democracy that the overwhelming majority of the 
Iraqi people do not support them. That is the meaning of scenes like 
these:

        <bullet> Iraqis, some dressed in their finest clothes, could be 
        seen dancing and singing as they waited in line to vote. 
        Mohammed Nuhair Rubaie, the director of a polling station in 
        Baghdad's Sunni neighborhood of Tunis, said: ``It's like a 
        wedding. I swear to God, it's a wedding for all of Iraq. No one 
        has ever witnessed this before. For a half-century, no one has 
        seen anything like it.''
        <bullet> Crowds of Iraqis formed phalanxes to protect 
        themselves as they marched, almost parade-like, to the polling 
        centers. When a polling station closed in one Sunni town, 
        thousands of people lined the highway as they walked 13 miles 
        to Gazalia to vote for the first time in their lives.
        <bullet> Samir Hassan, who lost his leg in a Baghdad bombing in 
        October 2003, stated: ``I would have crawled here if I had to. 
        I don't want terrorists to kill other Iraqis like they tried to 
        kill me.'' In Sulaimaniah, a 94-year old woman was carried to a 
        voting center in a wheelbarrel by her son.
        <bullet> When a shortage of ink at some polling sites was 
        reported on Diyala Radio, callers said they would gladly use 
        their own blood on their thumb to seal their ballots.
        <bullet> The Mayor of Baghdad, Alla Al-Tamimi, said, ``I can't 
        believe my eyes. This is the greatest moment of our history. 
        This is the future of our children. . . People are voting for 
        women, for freedom, for no more violence against our family, 
        for tomorrow, for no more hunger . . . Iraqis are ready to 
        sacrifice their life for this moment!''

    Mayor al-Tamimi's statement is even more poignant considering the 
terrorists' threat to make the ``streets run with the blood of the 
voter.'' For this demonstration of Iraqi commitment to their new-found 
democracy took place in the face of a systematic campaign of terror and 
intimidation that is almost unimaginable to most Americans--including 
assassinations and beheadings of election workers, threats to the 
children. of candidates and threats to ordinary voters, not only at the 
polls but even in their homes afterwards. Americans--who are able to 
take for granted that our elections will take place in complete peace 
and security--can appreciate the significance of what Iraqi voters have 
just done.
    Indeed, some of the most remarkable stories from Sunday's election 
are about the courage of ordinary Iraqi voters. Brigadier General 
Carter Ham, the commander of coalition forces in Mosul, told me 
recently about two particularly impressive occurrences:

        <bullet> At one polling station in a Sunni Arab neighborhood in 
        Mosul, no one had voted by 9 a.m., 2 hours after the polls had 
        opened. But a crowd of several hundred people had gathered to 
        observe the polling place from a distance. Finally, an old 
        woman who appeared to be in her late sixties came forward 
        saying ``I've waited all my life for this opportunity,'' and 
        came forward to vote. The rest of the crowd followed shortly 
        behind her.
        <bullet> Another polling place in Mosul--also in a Sunni Arab 
        neighborhood came under enemy small arms fire and one of the 
        voters waiting in line was wounded. No doubt the enemy sniper 
        expected the other voters to run. Instead, they staved in line, 
        while crouching down, and shifted to provide cover for the 
        wounded voter while Iraqi soldiers evacuated him to a hospital.

    Forty-four Iraqis lost their lives while attempting to cast their 
ballots. By 1 p.m. Sunday, terrorists had launched a record seven 
suicide bombings in Baghdad. Despite this violence, Iraqis did not 
leave the lines they had waited all their lives for. To the contrary, 
the lines of voters at the polling centers grew steadily throughout the 
day.
    Before the election, there was concern that the purple-dye used to 
mark voters' fingers as a fraud-prevention measure would also make 
voters targets for terrorists. But rather than deterring people, these 
marks have become a ``purple badge of courage'' in even the most 
dangerous areas. In the Doura neighborhood, normally a haven for 
terrorist activity, one Sunni voter raised his forefinger and declared, 
``This is my badge of honor. No, I'm not keeping my hand in my 
pocket.'' Another Iraqi wrote, when ``I moved to mark my finger with 
ink, I dipped it deep as if I was poking the eyes of all the world's 
tyrants.''
    In addition to the remarkable bravery demonstrated by the Iraqi 
people on this historic day, we should also remember the hundreds of 
thousands of Iraqi victims of Baath Party rule who did not live to see 
this day. I do not have to recount for the members of this committee 
the extent of Saddam's brutality, and the degradations he imposed on a 
proud people. The haunting images of mass graves and of Halabja that we 
have all seen speak for themselves.
    After voting, one Iraqi, whose father was jailed and executed as 
part of the mass murders following the failed Shia uprising after 
Operation Desert Storm, said:

        ``My father helped bring this election today. This election is 
        the fruit of every drop of blood that was shed in 1991. I thank 
        my father. He had three sons who married. None of us had a 
        wedding party, out of respect for him. Today, we can celebrate. 
        Today, we will have a wedding party.''

    This election was made possible in part by the courage and 
sacrifice of countless Iraqis who died resisting Saddam and did not 
survive to see this day.

                            WHO THE ENEMY IS

    This election also helps to clarify without a doubt who the enemy 
is in Iraq. Our enemy in Iraq is not the Iraqi people. It is not a 
nationalist ``insurgency.'' It is an unholy alliance of ``old 
terrorists'' and ``new terrorists.'' The old terrorists are the ones 
who brutalized and tortured the country and murdered hundreds of 
thousands of their countrymen for 35 years. These secret security 
forces of the former regime are now allied with new terrorists drawn 
from across the region. Like their Baathist allies, these new 
terrorists are ideologically opposed to democracy and fearful of what 
the success of freedom in this important Arab country will mean for 
them. One month before the election Osama bin Laden declared that ``any 
Iraqi who takes part in this election consciously and willingly is an 
infidel.'' With this statement, Osama bin Laden made preventing the 
Iraqi election one of al Qaeda's highest priorities. Abu Musab al-
Zarqawi, bin Laden's appointed ``prince'' in Iraq, also denounced the 
election, stating: ``We have declared a fierce war on this evil 
principle of democracy and those who follow this wrong ideology. 
Democracy is . . . based on the right to choose your religion'' and 
that is ``against the rule of God.''
    Through their opposition to elections and democracy, the terrorists 
have demonstrated that they are not interested in winning the ``hearts 
and minds'' of the Iraqi people, but rather to simply intimidate them 
into submission. Unlike almost every other historical insurgency, they 
offer no positive agenda beyond their own pursuit of power, and they 
explicitly seek to deny Iraqis a voice in their future.
    This is why Iraqis refer to men such as Abed al Latif Homayen, a 
``religious advisor'' who before the fall of the regime received more 
than 2 billion Dinar from Saddam to recruit Iraqis for Jihad and then 
cravenly fled the country with the money, leaving his recruits behind, 
as terrorists, not insurgents. Yet the determination of the terrorists 
to disrupt the election was defeated by the overwhelming majority of 
Iraqis who want democracy to prevail. As one Iraqi woman told Major 
General John Batiste, Commander of the 1st Infantry Division, Iraqi 
votes are ``bullets to the hearts of the terrorists.'' Deputy President 
Ibrahim Ja'fari declared that ``Iraqi voters today have proven the 
strength of their votes is more powerful than the strength of 
bullets.'' Iraqis know who they are fighting, and they know they are 
fighting people who want to take them backwards to some new form of 
dictatorship as terrible as the one they have just been liberated from. 
Iraqi voters have demonstrated that the true nationalists are those who 
express themselves with ballots rather than with bombs.

                             THE WAY AHEAD

    As dramatic a moment as these elections were, this is not a time to 
sit on our hands congratulating ourselves, nor to declare victory and 
abandon a task that is only half accomplished. Although I find it hard 
to agree with people who say that the election was ``just the easy 
part,'' there is no question that there is still much hard work to be 
done--principally by the Iraqis, but also by those of us upon whom they 
still depend for support. While the election clearly demonstrated that 
the ``hearts and minds'' of the Iraqi people do not lie with the 
terrorists, no one should imagine for a moment that these would-be 
tyrants will quit as a result of Sunday's vote.
    The next few months are going to be particularly challenging, 
because, while this election will produce a National Assembly, that 
body will still face a formidable challenge to put together a 
government. It will have to do so in the face of a continuing war and a 
brutal enemy. Among the principal things we need to focus on the next 
period leading up to writing of a Constitution and two more votes 
before the end of the year are:

          1. Number one, I think, is to recognize that success in this 
        effort is going to require the integration of all elements of 
        both U.S. and Iraqi national power, as well as those of our 
        coalition partners. This is not a military effort alone, and 
        there must be equal and parallel efforts in governance and 
        infrastructure, economic development and strategic information. 
        Governance presents particularly important challenges, not only 
        in the writing of a Constitution but in establishing government 
        ministries that can function effectively and serve the 
        interests of the people, not their own personal agendas. The 
        entire international community has an interest in the success 
        of this effort.
          2. Second, many difficult compromises will have to be made 
        among. different Iraqi groups, on everything from fundamental 
        constitutional issues to practical questions involving the 
        sharing of power and resources. Iraqis will have to work out 
        these compromises themselves. That is a big part of what 
        democracy is really about. But the United States has enormous 
        influence in Iraq and we should use it--not to advance our own 
        agenda but to constantly remind Iraqis of the importance of 
        resolving these issues in ways that preserve national unity in 
        the face of a ruthless enemy.
          3. Third, on the military side, the key to victory clearly 
        lies in developing more and increasingly capable Iraqi security 
        forces. That effort has produced important successes so far, 
        and we need to figure out how to build on it and accelerate it.
          4. Fourth, we and the Iraqis need to attach high priority to 
        the development of an effective Iraqi legal and judicial 
        system--one that enforces the rule of law, that punishes the 
        guilty, that protects the rights of all citizens, and that 
        provides the equal justice under the law that is one of the key 
        hallmarks of democracy and is also so important for economic 
        development. Iraq's currently weak judicial system is not yet 
        able to punish lawbreakers effectively, even ones who are 
        guilty of the most serious crimes against the Iraqi people and 
        against coalition forces. Finding ways to protect judges from 
        intimidation needs to be a high priority. We also need to help 
        the Iraqi Government strengthen the tools of law enforcement, 
        everything from communications equipment to identification 
        systems for criminals and foreigners to forensic bomb analysis 
        capability.
          5. Finally we need to work with the Iraqi Government to keep 
        up pressure on neighboring countries, in particular Syria, to 
        stop the activities of Baathists and other terrorist supporters 
        working from outside Iraq and to stop the flow of foreign 
        fighters into the country. Some of Iraq's neighbors probably 
        fear a free Iraq, but they need to understand that it will be 
        much more harmful for them if they try to obstruct Iraq's 
        progress toward freedom.

    It is critically important to remember we are facing an enemy that 
is not only ruthless but adaptive and fiendishly clever; an enemy that 
obviously didn't give up just because the Baghdad was liberated, that 
didn't give up just because Saddam Hussein was captured and did not 
give up just because the interim government was stood up successfully 
on June 28. It's an enemy that will adapt and we need to be prepared 
for its adaptations and anticipate them and be ahead of them.
    The good news is that the enemy does not offer anything positive to 
the Iraqi people. It's not an enemy that can ever defeat our soldiers 
one for one on the battlefield. But it is an enemy that's shown itself 
to be horribly clever and viciously evil, with no respect for the laws 
of civilization or for the Iraqi people. Ultimately, it is the Iraqi 
people who will defeat it, with our continued help.

                         THE POLITICAL PROCESS

    In the coming days, after the votes are counted, the Transitional 
National Assembly (TNA) will form a new government and begin the ardous 
process of drafting a new Iraqi constitution. In October, this 
permanent constitution will be put to the Iraqi people for ratification 
through a popular referendum. In December, Iraqis will again return to 
the polls to elect a new, permanent government under the rules of that 
constitution.
    As Americans know well, democracy should not impose a ``winner-
take-all'' system on a nation. Successful democracy requires leaders to 
respect the rights of minorities and of those who did not vote for them 
and to attend to the aspirations and interests of all citizens. Many 
leading political figures in Iraq have already demonstrated both their 
commitment to respecting minority rights and that most crucial of 
democratic skills, compromise.
    This was evident in the drafting of an impressive document, the 
Transitional Administrative Law (TAL), sometimes described as Iraq's 
interim constitution. Many of the current candidates for the TNA were 
instrumental in the negotiation of the TAL--which lays out the 
framework in which the present political process is taking place--and 
which also contains important assurances of freedom of religion, 
expression, assembly, and of the press. The TAL guarantees equal rights 
for all citizens of Iraq regardless of ethnicity, denomination, or sex. 
The TAL is already the freest basic governance document in the Arab 
world, and gives promise that in the future, Iraq will not belong to 
one dictator, one clan, or one tribe.
    Recent statements by Iraqi leaders suggest they are strongly 
committed to ensuring that the TNA will represent the entire Iraqi 
nation, rather than a narrow sectarian or ethnic interest.

        <bullet> In a recent press interview, Supreme Council for 
        Islamic Revolution in Iraq (SCIRI) chief Abdul-Aziz al-Hakim 
        said that ``the National Assembly shall represent all Iraqi 
        strata, and we will make an all-out effort to this end. We will 
        defend the rights of our Sunni brothers just the same way we do 
        those of the Shiites.''
        <bullet> Mowaffak al-Rubaie, Iraq's former national security 
        adviser and a confidant of Grand Ayatollah Sistani, said, ``The 
        Shiites will form a majority, but there has to be a prominent 
        presence of Sunnis in the government. Now is the time for the 
        Shiites to exercise statesmanship.''
        <bullet> On Monday Interim Prime Minister Ayad Allawi noted, 
        ``The whole world is watching us. As we worked together 
        yesterday to finish dictatorship, let us work together towards 
        a bright future  Sunnis and Shiites, Muslims and Christians, 
        Arabs, Kurds, and Turkmen.''

    These statements are good indicators that Iraqis will be able to 
form a transitional government that will attend to the interests of all 
Iraqis, including the Sunni Arabs whose vote appears to have been 
suppressed somewhat by the severe intimidation they face in some 
provinces.

                         IRAQI SECURITY FORCES

    This election, in fact, is part of a larger 2-year process that, 
despite setbacks and tragedies, is still on track. The key to this 
process has been enabling Iraqis to emerge from the shadow of 
dictatorship and gradually become more self-reliant. Nowhere is this 
process more important than in the development of the Iraqi security 
forces.
    Last year we intercepted a letter from Zarqawi to his al Qaeda 
colleagues in Afghanistan, in which he warned of the dangers of the 
advent of Iraqi sovereignty, especially the creation of capable Iraqi 
security forces. He wrote:

        With the spread of the [Iraqi] Army and the police, our future 
        is becoming frightening. The problem is you end up having an 
        army and police connected by lineage, blood and appearance to 
        the people of the region. How can we kill their cousins and 
        sons . . . This is the democracy . . . we will have no pretext.

    The endeavor to create these forces has not been without setbacks 
and disappointments. Most significantly, barbaric acts of intimidation 
have targeted Iraqi soldiers and police--and their families--thinning 
the ranks of some units and rendering others ineffective. Since June 
2003, nearly 1,400 Iraqi soldiers and policemen have killed in the line 
of duty as they sought to defend their newfound freedom.
    Through it all, however, the coalition and the Iraqis have 
continued to press forward, modifying training programs, adapting 
operational constructs; and increasing equipment authorizations. Over 
time, we have achieved substantial progress in the effort to equip 
Iraqi forces, to reconstruct their infrastructure, and, most 
importantly, to develop Iraqi units--police, as well as Army--that will 
fight aggressively for their country. None of this has been easy, and I 
want to publicly recognize the Iraqis and coalition members who have 
been engaged in this critically important endeavor, particularly the 
advisors who helped train and then fought alongside Iraqi soldiers and 
police and who have, in some cases, shed blood with them as well in 
Najaf, Fallujah, Baghdad, Samarra, Mosul, and numerous other locations. 
Of course, the support of the United States Congress and this committee 
has been especially critical in helping to make this progress possible.
    This progress does not always translate into quantifiable measures 
such as number of personnel and equipment. There is understandable 
confusion when the total strength of the Iraqi security forces 
fluctuates dramatically due to the refinement of definitions or the 
reclassification of various categories of forces. An important example 
of this confusion occurred when the roughly 70,000 members of what had 
been called the Facilities Protection Service were devolved into their 
respective ministries, and out of the control the coalition command or 
the Ministries of Defense or Interior, resulting in what appeared to be 
a sudden drop in the total strength we were reporting for Iraqi 
security forces, from roughly 200,000 to roughly 130,000. However, that 
was really nothing more than an accounting change and the Facilities 
Protection Service continue to perform their functions, although as we 
have always emphasized their capability is largely limited to simple 
guard duty and they are not part of Multi-National Force Iraq's (MNF-I) 
training and equipping effort.
    More generally, we have repeatedly tried to caution against making 
too much of raw numbers, when there are large qualitative difference 
which are generally more important. The term ``trained and equipped'' 
when applied to Iraqi forces is not intended to be analogous to how we 
measure readiness in American military units. There are currently 
136,000 personnel listed as ``trained and equipped.'' These individuals 
have met the training and equipping criteria for their element of the 
police or military, and the growth in this number is a reflection of 
progress. But other intangible factors such as leadership, cohesion, 
and morale are even more important determinants of the capability of 
Iraqi units, and these factors are difficult to measure numerically.
    A better indicator of the progress of the Iraqi security forces 
than raw numbers of troops is how well these forces did on January 30. 
One impressive metric is the number of suicide bombers stopped at the 
outer security perimeter of the polling sites, which was 100 percent of 
a total of eight attempted attacks.
    Measurement is also complicated by the fact that there has been a 
consistent development of new kinds of units with different 
capabilities, such as the development of special Police Commando 
Battalions. These are among a number of different kinds of units that 
have the important capability to be deployable anywhere in the country, 
not just in their home area. Since Prime Minister Allawi took office 
last June, 44 deployable military and police battalions--and more than 
85 battalions overall--have been established. (The additional units 
include regionally-oriented Iraqi National Guard battalions that were 
recently incorporated into the Iraqi Army.)
    Deployable battalions can be moved anywhere in the country--and, in 
many cases, currently are deployed in the most challenging areas. On 
election day, for example, there were seven such battalions helping 
maintain security in Mosul, nine in Fallujah, three in Samarra, and at 
least seven in Baghdad. Smaller numbers were deployed at numerous other 
locations. Few of these battalions are fully manned, most will profit 
from the additional training they will receive as they go through the 
``train, fight, train'' cycle MNF-I is establishing, and none are yet 
capable of replacing coalition units on a one-for-one basis. However, 
they are contributing enormously already. Iraqi security forces lack 
many of the capabilities that our forces demonstrate so superbly. 
However, Iraqi forces bring to the fight skills that our soldiers will 
never possess, particularly their understandings of the languages and 
cultures of Iraq. They will contribute even more as we and Iraqi 
leaders continue their development, replace their losses, and help 
develop the higher headquarters, the combat support elements, and the 
logistical units and systems needed to support these units. All of that 
is planned.
    Much work clearly remains to be done. To help Iraq achieve full 
responsibility for its own security, we must intensify our efforts to 
assist Iraq in the organization, training, equipping, and mentoring of 
Iraqi security forces. We must continue to help rebuild Iraqi security 
force bases, training academies, border forts, and other facilities. We 
must assist in establishing robust institutions--institutions that can 
provide appropriate support, oversight, and direction to Iraq's 
military elements and police forces, and institutions that can gather 
and analyze the intelligence that is so important in counter-insurgency 
operations.
    A major component in this effort will be the substantially 
increased emphasis that General Casey, the MNF-I Commander, has 
directed be given to Iraqi security force development this year. 
Increasingly, Iraqis have the ``hardware'' force component of 
personnel, equipment, and infrastructure. Their. most important gaps 
are in the intangible components required of all successful military 
units: leadership, command and control, experience and unit cohesion. 
These intangibles will take time to develop and some of the most 
important development will take place on the job--in active military 
operations.
    The President and Secretary Rumsfeld are committed to providing the 
resources needed for this endeavor and the administration request for 
supplemental funding will include a substantial funding request for 
expansion of the Iraqi security force effort. We are counting on your 
support.
    In sum, we believe that considerable momentum has been achieved 
recently in the development of Iraqi security forces. However, much 
remains to be done as we help Iraq rebuild not only battalions, 
brigades, and divisions, but the institutions that support them and the 
ministries that direct them.
    This is an enormous endeavor, one that is historically 
unprecedented. It has encountered countless challenges and suffered 
numerous setbacks. In recent months, however, we have seen the results 
of the coalition's investment, most importantly in the performance of 
Iraqi units deployed to the hot spots in that country. We should be 
particularly heartened by the performance of Iraqi soldiers and police 
on January 30, when they courageously thwarted the enemy's concerted 
effort to deny the Iraqi people the tremendous opportunity that U.S. 
and other coalition forces have provided to them--the opportunity to 
vote for own representatives. Democracy is on the march in Iraq. This 
past Sunday, Iraq's own Army and police force helped to safeguard that 
march.
    Their performance was captured in an anecdote related by another 
Iraqi blogger named Ali on his Web site ``Iraqilibe'':

        As I left [the polling place] one of the guards said to me as 
        he handed me back my cellular phone, ``God bless you and your 
        beloved ones. We don't know how to thank you. Please excuse any 
        inconvenience on our part. We wish we didn't have to search you 
        or limit your freedom. You are heroes.'' I was struck with 
        surprise and felt ashamed. This man was risking his life all 
        these hours in what has become the utmost target for all 
        terrorists in Iraq and yet he's apologizing and calling us 
        heroes. I thanked him back and told him that he and his comrads 
        are the true heroes and that we can never be grateful enough 
        for their services. [misspellings in the original]

    Today, we all share his gratitude for the courage of the Iraqi 
forces, and for what our American service men and women have done to 
help Iraqis achieve this moment, and hopefully soon, many more like it.
    Thank you, I look forward to your questions.

    Chairman Warner. Thank you, Mr. Secretary. Again, I thank 
you for your long participation in this endeavor personally, 
professionally.
    General Myers.

 STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHIEF, JOINT CHIEFS 
                            OF STAFF

    General Myers. Thank you, Mr. Chairman and Senator Levin 
and members of the committee, for your continuing support of 
our men and women in uniform and for this opportunity to report 
on our progress in Iraq. After visiting our troops in Iraq many 
times, I can only imagine their great pride as our troops and 
their coalition partners witnessed the Iraqi people lining up 
at the polls, bravely and emphatically taking responsibility 
for their own future.
    Some Iraqis compared election day to a wedding or a 
birthday and, as you saw on the TV news footage, some carried 
their children with them to the polls. By voting these Iraqis 
were helping to chart their own future and the Iraqi that their 
children would inherit.
    The election was not without violence, as Secretary 
Wolfowitz said. One U.S. marine and a number of Iraqis gave 
their lives protecting this fledgling democracy on election 
day.
    Not every Iraqi chose to vote. Yet we have hope that many 
of them will see this election as a call to abandon the 
insurgency and join the political process, just as we saw with 
the Taliban in Afghanistan. In the days before the election, as 
Secretary Wolfowitz said, terrorist leader Zarqawi declared war 
against democracy. To Zarqawi, the Iraq people have said: We 
will not let you win.
    A senior U.S. Army officer serving in Baghdad commented on 
what he had witnessed on Sunday. His quote is: ``Voters paraded 
down the street, holding up their fingers, marked with the blue 
ink from the polls, in overwhelming pride. Every Iraqi I talked 
to said thank you for this opportunity, for this freedom. Today 
they earned their freedom.'' This lieutenant colonel went on to 
say: ``We should all be joyful for that.''
    Of course, we are, because the election was a very 
important milestone on a very long road. The Iraqi Government 
and the coalition, as Secretary Wolfowitz also said, still have 
much work to do. The coalition must focus our efforts on 
reaching the point where we can shift our mission from fighting 
the counterinsurgency ourselves to developing Iraqi capacity to 
conduct those operations and create an environment that 
encourages sustained political and economic progress.
    Since this last July, the coalition has accomplished a 
great deal in improving the quality of the Iraqi security 
forces on duty. Many of these forces are now much better 
trained and equipped, and if you look at their performance in 
Fallujah this past October and during the election you can see 
that.
    I believe we have also gained a better understanding of 
their capabilities. For them to be able to operate 
independently, they are going to need our continued help to 
build their leadership, command and control, and intelligence 
capabilities at all levels.
    I would also like to reemphasize that security means more 
than just physical security. Iraqis need help building the 
Iraqi economy and industrial base to create jobs and incomes 
sufficient to support local and State government services for 
individuals and families. They must be able to provide for 
their social welfare, ensuring educational opportunities, 
adequate wages, health care, and other safety net programs are 
available to ensure the population has basic human services. 
All Iraqis must be able to participate in government without 
fear of intimidation. They need a mature judicial system and 
confidence in the government's ability to maintain the rule of 
law.
    Since the transition to Iraqi sovereignty last June, the 
Iraqi Government has 26 ministries working to provide services 
to the country along with governments at the regional and local 
level. But these organizations have a very tough task because 
Saddam Hussein's regime sapped the Iraqi people of their spirit 
and tried to render them totally dependent. Saddam's government 
left behind a decayed infrastructure and no tradition of caring 
for the needs of the population. The Iraqi Government needs our 
continued support and mentorship as well.
    So we must stay focused and we must not waver in our 
resolve. The Iraqi people and the Iraqi security forces showed 
their resolve on Sunday, as did the coalition. We are grateful 
for the support of the American people and that support must 
continue.
    Now is the time for the entire international community to 
show its resolve in the war on terrorism. As I have said 
before, this war is ultimately a test of wills, and the Iraqis 
certainly passed that test on Sunday. So right now there is an 
enormous upsurge of hope and enthusiasm, but the situation in 
Iraq certainly remains dynamic.
    I firmly believe we have the right strategy for 
capitalizing on this recent success and helping build a new 
Iraq, democratic, at peace with its neighbors, and 
representative of all its people. I am extremely proud of how 
well our military has performed, especially their flexibility 
and their adaptability in dealing with a difficult enemy. I am 
proud of their ability to cooperate with the Iraqi Government 
and its citizens. I am proud of their courage and am equally 
proud of their compassion under some very challenging 
conditions.
    So on behalf of all the Joint Chiefs, I express my 
condolences for all the American, coalition, and Iraqi men and 
women and their loved ones who have either been killed or 
wounded in this very noble endeavor. Because of their 
sacrifices, 25 million Iraqis have the chance to build a new 
democracy.
    I thank you for your continued support and look forward to 
your questions.
    Chairman Warner. Thank you very much, General. All of us 
here on the committee share the sentiment you have expressed. 
These elections would not have taken place had it not been for 
the steadfast commitment of the Coalition Forces and the 
sacrifices that they took, and then in the final round they 
fought really side by side with their Iraqi military partners 
and it is a partnership which we have henceforth that will make 
this successful.
    Mr. Schlicher, do you have an opening statement?

STATEMENT OF RONALD L. SCHLICHER, DEPUTY ASSISTANT SECRETARY OF 
                  STATE, COORDINATOR FOR IRAQ

    Mr. Schlicher. Yes, sir, I do have some brief opening 
remarks.
    Chairman Warner. All right, let us have your brief opening 
remarks.
    Mr. Schlicher. Mr. Chairman, Senator Levin, members of the 
committee: I thank all of you for the opportunity to come and 
appear before you today to discuss the progress that we have 
seen in Iraq as the Iraqis lay the foundations of the 
democratic government that they have so clearly shown us that 
they are determined to achieve.
    With your permission, I will make a few brief remarks and 
submit my complete statement for the record. Please let me 
remind, as the chairman noted at the beginning, that, though my 
remarks are about Iraq, we also have with us today Ambassador 
Maureen Quinn, the Afghan Coordinator in the Department of 
State, who is available to answer any questions about 
Afghanistan that the committee might have.
    Please let me amplify and echo some of the themes that 
Secretary Wolfowitz so eloquently laid out earlier. Earlier 
this week, we saw enormously brave Iraqi men and women defy 
threats and bombs, lining up in their streets, walking to cast 
their votes in Iraq's first genuine election in a generation. 
Even as we speak, independent Iraqi election officials are 
counting those votes and Iraqi political leaders, anticipating 
the results, are debating the shapes of possible alliances to 
best represent their constituencies and the interests of their 
entire nation. Iraqi voters meanwhile are celebrating the 
opportunity to shape their own future.
    As Secretary Wolfowitz noted, the bravery of the millions 
of Iraqi voters has really been remarkable. Terrorists 
threatened, kidnapped, and killed candidates, killed election 
officials, killed security forces, killed potential voters, and 
intimidated many thousands, perhaps millions, of other voters. 
Some Iraqis unfortunately as a result of this intimidation 
chose to stay home, some out of fear, but there are also those 
who chose to stay home out of alienation and perceived 
disenfranchisement.
    We hope and expect that the new government, when it is 
formed, will reach out to all Iraqis to ensure that the voice 
of all elements in Iraq are heard in the continuing development 
of the democratic process. This subject principally alludes, of 
course, to the question of Sunni inclusion. We, like Secretary 
Wolfowitz, have noted the many public statements and we have 
also heard private statements in which all elements of the 
political class in Iraq right now are determined that the 
approach to the upcoming political processes that they have be 
inclusive and include all members of society. We certainly do 
applaud that intention on their part.
    But in the face of violence, of threats, millions of Iraqis 
did go to the polls. They cast their secret ballots in 
accordance with their personal convictions. You may have seen 
on TV this very illustrative scene of an Iraqi official holding 
up the ballot for this election on Sunday with 111 choices and 
a ballot from the last so-called election of the Saddam era 
where there was one choice. I think that kind of said it all, 
especially if you are an Iraqi.
    It is also really important to note the enormous numbers of 
Iraqi women who came forward to vote for their freedom. After 
the election, people celebrated, not for the victory of any 
particular party because the results are not yet known; 
instead, they celebrated democracy.
    Mr. Chairman, if you would allow me a personal comment at 
this point, as someone who spent the last quarter century 
working in this part of the world and I think understands the 
yearnings of average people there pretty well, I have to say 
this was a deeply, profoundly moving moment, and I feel very 
proud to have been a small part of it.
    While nothing should dim the glory of the election day, we 
should recognize that the election process was still new to 
Iraqis, so there are certain aspects in which it was not 
perfect. There have been a few reports of logistical problems, 
of voting irregularities, of some communities, villages, that 
did not have the opportunity to vote. The Independent Electoral 
Commission of Iraq (IECI), which is the same body that has done 
so well in managing the logistics of Sunday's election, they 
are charged with administering and addressing all of these 
complaints, and we think that they will do so. We will be 
watching and encouraging them to do so, and we think it is 
really important that they do so in a transparent process, 
especially a process that is transparent to all Iraqis, and if 
there are glitches that were the result of logistical problems, 
to explain those glitches to the people. If there is some case 
where an election official did not do what he or she should 
have done, the commission should point that out to the people 
as well.
    At the same time, in the wake of the election all Iraqis 
can be pleased with the report of the International Mission for 
Iraqi Elections. That is the international mission that was 
established to observe the elections. They found that the IECI 
prepared and put in place a framework for an election that 
generally meets recognized standards in terms of the election 
law, of planning, and of preparations.
    We think that the Iraqi people likewise can be pleased by 
the courage and professionalism displayed by the Iraqi security 
forces and police, which Secretary Wolfowitz and General Myers 
have also mentioned. This played an essential role in 
safeguarding the elections and preventing their disruption by 
the practitioners of terror.
    Now, without question and again as my colleagues have 
pointed out very clearly today, the Iraqi people still have a 
long struggle ahead. But we are determined to stand resolutely 
beside them. The sacrifices of Multi-National Forces-Iraq (MNF-
I) to assure security and assist with logistics and the 
tireless work of the American civilian and military personnel 
have helped make this great day possible for the Iraqis. In 
this regard, Mr. Chairman, please allow me to salute the 
incredible job that Ambassador John Negroponte and his team at 
the embassy in Baghdad and at the embassy offices throughout 
Iraq have also done in this regard.
    We also salute the United Nations (U.N.) Election 
Assistance Division, which did really an heroic job of working 
with the IECI to actually make the elections possible in the 
face of all of the problems of security, of logistics, of 
organization that they have faced. We look forward to continued 
U.N. involvement in Iraq in support of the subject matter and 
in the manners that the Iraqi Government may request of them.
    Sir, the elections as I judge it will have a longer-term 
effect on security as well. The elections can help to convince 
those who have been sitting on the fence that an elected 
legitimate government of Iraq is empowered and is here to stay, 
that it is receiving support from Iraqis of all ethnicities, 
all religions, and from all provinces. In the end, I hope it 
will convince them that the solution to their problems lies 
within the political process and not with the ranks of those 
who practice terror and seek to disenfranchise their fellow 
citizens via that terror.
    By voting, millions of Iraqis have told the insurgents that 
they are not wanted, that their agenda is not accepted, that 
their way is not legitimate, that their way is not 
representative of the people of Iraq. The Iraqis have decided 
that security and the freedom to choose are what are important 
to them.
    Our continued commitment will be necessary to help the 
Iraqi people rebuild their country. They need and deserve to 
see the quality of their daily lives improve. Hand in hand with 
increased security, Iraqis want dependable electricity and 
water and medical care, all of which the practitioners of 
terror have also been trying to deprive them of over the last 
months.
    Closely coordinated with the Iraqi Government, our 
reconstruction efforts have made progress in restoring central 
services, in expanding the availability of quality medical 
assistance, in rehabilitating public buildings and roads, in 
advising the government on economic and financial reforms, and 
in introducing Iraqis at all levels to the basics of democratic 
practice and the rule of law.
    [The prepared statement of Mr. Schlicher follows:]

               Prepared Statement by Ronald L. Schlicher

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to discuss developments in Iraq 
and the progress of the Iraqi people as they rebuild their country and 
lay the foundations of a democratic government. Earlier this week, we 
saw brave Iraqi men and women defying threats and bombs, lining up in 
the streets to cast their votes in Iraq's first genuine election in 
generations. Even as we speak, independent Iraqi elections officials 
are counting those votes, and Iraqi political leaders are debating the 
shape of possible alliances to best represent their constituencies and 
the interests of their nation. Iraqi voters are celebrating the 
opportunity to shape their own future.
    But some Iraqis did not survive the election. Terrorists 
threatened, kidnapped, and killed candidates, elections officials, 
security forces, and voters. Some Iraqis, unfortunately, chose to stay 
home--some out of fear, and others out of alienation and 
disenchantment. We firmly hope that the new government will reach out 
to all Iraqis to ensure that the voice of all is heard in the 
continuing development of the democratic process.
    But in the face of violence, threats, and intimidation, millions of 
Iraqis did go to the polls. They cast their secret ballots in 
accordance with their personal convictions. Women came forward to vote 
for their freedom. Afterward, many people celebrated--not the victory 
of any particular party, because indeed the results of the election are 
still unknown. They celebrated democracy. In some parts of the country, 
people danced and sang in the streets, while in other areas there was a 
quiet pride and determination to defy those who would deny Iraqis a 
democratic future; to go out and vote and move Iraq one giant step 
forward from its authoritarian past. Some Iraqis brought their children 
to the polls to teach them the value of freedom, and afterward many of 
those children went out to play in streets that during Saddam's rule 
were filled with fear and despair.
    The election process was not perfect. We have heard reports of 
logistical problems, voting irregularities, and communities that did 
not have an opportunity to vote. In a process of this magnitude, 
carried out in this short timeframe, under such challenging security 
conditions, these kinds of problems were expected. The Independent 
Electoral Commission of Iraq (IECI), charged with administering the 
elections from top to bottom, is also charged with hearing and 
resolving all challenges and complaints to the electoral process.
    Meanwhile all Iraqis should be pleased with the preliminary report 
of the International Mission for Iraqi Elections--the international 
mission established to observe the elections--which found that ``Iraq's 
Electoral Commission has prepared and put in place a framework for an 
election that generally meets recognized standards in terms of election 
law, planning, and preparations.'' They can be pleased by the courage 
and professionalism demonstrated by Iraqi security forces and police 
which played an essential role in safeguarding the elections and 
preventing their disruption by the insurgents and terrorists.
    Without question, the Iraqi people still have a long struggle 
ahead. But we will stand resolutely beside them. The sacrifices of the 
Multi-National Forces-Iraq (MNF-I) to ensure security and assist with 
logistics, the tireless work of American civilian and military 
personnel--including, if I may be excused some pride, the tremendous 
job done by Ambassador Negroponte and his dedicated staff at the 
Embassy in Baghdad and Embassy offices throughout Iraq--and the 
contributions of the international community helped make their great 
day possible. As called for in United Nations (U.N.) Security Council 
resolution 1546, the U.N. provided critical assistance to the IECI. We 
look forward to continued U.N. involvement in Iraq's political 
transition.
    Mr. Chairman, I would like to describe our understanding of the 
next steps of the political process, according to the Transitional 
Administrative Law (TAL) and the regulations of the IECI. In most 
areas, voters participated in two elections simultaneously--the 
National election and their respective provincial election. In 
addition, voters in the Kurdish areas in northeastern Iraq participated 
in an election for the Kurdistan Regional Government. Immediately after 
the close of polls, election workers at each poll began to count the 
ballots. When they were tallied, those results were secured and 
physically transported to the IECI national headquarters in Baghdad for 
tabulation.
    Once the IECI has received and tabulated all of the results from 
the more than 5,000 polling stations around Iraq, it will begin to 
calculate the allocation of seats to the respective assemblies--the 
275-seat Transitional National Assembly (TNA), the 18 provincial 
assemblies, and the Kurdistan Regional Government. The IECI has stated 
that it expects to announce the progress of the tally periodically; its 
target for final results is February 15. Meanwhile, we understand that 
political parties have already begun negotiating the shape of the 
coming government, on a speculative basis, as they await the election 
results.
    Once the allocations of seats are announced, we expect that the TNA 
will convene. The Assembly's first responsibility is to elect its own 
leadership and adopt internal rules. It will then select, by a two-
thirds majority vote, the three-member Transitional Government 
Presidency Council, consisting of the President of the State and two 
Deputy Presidents, on a single slate.
    Under the TAL, the three members of the Presidency Council are 
required to unanimously name a Prime Minister within 2 weeks. If the 
Presidency Council fails to name a Prime Minister within 2 weeks, the 
responsibility moves to the TNA, which in this instance must confirm a 
nomination by a two-thirds majority.
    The Prime Minister then has up to 1 month in which to name a 
Council of Ministers. If the Prime Minister is unable to nominate a 
Council of Ministers within 1 month, the Presidency Council shall name 
another Prime Minister.
    The Prime Minister and Council of Ministers must then be approved 
by a simple majority vote of the TNA before commencing their work as a 
government. The current Iraqi Interim Government Prime Minister and 
Council of Ministers will remain in place until their replacements are 
confirmed. Upon confirmation by the TNA, the new Prime Minister and 
Council of Ministers will assume power.
    The new transitional government will govern for only a limited 
period of time. Its primary task will be drafting a new constitution, 
which, according to the TAL timeline, is to be completed by August 15 
and put before Iraqi voters in a referendum not later than October 15. 
If Iraqi voters approve the constitution, they will vote again 
according to its precepts for a permanent government by the end of this 
year.
    We believe that the development of the political process will 
encourage all Iraqis to put faith in their elected officials as they 
continue to work with MNF-I forces to improve security. The key to U.S. 
force reduction in Iraqi is improving the readiness and training of the 
Iraqi security forces; our goal remains doing all we can to facilitate 
Iraqis becoming responsible for their own security in all its aspects. 
An essential part of this effort, in addition to training, will be the 
dedication, patriotism, and courage of the Iraqi security forces and 
their leadership, whose members step forward--as they did on election 
day--in defense of their country to overcome the terrorism, threats, 
and intimidation directed against them and their families.
    We have seen a steady increase in capability as measured by success 
in fighting on the ground. Iraqi forces had limited success in the 
fighting last April. But since then, they have done steadily better in 
the disarming of the Sadr militia in August and the fighting in 
Fallujah in November. Most recently, security forces displayed 
vigilance and preparedness in providing security for the elections.
    My colleagues from the Department of Defense are here today to 
address how we are training the soldiers, and how we are inculcating 
leadership skills, including through promising experiments with 
advisory teams. I would like to make two points to add to their 
remarks:
    First, this is an area in which international engagement is 
necessary and has been forthcoming. On the military side, the North 
Atlantic Treaty Organization (NATO) has begun its training mission, 
which will be specializing in officer and staff training. NATO training 
will expand rapidly as its instructors arrive on the ground in Iraq. 
Jordan has offered to host some NATO training, and Norway has already 
hosted a course for senior officers. Other countries are also pitching 
in, including Egypt, which has trained several hundred soldiers.
    On the police side, we have police liaison officers from a number 
of countries helping with on-the-ground mentoring in Iraq. Again, we 
should recognize the contribution of Jordan, which has helped us set up 
the International Police Training Center near Amman. Germany has 
trained 400 police in the United Arab Emirates, and France has offered 
out-of-country training to up to 1,500.
    Second, security can only move forward in tandem with the political 
process. Soldiers will fight only if they have something to fight for. 
In this regard, I would like to highlight the successful cooperation 
between the Iraqi security forces and the IECI, a partnership that 
further demonstrated that Iraqi forces will fight for responsible Iraqi 
political leadership and defend the Iraqi public against aggression.
    Mr. Chairman, the security situation in Iraq is still difficult. 
There are still thousands of insurgents, loose weapons, and explosives 
are still easily obtained, and terrorists are still able to assassinate 
and kill. We have seen no diminution in the number of incidents.
    But the elections will, I believe, have a longer-term effect on 
security. They can help to convince those who are sitting on the fence 
that an elected, legitimate government of Iraq is empowered and here to 
stay, that it is receiving support from Iraqis of all ethnicities, 
religions, and provinces; and that, in the end, the solution to their 
problems lies within the political process, and not with the ranks of 
the insurgents. By voting, millions of Iraqis have told the insurgents 
they are not wanted. The Iraqis have decided that security and the 
freedom to choose are what is important to them. We hope that those 
Iraqis who have heretofore been undecided will take heart from the 
courage and democratic yearnings of their fellow citizens, and make the 
environment much tougher for insurgents to operate in.
    Engaging the population in the political process--especially in the 
process of drafting the new Iraqi constitution--is a key to changing 
the security environment for the better. As the Iraqi Transitional 
Government gains the trust of Iraqis, Iraqis will make the country less 
hospitable to the insurgents. This will take time, patience--and 
commitment.
    It will also require our continued commitment to help the Iraqi 
people rebuild their country. Iraqis need and deserve to see the 
quality of their daily lives improved. Hand in hand with increased 
security, Iraqis want dependable electricity and water and medical 
care. Closely coordinated with the Iraqi Government, our reconstruction 
efforts have made progress in restoring essential services, expanding 
the availability of quality medical assistance, rehabilitating public 
buildings and roads, advising the government on economic and financial 
reforms, and introducing Iraqis at all levels to the basics of 
democratic practice and rule of law.
    Most of this work occurs out of the media spotlight. It is easy to 
overlook the progress when compared to the monumental challenges that 
remain in a country so devastated by decades of conflict and Saddam's 
neglect. But despite the continuing hardships of their daily lives, 
Iraqis know and appreciate what donors are doing to help accelerate 
reconstruction and promote economic and political reform. The election 
demonstrates the importance of programs to promote democracy and re-
forge the links of civil society.
    Despite the formidable security challenges, we have now obligated 
$13 billion (or 62 percent) of the $20.9 billion in Iraq Relief and 
Reconstruction I and II funds. We have disbursed over $4.7 billion, or 
22 percent of the total. We continue to adapt our programs to 
circumstances on the ground in order to ensure that funding is 
available for the most urgent needs. We appreciate the support from 
Congress we have in all these efforts, including recent efforts to 
reallocate Iraq reconstruction resources.
    As we enter this post-election period, our reconstruction efforts 
will be focused on assisting the Iraqi Transitional Government to 
improve security, create jobs, develop economic policy and regulatory 
frameworks, and expand private enterprise. Establishing momentum toward 
longer-term stability will help improve the climate for other donors 
and private investors to join the reconstruction and economic 
development effort, stimulate economic growth, and enable the Iraqis to 
progressively assume a greater role internationally.
    Let me be clear: I think Iraqis are anxious to take on that role. 
In fact, they have already begun to speak loudly and proudly on the 
international stage. As President Bush said on the day of the 
elections, ``The people of Iraq have spoken to the world, and the world 
is hearing the voice of freedom from the center of the Middle East.''
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to testify about our progress in Iraq. I look forward to 
answering any questions you may have.

    Chairman Warner. Mr. Schlicher, we are going to have to get 
to the questioning now.
    Mr. Schlicher. Yes, sir.
    Chairman Warner. I am going to put your full statement in, 
and I am glad that you acknowledge, as we do, the very valuable 
work done by our diplomatic corps under Ambassador Negroponte 
and the many who serve with him in civilian capacities.
    Mr. Schlicher. Thank you, sir. I will pass that on.
    Chairman Warner. Thank you very much.
    We are going to move quickly into a first round, gentlemen, 
and we hope to have a second round. General, I would like to 
start with you. The President last night made these remarks 
which bear directly on the future of the employment of our 
military forces. I paraphrase him: Our strategy is adapting to 
circumstances. So my first question would be, what visible 
changes have there been in strategy and the manner in which we 
coordinate our responsibilities with the growing, presumably, 
professional capabilities of the Iraqi security forces?
    The President continued: We will not set an artificial 
timetable. I thoroughly agree with him on that and I would like 
to have your views on that.
    Lastly, the President said: We are in Iraq to achieve a 
result--a country that is democratic, representative of all of 
its people, at peace with its neighbors, and able to defend 
itself. When that result is achieved, our men and women serving 
in Iraq will return home with the honor they have earned.
    Can you expound on those very wise remarks by our President 
last night in the State of the Union Address?
    General Myers. Mr. Chairman, I will. I think one of the 
things that most Americans ought to be proudest of is how U.S. 
and coalition forces have adapted in Iraq, starting with major 
combat. But as major combat ended, the Coalition Provisional 
Authority (CPA) was stood up, and that gave way to the current 
Iraqi Government, which will give way now to a new government.
    Over that time frame also we had a change in the opposition 
and the insurgency built up slowly over the first year and 
became very intense over the last 6 months for sure. So we have 
adapted all the way along. Secretary Wolfowitz talked about 
part of that adaptation as we tried to categorize the sort of 
Iraqi security forces that were there to help provide for their 
own security. Initially we tracked those that were on the 
payroll and realized very quickly that was not sufficient. Then 
we tracked those that were trained and decided later on that, 
no, it is not just training; it is training and equipping, and 
we have to move--one of the adaptations you will see is we are 
going to have to move--and I think Senator Levin mentioned this 
in his opening remarks--we are going to have to move to a way 
where we can start tracking the capability.
    This is not easy. We have spent a lot of decades trying to 
perfect a way to track our true U.S. military capability, and 
you have to realize in that country without a robust Ministry 
of Defense, without a robust Ministry of Interior, without the 
sort of reporting and communications abilities that we have, 
this will be difficult. But I talked to General Petraeus today 
and that is certainly one of the adaptations where we have to 
go.
    The other thing, I think yesterday in your briefing with 
General Sharp and others we talked about, and in my opening 
statement while we focused on fighting the insurgency, we need 
to now focus on helping the Iraqis become self-reliant in their 
own security capability. So you will see some changes in how we 
do that in some of our emphasis, some of our focus.
    That is going to have to occur over time. That is why I 
think setting time lines--this ought to be conditions-based, 
not timelines-based, and that is what we have said all along. I 
hope that we will have support to do that. Certainly that is 
the President's intention and that is the order we are marching 
to.
    If you will put up that first slide on the mission.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    This is the mission that we have been using and it is in 
our national strategy, not just military strategy. This is the 
U.S. mission statement. I think it goes right along with what 
we heard last night in the State of the Union message and what 
we have been marching to. But that is our mission. That is in 
the first few pages of our national strategy.
    Chairman Warner. Can you give us a few specifics? For 
example, we have received, obviously, through some of our 
sources the recommendations of General Luck, and I fully 
understand that Generals Abizaid and Casey are working through 
that and through the Secretary of Defense and his staff and 
yourself you will give us more specifics. But generally, we are 
looking at the option of including relatively small numbers of 
our forces into the Iraqi units. You might call it embedding. 
That is a term the American people understand now because of 
the courage of the journalists actually working with them. This 
is on a daily basis. They are actually 24 hours a day, 7 days a 
week right with that unit, doing some training, coordinating, 
and the like.
    Can you expound on that. To me, that is a very important 
change in our basic tactics.
    General Myers. We have already instituted some assistance, 
training support, where we essentially do what you just said, 
Mr. Chairman, and that is to embed trainers with Iraqi units. 
Of course, our forces, while fighting the insurgency, have also 
trained the National Guard Forces, who in many cases work right 
along side our forces.
    So this is just an extension of that, realizing that when 
you talk about capability with the Iraqi security forces it is 
a function of several things. It is certainly a function of 
leadership. It is a function of motivation. It is a function of 
training, experience, and the infrastructure they have to 
operate. It is a function of the equipment they have.
    One of the things, of course, we do well is we can help 
them in many of these areas in terms of mentorship. We can also 
bring them real capability. We often throw around the term, 
which is another acronym, but ``C\4\I,'' which is command, 
control, communications, computers, and intelligence. If you 
think about it in terms of Iraqi forces, command and control, 
we can help with that because we bring the next ``C'', which is 
communications. We can help with moving----
    Chairman Warner. Let me just finish up. In summary then, in 
every way we are recognizing the growing competence of the 
Iraqi forces and enabling them to go into positions and 
missions which formerly were performed by our forces; am I 
correct in that?
    General Myers. Well, obviously the goal is that, to get 
them to take over.
    Chairman Warner. They certainly exhibited that on election 
day. That gave them a tremendous sense of confidence. I would 
hope that momentum--as a matter of fact, am I mistaken, some 
2,000 or 3,000 Iraqis have volunteered in the last 72 hours to 
join their military forces? That is a clear manifestation.
    General Myers. Yes, sir. General Petraeus said in the last 
2 days that there have been 2,500 people on each day trying to 
sign up----
    Chairman Warner. On each day?
    General Myers. On each day, trying to sign up.
    Chairman Warner. Well, that is a strong sign. Thank you.
    General Myers. Yes, they have been empowered.
    Chairman Warner. Mr. Secretary, the coming government as it 
begins to take charge, what changes in terms of their 
relationship with the direction and the operation of our troops 
do you anticipate, and will there be a new status of forces 
agreement to give adequate protection to our troops and its 
missions?
    Secretary Wolfowitz. If I could preface that, Mr. Chairman, 
by responding to your question about the changes in strategy 
the President referred to. I think it is important to help 
people understand that we have adapted to circumstances as we 
find them on the ground. I think the most significant change 
was what we saw in the elections on Sunday, because, as you 
recall, Ambassador Bremer's original plan was to keep the CPA 
in operation as an occupation authority until the end of this 
year. When it became clear in the summer of 2003 that that was 
not a satisfactory way to go forward, first we talked about a 
transfer of sovereignty to an appointed government. When the 
Iraqi reaction was, well, wait a minute, particularly from 
Sistani in particular, but I think more broadly, we would like 
an elected government, we came up with the plan that the 
President announced in I believe it was in the fall of 2003, 
which has produced first the interim government on June 28 and 
now this election.
    We need to be prepared to adapt further. As you correctly 
point out, we are going to have what is called a transitional 
government, which will be elected, which now has authority 
under the U.N. resolution that the previous government did not 
have, to negotiate a status of forces agreement, a security 
agreement. You can call it different things, but it is the 
arrangement under which coalition forces will continue to 
operate in Iraq.
    Also, as we have said over and over again, if they want us 
to leave they have the authority to ask us to leave.
    Chairman Warner. Yes. Very clearly both the President and 
the Prime Minister said unequivocally that for the time being 
it is essential that these coalition forces remain in place.
    Secretary Wolfowitz. I think that is clear.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    We have been given a sheet of paper I guess that comes from 
the Department of State, but which carries the estimate that we 
had as of January 19, 125,373 trained on-hand Iraqi security 
forces. General, I would like to ask you the first question. 
Approximately how many of these Iraqi security forces are would 
you say fully-trained and equipped and capable and ready to 
neutralize insurgents? Give us an estimate. Is it half? Is it 
two-thirds? Is it one-third?
    General Myers. Let me put up that other chart, on the train 
and equip. We will just put the chart up. I think it uses the 
same numbers, Senator Levin, that you have, so everybody can 
see them.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    A couple of things about the numbers. These are, as you 
correctly said, these are trained and equipped. So in some 
cases those numbers are folks that have been trained and 
equipped a while back and have great capabilities. In other 
cases they are just fresh out of training. I might add, though, 
the training has very high standards and it is also tailored to 
the specific units, because, as you have seen before, there are 
several different types of police units, there are several 
different types of Iraqi Army units and Navy and Air Force 
units buried in those numbers. So it is complex.
    You will also notice that for the Ministry of Defense we 
think we are counting the actual numbers that are on duty. In 
the Ministry of Interior we have a lot less confidence that our 
numbers include those that may be absent from their duty 
station. The reporting there, the Ministry of Interior just put 
out a new policy where they are going to issue new ID cards and 
do a complete accounting of their forces.
    Of those numbers, Senator, you cannot give one number. Of 
those numbers that are deployable around the nation to meet the 
most pressing needs, General Petraeus says 48 battalions, which 
is about--and that is police and Ministry of Defense 
battalions, and that is about 40,000 that can go anywhere in 
the country and take on almost any threat.
    It does not mean the rest of them are not useful, because 
in many parts of the country all you need are police on duty, 
and police on duty in the southern part of the country are very 
useful doing police duties down there. So that is what I 
mentioned earlier when I was trying to answer Chairman Warner's 
question, is that we have to devise better ways to track their 
overall capacity, and that is one of the things we are going to 
do.
    Senator Levin. Would you be able to give us an estimate as 
to what percentage, just an estimate, of the 136,000 are in my 
description fully-trained and equipped, capable and ready to 
neutralize the insurgents? Would you give us a percentage, a 
rough estimate? Half, two-thirds, one-third?
    General Myers. I think what I just said was that there are 
48 deployable units around the country, which equals about 
40,000 men, which is the number that can go anywhere and do 
anything. No, I cannot give you an estimate because that 
capacity and capability is building every day and it varies 
widely, as I just tried to describe. So it is difficult to do 
that.
    It is, by the way, as we try to describe our own forces, 
you may remember there have been times when a U.S. Army 
division will come back from combat and they will go from 
reporting C-1, which is our highest level of readiness, to 
reporting C-3, and people ask the question: Well, wait a 
minute; they just came out of combat; are they not exquisitely 
trained and prepared and motivated? The answer is, yes, but 
then they come back and they take leave and they do other 
things.
    So we even have a harder time describing in these numbers 
because we do not have the exquisite system yet to do that. It 
is not just our system. It is a system the Iraqis have to 
devise with their Ministry of Defense and their Ministry of 
Interior.
    Secretary Wolfowitz. Senator Levin----
    Senator Levin. I am going to run out of time here.
    If I could just ask you about that specific number. 
Yesterday we were given a chart which says ``Department of 
State,'' which had a total of 130,000, but did not break down 
the components by number. We were told that that was 
classified. But now today you are giving us apparently 
unclassified numbers for police. I am very glad. I was going to 
raise havoc here this morning with the Department of State for 
giving us just a total without a breakdown of the components 
and I was going to ask them whether or not this represents a 
new approach of not giving us the breakdown component by 
component.
    But I gather from the fact that you have given us a January 
31, 2005, listing of components with numbers, General, that 
that is going to continue to be an unclassified approach. Is 
that fair to say?
    General Myers. Yes, sir. Yes, Senator.
    Senator Levin. Now, General, could you give us an estimate 
as to how many insurgents there are? Here is the reason I ask 
you that question: General Casey, who is the MNF-I Commander, 
said just last week that Coalition Forces had killed or 
captured about 15,000 suspected insurgents last year. He went 
on to say that this means that the previous U.S. estimates of 
an insurgent force of 6 to 9,000 fighters were clearly 
inaccurate.
    In response to a question, he stated that he thought that a 
recent estimate by Iraq's intelligence chief that the 
insurgency numbered as many as 40,000 hardcore fighters or--
excuse me--or 200,000 when part-time combatants and 
sympathizers were included, was too high an estimate. That is 
what General Casey said last week.
    Could you give us an estimate of the number of insurgents 
that we are facing, both hardcore fighters and then that second 
figure that was used by the Iraq intelligence chief of part-
time combatants and sympathizers, just a rough estimate?
    General Myers. Sir, I will have to do that for the record, 
if we can get that from the Intelligence Community. We do not 
have the insight into those numbers in most cases to provide a 
good estimate that would be a fair thing to throw in front of 
the committee right now.
    What I can say is that there is a good intelligence report 
out just recently by the Central Intelligence Agency (CIA) that 
details an individual and what motivated this individual to 
participate in the insurgency. As General Luck stated when he 
came back--and we have described the threat I think very 
accurately several times in front of the committee in closed 
session. So we know the elements of the threat very well. But 
to put numbers, accurate numbers, against them, because there 
are so many fence-sitters--and fence-sitters can be very 
dangerous. They can have an occupation by day and then plant an 
improvised explosive device (IED) at night, and they can attack 
the coalition, they can attack Iraqi security forces, they can 
attack Iraqi citizens.
    I think one of the things that we know from the elections, 
there will be a lot less fence-sitters because they saw their 
fellow citizens go out and vote. I think that will help.
    But to come up with accurate estimates is just very 
difficult in this type of insurgency.
    [The information referred to follows:]

    The Defense Intelligence Agency/J-2 assess current insurgent 
strength is between 10,000-20,000. It is further estimated that an 
additional 1,100-1,200 foreign fighters are active in the insurgency; 
however, the National Intelligence Council recently determined that 
current methods for determining insurgent manpower trends in Iraq are 
too uncertain and ill-suited to be used in gauging the evolving 
strategic strength of the insurgency. Insurgents drift in and out of 
active participation as the political environment and their personal 
situation evolves. Moreover, robust criminal networks act as insurgent 
and extremist force multipliers.
    Many Sunni Arabs, motivated by fear, financial incentive, 
perceptions of marginalization and exclusion from Iraqi government and 
security institutions act as insurgent sympathizers or ``fence-
sitters,'' capable of supporting the insurgency. The estimated 2.5 
million Sunni Arab males in Iraq will remain an insurgent recruiting 
pool and support network as long as the social, economic, and 
historical grievances persist.
    Individual coalition insurgent capture and kills have modest impact 
on the overall strength of the insurgency due to insurgent 
regeneration. In addition to active sympathizers, the former regime's 
military and security apparatus provides a pool of well-trained 
personnel. Pre-Operation Iraqi Freedom uniformed military and security 
personnel are contributing skill sets, organization and leadership to 
insurgent cells.

    Senator Levin. Is it fair to say it is more than a few or a 
handful?
    General Myers. Certainly, yes.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator McCain.
    Senator McCain. I want to thank the witnesses and we share 
their exuberance as we take this victory lap over the 
elections. We are indeed encouraged and optimistic about the 
future. I also think that we should view it with some concern 
because we know that it is going to be a rather long and 
difficult experience.
    General Myers, I am disappointed that you do not have even 
a rough estimate of the number of insurgents. I do not know how 
you defeat an insurgency unless you have some handle on the 
number of people that you are facing.
    General Myers. We do have estimates. I said I would provide 
them. Most of them are classified----
    Senator McCain. I am surprised you do not have them readily 
at hand.
    General Myers. The ones I have seen----
    Senator McCain. Since it is a fundamental aspect of the 
conflict that we are facing.
    General Myers. Right.
    Senator McCain. I do not have much time. Secretary 
Wolfowitz----
    General Myers. They are classified, Senator. I will get 
them to you. I will get the classified numbers to you.
    Senator McCain. I think the American people should know the 
nature of the enemy that we are facing. I am not sure that 
classified numbers are appropriate here.
    Secretary Wolfowitz, what level of U.S. forces would you 
expect us to maintain for the next 6 months or the next year?
    Secretary Wolfowitz. I think we will be able to come down 
to the level that was projected before this election. Senator, 
we overlapped our deployments and extended the, I guess it was, 
Operation Iraqi Freedom 3 (OIF-3) so that we get a bump-up of 
about 15,000 to cover the elections, which I think was, in 
hindsight, a prudent thing to do.
    We believe that we can come down by that 15,000, which I 
think would bring us--General Myers knows the numbers better 
than I--I think to about 17 brigades, about 135,000 troops. 
That is what we are looking at----
    Senator McCain. I would just like a number.
    Secretary Wolfowitz. Pardon?
    Senator McCain. I would just like a number.
    Secretary Wolfowitz. 135,000.
    Senator McCain. Thank you.
    In the case of this continuing question about fully trained 
and equipped Iraqis, one of the reasons why there are 
continuous questions is because of the various setbacks we have 
had in the training and equipping of the Iraqis, and we know 
how important it is for them to assume those responsibilities.
    I think it would be--and I made the suggestion yesterday 
that we go to a grading system, such as we use for U.S. 
forces--we do not know how many individual American soldiers 
are fully-trained and equipped, but we do grade their units. 
Perhaps we could at some point get a better handle as to unit 
readiness, and that would help us in assessing their ability to 
take on the tasks.
    By the way, how many of the--it says ``Unauthorized 
absences personnel not included in the numbers'' of the 
Ministry of Defense forces. How many unauthorized absences are 
there?
    Secretary Wolfowitz. There is a considerable number, in 
part, Senator, because the whole notion of absence in their 
system is different from ours and in part because of, frankly, 
the mechanics involved in paying. There is no way for a soldier 
to send a check to his family in southern Iraq, so he has to 
take the cash and travel with it.
    I think the level--it is hard to say whether it is 
authorized or unauthorized, but I would say--and General Myers, 
please correct me--that on average for the fill-in units, it is 
about 60 percent. One of the things that General Luck is 
looking at is what can be done to get that up.
    What you say, sir, I think is absolutely correct. It is 
units that really are most important. One of the reasons these 
numbers seem to change constantly is because a lot of 
experimentation is going on with units. We had I believe on 
June 28, when the interim government took over, only one 
battalion that was considered deployable and there are now 45 
such units. My sense is that is one of the most important 
measures. It is still maybe 20 percent of the total force, but 
it is the most important part of the force.
    Senator McCain. I agree. Again, I think that combat 
readiness of units is probably a far more accurate indicator of 
our ability to carry out the mission.
    I want to talk just for a minute about the North Atlantic 
Treaty Organization (NATO). We continue to hear about NATO 
involvement. At one time there was going to be a NATO training 
battalion and other involvement. What is the current level of 
NATO involvement in training and what are the plans for 
increasing it?
    Secretary Wolfowitz. General Myers?
    General Myers. NATO has agreed to take on training at staff 
college level, officer and noncommissioned officer (NCO) 
development, and NATO nations have done some of that outside 
Iraq. For instance, Germany is training truck drivers on 
specific equipment they are donating to the Iraqi forces in the 
United Arab Emirates. But the status inside Iraq is they are in 
the process of standing that capability up inside Iraq to 
provide the higher level education of the officer and the Iraqi 
NCO corps.
    Senator McCain. That is the extent of NATO involvement?
    General Myers. To this point, I think that is where they 
are focused. They are looking at things that they can do in the 
future and, of course, we are always hopeful they will want to 
provide more.
    Senator McCain. Well, Mr. Secretary, I would, since we have 
such an enormous strain on our Active, Guard, and Reserve 
Forces, place a high priority on a common interest that we and 
our NATO allies have, and that is to see democracy established 
in Iraq. It seems to me it is now in our NATO allies' interest 
as well as ours to see that happen. I would give a very high 
priority to consultations with our NATO allies to see if there 
are ways they can help us.
    I do not think we are going to get a lot more troops there, 
but there certainly is a myriad of ways that our NATO allies 
could assist us in training and equipping, relieving us of some 
of our non-combat responsibilities and others, because I think 
there are many of us who are aware that this burden that has 
been placed on our present-sized Active-Duty, Guard, and 
Reserve Forces is a very heavy one. It seems to me that after 
this election has proven to our NATO allies that we can win 
this thing, they should take a fresh look at assisting us.
    Secretary Wolfowitz. Senator, I think you are absolutely 
right. The numbers are not where we would like them in terms of 
NATO contribution. I think you are right, there is an 
opportunity now to boost those numbers. I think also that we 
need to look at whether some of our coalition partners might 
better participate in training than in some of the sort of 
fixed site protection they are doing now, which is much less 
needed. I think it is something we should be taking up.
    I think you will be going to Vercunda. I am sure you will 
take it up and I think it is important.
    Senator McCain. Thank you.
    Secretary Wolfowitz. By the way, on that point, if I just 
might add one other thing. The number of trainers is in some 
ways--the total number may not sound demanding, but since you 
need capable field grade officers for training, you are taking 
those numbers out of a much more limited pool. I think NATO has 
a lot of very capable field grade officers and it would be a 
wonderful thing for them to contribute more.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Warner. I wish to associate myself with Senator 
McCain's observation about NATO participation. I just checked 
with staff. My own recollection is that NATO made the 
announcement in July that they were going to go in there and 
start that training program. Would you supply the committee 
with the number of boots on the ground and what they have 
achieved in this period of time? Because that is a fairly 
significant lapse of period of time and I just wanted to know 
how far along they are on this program. But I do not want to 
interfere with other members going.
    General Myers, on the important question asked by Senator 
McCain, the threat from these insurgents and the quantum, I 
asked that question in closed briefings yesterday and they 
said, ``We are building up the Iraqi forces in proportion to 
what we perceive that threat would be.'' So I am confident 
there are some figures out there, and I think it is important 
that we release these figures publicly, with regard to the 
magnitude and the quality of the insurgency that is being 
mounted in the past and we hope will begin to attenuate in the 
future, given the extraordinary performance by so many over the 
weekend.
    Did you have an opportunity to----
    General Myers. Mr. Chairman, let me just talk a little bit 
more about it. Part of the reticence is that the numbers I see 
are normally classified, so in an open hearing I am a little 
reluctant to release that. If that is the wish, then we will 
look at that, of course.
    I think we have a pretty good handle on the number of 
foreign fighters that are in Iraq. We generally say around a 
thousand or so. But there are for instance, criminals. General 
Luck comes back and tells us that he thinks a lot of the 
activity we are seeing is just basic criminal activity. How 
many criminals there are in Iraq is pretty difficult to tell in 
any country. So that is why I am hesitant just to throw out a 
number of what the enemy is, because the character of the enemy 
is so different. Zarqawi, who is absolutely amoral, will do 
anything, will kill anybody to achieve his view of the world, 
is different from the fence-sitter that I described, of which 
there are probably thousands, but who on any given day or 
depending on how the situation is going might be willing to 
join the political process in Iraq.
    So it is a very difficult thing to get our hands around and 
throwing out one number probably does not do the complexity of 
the threat justice. We will provide it to the committee and as 
we can we will work with those who classify it to declassify 
it. There are parts of it that are classified.
    [The information referred to follows:]

    At the time of the testimony, DOD was still working on the possible 
declassification of the size and nature of the insurgent threat. As 
stated later by Secretary Rumsfeld in the annual Defense Authorization 
Request for Fiscal Year 2006 hearing on February 17, 2005:

          ``On the insurgency question, one can't help but agree with 
        you. In a perfect world you would like very much to have a good 
        grip on the numbers.
          You, obviously, have access to the classified different views 
        that exist within the government and they're all qualified by 
        saying it's a moving target and it's difficult to pin down.
          Since I didn't do these, I can't declassify them myself. But 
        I can certainly ask the Intelligence Community to what extent 
        they're willing to declassify the estimates as to the 
        insurgency.
          I think the important thing, as you hinted at, is that the 
        insurgents are, first of all, a moving target. They're not 
        static. The numbers change.
          Second, they're made up of different elements, criminals, 
        Baathists, the former regime elements, the Zarqawi network and 
        jihadists. Even though the jihadists are the smallest portion 
        of them, they appear to us to be the most lethal; they're the 
        ones that are doing the most damage.
          The recruiting base is fairly large if you think of criminals 
        in that country and people who are available to be recruited. 
        So how successful we are in reducing the money is a big part of 
        how big the insurgency is.
          So it's a dilemma. It would be nice to have a hard number, 
        but my fear is that the number would change from week to 
        week.''

    Chairman Warner. Thank you very much.
    Senator McCain. Mr. Chairman, could I just mention why this 
is important?
    Chairman Warner. Yes.
    Senator McCain. We went from a few dead-enders to killing 
or capturing 15,000 in the period of a year, and that is why 
there is a certain credibility problem here as to the size and 
nature of the enemy we face. It is our responsibility to 
provide the wherewithal to conduct the conflict and if we go 
from a few dead-enders to 15,000 killed or injured, and without 
any good handle on the threat that we are facing, I think it is 
hard for us to do our job and it is hard for the American 
people to realize how difficult is the task that lies ahead of 
us.
    Chairman Warner. Thank you, Senator.
    Senator Kennedy.
    Secretary Wolfowitz. Mr. Chairman, do you want the NATO 
numbers? Because I did find them.
    Chairman Warner. Quickly.
    Secretary Wolfowitz. Very quickly, the total mission size 
is 459 personnel and 30 percent of that is U.S. Of the other 70 
percent, there are still some 50 spots that are not filled, and 
the initial operating capability is scheduled for February 20. 
It is in my view a first step, and I encourage all of you to 
urge more steps. It is the right direction, but it needs to go 
faster.
    Chairman Warner. There has been sufficient time.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman.
    I think all of us take extraordinary pride in the 
incredible achievement of the Iraqis and their willingness to 
vote in these past elections. I think all of us take 
recognition of that.
    Of course, the United States for some 200 years has been a 
beacon of hope to peoples all over the world. I can remember 
when democracy was restored in Chile, turning out Pinochet. I 
remember when it was restored with Alfonsin in Argentina. I 
remember the people that waited 72 hours--because one gentleman 
was 72 years old--to get a vote in South Africa. So we have 
seen over the period of history that America has had a very 
important impact in terms of seeing the march towards 
democratic regimes.
    But now we have in Iraq, in listening to what is going to 
be determined as success as defined by Mr. Wolfowitz, the 
governmental agencies are going to be up and they are going to 
be functioning. There are going to be compromises. Iraqis are 
going to need help. We are going to be helpful to them in 
reaching compromises. Iraqi security forces are going to be up 
and trained. They are going to be related to the number of 
terrorists, and yet we are unsure--one thing we are sure is the 
total number is increasing. They are going to have a legal and 
judicial system that is going to protect all rights of people. 
It is going to give equal justice under law. We are also going 
to protect justices and develop the capability of bombing 
experts. Then we are going to put pressure on Syria and other 
countries.
    You talk about mission creep. Where is Osama bin Laden? 
This whole process started as the war on terror. This started 
with weapons of mass destruction (WMDs). This started with the 
alleged fact that Iraq was involved, as later disproved, with 
the terrorists. Now we hear the spokesman for the 
administration talking about the maintenance of American 
personnel and troops, where we have already lost over the 
1,400, and they are going to be there until some governmental 
agencies are functioning effectively. Many people do not think 
governmental agencies are functioning effectively here in this 
country. They will be there until the Iraqi security forces are 
up and trained, as well as the legal-judicial system.
    America, listen to that. How long are we going to be there? 
That is why we went to Iraq? That is why we went to Iraq? We 
have our forces over there.
    Now, given the extraordinary achievements and 
accomplishments of this last week, where the Iraqi people 
indicated that they want to control their own political 
destiny, people ask me, how long is it going to take to train 
Iraqis to fight for their own country, to shed their own blood, 
as Americans are doing it?
    My wife has a nephew. Let us just call him Charles William. 
I will spare his last name. He is from Shreveport, Louisiana. A 
little over 8 months ago he joined the United States Army. He 
went for 12 weeks to Fort Benning and got infantry training. He 
had 10 days off, then he went to Fort Lewis, where he got his 
equipment. He was supposed to go to Kuwait for additional 
training. He went directly to Mosul. He is a tail gunner on a 
Stryker. Nine personnel in that. He is the oldest one. They 
call him ``Pops.'' He is just back here now after 8 months over 
there and he is rotating back.
    This soldier wants to stay in the military. But he had that 
amount of training and he is over there representing the best 
of the best.
    You are getting 2,500 people that want to join that Iraqi 
military. You have the 127,000 or 140,000 you think are 
equipped. When are the Iraqis going to fight for their own 
country? When are they going to start shedding that kind of 
blood?
    We are all proud of those individuals, Mr. Secretary, that 
exhibited this extraordinary heroism on election day. No one is 
begrudging that. We are all proud of that. We have other times 
in American history. We are proud of our service men and women. 
We want to know when the Iraqis are going to go out there and 
shed their blood, as American service men with this amount of 
training are willing to shed theirs.
    Is that going to take 4 months? Is it going to take 12 
months? Is that asking too much? Is it asking too much that 
after the new administration takes over we are going to say, 
look, okay, in 12 months we will start drawing down some of our 
troops? Are we prepared to say that after 18 months we should 
be able to get a good many of our troops out, with the goal of 
getting the rest of ours out of Iraq, as I have stated?
    When in the world are we going to have the Iraqis being 
able, and why in the world cannot we expect them to take on 
these responsibilities when American service men are doing it 
and they are losing their lives, and American taxpayers are 
paying out? How long are we going to do this? Mr. Secretary?
    Secretary Wolfowitz. Senator Kennedy, first of all I recall 
vividly that same process you described, the advance of 
democracy in the 1980s. I was at the State Department playing 
some role in supporting the transition to democracy in the 
Philippines when Ferdinand Marcos was removed peacefully, the 
following year when Korea established its first democracy in 
history, one which has proven to be vital and viable. I 
witnessed that process in Indonesia, where I was ambassador. It 
took longer than I would have liked, but that country is on a 
march toward democracy.
    It is an impressive movement. People want freedom, they 
want to pick their own representatives. There is something 
importantly different in Iraq. In all the cases that you 
mentioned and that I just mentioned, these people were not 
fighting the remnants of a regime that was as brutal and as 
evil as Stalin or Hitler. That is what the Iraqi people are 
facing.
    The level of intimidation is extraordinary, and they are 
facing it bravely. They are shedding their blood. As I 
mentioned in my opening comments, nearly 1,400 by our count. As 
I said, I think we underestimate. We count our people by name. 
We are not so good at counting Iraqis. 1,342 Iraqi soldiers and 
policemen have died in the line of duty fighting for a new 
Iraq, and those numbers are going up faster, not that we want 
to see any numbers go up, those numbers are going up faster 
than ours.
    They are assuming more and more responsibility. One of our 
principal objectives here--we are not going to wait until they 
have functioning governmental institutions before we hand over 
security to Iraqi forces. But what I said in my comments is 
they will be able to handle the job sooner the more effective 
their government is at functioning. This is not just a military 
task.
    But our goal is to get them up and capable as fast as 
possible. That is one of the principal considerations that I 
know General Casey and General Abizaid will have in mind when 
they make recommendations on things like force levels. The goal 
is not just to get our people home if that leaves the people 
who are still there in greater danger. The real thing is to get 
Iraqis on the front lines and Americans in a supporting role.
    Senator Levin referred earlier to Korea. We have had for 
over 50 years a strategy for winning in Korea, a strategy for 
preserving peace on the peninsula and creating conditions under 
which the Koreans have been able to create one of the most 
impressive democracies in the world. We have not left. We have 
not exited yet. But with some tragic exceptions over the course 
of that 50 years, we have been able to avoid a war and keep 
Americans from dying.
    I think that is what we have to keep our eye on here. I 
think you will see that process proceed. I have talked to some 
of our commanders in the area. They believe that over the 
course of the next 6 months you will see whole areas of Iraq 
successfully handed over to the Iraqi Army and Iraqi police. 
But what we do not want to do is prematurely hand over an area 
and then create a place where the enemy can organize and 
operate. I think you can see over the last couple years there 
have been a couple such mistakes. We do not want to repeat 
them.
    Senator Kennedy. My time is up.
    Chairman Warner. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I know that we are all very aware that the cut-and-runners 
are out there and they are sincere. I think the argument out 
there that should not be there any longer is that there is 
reason for the insurgency that is out there, to protest the 
American occupation there, American troops there, as opposed to 
the fact that it was a long-calculated risk.
    I would like to read from three publications that are 
certainly not Republican publications. In October 2003 Newsweek 
reported: ``The terrorist campaign was planned by Saddam 
Hussein and his lieutenants, and Iraqi agents bought vast 
quantities of detonators, timers, and wiring supplies, as well 
as a coordinated guerilla and war strategy hatched before the 
invasion of Iraq.''
    Last April, The New York Times reported that: ``The Iraqi 
officers of the special operations and antiterrorism branch 
were responsible for the planted IEDs and some of the larger 
car bombs in Iraq,'' and ``they had prepared explosive-laden 
vests for suicide bombers before the war.''
    In December U.S. News and World Report disclosed that 
``Saddam sent more than 1,000 security and intelligence 
officers to military facilities near Baghdad in the fall of 
2002 for 2 months of guerrilla training.''
    I would just like to ask for a short answer, Mr. Secretary 
and Mr. Schlicher. The continuation of violence in Iraq, is it 
a popular uprising stemming from the U.S. presence there or 
part of a calculated campaign by Saddam Hussein's security 
apparatus? Just a short answer.
    Secretary Wolfowitz. Senator Inhofe, I think there is a 
growing body of evidence that we are dealing with Saddam 
Hussein's security apparatus, that some degree of what we are 
confronting--and maybe a large amount--was prepared before the 
war. If you read the Duelfer report carefully, which almost no 
one has, you will see it in there. I reference in my testimony 
his religious adviser who was recruiting foreign fighters 
before the war.
    In testimony before this committee, I have shown passports 
of foreign fighters that came in from Syria in March 2003 
during the major combat phase. One of them crossed the border 
with an entry in his visa permit, and the stated purpose of 
visit was to perform jihad. Syrian intelligence knew what this 
guy was doing. Iraqi intelligence knew what this guy was doing. 
It was Iraqi intelligence that moved this guy down south where 
our marines killed him.
    One of the problems with answering the question that we 
heard earlier about numbers of enemy is that, I would say, one 
of the few strengths this enemy has beyond its brutality is the 
ability to keep secrets. In fact, the brutality is part of how 
it does keep secrets. So we are trying to figure out how much 
of what appears to be a growth in enemy is simply a growth in 
our estimates of the enemy, because we are learning more about 
them and how much is in their ability to recruit more.
    I have to say, I was personally somewhat pleasantly 
surprised by what appeared to be a relatively ineffective 
attack on January 30. I thought they were capable of much more 
than they showed and I do not think anyone would say they were 
holding back.
    But as to your question, I think to some very large degree 
we are fighting the old regime. There are, by the way, within 
Zarqawi's network former members of the Special Security 
Organization, former members of the Special Republican Guards. 
This is not a simple independent operation.
    Senator Inhofe. This bothers me. It always bothers me to 
have people continuously say that there is not a relationship 
between al Qaeda and Saddam Hussein, Zarqawi, the training that 
was taking place there. We knew that before the invasion took 
place. I think you probably agree with that statement, do you 
not?
    Secretary Wolfowitz. I do. As Secretary Powell pointed out 
to the U.N., a man like Zarqawi does not hang around in a 
police state like Iraq without somebody noticing he is there.
    Senator Inhofe. I do not want to run out of time here, so I 
am going to, with your indulgence--tonight, Senator Thune and I 
are going to Iraq and we have a number of things we want to do 
there. First of all, we want to see what it looks like after 
the election. But I have another mission. I was very proud of a 
very courageous Lieutenant Colonel, Tim Ryan, the Commander of 
Task Force 2, 12th Cavalry, in the First Cavalry Division in 
Iraq. He led the troops into battle in Fallujah late last year 
and recently was involved in security operations.
    He is not afraid to come out and talk about it, and I am 
going to actually quote from an article that he has written. I 
plan to meet with him. I plan to talk to other soldiers over 
there. To me, the most effective voice we can have to getting 
the truth out about our victories in Iraq is from our soldiers 
themselves.
    He said: ``All right, I have had enough. I am tired of 
reading distorted and grossly exaggerated stories from major 
news organizations about the failures of the war in Iraq. The 
inaccurate picture they paint has distorted the world view of 
the daily realities in Iraq. The result is a further erosion of 
international support for United States efforts there and a 
strengthening of the insurgents' resolve and recruiting 
efforts, while weakening our own. Through their incomplete, 
uninformed, and unbalanced reporting, many members of the media 
covering the war in Iraq are aiding and abetting the enemy.'' 
That is pretty strong. ``From where I sit in Iraq''--and he is 
sitting where he knows things we do not know--``things are 
going quite well. We are not under attack by the enemy. On the 
contrary, we are taking the fight to him daily and have him on 
the ropes. Fallujah, the area around the former insurgent 
stronghold, is more peaceful than it has been for more than a 
year. The total number of attacks in the greater al-Anbar 
Province is down by at least 70 to 80 percent since late last 
October.''
    Still quoting now: ``Why do not the papers lead with 
`Coalition crushes remaining pockets of insurgents' or `Enemy 
forces resort to suicide bombings of civilians'? Instead, 
headlines focus almost exclusively on our hardship. The key to 
the enemy's success is use of his limited assets to gain the 
greatest influence over the masses. The media serves as that 
glass through which a relatively small event can be magnified 
to international proportions, and many of the enemy is 
exploiting this with incredible ease. This is not good for the 
news, to counteract this. So the enemy scores a victory almost 
every day as a result of the media.''
    Every time I come back from over there I feel like I am 
coming back as a truth squad to tell the American people what 
these kids come up and tell me, the ones who are in the lines, 
risking their lives, and recognizing that they have a mission 
that is the most significant mission perhaps that any soldier 
has ever had on the battlefield before.
    So I would only say that if we are going to encourage them 
to do this, I would hope that, General Myers, as you talk to 
people you will encourage them to come out and tell the truth 
about what is going on, the great job that we are doing over 
there. It does not require an answer.
    Thank you, Mr. Chairman.
    General Myers. Thank you, Senator.
    Chairman Warner. I think we should give the witnesses the 
opportunity if they wish to respond. It is an important 
observation that you made.
    General Myers, you looked as if you wanted to add.
    General Myers. Well, I am just very sympathetic to what 
Senator Inhofe said. I have a chance to speak at many different 
forums around this country and I always tell them that you 
would be better off if you could just beam in one soldier, 
sailor, airman, or marine that is over there in Iraq or 
Afghanistan. If you could just beam them in, pick a social 
security number at random and ask them to come up here and tell 
you what they think, you will get it straight and you will be 
proud of their understanding of the problem and their devotion 
to the mission. So I just identify myself with those remarks 
and I think that is absolutely right.
    Chairman Warner. I thank you, General.
    Senator Reed.
    Secretary Wolfowitz. You can beam them in. You can go to I 
think it is worldtribune.com for that particular account. I 
found a lot of valuable information that is not in our main 
news media, both from Americans in Iraq and from Iraqis in 
Iraq, that appears on these Web sites. It is a fascinating 
phenomenon. I quote it, too, in my testimony.
    Chairman Warner. In the next round I intend to invite Mr. 
Schlicher to give his views as to how the Arab press has 
covered the elections. But I will wait for that time.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen. Mr. Secretary, you indicated to 
Senator McCain that you anticipate 135,000 troops to be in Iraq 
next year. By rough calculation that is about $50 billion. Will 
those funds be in the President's budget that is submitted in 
the next few days?
    Secretary Wolfowitz. They will be in the supplemental 
request which will come up shortly after the budget.
    Senator Reed. So we are already looking at a supplemental 
budget for operations this year, I believe?
    Secretary Wolfowitz. Correct.
    Senator Reed. These troops next year will be paid out of 
the supplemental budget that is going to be considered in the 
next few months?
    Secretary Wolfowitz. Well, you will have a supplemental 
budget request that will be up here for fiscal year 2005, along 
with a fiscal year 2006 authorization request. The fiscal year 
2006 authorization request will not make a prediction about 
what we think our force levels will be in 2006. Those will be 
covered in the second supplemental. We plan to fund the 2006 
expenditures for Iraq and Afghanistan with another supplemental 
request in fiscal year 2006.
    Senator Reed. So we can assume that we will consider an $80 
billion supplemental this year for 2005 and we will have 
already anticipated a $50 billion or more supplemental in 2006, 
is that accurate?
    Secretary Wolfowitz. I would not predict 2006. I was asked 
what force levels we are planning on, I thought, over the next 
6 months or through the end of this calendar year, and I said 
we are planning on 135,000, and that is not a prediction. That 
is a planning factor. If we can bring those numbers down 
intelligently, we will always work to bring them down.
    But let me make an important point here. At roughly $4 
billion a month for our forces, if we can bring Iraqi forces up 
more quickly by keeping Americans in Iraq a little bit longer, 
just in cost alone it is a worthwhile tradeoff, and in terms of 
American lives at risk it is an even more worthwhile tradeoff.
    As I said earlier in comment to Senator Kennedy, we want to 
do whatever we need to do to increase Iraqi capability as fast 
as possible. That may mean a little more investment at the 
front end in our capabilities so that we bring them on line 
faster.
    Senator Reed. Mr. Secretary, I do not argue with your 
logic, but I think that logic suggests rather strongly that it 
is more than a planning estimate, that it is probably the best 
estimate right now of roughly 130,000 troops, 17 brigades, in 
Iraq through the end of 2006. I think officials of the Army 
have indicated that. In fact, I think I would not be surprised 
if even the U.S. Central Command (CENTCOM) commander would 
support that estimate.
    So to sit here and suggest that we are going to consider an 
$80 billion supplemental for this year, but we should not even 
think about a significant $50 billion supplemental next year, I 
think is a little disingenuous.
    Secretary Wolfowitz. Senator, I did not say there will not 
be a significant supplemental in 2006. I said I cannot tell you 
what the size of it will be. General Myers may comment. I do 
not think CENTCOM makes a prediction about what we will need in 
2006.
    I think we have a reasonably good fix on what we will need 
through the end of this calendar year and certainly through the 
end of this fiscal year, and the Army general you referred to I 
think is making a prudent assumption about what he may be asked 
to provide forces for. But what we will actually need in 
calendar year 2006, unless General Myers has a different 
estimate, I think it would be a wild guess at this point.
    General Myers. That is correct, Senator Reed. The process 
that both the Army uses and that we use on the Joint Staff, 
trying to source what General Abizaid in CENTCOM and General 
Casey needs, we do a lot of worst case planning because of the 
stress on the force, so we can make sure we can fulfil what we 
think would be the worst case needs.
    But those are not the predictions. That will be up to 
General Abizaid and General Casey, and they continually think 
through those. So to say that our worst case planning is going 
to reflect reality, that is not correct.
    Secretary Wolfowitz. But there will be, I would predict, a 
substantial request for supplemental funding in fiscal year 
2006.
    General Myers. Right, that is right.
    Senator Reed. Thank you, Mr. Secretary. I think we all can 
agree upon that.
    Let me get one other metric. If the figure is 136,000 
troops, it would roughly equate to about $50 billion?
    Secretary Wolfowitz. I would want to check that for the 
record, but I think for Iraq alone that is right.
    [The information referred to follows:]

    Your metric is roughly correct. The Fiscal Year 2005 Supplemental 
Appropriations request includes about $56 billion for Operation Iraqi 
Freedom based on an assumption that deployment levels for U.S. military 
personnel deployed to Iraq will return to about 138,000 troops by the 
summer of 2005--after reaching about 160,000 in January 2005 because of 
the Iraqi national elections.

    Senator Reed. Thank you, Mr. Secretary.
    Secretary Wolfowitz. Remember, the $80 billion includes 
Afghanistan as well as Iraq and some other things as well.
    Senator Reed. Thank you.
    General Myers, you indicated when you had your chart up, 
that chart in fact, that these are very high standards these 
troops are being exposed to in terms of their training. How 
long is the training for a Ministry of Defense soldier, either 
National Guard or military?
    General Myers. I will have to make sure I get this to you 
for the record. It varies by the type of unit.
    Senator Reed. Let us just say, what is the average?
    General Myers. The average, I will get back to you exactly. 
I will get you all the units and I will break out the averages.
    Senator Reed. You do not have sort of just a rough notion 
of how long these troops are being trained?
    General Myers. Sir, several months. But there are so many 
different types of units buried in those numbers that I would 
like to give you specifically by unit. There are some units 
there that are--the regular Army, for a regular Army 
individual, 12 weeks. There is some basic training that goes on 
for 8 weeks and there is 4 weeks of cadre training.
    For the National Guard it is 3 weeks of basic training and 
then 4 weeks of collective training. For the intervention 
force, which is a little bit higher level force and some of 
those forces that we talked about earlier that are deployable 
around the country and that can handle the bigger threats, it 
is 8 weeks of basic training, 4 weeks of cadre training, and 
then some urban operation training that goes on for 5 weeks. 
Then you get up into the special forces type units and they 
have 13 weeks on top of all that. I can provide that for the 
record if you wish.
    [The information referred to follows:]

    Iraqi Regular Army (RA): Officers and noncommissioned officers 
(NCOs) in the Iraqi RA begin their training with a 4-week cadre 
preparation course. This course is designed to make the officers and 
NCOs effective instructors so they can eventually teach and train their 
own troops. The cadre course covers leadership, training, techniques, 
weapons training, and tactics. Following this cadre training of the 
officers and NCOs, basic trainees are introduced into their units to be 
taught by these new instructors, under the supervision of Multi-
National Security Transition Command-Iraq (MNSTC-I).
    Basic Training is 5 weeks long although the entire 1st week is 
considered the selection and in-processing week. After 4 weeks every 
soldier is sent to skills training, which runs from a minimum of 5 
weeks (Iraqi Medic Course) to as long as 7 weeks (Infantry Course). The 
cadre teaches their own soldiers physical training, soldier discipline, 
basic infantry skills, weapons training, land navigation, and squad-
level tactics. This method of having the officers and NCOs train their 
own troops is used so that unit cohesion can be quickly established 
between the officers, NCOs, and soldiers.
    Following graduation, soldiers are sent to their units for 
collective training following a training program outlined by MNC-I. 
This program consists of a series of collective training gates each 
squad, platoon, company, etc., must pass through to be considered 
initially operationally qualified and eventually fully operationally 
qualified.
    Selectees from each unit are sent to attend the four levels of NCO 
training, Squad Leader Course, Platoon Sergeant Course, Company Warrant 
Officer Course, or Battalion Command Sergeants Major School. Currently, 
only the first two courses are being offered and the latter two begin 
in August as a pilot program. Only infrastructure limits the number of 
attendees, not the course itself. By the end of August, we anticipate a 
throughput of over 1,000 soldiers per month in the Noncommissioned 
Officers' Educational System.
    Selectees from each unit are also sent to branch school training 
for enhanced skills education. This includes front line NCOs, 
supervising NCOs, and both the Company and Battalion-level officers. 
Currently we are training all logistics specialties, including 
transportation, medical, supply, maintenance management, and personnel 
management. The engineer and military police schools conduct leader 
training concurrent with a collective training formal program. Combat 
unit training includes a combat platoon leader course and company 
commander pilot course.
    Iraqi National Guard: Officers, NCOs, and soldiers receive a 3-week 
block of instruction taught by cadre from the Major Subordinate 
Commands (MSC) in the Multi-National Corps-Iraq (MNC-I). The training 
course includes many of the same topics taught to the RA recruits 
including physical training, weapons training, land navigation and 
basic infantry skills. The new officers, NCOs, and recruits are 
partnered with an MSC unit in the. area in which they will operate and 
transition into a 4-week collective training phase where they practice 
newly acquired skills.
    Iraqi Intervention Force: Officers, NCOs, and soldiers initially 
follow the same process as the RA, beginning with the 4-week cadre 
course followed by the 8-week basic training course. After the cadre 
and basic training, Iraqi Intervention Force soldiers receive an 
additional 5 weeks of specialty training that focuses on military 
operations in urban terrain in order to conduct anti-insurgent 
operations in cities and towns.
    Iraqi Special Operations Forces (ISOF): These forces consist of two 
components: the Counterterrorist Task Force and the Commando Battalion. 
The soldiers who go through the standard 8-week basic training course 
are identified and recommended by the U.S. Special Forces cadre for 
recruitment into the ISOF. Many of the recruits recommended to join the 
ISOF have Special Operations training from prior service. Once 
accepted, the recruits identified for the Counterterrorist Task Force 
are cycled through a 13-week special operators course in Jordan. Those 
recruits identified for the Commando Battalion undergo a 3-week 
commando course taught by U.S. Special Forces that focuses on small 
unit tactics and U.S. Army Ranger-type specialty skills.
    Iraqi Police Service (IPS): Iraqi Police recruits undergo an 8-week 
academy training course taught at the Jordan International Police 
Training Center (JIPTC) or in one of the seven police academies in 
Iraq. Training highlights include basic police skills, basic criminal 
investigation, kidnapping investigation and marksmanship. The 
instruction has been modified to reflect the security environment 
focusing more on survival skills and combat skills. Police recruits who 
were former police officers under the previous regime are trained under 
the 3-week Transition and Integration Program (TIP). This program, 
taught by Iraqis, reinforces police professionalism, standards, and 
accountability. Additionally, there are several advanced and 
specialized training courses for the IPS to combat the insurgency. 
Examples of these include post-blast investigations taught by Alcohol, 
Tobacco, and Firearms (ATF) officials, counterterrorism investigations 
taught by the FBI and Explosive Hazardous Awareness Training taught by 
the U.S. military.
    Iraqi Civil Intervention Forces (CIFs): CIFs operate in two 
components: public order battalions and a mechanized police brigade. 
Recruits brought into the service for public order battalions undergo a 
5-week training course taught by the U.S. Investigative Services. 
Training focuses on riot control, civil disorder management and 
explosives awareness. Recruits joining the mechanized police brigade 
undergo a 5-week course designed to familiarize them with operating and 
maintaining their armed personnel carriers. In addition, they are 
taught perimeter security techniques, light armor movement skills, 
marksmanship and civil disorder management.
    Emergency Response Unit (ERU): The ERU is an elite team trained to 
respond to national-level law enforcement emergencies. Recruits undergo 
a robust 8-week specialized training course focusing on high-risk 
search, arrest, hostage-rescue and crisis-response operations. Recruits 
for the force must first complete the standard 8-week police academy or 
TIP training before entering specialized training modeled after the 
U.S. DOD antiterrorism and ATF training programs.
    Special Police Commando (SPC) Battalion: SPC recruits are Iraqi 
officers and soldiers made up of prior-service special forces 
professionals and other skilled service members with specialty unit 
experience. Recruits complete a 3-week training program focused on 
marksmanship, weapons training, and small unit paramilitary training 
focusing on offensive counterterrorism tactics.
    Department of Border Enforcement (DBE): The formal training program 
for DBE officers and guards is a 4-week course taught at the JIPTC. 
Training topics include customs and immigration, cargo search and 
marksmanship. Current and new border policemen attend training at 
JIPTC, the first centralized training program established for DBE 
personnel since the coalition began training Iraqis. Prior to this 
training program, the major subordinate commands conducted training of 
border police. Regional DBE training academies in Iraq are being 
established with an operational date of mid-spring. Border assistance 
teams will help train current border guards in the coming months.
    Iraqi Highway Patrol (IHP): Until recently, IHP officers first 
completed the standard 8-week police academy or TIP training. Following 
graduation, they were assigned to one of the six highway patrol 
barracks throughout Iraq for further specialized training on IHP 
equipment and patrol techniques. MNSTC-I has recently established a 3-
week training program specifically for the IHP and future patrolmen.
    Bureau of Dignitary Protection: Officers identified for dignitary 
protection duties undergo an initial 3-week course taught at the 
Baghdad Police Academy by the U.S. Investigative Service. They receive 
an additional 3 weeks of specialized training taught by U.S. 
contractors.

    Senator Reed. Thank you, General.
    Let me just follow up on an issue related to General Luck's 
report. It is the suggestion in at least the press that 5,000 
soldiers and marines would be assigned as mentors embedded in 
Iraq units. Do we have 5,000 trained, not just professionally 
trained as military officers and NCOs, but with language skills 
and cultural skills, to work in a unit maybe with one or two 
other Americans? Mr. Secretary, General Myers?
    General Myers. The numbers that I have seen, the estimates 
that were in the--I did not see any numbers in the Luck report. 
I saw some assessments by----
    Senator Reed. You have an advantage on us, General. We have 
not seen the Luck report or General Luck, which I think would 
be very helpful to us. Do you have any objections, by the way, 
if General Luck would come up here and testify before the 
committee or informally brief us?
    General Myers. I will leave that to the Secretary.
    Senator Reed. Mr. Secretary, do you have any objections?
    Secretary Wolfowitz. I think, Senator, General Luck is 
providing his advice to General Casey and General Abizaid, and 
the Secretary is waiting to hear what they recommend based on 
that report. We would certainly want to make information 
available that might be--in a closed session I think you 
discussed that the other day with the Secretary. We certainly 
want to make the information available, but we would like to 
have a chance to see what our commanders conclude from it 
first.
    Senator Reed. That is entirely fair. But getting back to 
your point----
    General Myers. The answer is we do not know the numbers 
yet. General Casey and General Abizaid are looking at that, and 
General Metz, who is the MNC-I Commander over there. They are 
going to have to look at this and see what the numbers would 
be.
    But you are absolutely right. The types of individuals you 
would place with these units would be officers and NCOs. You 
would need translators. You would need people that would 
hopefully be culturally aware. So they are people of some 
talent. But how many and how we are going to put those in the 
units, that is up to General Casey to figure out, the total 
number, the final number. In fact, for that matter the exact 
concept has not been determined by General Casey. We are going 
to wait for him. He has been asked to provide that detail and 
he will.
    Senator Reed. My time has expired, but just a final point 
if I may, General Myers. Are you concerned there is a capacity 
limitation, though, in terms of whatever numbers that are 
agreed to, that will limit our ability to fully staff all of 
these brigades or slow down our ability to integrate American 
mentors into these units?
    General Myers. We are going to have to wait and see what 
General Casey finally comes up with. But as you pointed out, 
these would be some very highly qualified individuals if we go 
that route, and depending on how extensively we go down that 
road.
    Senator Reed. Thank you.
    Secretary Wolfowitz. But I might say, Senator Reed, I think 
there are different levels of that capability. You referred to 
language capability, for example, which is an extraordinarily 
high requirement. I think for the most part we would probably 
look at having people working through translators. It is not 
perfect, but right now I think Major General Chiarelli has some 
500 of his people essentially doing that with the 7 Iraqi 
battalions that are in Baghdad and they I am assuming, most of 
them, are not Arabic speakers, so they must be working through 
translators.
    I think it is important to recognize that one of the 
principal functions of that is to provide not so much advice 
and mentoring, although there is a large piece of that, but 
also just the connection with the capabilities that we have 
that are way above the level of what Iraqis might have in terms 
of intelligence and communications and air support and so 
forth.
    Senator Reed. Again I am presuming on my colleagues, but I 
would suspect that you are looking back to our experiences in 
other places, particularly Vietnam, about both the 
effectiveness and limitations of advising cultures that are 
much different than ours.
    Secretary Wolfowitz. There are some lessons from the past. 
Frankly, I think there are more lessons from the last couple 
years in Iraq, because each culture is different and each 
condition is different.
    Senator Reed. Thank you.
    Chairman Warner. Thank you, Senator Reed. I appreciate your 
bringing up the issue of General Luck. The Senate was informed 
in great detail about his mission and it was highly publicized 
when he went over and we can understand that there is a time in 
which he has to consult with his military commanders and 
prepare Secretary Rumsfeld. But it seems to me that time has 
run pretty full length now. I think it is appropriate that the 
Department as early as possible begin to share that report with 
the Congress of the United States. Thank you.
    Senator Collins.
    Senator Collins. Thank you.
    General Myers, you mentioned that you wished that you could 
beam service members here so we could talk to them directly and 
hear what they say. I would suggest that, although we cannot do 
that, we can communicate with them by e-mail. I hear from 
marines and soldiers in Iraq all the time.
    They are very patriotic. They are very proud of the work 
that they are doing. But they are also frustrated by continuing 
shortages of safety equipment and basic supplies. Over the past 
year I have repeatedly brought to the attention of the Pentagon 
specific instances that I have heard from my soldiers about. 
Yet the problems persist.
    Today I want to read you parts of three different e-mails 
from three different soldiers serving us in Iraq. I would note 
that each of them is involved in training Iraqi security 
forces. Here is what the first soldier wrote:

          ``We have tried to get ammo from other sources and 
        through our proper chain of command. In this case we 
        have been told to get Iraqi weapons and ammo as backup 
        weapons. We have done this, but nobody is very 
        confident with this plan. We have very little training 
        in their weapons. We are not qualified with the AK-47. 
        We have not sighted these weapons in and they are not 
        as reliable as our American weapons.
          ``I am proud to serve my country and I am willing to 
        give my life for it. I hope that if one thing is 
        accomplished here it is that I will not have to send my 
        son here 10 years from now. I need ammunition to make 
        this happen and to be able to return home to my family 
        in a year or so.''

    Here is the second one:

          ``The holidays are very tough on the guys. I am 
        planning a Christmas Eve service because we cannot get 
        a chaplain to come out here. We cannot keep oil or 
        water delivery truck drivers, nor interpreters, nor 
        other civilian help, because they all think it is too 
        dangerous. We are on the road where insurgents travel 
        from Syria to Mosul. We have had problems with water, 
        fuel, shortage of ammunition, et cetera.''

    Here is the third one:

          ``Right now we do not have radios to communicate with 
        our units. We depend heavily on e-mail. Yup, e-mail, 
        Yahoo, is our communications line.''

    I cannot tell you how troubled I am about this. I have 
written to the Pentagon. I brought it up at previous hearings 
last year. I keep getting these reports. There are a sufficient 
number of them that I have to believe there is some sort of 
logistics problem.
    This is not a question of money. We in Congress will give 
you all that you need to make sure that our troops who are 
serving so bravely have everything they need to accomplish 
their dangerous mission as safely as possible. Why are we still 
having these problems with such basic supplies, not to mention 
safety equipment like the up-armored High Mobility Multipurpose 
Wheeled Vehicles (HMMWVs) and body armor?
    General Myers. Senator, you raise a very good question and 
I obviously would be deeply troubled by that as well. I 
appreciate when you do send us specific instances so we can run 
them to ground and find out if we do have a problem. The only 
one of those issues you have just mentioned that I am aware of 
would be the radio issue, because I know in the type of combat 
that our Army and Marine Corps finds itself in today, the 
ground combat, they want radios at levels that they have never 
had to have radios before.
    I do not know that we are short. I have never heard that. 
But I know that they have had to aggressively pursue additional 
radios so that all echelons, echelons that were never planned 
to have radios, would have them so they could communicate, as 
indicated in that e-mail.
    So all I can say is we will go back and look at this. None 
of this has come to the attention of the Joint Chiefs of Staff, 
I can guarantee you that. We will continue to try to chase this 
down.
    Senator Collins. With one of these units, in December I did 
contact the Pentagon and they did act to get this unit 
resupplied. But you can imagine how troubling it is to me that 
these soldiers are having to come to a United States Senator to 
get the ammunition, water, food, and basic supplies that they 
need.
    General Myers. You bet.
    Senator Collins. In each case, these soldiers are telling 
me that they went up the chain of command and just could not 
get what they needed. Now, as I said, in one of these cases it 
has been solved, but solved through my intervention, which it 
just should not be.
    General Myers. It should not take that, no. But the point 
you raise about logistics is very important. That is critical 
to our capability over there. We will go back and talk to our 
commanders to make sure that they have what they want. But we 
do not see any of those shortages. I do not see those. I get 
briefed on this every day and we do not see that. So I do not 
know where the disconnect is, but it will be my obligation to 
go find it.
    Senator Collins. I think there is one. While I appreciate 
the help we have had from the Pentagon in solving some of these 
specific issues, in my mind they just should not be happening. 
We have to solve this problem once and for all.
    General Myers. Agreed.
    Senator Collins. General Myers, I also want to just very 
quickly touch on the training of the Iraqi troops. I too find 
the election so inspiring and I am so proud of the courage 
shown by the Iraqi security forces. But again, I think the 
numbers indicate that we have a long ways to go to have fully 
equipped, trained, reliable, and willing Iraqi forces who can 
substitute for American forces.
    Again, I have an e-mail from someone who is deeply involved 
in the training. This major tells me: ``It is scary to think 
just how out of touch the chain of command is from what we are 
doing. The Iraqis are starting to quit now that we have been 
here 2 weeks. When they quit the Iraqi commander says that they 
are on leave so that we do not drop them from the rolls. They 
have been lying about their numbers in order to get more money. 
They say they have 150 when there are only 100. The senior 
officers take a cut from the top.
    ``We have caught soldiers in houses stealing property and 
the commander will not react to it. They have no interest in 
learning the job because right now the marines are doing all of 
it. We have to let them take a week's leave every 3 weeks and 
they usually return late, if at all. We had 134 go on leave a 
week ago and only 37 returned.''
    I thought that Secretary Wolfowitz made a very important 
distinction between the hardware versus the software and the 
training of unit cohesion, leadership. I guess I would ask you 
whether you think this case that I just read to you is an 
isolated incident or is there a pattern that is very 
challenging for us?
    General Myers. I think the case you read is--first of all, 
I think you said that this individual does not think the chain 
of command is aware of the situation over there. I would take 
exception to that. When I talk to General Casey, I know who he 
talks to and I have been with his division commanders when I 
visit there. They know very well what is happening and they 
know that we are in a system--let me go back to General Luck's 
comments, some of which I had in my opening statement.
    A system that was devastated under many decades under 
Saddam--he broke their spirit. Corruption was rampant. There 
was a sense of helplessness. Anybody that showed initiative 
would be whacked on the head or their family members hurt or 
injured, killed, tortured. So that is what has to change.
    I think on January 30 a lot of that did change. I think we 
saw a lot of Iraqis stand up and take responsibility. So 
hopefully that will have an impact on the culture that was 
devastated by Saddam Hussein. So I do not know if that is 
typical. Certainly it happens, but that was the kind of society 
that has bred over all these decades.
    I think one of the things that whoever sent you that e-mail 
ought to take a lot of pride in is that our men and women in 
the Armed Forces, a lot of what they do besides train people 
how to shoot an AK-47 or platoon tactics--they learned well in 
their civics classes and they are role models about what 
democracy means, what tolerance means.
    So is it going to take time? Yes. Are those incidents going 
to continue? Probably. I do not think they are necessarily the 
rule. I think those are issues.
    The leave issue is interesting. Under Saddam Hussein, since 
they had a conscript army, they would allow them to go on 
leave, but there was no penalty for not returning on time. The 
only penalty was you had to add that time on to your 
conscription time. Say they were going for a week. They would 
come back in 2 weeks and they had to add 7 days on to their 
year, so now it is a year and 7 days.
    So it is a different culture and it is hard to get used to. 
It is hard for us to probably understand it. It is part of what 
has to develop. So I do not know if that is typical. I know 
that that happens certainly, and I think our commanders are 
well aware of that.
    Senator Collins. Thank you.
    Secretary Wolfowitz. Senator Collins, I just might say I do 
not think it is typical, but I also would hasten to say that 
the hero I mentioned earlier and whose picture I put up is not 
typical either. The typical is somewhere in between and we are 
trying to raise the level of typical. I think the events of 
last Sunday not only give us some confidence that things are 
working better, but I think it creates two important facts. 
Number one, enormous pride in what Iraqis as a whole have done 
and what the Iraqi Army has done, and pride is a critical part 
of countering the kind of phenomenon you describe. Second, more 
and more they will be feeling that they are fighting for their 
country, for their government, and this impression that it is 
all us pulling the strings and it is an occupation force 
hopefully will change some of that pattern.
    But as General Myers said, we are dealing with a number of 
pretty deep-seated habits that will take some time to work out.
    Senator Collins. Thank you, and thank you all for your hard 
work.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Warner. Thank you, Senator Collins. I commend the 
witnesses for their clear responses to those good questions, 
and I would hope that maybe in this hearing you can address 
that culture, because it is perplexing, Mr. Schlicher. It is 
such a stark contrast to our strong discipline: You are absent, 
you are in trouble. But it is not true in that culture. They go 
back home for extended periods. As was pointed out, they have 
no banking system, they have no way to convey the money they 
receive for their services to their wives and children and 
needy persons, so they have to journey all the way home with a 
pocket full of cash and then come back again.
    At this time I must go to the floor to deliver remarks on 
behalf of Judge Gonzales for Attorney General. Senator Sessions 
will continue as the chair. Thank you very much.
    We will now have Senator Bayh.
    Senator Bayh. Gentlemen, thank you for your presence here 
today and thank you for your service to our country. I agree 
with all the sentiments that have been expressed both by you 
and members of this committee about the election being a proud 
moment for freedom and a proud moment for our country, and I 
hope you will let those who are serving under your command know 
how grateful we are to them for having brought this about.
    I have a couple of questions. Let me start by praising the 
administration and what I understand may be the decision to 
increase the death benefit for those who have lost their lives 
in the line of duty. I think that is exactly the right thing to 
do.
    What I would like to ask is whether you would be willing to 
consider going a bit beyond that, and let me tell you about a 
conversation I had just last week with a bankruptcy official in 
Indiana, who was recounting to me an alarming increase in the 
number of bankruptcies by military families, particularly 
reservists and guardsmen and women who have been called up for 
extended periods of time and have found themselves with an 
inability to meet their mortgage payments, health care bills, 
that sort of thing. So many of these families are being forced 
into bankruptcy.
    I have referred to the pay cut that many of them take as 
the patriot penalty that they are now paying. Some of our 
businesses are willing to step forward and make this up, but 
many cannot afford to do that. I proposed some legislation to 
deal with this, but there is no pride of authorship. I would 
like to know whether you would be willing to take a look at 
this issue, because many of these families are under great 
financial distress and it is, frankly, heartbreaking to think 
that they are being forced into bankruptcy while they are 
putting their lives on the line for our country and the cause 
of freedom.
    Secretary Wolfowitz. I would be happy to take a look at it, 
and I guess I would also--first of all, I would like to thank 
all of you and Senator Sessions, who I know particularly took a 
lead on this question of death benefits. One thing you can help 
us with is, if you agree with me that we have some special 
obligations to those people who are risking their lives in 
combat zones and we need to extend special benefits to them--
but if we then say, well, it is such a nice thing to have we 
should extend it elsewhere, because after all military service 
is dangerous even here in the United States, if we cannot put 
some boundaries around benefits in combat zones we will quickly 
find that they are not affordable for anybody. I think some 
special care and attention is necessary for service members and 
their families who are living with that kind of risk and danger 
for a year at a time, and that is what we need to look after.
    Senator Bayh. I hope we can work together on this in a way 
that is sustainable financially, but in a way that does right 
by these families, because I do not think any of us want to see 
the kind of situation that is beginning to increase as the 
periods of being called up are longer and longer, beyond what 
they could have reasonably expected or planned for in their 
financial situation.
    So I hope we can work together to try and address this in a 
way that is responsible.
    Secretary Wolfowitz. I am happy to take a look at that.
    Senator Bayh. On to my second question, Mr. Secretary. I 
want to agree with something that you said in your testimony 
about the role of Syria and Iran. The Syrians seem to me to be 
playing a game which I have called a strategy of passive 
aggression, where they may not be actively assisting those who 
are coming into Iraq to do us harm, but certainly they are not 
doing enough to prevent that.
    The Iranians, if you believe published reports, have 
infiltrated into the Shia community and are awaiting that day 
when it might be in their interest to more actively participate 
in the insurgency, clearly building up a capacity, maybe not as 
actively involved right now, but clearly with the potential to 
do that at some future point in time.
    I agree with your sentiment that we need to send them a 
clear signal that it is not in their best interest, either of 
them, to facilitate the insurgency in Iraq. With the position 
that we are in right now, being stretched fairly significantly, 
what kind of credibility do our warnings have? In other words, 
what could we look at to do in either Syria or Iran that would 
in a tangible way discourage them from inappropriate behavior 
in Iraq, other than just our verbal warnings?
    Secretary Wolfowitz. Well, let us be clear. I do not think 
it has anything to do with our capacity being limited. We are 
not looking to end this behavior with another war. But I think 
there are many things that--I mean, Syria is not a strong 
country. Part of what they do, as I indicate in my testimony, 
is out of fear of how a successful Iraq may further weaken 
their own people's support for them.
    But I think what we need to stress is there is going to be 
a successful Iraq, and it is in your interests to be on 
friendly terms with that successful Iraq. We notice what you 
are doing. I think it is very important to call attention to 
what they are doing. Frankly, I think it may be important to 
call attention to who is responsible. There is some argument as 
to whether President Assad is fully in control in Syria or not. 
But we do know this is a police state and somebody is in 
control, and we have a list of who the top 12 leaders are. They 
all have some accountability here.
    But we also need to make clear that we are not in a 
position of hostility. It is not our policy to destabilize 
Syria. It should not be their policy to destabilize Iraq, or 
Lebanon for that matter.
    I think another thing to do is to point to a potentially 
important opportunity. Things are moving forward on the 
Israeli-Palestinian front. I guess we should caution here too 
about the danger of euphoria, but I think a lot of us are 
hopeful that some real breakthroughs are possible there. I 
think the Syrians should think about whether they want to be 
left behind in that process or whether they want to 
participate, and if they want to participate then they had 
better stop interfering with their neighbor.
    Senator Bayh. Just briefly, Mr. Secretary--and thank you 
for that--my final question would be with regard to--we all 
want the new government to be successful. I am concerned that 
if time passes without some tangible improvement in the 
economic activity at the local level, perhaps some 
disillusionment will set in, which could undermine all of the 
euphoria that rightfully has existed after the election and 
could itself feed the insurgency.
    So my final question would be, what can we do to try and 
demonstrate some tangible results at the local level? We have 
focused heretofore on larger projects, infrastructure projects. 
That is understandable. But those take time and I am concerned 
that we have a window of opportunity here to try and show that 
democracy has some tangible benefits in addition to the obvious 
political freedom. What can we do to step up our economic 
development efforts in a way that will be felt at the street 
level and encourage people that, yes, this is the right thing 
to do?
    Secretary Wolfowitz. Well, first of all, let me agree 
strongly with the concern you expressed. In fact, the euphoria 
has a risk built into it, that people's expectations may now be 
too high and can be disappointed, although I think most of the 
euphoria is just the pride they take in having stood up and 
taken risks and sent a message to the terrorists.
    But I am sure there is also a sense that somehow this is 
going to make their lives better. So I think it is important to 
try to make sure that happens. One of the challenges--and this 
is why I talked about effective government ministries--is the 
Iraqis have very substantial revenues. Mr. Schlicher can 
correct me, but I think it is on the order now of $20 billion a 
year. We need to get them to put more of that money into places 
like Fallujah, for example, where people are coming to our 
marines and asking, where are the payments that we were 
supposed to get for rebuilding our houses?
    So we need to keep the pressure on the Iraqi Government. 
But I think also we need to look at how our own resources are 
being allocated. I agree with what was implied in your 
question, that it is important to focus on things that produce 
immediately visible results, even if that means giving up some 
of the desirable longer term infrastructure projects. In that 
respect, I guess I am going to appeal to what you just said. 
Sometimes I encounter people downrange, as we say, meaning 
people in Iraq, who say, well, there is this complicated 
process for notifying Congress and all this stuff has been 
notified and it is in certain lines and we cannot move the 
lines. I say my impression is if you come back with any 
reasonable justification for reallocating you will get it. You 
may have to notify and consult, but it does not take forever. 
So tell us what you need to have. Do not feel you are in some 
kind of straightjacket because of what you said 12 months ago.
    Then finally, let me also say I hope that this 
demonstration by the Iraqi people of what they are capable of 
will generate more support from other countries, so if we have 
to shift our funds from long-term infrastructure into more 
immediate projects, that there is money coming from other 
countries to backfill what we have to do. This should not be 
just the United States and Iraq paying for this.
    I think it's time in particular--I'm going to say this: 
It's time in particular for those countries that are enjoying 
huge revenue windfalls from the high oil prices to stop and 
think what their interest is. I am not asking them out of 
altruism. I think those countries have a stake in success in 
Iraq and that that success should come sooner rather than 
later. One thing they can do is help provide financial support.
    Senator Bayh. Thank you very much, gentlemen.
    Senator Sessions [presiding]. Thank you, Senator Bayh. You 
raise some important comments.
    I thank you, Secretary Wolfowitz, for mentioning Fallujah. 
I was there just 2 weeks ago with General Sadler and he was 
concerned that some of the commitments the Iraqi Government had 
made with regard to refurbishing that town had not been met.
    Mr. Schlicher, just briefly, who is responsible, who has 
the authority or responsibility for ensuring that the water, 
electricity, and other, sewage, in the country is being 
improved from our side? Is it State or Defense?
    Mr. Schlicher. Sir, all of the programs that help bolster 
the programs of the Iraqi ministries are centered in the 
embassy under an organization called the Iraq Reconstruction 
Management Office (IRMO). That is a State organization. It is 
headed by Ambassador Bill Taylor, who prior to this mission was 
our Afghan Coordinator. He works very closely in turn with the 
Projects and Contracting Office (PCO), which answers to the 
DOD.
    Senator Sessions. That is a State Department entity?
    Mr. Schlicher. IRMO is State, PCO is DOD, Department of the 
Army I believe.
    General Myers. Yes.
    Mr. Schlicher. If I could, sir, they partner both with the 
Iraqi ministries and, in the case of certain post-conflict 
zones like Fallujah, the Iraqi Government has identified 
ministerial action officers, if you will, who are--it is 
minister Hajamal Husni in the case of Fallujah. Prime Minister 
Allawi wants those points of contacts to get together the 
different line ministries who can help in those places to 
coordinate their efforts together and in turn to partner with 
the mission's efforts.
    Secretary Wolfowitz. Senator, it is a somewhat complicated 
division of responsibilities and, rather than try to add any 
detail to what Mr. Schlicher already said, I would like to 
second what he said earlier about Ambassador Negroponte and, 
for that matter, his number two, Ambassador Jim Jeffrey. There 
is a great State Department team. There is real cooperation 
between State and DOD.
    A wonderful example of it I believe is how they went 
through the difficult reallocation, I guess it was in August, 
to move $1.8 billion of project money from infrastructure into 
security forces to meet General Petraeus's needs. So I do not 
know any way to do this in a simple way. We have two U.S. 
Government departments and then we have multiple Iraqi 
ministries, as Mr. Schlicher just said, and we just have to do 
the best to work closely together.
    Senator Sessions. Well, I have worked in the Federal 
Government with a lot of different agencies and I know how 
difficult it can be. But I suppose the answer to the question 
is if we in Congress have questions about how well the 
infrastructure improvements are going we call you.
    Mr. Schlicher. Yes, sir; I am your man.
    Senator Sessions. Then you can blame it on the DOD if they 
did not do their part. We used to blame Secretary Wolfowitz for 
it all, I guess. Now we have a relationship with General Casey 
and Ambassador Negroponte that I hear is working real well. I 
guess that is at the bottom line, the personal relationships. 
Meeting every day, as I understand they do, is a key to that 
cooperational level we need.
    Mr. Schlicher. Yes, sir. Our impression is that that 
cooperation is excellent. In addition to the great personal 
relationship and working relationship, the mission has built in 
different sorts of institutions into the scheme to make sure 
that the political and military sides of the house are knit up.
    Senator Sessions. I think we would like to see if we can 
improve that. I think there is a consensus here in Congress 
that we would love to see the electricity and water and all do 
better, for the reasons you have previously stated.
    Secretary Wolfowitz, I am just going to take a moment to 
say this. I have been so proud of our men and women in uniform 
and we have repeatedly talked about that. But I also want to 
say, I have been proud of President Bush for his steadfastness 
and his insight and courage to stay the course. I think the 
same goes for Secretary Rumsfeld. He is a man of extraordinary 
experience and good judgment, who has seen this big picture 
correctly.
    I know many have blamed you. They have said you are the 
ones that really thought it all up and conjured these things 
up, so any difficulty is your fault. But I think you have been 
a brilliant Deputy Secretary of Defense and you have served our 
country extraordinarily well. The election that we had just a 
few days ago, those pictures, if you looked at them, that you 
passed out would bring tears to anyone's eyes who has 
sensitivity to the historic moment.
    I would also say that this has not been the only 
accomplishment. I have visited with President Karzai in 
Afghanistan on two different occasions. He is a wonderful, 
decent, good person. They are establishing a decent good 
government. A war of 20 years' decimation of that country has 
ended.
    You have worked with Pakistan and they have turned against 
terrorism and they are a good ally with us in fighting the 
terrorists. We have seen now the Iraqi regime of Saddam Hussein 
collapse and a new election occur, a historic thing. Qadafi in 
Libya has renounced terrorism. We have had an election for the 
Palestinian leader. Sure, we are not there yet, but that is an 
historic event. The Ukraine has had a free and democratic 
election, tense and tough, and you were on the right side of 
pushing for a reelection count that allowed forces for progress 
to succeed.
    This Abdul Khan and his proliferation of nuclear weapons 
ended because the United States was willing to use force when 
we had to to confront the bad problems that are around our 
world.
    So I will just say that, no, we do not need to get overly 
optimistic. There are a lot of difficulties ahead. But I am 
telling you, that election just a few days ago in Iraq I 
believe was historic. It was achieved by the excellent 
performance of our men and women in uniform and the courage and 
the professionalism, General Myers, they have shown. But it 
also is--I think those of you who have been in the hot seat, 
who have had to make the tough calls day after day, have 
performed well.
    Nobody is perfect, but I think we have made real progress, 
and I for one want to say thank you.
    Secretary Wolfowitz. Senator Sessions, thank you for that 
and thank you for the personal comment. I must say I find it 
almost laughable when people suggest that Secretary Rumsfeld 
needs me to tell him what to think or Secretary Powell somehow 
needs me to tell him what to think and, most of all, that the 
President of the United States needs other people to tell him 
what to think. He has made some very tough decisions, as you 
point out, which have had some very big successes.
    Let me just say, the one in that list--it is an impressive 
list, but one that you did not mention and people are very 
afraid to mention it because if we talk too much about our 
success in preventing attacks on the United States, we know we 
could be attacked tomorrow. We know the enemy is out there 
plotting every day.
    I cannot tell you that we are safe. But I can tell you that 
we know that many attempted plots have been broken up because 
we have killed or captured thousands of terrorists, because we 
have worked with some 90 countries around the world to get 
information about those plots. It has required, by the way, 
difficult decisions, which I know have caused controversy about 
how you deal with detainees, how you get information from 
detainees. But that information is life-saving information. The 
President has taken a lot of criticism for it and I think he 
deserves a lot of credit for the fact that we have done as well 
as we have.
    But people should not be lulled into a false sense of 
complacency that, because we have not been attacked here since 
September 11, things are safe. The enemy is out there. Osama 
bin Laden is still out there, although there are a lot of 
indications that he is in increasingly difficult circumstances. 
Let us not forget: He declared war on Sunday's election. It was 
a big defeat for him and for his friend Mr. Zarqawi.
    We are really in a fight to not just protect the lives of 
Americans, but to protect the open society that we live for and 
that the whole world depends on. It is not going to be over any 
time soon, but I think we have made a lot of progress in the, 
what is it, 3 years since September 11.
    Senator Sessions. I have to agree. I think any objective 
observer would agree.
    Senator Byrd, I believe you are next.
    Senator Byrd. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your testimony. I know that 
millions of Americans are pleased at the results of the recent 
election in Iraq. Iraq by all indications, then, if we base it 
on the election results--and we are not sure that we know 
exactly the results yet--is beginning to take care of itself. 
To me this indicates that we should start bringing our troops 
home soon.
    I think our troops have performed magnificently, under the 
most stressful conditions. The wounds that they bring home are 
the most terrible wounds of the most terrible war that our 
service men have ever fought. I wonder about the mental strains 
and stress that these men undergo 24 hours a day, how they must 
watch to their left and watch to the right and watch to the 
rear and watch to the front, because they know not from where 
that single bullet or that explosive may leave a resounding 
hole in their own flesh, and that concern and prayerful waiting 
by those who love them and who await their return.
    I do not think, Mr. Chairman, that we realize to the 
fullest extent how much these men deserve, how much they have 
suffered. They did not ask to go there, most of them, and they 
were made promises that have not been kept. I think they have 
been imposed on in many respects. Yes, they are patriotic. They 
are doing what they were told to do. But they are not there for 
what they were told was the cause and the reason or reasons why 
we should invade Iraq.
    I think this is a major imposition upon them and their 
loved ones. So I shall do everything I can insofar as the 
Appropriations Committee is concerned to support every penny 
that is asked for for those men and women, the soldiers and the 
marines and the people who have served so well in this most 
dreadful of wars that will leave the most dreadful of wounds 
upon our body politic.
    We are fighting two wars, Mr. Secretary. We are fighting a 
war in Afghanistan in which we were attacked, in which the 
United States was attacked by 19 hijackers on September 11, 
2001. Not one of these hijackers was an Iraqi, not one. That 
war is different from the war that we are fighting in Iraq.
    I was fully supportive and am still supportive of the war 
in Afghanistan. Our country was invaded by these 19 hijackers. 
I was supportive and am still supportive of our Commander in 
Chief, our President--I prefer to call Mr. Bush our President 
rather than the overdrawn term ``Commander in Chief.'' I was 
supportive of everything he did, his quick reaction, his going 
after the attackers. I am still supportive of that war.
    But that is not the same war that we are fighting in Iraq. 
They are different wars. In Iraq we were not attacked. No, we 
did the attacking. That war is the result of the Bush 
administration's pernicious preemptive strike doctrine and 
nothing we can say will erase the blot upon the escutcheon of 
the Senate when it voted 77 to 23 to turn over lock, stock, and 
barrel the power to send our military forces wherever the 
President wished, whenever he wished, and for whatever he 
wished in respect to Iraq. That was a terrible blotch upon the 
escutcheon of the Senate and that is why today the President 
can say, we will do this, or we will not do this, and Mr. 
Rumsfeld can say, we will do this and we will stay there until 
this happens or that happens. It is because we turned over the 
Senate's, Congress', prerogative to declare war under the 
Constitution to one man. Whether he be Democrat or Republican, 
that turnover of power will remain there until kingdom come 
unless Congress at some point votes to retrieve that power.
    This preemptive strike doctrine, on which I suppose you had 
a considerable amount of input, is unconstitutional on its face 
because it takes away from the collective bodies, not just one 
but bodies, of the Legislative Branch under the Constitution, 
it takes away from those collective bodies the power to declare 
war and shifts it to one man, which the framers would never 
have intended happen. I am not one of the 77. I am one of the 
23.
    But all that aside now--we can talk about that for a long 
time. All that aside, the war in Iraq and the war in 
Afghanistan, not being the same but two separate wars, the war 
in Afghanistan having been a war which resulted from the 
invasion of our country by 19 hijackers, causing the deaths of 
3,000 Americans and causing many other terrible results, that 
war is one war.
    But the war in Iraq is the result of, as I say, that 
pernicious doctrine under this administration of preemptive 
strikes. I am against that war. I was against it. I will remain 
against it. But I shall never fail to support the American 
troops. It was not their fault that they were lulled in or 
brought into a war to which the American people were lied about 
and misled time and time again about.
    Having said that, these two wars have already cost the 
American taxpayers almost $150 billion. We are told that the 
President will be requesting another $80 billion for the war 
effort in the next few days. Yet the President stubbornly 
refuses to share with the American people any notion of a 
timetable--you see, that would not have been the case if the 
Senate had done its duty. That would not have been the case--
any notion of a timetable for withdrawing our troops from Iraq 
or Afghanistan.
    It has been almost 2 years since the invasion of Iraq and 
the U.S.-led coalition, which was never robust to begin with, 
is shrinking, not growing. I read that the President made a 
round of telephone calls to world leaders about the Iraqi 
elections. That is all well and good, but telephone calls do 
not pay the bills.
    What, if anything, is the administration doing to relieve 
the burden on American taxpayers and attract more monetary 
support and more military support from Iraq's neighbors and 
from the international community? How much longer does the 
President expect the American people to shoulder almost 100 
percent of the cost in Iraq and 90 percent of the casualties, 
90 percent of the blood that has been shed there of the 
occupation forces?
    Could you give us some insight as to when the burden on the 
American taxpayers can be expected to be at least one in which 
there is attracted more monetary and military support from the 
world community and from Iraq's neighbors?
    Secretary Wolfowitz. Senator Byrd, if I could just make I 
guess four points. First of all, with enormous respect for your 
views and your real scholarship about the Constitution, I do 
not believe that these are separate wars. Mr. Zarqawi was alive 
with Osama bin Laden in Afghanistan and running training camps 
in Afghanistan. He was organizing worldwide terrorist 
operations in France and England and Turkey and Georgia before 
we went into Iraq. He is now focused on Iraq. He is a major 
enemy.
    Osama bin Laden is focused on Iraq. He has attached his 
prestige to this war. Winning this war in fact will be a big 
blow against Osama bin Laden.
    Second, you spoke eloquently and I cannot improve on it 
about the tragic price of war. I think any war is terrible, and 
with an enemy that resorts to the kinds of vicious weapons that 
this one does it has a particular ugliness. But I think it is 
also a lesson that we can take from history that it is 
important not to leave a weakened enemy out on the battlefield.
    In fact, I think it is fair to say that we rested on our 
laurels when the Soviet Union withdrew from Afghanistan and 
concluded we had dealt with the problem and we could ignore it, 
and that is part of what created a sanctuary from which Osama 
bin Laden could organize the attacks of September 11. I think 
it is very important that we not only defeat them, but that we 
not give them that opportunity in Iraq.
    Third, I think it is very important to say, while every 
American casualty is painful, we are not 90 percent of the 
casualties. As I mentioned previously, the Iraqis police and 
army have lost almost as many now as we have and in a shorter 
period of time. Since June 1 they have taken a larger share of 
the combat. Our goal is to have them take an increasing share 
of the combat.
    Finally, on this question of who pays, I agree with you 
that I think it is in the interest of the entire world to see 
the Iraqi people succeed and I think Sunday was a powerful 
statement to the whole world of what the Iraqi people want, and 
I hope it will inspire those countries that love freedom and 
democracy--our closest allies around the world--to look at this 
issue in a different light after the Iraqi people made that 
statement on Sunday.
    Second, I agree with you that the countries in the region, 
especially the ones that enjoy substantial oil wealth, have an 
interest in stability and that interest in stability will be 
promoted by helping to bring this war to an end as quickly as 
possible, and I think that is what our goal should be.
    So while we may disagree on certain points, I think we 
agree on the way ahead.
    Senator Sessions. Senator Thune.
    Senator Byrd. Mr. Chairman, may I not pursue that just a 
moment?
    Senator Sessions. Briefly, yes, sir. I give extra time to 
the Senator from West Virginia.
    Senator Byrd. Mr. Chairman, a little extra time here I do 
not think is going to make any of us suffer. I have waited a 
long time. I have listened to the rosy scenarios that have been 
spread before this committee time and time and time again. I am 
about filled up with these scenarios, these wonderful 
scenarios. I have heard of them time and time and time again.
    So the credibility as far as I am concerned, Mr. 
Secretary--and I say it with all respect to you--your 
credibility has suffered and so has the administration's by the 
time and time again rosy scenarios and by the failure to find 
those WMDs which would lead to mushroom clouds. Thank God there 
were none, but that is why we went into Iraq.
    So credibility is an important thing here, too. But I still 
have not heard the Secretary answer my question. How much 
longer does the President expect the American people to 
shoulder almost 100 percent of the cost of the war in Iraq and 
90 percent of the casualties, 90 percent of the casualties?
    Would I give my son, if I had a son, would I give a 
grandson? Mr. Secretary, would you give a son? Would you give a 
grandson? Perhaps you have given some. I know not. But would 
you give them and then answer the questions as you have?
    Let me ask you once more: What, if anything, is the 
administration doing to relieve the burden on American 
taxpayers and attract more monetary and military support from 
Iraq's neighbors and the international community? Can you 
answer that question?
    Secretary Wolfowitz. We have made several efforts, Senator 
Byrd, over the last 2 years--and Mr. Schlicher might elaborate 
on them--in various fora to elicit contributions from 
international financial institutions and from our allies, and 
those have met with some success, though not as much as we 
would have liked, I think.
    We have a new opportunity in the wake of these elections to 
look at going further and, while it is a little early to say 
how we will do it, I think we should.
    Ron, do you want to add anything?
    Mr. Schlicher. Yes, sir, if I could add on the military 
burden side with just a few observations on recent coalition 
developments. The MNF-I includes 28 non-U.S. contributors right 
now. They total 25,000 troops. There are four other non-MNF-I 
nations which contribute to U.N. protection and to the NATO 
training mission.
    The number of coalition nations has dropped at the end of 
2004 as countries completed their scheduled deployments. But in 
the most recent period the number of troops as I understand it 
has actually grown, in part due to the new arrival of 3,000 
Korean troops. Additionally, the U.S. is helping Bosnia prepare 
an explosive ordnance disposal unit for their first deployment 
this summer, and there are also going to be additional troops 
from Romania and Georgia, 550 and 100 respectively, who are 
going to be coming in the next few weeks to do U.N. protection 
duty. Those are recent additions, so that that helps answer the 
part on the military burden, sir.
    On the economic burden, we have been working closely with 
the Iraqis and the bilateral joint economic commission on a 
full range of economic issues. One of those issues is how the 
Iraqis can get out in front in organizing according to their 
desires how the international donor community can help them 
meet their needs. There is another donor meeting scheduled--
please do not hold me to it--I think it is in April. So that is 
going to be a very pivotal point.
    We are certainly going to be in touch with a very wide 
variety of countries to urge them to seize the opportunity 
presented by these elections to show their support for that new 
government. Some may choose to do it in military terms. Some 
may choose to do it in economic terms. But the time is 
certainly ripe for it.
    Senator Byrd. Thank you, Mr. Chairman. My time is up.
    General Myers. Senator Sessions, could I make a comment on 
the comment that Senator Byrd made?
    Senator Sessions. General Myers.
    General Myers. Senator, you eloquently talked about the 
sacrifice that our military makes and it is absolutely right. 
But I think we need to realize that, of all the people that are 
involved in this, whether it is the American public or whether 
it is Congress or whether it is those of us in the Pentagon, 
the ones who probably understand what is at stake here more 
than anybody else are the men and women that are out there on 
the front line, whether it is in Iraq or Afghanistan. They 
understand that.
    I have to tell you that I think they are very proud of 
their service, that they understand why they are there, and 
they are proud of their sacrifice. The reason I say that is 
that as you visit those that are, as you put it eloquently 
again, so badly injured, because there are some terrible 
weapons out there these days, the IED being one of them, 
mangling human bodies, but the people that I meet, the men and 
women that I meet in Bethesda, Walter Reed, and other places 
around this country, are proud of what they are doing.
    It is more than Iraq. It is more than Afghanistan. I think 
they understand what this threat is all about. These are 
people, Osama bin Laden, Zawahiri, Zarqawi, and others who join 
with them in jihad, not just in Iraq, not just in Afghanistan, 
but essentially around the world. Their stated intent, often 
stated, recently stated, is to do away with our way of life.
    Our military personnel are proud of their contributions to 
stopping this threat. General Abizaid has said you can fight 
them there or you can fight them here. I have not said that, 
but General Abizaid has said that. There is a great deal of 
truth in it.
    Thank you.
    Senator Sessions. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you all for your testimony this morning in response 
to these questions. This is a global war on terror and Iraq is 
a breeding ground for that war. It has been for some time. I 
have believed for some time that it was only a matter of time 
until we were going to go in and have to deal with the 
situation there.
    But I think what we have seen in this last week is a 
remarkable display of courage on behalf of the Iraqi people. It 
also occurred to me that the Iraqi election may also be part of 
the much larger trend, and that is the democratization of the 
Muslim Arab world. You had mentioned the hatred that they have 
for our way of life, but if you look at just in this last year, 
in April the world's most populous Muslim country, Indonesia, 
held parliamentary elections in which they rejected Islamist 
extremist parties.
    Of course, you mentioned Afghanistan, which had elections 
in October of last year, and more recently there have been 
elections in the Palestinian territories, and now Iraq. You 
look at what these people, when they have a taste of freedom, 
what they are doing. They display incredible courage, with 
turnout numbers that are comparable to what we experience here 
in this country, under threats to their very lives and the 
attacks that they are exposed to consistently. Still they 
turned out in huge numbers to express their support for freedom 
and democracy.
    I really believe that, Mr. Chairman, 2005 could be a 
decisive year in the cause of freedom in the Middle East and 
democracy in that area of the world. I think it is so important 
because I do see that, in this broader global war on terror 
that we are fighting, as the epicenter for where that threat 
will come from in the future.
    Just one question perhaps, Mr. Chairman, as sort of a 
follow-up to that. That is, do you believe the success of the 
Iraqi election offers any lessons regarding the President's 
stated goal of expanding democratic opportunities in the Middle 
East? In other words, based on what we have seen and 
experienced there, is this a trend that we can see continue? 
The policies that have employed there--again realizing full 
well that there is a lot of turbulence ahead, there will be a 
lot of adversity and a lot of heavy lifting ahead for the Iraqi 
people and for their neighbors in the region. But is this 
something that we could see expand and grow and really 
transform that area of the world, the democratization of the 
Middle East, what traditionally has been an area very hostile 
to the United States?
    Secretary Wolfowitz. Senator, it does and it does not. It 
does in the sense that what we saw was this passion for freedom 
and for self-government that we have seen in Ukraine, in Chile, 
in South Africa, in South Korea. In the Philippines I 
experienced that very closely in 1986. Even in Iraq, under 
conditions of unbelievable intimidation, people want to be 
free. They want to choose their leaders. That I think is what 
the President was talking about as something universal.
    It does not, however, in the following very important 
sense. I hope Iraq will be an exception, but this was a case 
where we used American force because we believed, based on I 
think very strong intelligence, that this country, that regime, 
was a threat to us, and that changed the calculations. But I 
think if you look at the trend over the last 20 years--and it 
is an impressive trend--Senator Kennedy talked earlier about 
the spread of freedom and democracy in Latin America in the 
1980s and in South Africa. I do not know if you were here. I 
commented on my own experience when I was Assistant Secretary 
of State for East Asia with the Philippines and with Korea and 
with Taiwan and then, much later, unfortunately, 10 years 
later, Indonesia came along. Thailand has come along.
    We have seen an incredible expanse of freedom in central 
and eastern Europe and most recently in Georgia and Ukraine. It 
is stunning, and every one of those cases happened without 
American combat forces. I would hope that that is the kind of 
change we can see in the Middle East going forward. I hope the 
governments that feel, correctly, that they are being called 
upon to reform will understand that it is not meant to 
destabilize them, it is not to bring about revolutions, but 
that in fact I think reform is the best way for them to 
preserve stability.
    In fact, when I was Ambassador to Indonesia, I had my 
farewell call on President Suharto, who was the dictator of 
that country at the time, a mild dictator compared to Saddam 
Hussein, I would note, but a dictator nonetheless. I talked in 
sort of oblique ways about the need to have political change in 
Indonesia and he talked less obliquely about the need to 
preserve stability. I said: ``Well, Mr. President, you talk 
about dynamic stability; I do not actually preserve stability 
by standing still. You have to move forward.''
    I would submit that what happened to him 10 years later is 
because he did not move forward, is because he tried to stop 
progress, because he tried to suppress civil society in 
Indonesia, because he drew more and more power around him.
    There are examples elsewhere. Taiwan is a stunning one. 
Actually South Korea is a stunning one, where authoritarian 
leaders--Spain is another one actually if you go back 30 
years--where authoritarian leaders have seen the need to 
prepare the way for something that is less authoritarian after 
them. It is possible. It happens. The whole world is better off 
for it. I think that is what the President is talking about.
    I hope Iraq will be an exception, that we will not need to 
use American troops to protect ourselves, and there are ways 
through many peaceful means to support free and democratic 
forces throughout the Muslim world.
    Senator Thune. I would just say that I share that view and 
I hope that the power of example, which can be a powerful tool 
as other nations in that region and around the world see and 
begin to taste what freedom and democracy are about, that it is 
the power of that example and the power of freedom and not the 
power of the military that can bring that result about.
    But clearly we have made tremendous strides and progress in 
Iraq and I hope we continue on that path. I would say to the 
general, please convey to the troops as well our appreciation 
for the extraordinary work that they are doing. I share what 
you echoed earlier today, that there is not hardly anywhere I 
go where I talk to people who have been in the theater or their 
families, for that matter, who do not believe profoundly in the 
mission and in what they are trying to accomplish there. They 
really are very committed to it and they think that what they 
are doing is making a difference. I happen to share that view. 
So thank you.
    General Myers. Thank you, Senator.
    Secretary Wolfowitz. Senator, if I could just say I agree 
with you very strongly about the power of example. You 
mentioned those four cases--Indonesia, the Palestinian 
Authority, Iraq, and Afghanistan. I think there is a message 
there that is having an effect.
    Senator Sessions. Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. I apologize for 
not being able to be here in person for the testimony of the 
witnesses and I thank them for appearing before the committee.
    I too want to express my profound admiration for the Iraqi 
people and their desire to have their voices heard through the 
ballot box. I think no one could see the pictures coming out of 
Sunday's election without being very moved by the notion of 
ordinary Iraqis braving threats, risking lives, even losing 
their lives, in order to vote. There is no doubt it could not 
have happened without our men and women in uniform being there 
to guarantee that vote going forward. They deserve our equal 
support, respect, and gratitude.
    I do not think that there is any argument about the 
extraordinary display of freedom and the move toward democracy 
being in the short-, medium-, and long-term interests of 
humanity and the United States. But as is clear from the 
questioning, there are lots of concerns about the direction 
that we have headed and some of the decisions that have been 
made. There has been relatively little oversight. This 
committee I think is notable in Congress for performing more 
oversight than anyone else, in a bipartisan way, thanks to our 
chairman and ranking member.
    But I think vigorous oversight and hard questions are part 
of democracy. So I hope that we can keep focused on what are 
the real issues that we need to address going forward.
    Mr. Secretary, we are going to be receiving a supplemental. 
Many of us have argued that we need a larger Army, and indeed 
the Army is currently using temporary measures paid for through 
supplementals to pay for a larger force in order to meet our 
needs in Iraq. We obviously have a strain on our active duty as 
well as our Reserve components. That is an issue that is not 
going away. Every day we wait to deal with it means it is going 
to take longer and be more expensive if a decision is made to 
permanently expand the size of the standing Army.
    Is the DOD considering making the larger Army a permanent 
part of the defense budget and will the DOD be looking at the 
size of the overall force during its Quadrennial Defense Review 
(QDR) this year?
    Secretary Wolfowitz. The answer to both questions is yes. 
In fact, in the 2006 budget and the 5-year defense plan that 
will come with the 2006 budget you will see that we will bring 
the cost of this larger Army into what we call the top line in 
our regular budget starting in fiscal year 2007 and that we 
have had to make some very considerable adjustments in the rest 
of the defense program in order to pay for that.
    We need to fund it through supplementals in this fiscal 
year and next fiscal year because that is not the kind of 
change you can--it is like trying to turn a tanker on a dime. 
But we are not trying to hide the cost, either. One of the 
reasons we are very pleased that we have put out the fiscal 
year 2005 supplemental number along with the 2006 budget 
request is so that Congress can see what those costs will be 
going forward.
    But yes, we think the only prudent thing at this point is 
to plan for that as a permanent change. Permanent changes, of 
course, mean permanent bills and that is how we have to adjust 
the defense program.
    Definitely, I think in the QDR the question of whether this 
increase is the right one is one of the questions that we will 
be addressing.
    General Myers, do you want to add to that at all?
    General Myers. I would only say--and I think Senator 
Clinton knows this well--it is more than just the people. There 
are equipment needs as well and that is why, as you will see in 
the budget submission, the Army needs additional resources to 
do what they need to do in the future, and that is all wrapped 
in there.
    Senator Clinton. I think it is a very difficult decision, I 
grant that. But it is also a very important one for this 
Congress and the American public to grasp. The budget 
implications, given the extraordinary deficit situation we are 
facing, are ones that have in my view very serious consequences 
for our long-term ability to sustain any kind of aggressive 
defense posture. So we need to start this conversation now and 
not do it in a piecemeal way.
    Let me ask you too, Mr. Secretary. Can you clarify once and 
for all: Is there any consideration being given to extending 
Reserve component deployments?
    Secretary Wolfowitz. I think you are referring to this 
issue of whether or not--this question of I think a narrow 
interpretation of the law. This is the question of the 2 years.
    Senator Clinton. Right.
    Secretary Wolfowitz. I think our very strong view is there 
is enough burden on reservists as it is with the prospect of 24 
cumulative months and nobody should start saying, well, it is 
consecutive in the law. I think our policy is very clear.
    Chairman Warner. I can take that as a clear policy 
statement?
    Secretary Wolfowitz. Yes. If I could add, too, on your 
point about the Army, it is important. As I think both you and 
General Myers noted, it is not just more people, but a major 
reorganization of how those people operate. We have a typically 
opaque bureaucratic term called ``modularity,'' and what it 
really means is restructuring the Army so it is deployable in 
more small units. One of the things that does is it spreads the 
burden of these difficult deployments over a much larger 
portion of the force and makes it considerably less stressful 
on everyone.
    General Myers. The discussion includes the Reserve 
component as well. It is one total piece.
    Senator Clinton. I appreciate that. My time is up, but 
perhaps this is something for the chairman and the ranking 
member to consider, running parallel with these decisions, 
moving from supplemental to top line budgeting, looking at the 
QDR, it may be time to consider perhaps that Congress take a 
look in a sort of Goldwater-Nichols, but it would be perhaps 
Warner-Levin, approach toward acquisition and purchasing rules 
in the Pentagon.
    I think that we have so many tough decisions ahead of us 
and I for one am not convinced that we have really done all we 
need to do legally to set forth a road map and working with the 
DOD to have a new approach, some new thinking, some 21st 
century, on-time inventory kinds of thinking that we have done 
from the back end, but in a more forward-looking way.
    Because we are going to face a lot of very tough decisions 
on this budget with respect to some of the reports we hear 
about decisions that have been made with respect to certain 
weapons systems. Taken out of context, they will be great 
fodder for political battles. Put into a broader context of 
what we are trying to achieve, that might or might not be the 
case. But I think we need a new look at that.
    Chairman Warner. Senator, we thank you for that 
observation. It is a matter that the distinguished ranking 
member and I are frequently discussing and I can assure you and 
other members of the committee that we will in this Congress 
address those critical questions, and do it not just in a 
simple hearing but in a more extensive way.
    I thank the Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
apologize for not being here to hear the testimony of Secretary 
Wolfowitz, General Myers, and Mr. Schlicher. The reason is that 
I have been at the Veterans Affairs Committee's hearing on 
survivor benefits and we just concluded that hearing.
    Chairman Warner. Well, as ranking member of that committee, 
that was very important and essential that you be there. I am 
delighted, and it is the intention of Senator Levin and myself, 
Senator Sessions and Senator Lieberman, to be in consultation 
with you and Senator Craig as to how quickly we can move that 
piece of legislation.
    Senator Akaka. Mr. Chairman, Senator Craig and I heard the 
witnesses who are survivors and widows of some of our service 
people.
    But I am here to ask a question or two of our panel. 
Secretary Wolfowitz, it is reported that Army leaders are 
considering seeking a change in Pentagon policy that would 
allow for longer and more frequent callups of some reservists 
to meet the demands of conflicts in Iraq and Afghanistan. My 
question is very close to what has been asked by Senator 
Clinton on this matter. Here is the question. As the Army 
considers making last year's temporary increase to 30,000 Army 
troops permanent, what is the DOD doing to ensure that as our 
troops are being stretched out throughout and around the world, 
to ensure that we continue to have the quality force that we 
need?
    Second, what is the DOD doing to ensure that the tempo of 
operations (OPTEMPO) does not diminish the quality of life to 
the point of impacting retention for Active-Duty, Reserve, as 
well as National Guard troops?
    Secretary Wolfowitz. I think the heart of the answer is 
that we are looking not only to increase the size of the Army 
but also to do two other things. One is what we call 
modularity, as I said, which is to create a larger number of 
deployable units, kind of along the way the Marine Corps is 
already organized, so that the burden of these deployments if 
they have to be sustained is across a larger effective force. 
Second, a lot is being done to redistribute roughly 100,000 
positions between the Reserve and the Active-Duty Force so that 
we are not in the position where for certain critical 
specialties that we are short on we have to keep calling up the 
same reservists over and over again. That has been a problem 
going back to Bosnia and Kosovo, and I think the Army is doing 
a lot to shift the Active-Reserve balance in these critical 
specialties so that that stress is relieved.
    Senator Akaka. Members of this committee are interested in 
readiness and keeping the quality of the force.
    General Myers. You bet, we all are. I spend a great deal of 
my time trying to look around corners to make sure that as we 
ask a lot of our forces, Active-Duty and Reserve components, 
that we are taking those steps to make sure that recruiting and 
retention stay healthy.
    I think today actually we are in pretty good shape, thanks 
to Congress and the help that they have given in providing 
incentives and bonuses for people to stay in, and also the 
increase of our recruiting force almost across the board. We 
are staying up with recruiting in most cases.
    The one area you need to watch very carefully is in the 
Army Reserve. The Army Guard is in pretty good shape. The Army 
Reserve is going to take some attention and we are putting the 
attention to it.
    But the most important thing we can do and we have tried to 
do is provide, particularly for our Reserve component forces, 
predictability in their lives. So the Secretary of Defense has 
instituted policies about how often they can be called up and 
the timelines that we are going to follow. We started off not 
doing that very well several years ago. We are doing that much 
better today. I think we are providing better predictability, 
in fact pretty good predictability. Every once in a while we 
will be caught by a condition. For instance, in Iraq we have 
had to make some change and had to extend, no Reserve units, 
but active duty units, for 15, 30, 45 days longer than we 
anticipated having them in there.
    So we focus very hard on predictability and where the 
situations permit, which is in most cases, we try to live up to 
the promises we make. We feel like if we do not do that we are 
actually breaking our promise. So we take that very seriously, 
and the Secretary in particular takes that very seriously.
    On top of that, there are a myriad of things that are going 
on. Some of this will be reflected in the budget in terms of 
balancing between the Active and Reserve components, making 
sure we have the right forces in both components, and that they 
are well trained. I think you will see a lot of that as we look 
at what the Army is going to do over the next many years as 
they try to fashion an Army for this 21st century.
    Senator Akaka. This committee has been trying to maintain 
and improve the quality of life of our military. This plays 
into the retention factor. I am asking these questions just to 
be sure we are focusing on retention and trying to keep our 
forces there.
    General Myers. Absolutely, sir. It is a critical issue. I 
am very happy that you are focusing on it. I think a lot of 
people need to focus on this particular issue. We have a very 
important mission. We have very high OPTEMPO, personnel tempo, 
in trying to meet that mission, and the last thing we want to 
have happen is to come out of this period with a force that is 
not fully recruited, that we do not have the numbers we need. I 
am not talking again just active duty, but in the Reserve 
component as well.
    Senator Akaka. Thank you very much for your responses, Mr. 
Secretary and General Myers.
    General Myers. Thank you, sir.
    Chairman Warner. Thank you, Senator Akaka.
    Secretary Wolfowitz. Mr. Chairman, could I just make one 
note?
    Chairman Warner. Of course.
    Secretary Wolfowitz. On a statistical point earlier, I 
think I was asked about the personnel fill of Iraqi units and I 
think I used a figure of roughly 60 percent. That figure if I 
understand it applies to regular Army units. The fill for 
National Guard units is actually considerably better, according 
to General Petraeus, well over 90 percent. These special police 
battalions, of which there are now seven, average 85 to 90 
percent strength.
    We will try to give you a breakdown in detail, but it is 
one more illustration of the fact that we are dealing with a 
force that is made up of many diverse components and it is a 
bit hard to generalize.
    Chairman Warner. Thank you, Mr. Secretary. We will do that.
    It is important that we cover Afghanistan in this hearing. 
That is an extraordinary success story and I would like to 
invite Ambassador Maureen Quinn, the Coordinator for 
Afghanistan, to join our witnesses. Mr. Schlicher, I desire you 
to remain.
    You can make such opening comments as you so desire, 
Secretary Wolfowitz and General Myers. I think we want to keep 
the comments to a minimum. Then we will turn to Ambassador 
Quinn for her overview of the Afghan situation.
    Senator Levin. Mr. Chairman?
    Chairman Warner. Yes.
    Senator Levin. I am wondering if you might yield to me for 
two questions on Iraq.
    Chairman Warner. Yes.
    Senator Levin. I have to go to the floor I believe right 
now.
    Chairman Warner. All right.
    Senator Levin. I would appreciate that.
    Just one question for Mr. Schlicher. The Transitional 
Administrative Law (TAL) provides that two-thirds of the voters 
in any three Iraqi provinces can veto the constitution, which 
would mean that the Kurds, the Sunnis, and the Shiites could 
probably defeat the constitution if they were united in 
opposition to it.
    My question is this: Will that TAL for the referendum on 
the constitution that is to be drafted under the new assembly, 
will that be controlling? That is my question: Will the TAL be 
controlling for the referendum on the constitution that is 
going to be drafted under the new Transitional National 
Assembly (TNA)? Or can that assembly amend the TAL?
    Mr. Schlicher. Sir, it is my understanding----
    Chairman Warner. Let me interrupt. I think it is a very 
important question. I think the witness should be given the 
opportunity to explain the origin of that law, how it was under 
a previous group and is carried forward.
    Mr. Schlicher. Yes, sir. The TAL in many senses serves as 
the interim constitution of Iraq. It was negotiated actually 
during this time period last year, culminating in March last 
year. Again, in many senses it serves as an interim 
constitution. It does many important things, especially giving 
the Iraqis for the first time an equivalent of a bill of 
rights.
    But it also sets out many procedures for the political 
processes that we are going to see during the course of this 
year, which is where Senator Levin's question hooks in. Senator 
Levin, it is my understanding that the TAL will be controlling 
until the adoption of a new constitution.
    Senator Levin. Which means that it will be controlling as 
to how that new constitution is adopted?
    Mr. Schlicher. Yes, sir, that is my understanding.
    Senator Levin. Thank you.
    One last question, Secretary Wolfowitz. The Special 
Inspector General for Iraq Reconstruction, Stuart Bowen, issued 
an audit report this week in which he concluded that the CPA 
failed to establish or implement managerial, financial, and 
contractual controls needed to ensure that funds provided to 
the interim Iraqi Government ministries were properly used 
during the period before the transfer of sovereignty on June 
30, 2004. That report indicated that the CPA was ``burdened by 
severe inefficiencies and poor management and failed to review 
and compare financial, budgetary, and operational performance 
to planned or expected results,'' and that left the expenditure 
of about $9 billion in Iraqi funds ``open to fraud, kickbacks, 
and misappropriation of funds.''
    It said in this report there was no assurance that funds 
were not provided for ghost employees and gave a number of 
examples of where that was a likely or a very real possibility 
because the authorization of payments to numbers of people were 
way above the validated number of those employees.
    I am wondering whether or not you have made a response to 
the CPA Inspector General's report and, if not, if you have not 
given a written response, do you agree with it in general and 
will you give a detailed written response to this committee?
    Secretary Wolfowitz. Ambassador Bremer gave a very detailed 
response to the initial report and I will submit that for the 
record. It is pretty powerful and quite eloquent. I think I 
could summarize it by saying that you have to weigh the risks. 
There are risks of not having adequate controls on how money is 
spent and there are risks of having such controls on how money 
is spent that important functions do not get performed, like 
paying police and paying school teachers and keeping the 
country functioning.
    It is almost as though there is criticism when it comes to 
U.S. appropriated funds that we have not spent it fast enough, 
and now when it comes to Iraqi funds that we spent it too fast. 
I think on the whole it seems to me Ambassador Bremer made some 
difficult decisions and made them the right way. But this was a 
difficult situation. There was no perfect answer and you 
certainly could not have waited until you had a perfect system 
of controls. I think that you will see is the thrust of this 
letter and I will find out, Senator Levin, if he has changed 
his views at all in light of the report.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Levin. Whether that represents the views of the 
Department.
    Secretary Wolfowitz. Okay.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Levin.
    Now, Mr. Secretary, some overview on Afghanistan, I think a 
success story of considerable proportions owing to the 
leadership of the President, the Secretaries of State and 
Defense, yourself, and many others.
    Secretary Wolfowitz. In this case also we have a case where 
the enemy declared war on democratic elections, and the 
elections went ahead in spite of them. The intimidation level 
was not as severe as it is in Iraq, but it was real. You have 
these very moving stories of women dressing themselves, 
preparing themselves for death to go out and vote.
    I had the privilege when I was in Indonesia to look at the 
tsunami relief operation just recently to talk to a woman who 
is head of one of the largest Indonesian Muslim women's 
organizations, who turns out to have been the only woman on the 
11-member U.N. Election Commission. She was there for 6 months. 
She said the passion of Afghan women to vote was just something 
extraordinary.
    I think it is producing results on the battlefield. Not 
that this war is over, not that the Taliban is going to give up 
tomorrow, but I think they are losing public support. I think 
we are getting better intelligence and we are even seeing some 
of them talking about maybe giving it up.
    So it is a perfect illustration, I think, of the point that 
these counterinsurgency wars are not won just on the 
battlefield, that the political piece of it is just as 
important.
    Chairman Warner. It is an extraordinary contribution by 
President Karzai. It is a great chapter in world history.
    General Myers, any comment about your force structure 
there? NATO is really heavily pulling on the oar in 
Afghanistan, am I not correct?
    General Myers. You are correct. Two quick comments. One is 
that our forces that are there are primarily there along the 
Pakistan-Afghanistan border and working on our Provincial 
Reconstruction Teams, along the border because that is where 
the residual threat of al Qaeda remains. By the way, it is 
negligible at this point. But also in other parts of 
Afghanistan----
    Chairman Warner. On that point, we should put in the 
record: 7 days and 7 nights a week, we are concentrating on 
Osama bin Laden and the possibility of taking him into custody, 
am I not correct?
    General Myers. You bet, it is a 24/7, 365 days a year 
operation. I will just leave it at that, but it is a very 
intense operation.
    I think NATO is expanding its responsibility right now. 
They have the northern part of Afghanistan. It is their 
responsibility. They also have a force in Kabul that provides 
security there at the airport and in the city. That will 
continue to expand to the west and eventually to the south and 
to the whole of the country, so we can see a day in the not too 
distant future where NATO could conceivably be in command of 
the whole operation.
    Chairman Warner. Well, that is a success story. I commend 
General Jones for his leadership on that. He has kept the 
members of this committee individually and collectively very 
well informed on that issue.
    General Myers. Thank you, sir.
    Chairman Warner. Now, Madam Ambassador, we would like to 
have your observations. We thank you for your work.

   STATEMENT OF MAUREEN QUINN, DEPUTY ASSISTANT SECRETARY OF 
               STATE, COORDINATOR FOR AFGHANISTAN

    Ambassador Quinn. I heard a comment at the beginning asking 
if we can look at the next steps on Afghanistan. So maybe I can 
just make a few comments on what we are focused on in 2005. 
Obviously, this year we are working with President Karzai, his 
government, and the U.N. community on the National Assembly and 
local elections. Probably late spring, early summer.
    In addition, we are continuing the development of the 
security success. Our military, the DOD, have very successfully 
worked on the Afghan National Army. That continues at full 
speed. We are working as well on the development of the Afghan 
National Police and we are addressing the other elements of the 
security sector, countering narcotics, promoting justice, and 
hopefully, probably taking until 2006, but completing the 
demilitarization, demobilization, reintegration process.
    This year in particular, we are giving an extra focus to 
counternarcotics. I am not going to go into detail now on that 
here, but we are very much engaged on that issue.
    Chairman Warner. Well, some detail on that is important 
because proliferation of that narcotics situation could 
undermine to some extent the successes that the coalition has 
brought together to liberate that country, and now under the 
presidency of Karzai it has to be a problem addressed. We 
cannot let this continued growth and proliferation expand.
    Ambassador Quinn. Yes, Mr. Chairman, I agree fully. What I 
would add on that point is President Karzai has committed 
himself to address this issue. He has mobilized his government 
to do that. They had a very successful mini-Loya Jirga in 
December where they called in the mullahs and the governors and 
the district leaders to give them the central government 
message that they needed to take back to their provinces, which 
they are doing. We have had some preliminary reports of 
voluntary actions on eradication, plowing over poppy fields.
    In support of that government effort, what we are looking 
at is five key areas. We are again promoting the public 
information message, getting the message out that this is 
wrong, that there are no benefits in it, and that the fields 
will be eradicated.
    We are focusing on interdiction as well, going after the 
drug traffickers, helping them there. Our Drug Enforcement 
Agency is very much involved in that.
    We are also focused on the law enforcement aspect. In 
Afghanistan, unluckily, the judicial system is really being 
built from scratch. So in the narcotics area we are focused on 
a special judicial-prosecutorial task force, so that when 
people are brought in they can be prosecuted. Therefore, we are 
looking for secure detention facilities and building those up.
    We believe in a comprehensive approach, so we are looking 
at and working very hard at the alternative livelihoods area, 
so that when the farmers who depend so much on this crop, if 
their fields are destroyed, they have the opportunity to 
develop other--it is not only crops, but it is also the 
community development, so that they can get other crops to 
market, et cetera.
    Finally, it is the eradication of the key elements----
    Chairman Warner. You are of the professional opinion that 
the maximum attention that not only our Nation but the outside 
world can bring to bear on it is now being exerted?
    Ambassador Quinn. I believe so, Mr. Chairman.
    Chairman Warner. I accept that. Thank you very much.
    Ambassador Quinn. The final point I want to mention is the 
reconstruction. I think the United States has done a 
significant job already, particularly in the roads area. But we 
are continuing to focus on that, the roads, the power sector, 
water, energy, schools, clinics, and most importantly 
developing the human capacity of the Afghan people. We are 
continuing that and committed to it.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Madam Ambassador.
    Now, Ambassador Schlicher, I think we should have the 
record today reflect your personal observations as well as the 
factual chronology of how this new government is going to, as 
we say, be stood up. You have had the elections. Are we on time 
for the February 15 date for certification, the best you know?
    Mr. Schlicher. Yes, sir, to the best of my knowledge we 
are. With your permission, I will go through what I know about 
the coming process.
    Chairman Warner. I think it is important for those 
following this hearing, and particularly the American public, 
to understand the magnificence of these elections. Let us hope 
that that can be in some way replicated in each of these steps, 
because these are not inconsequential nor easy steps to be 
taken as this government is stood up.
    Mr. Schlicher. Yes, sir, that is absolutely right.
    Chairman Warner. I would appreciate your best estimate of 
the times, even though your professional judgment may be at 
variance with some of the printed timetables and the like. I 
think we should have at least your opinion, because you have 
extensive experience in this area.
    Mr. Schlicher. Yes, sir. Let me go through what the process 
is as we understand it. Once the Election Commission has 
received and tabulated all of the results from the more than 
5,000 polling stations around Iraq--and that is what is 
happening now--it will begin to calculate the allocation of the 
275 seats in the TNA, and at the same time in parallel it is 
allocating the seats in the 18 provincial assemblies that have 
been elected and in the Kurdistan Regional Government election 
which also took place.
    The commission has stated that it expects to announce the 
progress of the tally periodically and its target for 
announcing final results in all of those electoral processes is 
still February 15. We have received no indication that that 
timeline is slipping.
    Meanwhile, we understand that in parallel to the tallying 
effort, informally the political parties have begun to talk 
with each other and negotiate the possible shape of the coming 
government as they await the final results themselves.
    Now, once the allocation of seats is announced the TNA, 
this 275-person body will convene. Its first responsibility is 
to select that body's leadership and adopt that body's internal 
rules. It will then select by a two-thirds majority vote a 
three-member Transitional Government Presidency Council for the 
executive branch, which will consist of a president of the 
state and two deputy presidents.
    That three-person presidency body will be selected as a 
single slate and perhaps there will be competing slates. It 
depends on how the politicians negotiate.
    Now, under the TAL the three members of the Presidency 
Council are required to unanimously nominate a prime minister 
within 2 weeks of their assumption of office. If the Presidency 
Council fails to name a prime minister in that 2-week period, 
the responsibility for naming a prime minister reverts to the 
TNA itself. In that instance, the TNA would have to confirm a 
nomination by a two-thirds majority of the Assembly.
    After the naming of a prime minister, that prime minister 
then has up to 1 month in which to name a council of ministers. 
If the prime minister----
    Chairman Warner. They need not be members of the TNA?
    Mr. Schlicher. Sir, they may be members----
    Chairman Warner. They may be or may not be.
    Mr. Schlicher. That is right.
    Chairman Warner. That is an important fact. I want to point 
that out because that is the area in which presumably the 
strong Shiite faction--I am not going to quantify how strong it 
may be--can begin to show its hand as to whether or not they 
feel it is, as we do I am sure here in this country, important 
to get some Sunni participation in that ministerial level. Am I 
correct on that?
    Mr. Schlicher. Yes, sir, that is certainly one of the 
opportunities.
    Now, if the prime minister is unable to nominate a cabinet 
within that 1-month period, up to 1-month period he has, the 
Presidency Council would then nominate another prime minister. 
When the prime minister has named a council of ministers, that 
slate must then be approved by a simple majority vote of the 
TNA.
    Now, in the interim, in the period we are in now, the 
current interim Iraqi Government will remain in place until 
their replacements are confirmed. Upon confirmation by the TNA, 
the new prime minister and council of ministers will then 
assume power.
    So, sir, that is an overview of the process we are likely 
to see.
    Chairman Warner. Let us put some time on this. If there are 
no extensions of times, the earliest date could be what? You 
mentioned several 30-day periods. Then what would be the 
furthest date?
    Mr. Schlicher. Sir, as I calculate it--and I have to say I 
am not very good at math--the earliest that we might see would 
be around March 1, which I understand is an informal target 
date for the politicians.
    Chairman Warner. That is for all the steps you enumerated 
to be completed?
    Mr. Schlicher. At least some of the most important ones. 
Very optimistically, I think they could do it in that time 
period. I think what they are talking about in Iraq right now 
is a more generic formulation of several weeks.
    Chairman Warner. So that could now go into the month of 
April?
    Mr. Schlicher. Yes, sir, I think that is right. If you tag 
all the worst case scenarios for each of these out----
    Chairman Warner. So April. If suddenly they got tied up and 
they could not agree on the prime minister, you are talking 
about running into May and June because of those 30-day 
extensions.
    Mr. Schlicher. The 30-day period, sir, is for the prime 
ministerial nominee to nominate a cabinet.
    Chairman Warner. But then if they cannot settle on the 
prime minister it goes back to the TNA and then goes back to 
another prime minister. I presume that starts another 30-day 
period.
    Mr. Schlicher. Up to 30 days.
    Chairman Warner. Right. So you are looking at built-in time 
sequences that could result--and I am not faulting this system, 
but I think the people of this country need to understand----
    Mr. Schlicher. Yes, sir, that is absolutely right.
    Chairman Warner. --the complexity of this process and how 
it could extend into April or May before a government is up, 
everybody has taken his oath of office, and they can begin to 
function.
    Mr. Schlicher. I hope that we all understand the political 
delicacy of each of these steps for the Iraqi people.
    Chairman Warner. Correct.
    Secretary Wolfowitz. Mr. Chairman, that is very important 
because part of the euphoria is the expectation there is going 
to be a government when they count the ballots on February 15.
    Chairman Warner. That is true. That is why I am taking this 
time.
    Secretary Wolfowitz. Thank you for pointing that out. It is 
very important.
    Chairman Warner. If I may say, I have publicly said this 
three or four times when the Secretary of Defense--and by the 
way, I am delighted to have you here today, but the record 
should reflect that he came before this committee last week for 
about 2\1/2\ to 3 hours of intensive questioning in our 
committee room. So we have had good representation from the DOD 
before this committee here.
    I think it is important that that is all laid out. Within 
that period of time, General, we can anticipate that the 
insurgents and those antithetical to this government could well 
exercise these horrific measures that they have had in the past 
to try and delay or somehow disrupt this process that has been 
laid out by Ambassador Schlicher. Am I correct?
    General Myers. Mr. Chairman, that is certainly possible.
    Chairman Warner. We had better remain on guard, and that is 
why all this discussion of pulling troops out at this time in 
the judgment of this Senator--I think the President stated it 
well: We have milestones to reach, and it is achievement and 
facts on the ground and the situation that are going to dictate 
our troop level policy.
    Senator Byrd, would you like to ask a question?
    Senator Byrd. I thank you, Mr. Chairman. You are always 
very considerate of the members of this committee and you give 
us an opportunity to speak our minds, ask our questions. You do 
an excellent job with respect to fairness and consideration and 
courtesy.
    Chairman Warner. I thank you, Senator. I have to say I 
learned some of that from you.
    Senator Byrd. Well, thank you.
    It has already been referenced that the Inspector General 
of the CPA reported that $8.8 billion from the Development Fund 
for Iraq, comprised mostly of Iraqi oil revenue, was spent with 
virtually no financial controls at all--$8.8 billion. Mr. 
Secretary, that is $8.80 for every minute that has passed since 
Jesus Christ was born 2,000 years ago.
    The report concluded that the accounting controls over this 
money were weak or nonexistent, leaving the door open to fraud, 
kickbacks, and misappropriation of funds. In short, this 
Inspector General report illustrates that there is no way that 
the DOD could know what exactly happened to $8.8 billion in 
reconstruction funds for Iraq.
    I am somewhat concerned by your answer to Senator Levin's 
question on reconstruction spending. I was concerned by your 
initial response as you responded to the question concerning 
this Inspector General's report. Perhaps I was wrong, but your 
response struck me, Mr. Secretary, as somewhat dismissive, 
nonchalant, blase.
    I remember a great Roman once who was taken to task by his 
fellow countrymen for having put aside his wife. He was 
reminded of what a great Roman matron this was, how loyal she 
had been, what a beautiful woman she was, how careful she had 
been in the rearing of her family. He was taken over the coals, 
as it were, whereupon he took off one of his shoes and he said: 
You see this shoe? It has a wonderful color about it. The 
leather has been properly selected. The tone of the color and 
the pliability of the leather is certainly without equal. A 
beautiful pair of shoes it is. But, he said, only I know where 
it pinches.
    Well, your response, Mr. Secretary, reminded me of that 
story. It was as if to say, I think: Well, so what? It was a 
huge sum, but keep in mind the difficulties we were up against. 
Keep in mind what would have happened if we had not spent it. 
So father knows best. Do not ask any questions.
    Again, this seems to me to be an outgrowth of our unwise 
decision to turn everything over to one man or woman, the 
President of the United States. So the Pentagon has repeatedly 
asked for more and more flexibilities on how it spends money. 
Ted Stevens and I have had to wrestle with this in our 
appropriation of moneys over the past few years. It appears 
that the Pentagon had unlimited flexibility with this $8.8 
billion, and now the Inspector General tells Congress that the 
Pentagon cannot tell us where these funds went. That does not 
speak well for the DOD's use of flexibilities.
    So I have been after the Pentagon for years, I have talked 
with Secretary Rumsfeld repeatedly, about the failure of the 
DOD to account for the funds that it spends. But I have to say 
that this instance here involving $8.8 billion certainly takes 
the cake. How can the DOD be held accountable for wasted 
reconstruction money if it does not bother to regulate how it 
spends billions upon billions of dollars in Iraq?
    So father does not always know best. Our problem is this. 
Our problem is that we have to go back time and again to the 
people and ask for money. How do we know that the expenditure 
of this $8.8 billion in reconstruction funds has done any good 
for Iraq? This report paints a picture of Pentagon officials 
throwing cash around willy-nilly while Iraq was falling into 
chaos.
    I know I asked Mr. Bremer would he come back before the 
Appropriations Committee if the chairman, the then-Chairman 
Stevens, should request that he come back. He said: I am too 
busy, I am too busy. Well, that was the attitude. That is the 
attitude that we were met with.
    I can guarantee you that would not have been the attitude 
had we not given away our power, the power of Congress to 
declare war. How can you possibly assure the American people 
that these funds were well spent if the Pentagon cannot even 
tell Congress where that cash ended up? That is my question.
    Secretary Wolfowitz. Senator Byrd, there is nothing 
nonchalant about my view of this issue. I think it is a 
difficult issue. I would encourage you--I will give you 
Ambassador Bremer's response to the draft report and see if 
there is an additional one. Let me just for example read from 
it. He says, and this is Ambassador Bremer writing:

          ``The draft suggests that the CPA should have delayed 
        paying Iraqi public servants until we had fully modern 
        pay records. This would have taken many months, if not 
        years. More than a million Iraqi families depended on 
        the Iraqi Government for their salaries. When the CPA 
        arrived in Iraqi after liberation, unemployment was 
        over 50 percent. Not paying the civil servants would 
        have been destabilizing and would have increased the 
        security threat to Iraqis and to Americans. In brief, 
        such a course would have cost lives.''

    There is nothing nonchalant about that concern.
    Let me point out--and I do not want it to be said I do not 
care how the Iraqis spend their money, but let us be clear. 
This was not U.S. appropriated funds. This was Iraqi money. We 
were there under authority of the U.N., which specifically said 
that, under successive U.N. Security Council resolutions, ``it 
was policy to transfer to the Iraqis as much responsibility as 
possible, as quickly as possible.'' I am quoting again from 
Ambassador Bremer's letter. It said that to have tried to have 
the sort of controls that the Inspector General is suggesting 
would have been directly contrary to U.S. Government policy and 
to the mandate of the U.N.
    I think this is an important question. Senator Levin has 
asked for any final response Ambassador Bremer might have. I 
think we should look at whether things could have been done 
differently and we should see if there are lessons to be 
learned if there were a similar situation. But there was a 
crisis at hand. There were very large Iraqi funds available to 
deal with that crisis, and I think that basically Ambassador 
Bremer made the right decision to go to those Iraqi funds 
before coming back to the taxpayer and asking for appropriated 
funds.
    Senator Byrd. Mr. Chairman, I simply close by saying that 
Mr. Bremer might very well have added: I didn't have time to 
appear before the Appropriations Committee again to make 
explanations, even though the people's representatives in the 
Senate and the House might have asked more questions as to how 
the money was spent.
    Thank you, Mr. Secretary.
    Chairman Warner. Thank you, Senator Byrd. Senator Byrd, I 
want the record to reflect that Senator Levin and I wrote 
letters to the Secretary of Defense at the time Ambassador 
Bremer was completing his duties, urging that he come before 
this committee, and he did not come.
    Senator Byrd. Yes. I thank the chairman.
    Chairman Warner. Thank you very much.
    Senator Byrd. He has certainly not left any step along the 
way out of the equation. He has done everything he can and so 
has his counterpart, Mr. Levin. I thank them.
    Chairman Warner. I thank my senior colleague. Thank you 
very much.
    Finally, gentlemen, just an observation by myself. That is, 
I look forward to this trip being undertaken by the President 
of the United States to Europe. I do hope in the course of that 
trip, and I know he will, and rightly so, that he will talk 
about Iraq and the successes we have had to date. I am just 
hopeful that our President will receive some reciprocal 
acknowledgments on this trip and those acknowledgments might 
well result in further participation by nations in the European 
theater and others in helping us--when I say ``us,'' the 
existing coalition forces--conclude our goals.
    So I wish our President well on this trip. He certainly has 
the support of this Senator in his efforts to try and increase 
participation by other countries in a variety of ways--training 
the Iraqi security forces, working on the infrastructure 
improvements that are necessary--a variety of ways to bring 
this chapter of world history to a conclusion successfully so 
the people of Iraq can manifest in so many ways the exuberance 
and courage that they did here of this recent weekend. I hope 
you share that view, Secretary Wolfowitz.
    Secretary Wolfowitz. I do, very strongly, Senator.
    Chairman Warner. I am highly optimistic about this trip 
coming up.
    I thank our witnesses. We have had an excellent hearing. I 
realize it has gone a little bit longer than we planned, but we 
had a number of Senators, well over half the committee, 
participate. The hearing is now concluded.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Pat Roberts

                         IRAQI SECURITY FORCES

    1. Senator Roberts. Secretary Wolfowitz, we have been briefed that 
the original plan for the Iraqi Army has been filled. However, Prime 
Minister Allawi has indicated he may want a larger army than planned. 
How would such a decision impact the current U.S. training efforts in 
Iraq?
    General Myers. An Iraqi decision to increase the size of their Army 
would have minimal impact on our training efforts. In addition to the 
current training provided by the Multi-National Security Transition 
Command-Iraq (MNSTC-I), the Ministry of Defense has established an 
Iraqi training battalion that conducts basic recruit training. This 
unit is expanding to a full brigade and will eventually assume the lead 
in training recruits. Iraq is a sovereign country dedicated to building 
security forces sufficient to maintain domestic order and deny Iraq a 
safe haven to terrorists. Prime Minister Allawi's proposal to build a 
larger Army is one of several initiatives that are being evaluated by 
Embassy Baghdad, Multi-National Force-Iraq and the new Iraqi 
Transitional Government. MNSTC-I stands ready to adjust their training 
efforts and courses as required.

    2. Senator Roberts. Secretary Wolfowitz, by most accounts, the 
Iraqi security forces performed well during the election, establishing 
perimeters and protecting thousands of polling locations around the 
country. Are the Iraqi security forces ready for more sophisticated 
counter-insurgency operations?
    General Myers. At this time, not all Iraqi security forces are 
capable of taking the lead in fighting the insurgency. They lack the 
maturity and mid-level institutional leadership necessary to 
independently deal with the insurgent threat. However, there are 
several specialty units within the Ministry of Interior and the 
Ministry of Defense that have gained the experience and combat skills 
necessary to execute sophisticated counterinsurgency operations. As 
conditions warrant, Multi-National Force-Iraq will progressively 
transition the counterinsurgency mission to capable Iraqi security 
forces and assign coalition forces to supporting roles with a less 
visible presence.

    3. Senator Roberts. General Myers, according to the Department of 
Defense (DOD), there are a little over 130,000 Iraqis ``on-hand and 
trained.'' However, there are questions, and I believe this was brought 
up during the Foreign Relations Committee hearing on Tuesday, 
concerning the actual number of Iraqis ready to conduct border patrol 
operations, policing operations, or combat operations. I would like to 
talk about fully-trained Iraqi soldiers, those who are reliable and 
ready to go into the field. At what rate is the DOD currently training 
these soldiers, and how will that rate increase if more U.S. soldiers 
are pulled away from combat operations for training purposes?
    General Myers. Currently, there are over 17,800 Ministry of Defense 
and Ministry of Interior recruits conducting institutional training. 
These recruits are in numerous courses ranging from 3 weeks to 13 weeks 
of training and graduate at different rates each week based on the 
length of their course. Additionally, the number of recruits in 
training changes each week as new volunteers are recruited, vetted and 
begin courses. The progressive shift by the Multi-National Force-Iraq 
from fighting the counterinsurgency to building the Iraqi Security 
Force capacity to conduct independent operations will not affect 
institutional training.
    There are two techniques employed to ensure training requirements 
do not impact on combat operations. For collective training, units are 
employed on a cyclic basis, for instance: 9 days training, 18 days 
combat, 6 days vacation. In regards to individual training, units are 
provided the quotas for schools and can manage attendance per their own 
priorities. Overall priorities are established by MNC-I in order to get 
the critical warfighting assets trained first, and courses are shorter 
(3-4 weeks) in order to reduce the impact on operations. Generally, we 
do not pull all leaders out of a unit for training, but rather stagger 
attendance to reduce any impact on operations.
    A positive effect of the shift of MNF-I policy is to allow for a 
qualitative increase in the capability of the training institutions. 
Some schools, such as the skills training wing of the Iraqi Training 
Battalion, have been affected by the absence of critical training 
equipment. The shift has established a priority of fill at this 
training facility, providing weapons and vehicles to increase the 
quality and quantity of training. The shift from a 4-week infantry 
course to a 7-week course is producing soldiers with better skills, 
enhanced leadership, and stronger determination.

                          NEW IRAQI GOVERNMENT

    4. Senator Roberts. Ambassador Schlicher, how are other Sunni 
governments in the region responding to Sunday's elections? Are they 
giving any indication of support to Iraqi Sunnis claiming that the 
elections were not valid? What steps are being taken to ensure Sunni 
participation as those elected on Sunday prepare to form a new 
government and draft a new constitution?
    Ambassador Schlicher. January 30 marked a historic day for millions 
of Iraqis who voted in their first democratic election in generations. 
Despite ongoing violence, threats, and intimidation, over half of all 
eligible Iraqi voters demonstrated resolve and a commitment towards 
democracy. The international community, including many Islamic, Arab, 
and regional governments, responded favorably and welcomed the 
elections as a positive step in Iraq's political transition. The 
governments of Saudi Arabia, Jordan, Morocco, Indonesia, Pakistan, and 
others cited the January 30 elections as an important step toward Iraqi 
national reconciliation, development, stability, and independence.
    Although the composition of the Iraqi Transitional Government (ITG) 
has not yet been determined, individuals who are cited as likely to 
hold influential positions in the new government have made gestures to 
be inclusive and welcoming of all Iraqis, including Sunnis. Iraqi 
leaders have made clear that the political process should be as 
inclusive as possible, including the drafting of a permanent 
constitution and the formation of the transitional government.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                      IRAQI COMMUNICATIONS NETWORK

    5. Senator Sessions. Secretary Wolfowitz, it appears from all 
testimony thus far that security remains the top priority for the U.S. 
presence in Iraq. However, there appears to be a lack of infrastructure 
facilitating communication among Iraqi national, regional, local, and 
U.S. authorities and, perhaps most importantly, individual Iraqi 
citizens. It would seem that a communications network would be central 
to an improved security situation. Would a more robust communications 
infrastructure in Iraq improve the intelligence gathering process and 
allow for more rapid data collection and analysis of changing security 
threats, coordination, and deployment of security assets to address 
unfolding threats and more focused planning to reduce future threats to 
security?
    Secretary Wolfowitz. A more robust communications infrastructure in 
Iraq would most assuredly improve the intelligence-gathering process. 
Iraq currently does not have a fully deployed communications 
infrastructure, as measured by today's standards. Without a doubt, 
major gaps in network coverage and services impede the ability to 
rapidly collect and analyze intelligence data. In addition, such gaps 
reduce the sources and restrict the means by which intelligence may be 
gathered. Reducing future threats to security requires a multi-pronged 
approach, with communications at the center of the strategy. 
Communications are the lifeblood of modern society, and more robust 
networks and information technologies will increase stability by 
enhancing the improvement of every other economic and political sector, 
across the board
    The current communications infrastructure in Iraq includes 
telephone service provided by the Iraqi Telecommunications and Postal 
Corporation (ITPC). ITPC's service, unfortunately, is confined to parts 
of Baghdad and other major cities. As of the beginning of this year, 
there were roughly 1 million active landline telephone subscribers in 
Iraq, a number that represents only a small fraction of the country's 
population. Cellular companies have begun to provide mobile telephone 
service in many areas of the country. However, relatively high-priced 
satellite phone service is the only communications option available for 
sizable parts of Iraq that have no telephone or cell phone service.
    Involvement of U.S. and coalition forces in Iraq brought numerous 
changes to network infrastructure that were necessary to support 
operations. Rapidly deployable wireless systems were in heavy use in 
the early phases of our involvement there, including various satellite 
earth station and microwave systems. Additional wireless systems are 
planned for larger-scale deployment to provide high-capacity services 
to various government organizations, commercial enterprises, and other 
prospective users in the center of Baghdad.
    Various wireline communications technologies are also in place in 
Iraq, including fiber optic and legacy copper loop systems. In 
addition, several projects are now under way to restore, reconstruct 
and upgrade Iraq's landline communications infrastructure. 
Communications infrastructure of this nature needs to be in place and 
operational to run essential telephone service and the Internet. 
Government and private enterprise sectors run more efficiently when 
broadband data services are available at competitive prices.

    6. Senator Sessions. Secretary Wolfowitz, what role does the DOD 
envision a robust communications network playing in the overall 
security strategy and what steps is it taking to ensure that the 
communications infrastructure is funded sufficiently to make it viable 
to support the security environment in Iraq?
    Secretary Wolfowitz. The role of information and communications 
technologies (ICTs) in rebuilding Iraq cannot be overemphasized. It 
would be a grave mistake to minimize the communications sector as 
simply one of many infrastructure sectors requiring attention during 
stabilization and reconstruction operations. For certain, 
communications infrastructure requires perhaps the most immediate and 
thorough attention, because ICTs underwrite and facilitate every aspect 
of security and reconstruction. Communications infrastructure enables 
success in most fields of operations, such as policing, governance, 
border control, oil and gas production, medicine, education, shipping, 
and construction.
    Data is the lifeblood of any modern society, and communications 
infrastructure is the circulatory system that brings nourishment to 
make that society grow and function. Moreover, the knowledge gained 
through access to data can help moderate and broaden political and 
social discourse and limit extremism, leading to development of a more 
stable and pluralistic society. While having modem communications and 
information technologies does not by itself guarantee pluralism, it is 
a prerequisite to the growth of a vibrant civil society that will value 
pluralism and allow it to unfold.
    Though much remains to be done, much is being accomplished in the 
civilian telecommunications sector. The impact of this effort is 
affecting the lives of every Iraqi citizen and, if allowed to flourish, 
will continue to affect them for generations to come. Iraqis are being 
empowered through the use of information and communications 
technologies and are gaining confidence in their government and their 
future.
    The DOD is well aware of the communications revolution that has 
swept the globe over the past decade and a half. Indeed, the rapid 
advances in the creation and movement of knowledge are perhaps the 
cornerstone of the Department's 21st century transformation. Moreover, 
the ongoing transformation in the DOD is a reflection of the advances 
in computing power, communications capacity and the resulting creation 
of knowledge in civil society. Therefore, the Department is committed 
to increasing Iraq's civilian capacity, both in terms of communications 
networks and information management. Iraq's future lies within a global 
society that recognizes the power that information technologies can 
bring to institutions and individuals.
    Among those institutions are the national and local government and 
security agencies that Iraqis have established and are continuing to 
build. As the DOD fulfills the potential of its network-centric vision 
for itself, it will continue to support the power of networks and 
information management, enabling the Iraqi people to become full 
members of the international community and the global marketplace.
    The DOD, in conjunction with other U.S. Government agencies, are 
providing information and communications technologies to enhance public 
safety, emergency services, as well as support to various Iraqi 
ministries and other organs of government. Lastly, the Department is 
also engaged in supporting the use of modern fiber optic technologies 
in various applications in Iraq. All these efforts will enhance efforts 
to reconstruct the country and have well along the path to modernity 
with a 21st century infrastructure.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

           DEALINGS WITH THE NEW TRANSITIONAL IRAQ GOVERNMENT

    7. Senator Levin. Secretary Wolfowitz and Ambassador Schlicher, 
once the new ITG is assembled, it will be the first democratically-
elected Iraqi Government since U.S. forces have occupied Iraqi 
territory. Will the United States deal differently with the ITG than it 
did with the Iraqi Interim Government (IIG) and the Iraqi Governing 
Council (IGC) and, if so, will that have any impact on the manner in 
which decisions are made with respect to the training and equipping of 
the Iraqi security forces?
    Secretary Wolfowitz. There will not be a significant difference in 
how we deal with the ITG from how we dealt with the IIG. Although the 
ITG stems from Iraq's first genuine election in nearly 50 years, the 
IIG was already internationally recognized as the sovereign authority 
in Iraq since June 28 of last year. The United States will continue to 
deal with the ITG primarily through Embassy Baghdad and offer advisors 
to the Iraqi ministries. But all decisions on Iraqi governance will 
remain the province of the Iraqis themselves. Similarly, decisions 
regarding the training and equipping of the Iraqi security forces will 
continue to be made by the Multinational Force-Iraq (MNF-I) in 
partnership with the Iraqi Ministry of Defense.
    Ambassador Schlicher. Iraq has had a sovereign, independent 
government since the end of the occupation and dissolution of the 
Coalition Provisional Authority (CPA) on June 28, 2004. The IIG, formed 
on that day, and the ITG, to be formed as a result of the January 30 
elections, exercise full sovereign authority over Iraq.
    We believe, however, that the elections on January 30 mark a 
dramatic milestone in the development of a secure, prosperous, 
democratic Iraq. Under the Transitional Administrative Law (TAL) the 
ITG will assume greater authorities than were exercised by the IIG, 
which was designed to serve in a caretaker capacity until the lTG's 
formation. These responsibilities include, most significantly, the 
drafting of a new constitution for Iraq.
    On June 28, 2004, the role of the Coalition in Iraq shifted from 
governing (through the CPA) to partnership with the sovereign Iraqi 
Government. We are committed to assisting the Iraqis in this 
transitional period, both by assisting them in the political process 
set out in the TAL and in contributing to the maintenance of security 
and stability in Iraq. Responsibility for the security of Iraq and for 
the training and equipping of Iraqi security forces lies with the Iraqi 
Government: we will continue to provide the needed security support to 
Iraq until it is ready to assume this burden.
    In practice, the IIG has worked very closely with the United States 
since June 2004, particularly in respect to security matters (including 
the training and equipping of the Iraqi security forces). Iraq's 
political leaders have emphasized the importance of continued MNF-I 
assistance, although we expect that the ITG will take on increasing 
responsibility for the internal and external security of Iraq as more 
and more capable Iraqi security forces become available. We expect to 
cooperate with the forthcoming elected government under the same 
principles of partnership and consultation as we did with the IIG.

               STATUS OF THE U.S.-LED MULTINATIONAL FORCE

    8. Senator Levin. Secretary Wolfowitz and Ambassador Schlicher, 
United Nations (U.N.) Security Council Resolution 1546 of June 8, 2004 
provided that the mandate of the U.S.-led MNF-I shall be reviewed at 
the request of the Government of Iraq in June 2005 and that the mandate 
shall expire upon the completion of the political process leading to a 
constitutionally-elected Iraqi Government by December 31, 2005.
    As I noted in my opening statement, I believe we should discuss 
with the new government what our exit strategy should be and determine 
if the new government will expressly invite the international community 
to maintain military forces in Iraq, thus clearly stating to the world 
that our presence in Iraq is at the invitation of the democratically-
elected government and increases the likelihood that Muslim nations 
will send military forces as well. What are your thoughts about such 
discussions with the new Iraqi Government after it is formed in the 
next few months?
    Secretary Wolfowitz. Iraqi leaders are taking tremendous risks as 
they attempt to construct a new political system and reconstruct their 
nation. For the United States to initiate discussions of how to exit 
Iraq before we have completed our mission there would undermine 
confidence in our commitment to defeating the terrorists in Iraq. 
Doubts about American resolve would only lead to increased attacks 
against U.S. forces in Iraq, and possibly to more attacks against 
Americans throughout the world. I think it is far more important, 
therefore, to focus on the objectives we are trying to achieve rather 
than on setting an arbitrary deadline by which to withdraw.
    The MNF-I already operates in Iraq with the consent of the Iraqi 
Government as expressed in the Iraqi letter attached to U.N. Security 
Council Resolution 1546. No additional invitation from the ITG is 
required, and whether the ITG will wish to issue one is a political 
decision it will have to make once it assumes office.
    Finally, it is unclear whether a democratically-elected ITG would 
welcome troops from non-democratic Muslim nations inside its borders. 
Although we would welcome such troop contributions, Muslim nations 
already have an existing invitation to contribute forces under U.N. 
resolutions, but to date have declined to do so.
    Ambassador Schlicher. The U.S. Government should not do anything 
that might lead the people of Iraq to question our commitment to the 
success of their fledgling democracy. Many leading Iraqis who may play 
roles in the new government have already asked us to stay, and we have 
said very clearly that American forces will stay as long as they are 
needed, but not 1 minute longer. Raising the discussion of an exit 
strategy prematurely could undercut this message.
    The IIG has actively sought international military assistance, to 
be integrated into the MNF-I or the North Atlantic Treaty Organization 
(NATO) Training Mission in Iraq. It is likely that the ITG will 
continue to make such invitations, which we agree are politically 
helpful. However, it is not likely that the ITG will invite military 
forces from other nations to operate in Iraq independently of MNF-I or 
NATO coordination. Under U.N. Security Council Resolution 1546, the ITG 
has the authority to request a review of the MNF mandate at any time. 
However, we believe it would unhelpfully distract from the ITG's 
pressing security, reconstruction and constitutional development 
priorities if this authority were exercised early in the ITG's tenure. 
Rather, as you note, in June 2005 the ITG will have the opportunity to 
review MNF-I's mandate, and make explicit its desire for MNF-I's 
continued assistance, or to request its departure. The President has 
stated that U.S. forces will not remain in Iraq if the Iraqi Government 
no longer desires their assistance.

                     VETO POWER OF KURDS AND SUNNIS

    9. Senator Levin. Ambassador Schlicher, the TAL provides that two-
thirds of the voters in any three Iraqi provinces can veto the 
constitution. That would mean that the Kurds, the Sunnis and, of 
course, the Shiites, could defeat the constitution if they were united 
in opposition to it. Will the TAL be the controlling law for the 
referendum on the constitution that is to be drafted under the new 
Transitional National Assembly (TNA), or does the TNA have the power to 
amend the TAL or to establish a new legal regime for the constitutional 
referendum?
    Ambassador Schlicher. The TAL is the current controlling law of 
Iraq on elections-related matters. You are correct that the TAL 
includes a provision allowing a two thirds majority of voters in three 
provinces to veto the draft constitution. The U.S. supports the TAL, as 
drafted and approved by Iraqis, in its entirety. We believe it 
represents a useful compromise between all Iraqi groups on the issues 
with which the Iraqis must grapple as they draft Iraq's permanent 
constitution.
    As for the legal questions you raised, we rely on Iraqi legal and 
judicial professionals to interpret the provisions of the TAL. That 
said, we note that Article 3(A) of the TAL reads that no amendment may 
be adopted except by a three-fourths majority of the members of the TNA 
and the unanimous approval of the Presidency Council. That level of 
support would be difficult to achieve without broad-based consensus 
among all Iraqis.

                       U.S. TROOP LEVELS IN IRAQ

    10. Senator Levin. General Myers, Marine leaders have briefed us 
that they are planning to reduce Marine troop levels in Iraq from 
31,000 to 20,000 in March. They said they will turn over the current 
responsibilities of those marines who depart to the Army. Do you 
approve of the Marine troop reductions?
    General Myers. [Deleted.]

    11. Senator Levin. General Myers, will Army troop levels in Iraq be 
increased to cover the responsibilities of the departing marines?
    General Myers. [Deleted.]

    12. Senator Levin. General Myers, if not, why do you believe that 
reduction will be possible in March? What tasks will no longer be 
undertaken because of a lower overall troop level?
    General Myers. [Deleted.]

    13. Senator Levin. General Myers, what decision criteria will you 
consider in determining possible troop reductions in the future?
    General Myers. [Deleted.]

                        TRAINING OF IRAQI FORCES

    14. Senator Levin. General Myers, at various times over the last 
year and a half U.S. Central Command (CENTCOM) has reported different 
numbers of Iraqi security forces as being on hand and trained. 
Consequently, it is extremely difficult for Members of Congress and the 
American people to fully understand the true capability of the Iraqi 
security forces, and to understand how that capability will 
realistically change over time in the future. Has CENTCOM developed a 
readiness reporting system for Iraqi forces that is at least in some 
respects analogous to that used by U.S. forces?
    General Myers. CENTCOM, in coordination with Multi-National Force-
Iraq, is developing a process for assessing capability of the Iraqi 
security force. Measuring capability within the Ministry of Interior 
force is challenging due to the vast number of local police stations 
and border enforcement guard posts throughout Iraq. We expect the first 
iteration of readiness reporting using this new process will be 
completed at the end of April 2005.

    15. Senator Levin. General Myers, how do you measure the capability 
of Iraqi units, as opposed to simply determining the numbers of 
individuals recruited and to some degree individually trained?
    General Myers. The new process for measuring Iraqi security force 
capability looks at six areas of readiness. They are: personnel, 
command and control, training, sustainment, equipping, and leadership. 
Using these measurements, units are assessed on their ability to 
execute counterinsurgency operations and are given a readiness rating 
of level 1 through 4. A Level 1 unit is fully capable of planning, 
executing, and sustaining independent counterinsurgency operations. A 
Level 4 unit is forming and/or is incapable of conducting 
counterinsurgency operations. Iraqi commanders and Coalition forces 
will jointly report these assessments with parallel reporting up the 
chain to Multi-National Corps-Iraq and the Iraqi Joint Headquarters/
Iraqi Army Headquarters. We expect the first iteration of readiness 
reporting using this new process will be completed at the end of April 
2005.

    16. Senator Levin. General Myers, what is your current assessment 
of the capability of Iraqi security forces?
    General Myers. The Iraqi Security Force (ISF) is developing well in 
the nine southern and three Kurdish provinces; unevenly in the six 
Sunni provinces ranging from ineffective in the Al Anbar Province to 
strong in some other Sunni areas. ISF successfully secured polling 
sites for democratic elections on 31 January. A number of police gave 
their lives while moving to stop suicide bombers. Unauthorized absences 
within the Ministry of Defense have significantly decreased and are no 
longer impacting operations. Regular police and border forces continue 
to struggle in high-threat areas except where strong leadership and 
close links to coalition forces are present. ISF is in the fight.

    17. Senator Levin. General Myers, approximately how many of the 
stated total of 130,000 Iraqi security forces in all types of units 
(police, army, etc.) are fully trained, equipped, and ready to take on 
the insurgency?
    General Myers. [Deleted.]

    18. Senator Levin. General Myers, in a December 6, 2004 interview, 
LTG Petraeus was questioned about problems in training the Iraqi 
security forces and military. According to the Center for Strategic and 
International Studies (CSIS), when pressed whether the problem with the 
security forces was low morale, infiltration, cowardice, leadership, or 
intimidation, Petraeus replied, ``It's probably all of the above.'' How 
would you answer that question? Do you agree with LTG Petraeus?
    General Myers. I agree with Lieutenant General Petraeus that there 
are elements of these problems present. However, these issues will not 
prevent the Iraqi security force (ISF) from continuing to mature and 
develop the capability to defend Iraq. The ISF, as evidenced by the 
election, is standing up, fighting and dying for their country. The 
real question that we should address is how fast ISF will mature over 
the year and when will it be strong enough to fight the insurgency and 
win? Our goal is to help this happen as soon as possible.

                          MENTORS OR ADVISORS

    19. Senator Levin. General Myers, the Joint Staff has briefed us 
that CENTCOM was directed to apply fewer troops to the operational 
mission and more to the training mission. I understand that you are 
considering assigning several thousand U.S. mentors or advisors to 
Iraqi security forces units. How many U.S. mentors or advisors will be 
assigned to this mission, and at what level will they be integrated 
into Iraqi units?
    General Myers. [Deleted.]

    20. Senator Levin. General Myers, how long will it take to get 
American mentors or advisors into all Iraqi units at that level of 
integration?
    General Myers. [Deleted.]

    21. Senator Levin. General Myers, will U.S. troop levels be 
increased for that purpose, or will you redirect those troops from 
current operational missions as we were briefed?
    General Myers. [Deleted.]

    22. Senator Levin. General Myers, if the latter, what effect will 
that have on current operations against the insurgents? What missions 
will no longer be undertaken?
    General Myers. [Deleted.]

    23. Senator Levin. General Myers, the Iraqi police have appeared to 
be more problematical than other Iraqi security forces, both dying and 
deserting at higher levels. Does CENTCOM have the resources to provide 
adequate mentors or advisors to Iraqi police to accomplish the same 
objectives as those who will be assigned to Iraqi military units?
    General Myers. [Deleted.]

    24. Senator Levin. General Myers, what is being done to address the 
specific problems of the Iraqi police forces?
    General Myers. Iraqi police recruits undergo an 8-week academy 
training course taught at the Jordan International Police Training 
Center or in one of the seven police academies in Iraq. Training 
highlights include basic police skills, basic criminal investigation, 
kidnapping investigation and marksmanship. The instruction has been 
modified to reflect the security environment focusing more on survival 
skills and combat skills. The academies use a modular-based curriculum 
with 75 percent instruction covering practical exercise work and the 
remaining 25 percent devoted to classroom theory. Cadets spend the 
majority of their time conducting practical exercises and hands-on 
training. Greater emphasis is now placed on critical tactical 
operations such as checkpoint operations, building searches and 
counter-ambush operations. Instead of marksmanship training that 
focused primarily on pistols, firing of the AK-47 and other heavier 
weapons is being added. All of these instructional areas are reinforced 
with hands-on field exercises with the greatest possible realism. 
Police recruits who were former police officers under the previous 
regime are trained under the 3-week Transition and Integration Program. 
This program, taught by Iraqis, reinforces police professionalism, 
standards and accountability. In addition, there are several advanced 
and specialized training courses for the Iraqi Police Service to combat 
the insurgency. Examples of these include post-blast investigations 
taught by Alcohol, Tobacco, and Firearms officials, counterterrorism 
investigations taught by the FBI and explosive hazardous awareness 
training taught by the U.S. military.

                          IRAQI NATIONAL GUARD

    25. Senator Levin. General Myers, on January 6, Iraqi Army Day, the 
IIG announced that the National Guard would become a part of the Iraqi 
Army. What does this mean in practical terms? Is there a difference in 
intended uses for units of the Iraqi Army which have not agreed to be 
deployed throughout Iraq; for what is known as the Iraqi Intervention 
Force, which is part of the Iraqi Army; and now the National Guard, 
which is also part of the Iraqi Army?
    General Myers. In practical terms, there are implications to this 
announcement. First, the Ministry of Defense is incorporating National 
Guard battalions into Iraqi Regular Army (RA) divisions and brigades. 
These battalions will help fill out the RA brigades and divisions. Some 
of the soldiers in the National Guard battalions will not agree to be 
deployed around the country. Those soldiers will be given opportunities 
to join the local police, border forces, or other security forces that 
maintain a regional focus. Second, Multi-National Force-Iraq will 
evaluate the level of maturity and combat experience of these National 
Guard battalions, determine if additional training is necessary and 
incorporate them in future RA basic training courses.

    26. Senator Levin. General Myers, is there a distinction between 
Active and Reserve components in the new Iraqi Army now that the 
National Guard is a part?
    General Myers. No, the goal is to field a national army capable of 
deploying throughout Iraq. With the help of Multi-National Force-Iraq, 
the Iraqi government will formulate a strategy to regionally base the 
Iraqi Regular Army divisions throughout Iraq for counterinsurgency 
operations.

    27. Senator Levin. General Myers, is the Iraqi National Guard (ING) 
at all analogous to our own National Guard?
    General Myers. Yes, when first developed, the mission of the ING 
was to provide security for the region in which members were recruited 
much like our own National Guard provides security in their states 
during emergencies. The key difference is that the ING was controlled 
by coalition forces and the Iraqi government, not by provincial or 
regional governments. As the ING becomes part of the RA the analogy to 
our National Guard will no longer pertain.

    28. Senator Levin. General Myers, the Iraqi Army members were 
receiving 8 weeks of basic training, while National Guard members were 
only receiving 3 weeks. Will members of the National Guard be returned 
to the training base for additional training?
    General Myers. Yes, Multi-National Force-Iraq will evaluate the 
level of maturity and combat experience of these ING battalions, 
determine if additional training is necessary, and incorporate them in 
future Iraqi Regular Army basic training courses.

                         EQUIPPING IRAQI FORCES

    29. Senator Levin. General Myers, we are spending billions of 
dollars to equip our troops with the latest in body armor, truck armor, 
reactive armor for Strykers, Bradleys, and the venerable M-113 armored 
personnel carrier, and other high-technology items such as night vision 
devices. Recently there was a news clip of a heavily armed and armored 
American unit accompanied by Iraqi soldiers in open pickup trucks. The 
convoy was attacked and four of those Iraqi soldiers were killed and 
several others wounded. One has to wonder what those Iraqi soldiers 
thought about accompanying American soldiers in their heavily protected 
vehicles while they were in an open pickup truck. How important is 
modern equipment to the effort to build reliable Iraqi forces?
    General Myers. Equipping the Iraqi security force (ISF) with the 
right tools to fight the insurgency is extremely important. Multi-
National Security Transition Command-Iraq, in coordination with the 
Iraqi government, developed the requirements to equip Ministry of 
Defense (MOD) and Ministry of Interior (MOI) forces. Iraqi special 
operations forces are fielded with modern, high-tech equipment 
comparable to our forces. Conventional MOD and MOI forces receive new 
uniforms, body armor, weapons and ammunition that sufficiently 
increases their survivability and enhances their capability to conduct 
counterinsurgency operations. In addition, as part of the NATO mission, 
the NATO Training and Equipment Coordination Group is receiving 
donations of modern equipment from several countries for the ISF.

    30. Senator Levin. General Myers, are you satisfied with the scope 
and speed of efforts to equip Iraqi forces? Is there more that we could 
and should be doing?
    General Myers. The Multi-National Security Transition Command-Iraq 
(MNSTC-I) has taken great steps to accelerate equipment flow to the 
Iraqi security force (ISF) and it is moving in substantial numbers. 
Equipment flow continues to improve, but in theater distribution is 
still a challenge. Since transfer of sovereignty, ISF has received over 
406,000 uniforms; 129,000 sets of body armor; 247,000 weapons; and 
266,600,000 rounds of ammunition.

    31. Senator Levin. General Myers, do you believe that Iraqi forces 
should have at least the same level of protective equipment as do U.S. 
forces in Iraq?
    General Myers. Equipping the Iraqi security force with the right 
tools to fight the insurgency is important. Iraqi Special Operations 
Forces are fielded with modern, high-tech equipment comparable to our 
forces. Conventional Ministry of Defense and Ministry of Interior 
forces receive new uniforms, body armor, weapons, and ammunition that 
increases their survivability and enhances their capability to conduct 
counterinsurgency operations.

    32. Senator Levin. General Myers, are there plans to transfer 
American armored vehicles and other equipment to Iraqi forces once our 
forces begin withdrawing?
    General Myers. Yes, the Department of Defense is planning to 
transfer U.S. equipment to the Iraqi security force (ISF). We have 
already asked CENTCOM to identify specific equipment, not required by 
our forces, which can be utilized by the ISF. Initial lists of 
equipment are expected by July.

    33. Senator Levin. General Myers, I understand that there may be 
several thousand armored personnel carriers here in the U.S. that are 
excess to the Army or National Guard's needs. Would it make sense to 
provide those to the Iraqi Army on an expedited basis?
    General Myers. I do not believe giving excess U.S. armored 
personnel carriers to the Iraqi Army is a viable option at this time. 
We looked at a related issue several months ago as part of an Army 
effort to up-armor armored personnel carriers, and found that excess 
vehicles--mostly 1970s vintage--were in need of extensive repair and 
were becoming increasingly difficult to support logistically. However, 
as the dual-hatted NATO Training Mission-Iraq commander, General 
Petraeus is identifying requirements and procuring equipment, including 
armored wheeled vehicles, through the NATO Training and Equipment 
Coordination Group. In addition, Hungary recently donated 77 T-72 tanks 
to NATO for use by the Iraqi Army. These tanks are undergoing 
maintenance and we are working with NATO to effect the transfer late 
this summer.

                          OFFENSIVE OPERATIONS

    34. Senator Levin. General Myers, there continue to be media 
reports about American forces conducting counter-insurgency sweeps and 
raids by entering Iraqi homes, destroying Iraqi property, terrifying 
Iraqi families, and detaining Iraqis who later are determined to be 
innocent of any involvement in the insurgency. Several polls of Iraqi 
public opinion indicate that the vast majority of Iraqis now oppose the 
U.S. presence and view the Americans as purely an occupying force. Have 
we reached the point that such offensive operations are actually 
becoming counter-productive and that we are now making more enemies of 
ordinary Iraqis and increasing support for the insurgency?
    General Myers. [Deleted.]

    35. Senator Levin. General Myers, do you believe that the time is 
rapidly approaching when we should cease offensive operations by U.S. 
forces and should turn over such missions solely to Iraqi forces 
accompanied by U.S. mentors or advisors?
    General Myers. [Deleted.]

                                MILITIAS

    36. Senator Levin. General Myers, there are reports that American 
military and IIG officials are relying heavily on the Kurdish Peshmerga 
militia, not only as a source of individual recruits for Iraqi security 
forces, but even more so for its established military units, in 
countering the Sunni insurgency. For instance, I understand that the 
Peshmerga was brought in to help restore order in Mosul after large 
numbers of Iraqi police deserted their posts under assault from 
insurgents who had escaped the U.S. attack on Fallujah. Is there a 
change of policy, either formal or otherwise, with respect to 
integrating militias into the Iraqi security forces?
    General Myers. [Deleted.]

    37. Senator Levin. General Myers, how would you describe that 
policy at the current time?
    General Myers. [Deleted.]

    38. Senator Levin. General Myers, will militias, including the 
Peshmerga, be allowed to maintain military units apart from the 
official Iraqi security forces?
    General Myers. Iraq must have no militias other than those agreed 
upon by the Iraqi government that are necessary to maintain peace and 
security. They will be strictly controlled, come under government 
supervision and not allowed to operate independently. The militia end 
state, as reflected in Transitional Administrative Law, Article 27, is: 
``An Iraqi State in which there are no armed forces or militias not 
under the command and structure of the Iraqi Transitional Government 
except as provided by Federal law.'' The Iraqi government has 
established within the Ministry of Defense (MOD) a ``Director General 
of Iraqi Veterans'' agency. The mission of this office is to 
incorporate all militias into the MOD and Ministry of Interior. They 
provide civilian training and education, retirement planning and 
integration training for those individuals that transition into the 
other ministries.

    39. Senator Levin. General Myers, do you see a potentially 
significant problem in using Peshmerga units to fight the insurgency? 
Could this possibly accelerate a potential move toward civil war?
    General Myers. The limited use of militias in order to counter 
insurgent activity before the election process was in some ways a 
positive step. It demonstrated that local people were very interested 
in protecting their interests and moving forward in the political 
process. The effort to involve all players in the political process 
should mitigate the potential for civil strife. We are very mindful of 
the fact that the Peshmerga fought next to us as allies in the war and 
in some situations provided a stabilizing role in urban areas.

    40. Senator Levin. General Myers, do you see problems down the road 
with militias?
    General Myers. We do not see any issues that cannot be resolved. As 
the new Iraqi Transitional Government emerges we will see changes that 
reflect Iraqi initiatives to do different things in different ways, 
which may include how they address and use militias. The Iraqi 
government understands that militias must be strictly controlled, come 
under government supervision and not be allowed to operate 
independently.

    41. Senator Levin. General Myers, according to The Wall Street 
Journal the Iraqis formed a number of militias to guard the polls for 
the recent election. One of them, called the Defenders of Baghdad 
Brigade, was supplied with rifles, ammunition and body armor by U.S. 
officials. A second militia from the town of Al Amarah, a Shiite city 
in southern Iraq, set up in early January in Baghdad's old Defense 
Ministry. The Journal quotes LTC Jim Bullion as saying, ``These groups 
just started appearing like mushrooms. In the last month they have been 
appearing so quickly we can barely keep track of them. It's really 
heartening to see the Iraqis seizing the initiative.'' According to the 
Journal, military officials say they aren't sure what will happen to 
these groups after the elections.
    Is this true that U.S. officials armed and equipped militias, 
including the Defenders of Baghdad Brigade, prior to the elections?
    General Myers. Yes, the Multi-National Security Transition Command-
Iraq (MNSTC-I) and the 1st Cavalry Division (1CD) armed and equipped 
``the Defenders of Baghdad Brigade. Prior to the January elections, 
there were two brigades formed. They have since been incorporated into 
the Regular Iraqi Army as 5th Brigade, 6th Division (2d BDE, Defenders 
of Baghdad) and 1st Brigade, 7th Division (1st BDE, Defenders of 
Baghdad). The Iraqi Ministry of Defense (MOD), on its own initiative, 
has recruited approximately 5,600 militia soldiers and formed them into 
units. MNSTC-I tracks and monitors these units, providing some 
equipment and aligning them with US forces for employment. The MOD will 
integrate these units into the Iraqi Army structure and will coordinate 
with Multi-National Force-Iraq to align them with coalition forces for 
training and partnership. One of the units created by the MOD was the 
Defenders of Baghdad Brigade. This brigade has three battalions, two 
located in Eastern Baghdad, near Sadr City and the third training at 
Muthana Airfield, in Baghdad. The total manning is about 1,800, all 
from the Baghdad area. These three battalions were under the tactical 
control of the 1CD, which used them effectively to provide polling 
station security on election day. This brigade was fully equipped by 
MNSTC-I and 1CD with weapons, uniforms, and ammunition but the MOD is 
ultimately responsible for this unit.

    42. Senator Levin. General Myers, if true, why? What will be done 
about those militias now?
    General Myers. MNF-I support of these units enhances the security 
of the Iraqi people. The Ministry of Defense will integrate these units 
into the Iraqi Army structure and will coordinate with MNF-I to align 
them with coalition forces for training and partnership.

                        POST-ELECTION SITUATION

    43. Senator Levin. Secretary Wolfowitz and General Myers, in an 
interview with The London Financial Times, Prime Minister Blair said 
that the coalition was set to agree to ``timelines'' with the new 
government that would indicate the pace at which Iraqi forces could 
take control of peaceful parts of the country. Other recent media 
reports indicate that senior U.S. administration officials expect the 
new Iraqi Government to ask the U.S. for a specific withdrawal 
timetable from the entire country. How do you see dealing with the 
insurgency in the post-election period? Do you envision coalition 
forces stepping back in that regard?
    Secretary Wolfowitz. On January 30, the Iraqi people demonstrated 
their sympathies lie with democracy and freedom rather than with the 
tyranny and intimidation offered by the terrorists. The increase in 
national unity created by the elections has led to an increased flow of 
intelligence on terrorist activities. Iraqi forces also bring unique 
knowledge of Iraq's language and cultures to counterinsurgency 
operations, and their role will gradually increase in the future. 
Although in some areas coalition forces will step back into more 
supporting roles, they will continue to work in partnership with Iraqi 
security forces to defeat the terrorists.
    General Myers. As conditions warrant, Multi-National Force-Iraq 
will progressively transition the counterinsurgency mission to a 
capable Iraqi security force and assign coalition forces to supporting 
roles with a less visible presence.

    44. Senator Levin. Secretary Wolfowitz and General Myers, is the 
coalition set to agree to ``timelines'' that would govern the pace of 
Iraqi forces taking control of peaceful parts of the country?
    Secretary Wolfowitz. Iraqi forces will begin to take control of 
parts of Iraq as their experience and performance warrant. It would be 
unwise to establish artificial ``timelines'' to govern this process as 
it would reduce the flexibility the military trainers of Multi-National 
Security Transition Command-Iraq (MNSTC-I) need in order to effectively 
train the Iraqi security forces. it is important that we continue to 
train Iraqis up to required standards rather than in accordance with 
arbitrary dates.
    General Myers. The transfer of control to Iraqi units is 
conditions-based and not timeline-based. The pace of transition will be 
driven by the capability of the ISF, the level of insurgent activity 
and the ability of the Iraqi government to provide essential services, 
infrastructure, and good governance.

    45. Senator Levin. Secretary Wolfowitz and General Myers, have you 
developed metrics or decision criteria for turning over 
responsibilities to Iraqi forces? What are they?
    Secretary Wolfowitz. The MNF-I, in coordination with the Iraqi 
Ministries of Defense and Interior, is developing a system to evaluate 
the capacity of Iraqi security forces, under the criteria laid out by 
General Myers in his response.
    General Myers. MNF-I, in coordination with the Iraqi Ministry of 
Defense and the Ministry of Interior, are developing a system to 
evaluate and assess the capacity of the Iraqi security force (ISF). 
MNF-I understands the importance of developing these capabilities 
metrics as the next step in security force reporting. Once approved and 
implemented, this will assist MNF-I's decision to progressively 
transition the counterinsurgency mission to capable ISF and assign 
coalition forces to supporting role with a less visible presence.

    46. Senator Levin. Secretary Wolfowitz and General Myers, do you 
expect the new government to seek a definitive withdrawal timetable?
    Secretary Wolfowitz. To my knowledge, no Iraqi expected to assume a 
prominent leadership role in the ITG favors such a timetable. Instead, 
Iraqi leaders have made it quite clear that they want U.S. and 
coalition forces to remain in Iraq until they are capable of defeating 
the terrorists themselves. These leaders have made it clear that they 
are more focused on how coalition forces can help them to defeat the 
terrorists than how soon they can get the coalition forces out of Iraq.
    General Myers. In our regular discussions with the Iraqi Interim 
Government, members from all the major political parties in Iraq 
acknowledge the critical role of the MNF-I in helping to maintain 
security and stability in Iraq, given the tenuous security situation in 
parts of the country. In these discussions about the size and role of 
the MNF-I and the transition to Iraqi control, it is clear that 
withdrawals are predicated on conditions, not on a calendar-based 
timeline.

    47. Senator Levin. Secretary Wolfowitz and General Myers, if asked, 
how would you construct such a timetable?
    Secretary Wolfowitz. Given that this has not yet been proposed by 
an Iraqi official, I will not speculate on the specifics of such a 
scenario. We are focused on defeating the terrorists, not on how soon 
we can withdraw from Iraq. Discussion of a premature withdrawal based 
on artificial deadlines only undermines our credibility with our 
partners in the ITG, and impedes our ability to successfully complete 
the mission in Iraq.
    General Myers. The mission and role of the MNF-I is tied to the 
mandate from U.N. Security Council Resolution 1546 and the invitation 
of the Iraqi government. The mandate from the resolution extends to the 
completion of the political process described in Iraq's Transitional 
Administrative Law (TAL), which is the blueprint for Iraq's democratic 
development as they form a permanent government. Therefore, the 
continued role of the MNF-I is not dependent on an artificially 
constructed timetable, but is tied to the progress of Iraq's political 
development. Currently, the TAL calls for a constitutional referendum 
in October 2005, followed by elections based on that constitution by 
the end of December 2005. However, there are extensions built in the 
TAL's timeline in the event the Iraqis require more time.

    48. Senator Levin. Secretary Wolfowitz and General Myers, do you 
agree with reported Central Intelligence Agency (CIA) estimates that 
the elections will be followed by more violence, including an increased 
likelihood of clashes between Shiites and Sunnis, possibly even leading 
to civil war?
    Secretary Wolfowitz. The Baathist and extremist jihadists 
responsible for the overwhelming proportion of attacks in Iraq 
recognize that the Iraqi people decisively rejected their extremist 
ideologies on January 30. Because these terrorists can never hope to 
win the political debate in a free Iraq, they continue to try to 
intimidate the Iraqi people through acts of mass violence.
    However, I disagree with the assessment that civil war is somehow 
more likely in the wake of the successful elections. Since the 
election, prominent Shia and Kurdish leaders have stressed the 
importance of reaching out to Iraqis of all sects and strata in the 
formation of a new government and drafting of a new constitution. 
Similarly, Sunni leaders who boycotted the election are stating that 
they now want to be a part of the political process in Iraq, indicating 
that they are opting for accommodation with their compatriots rather 
than civil war.
    General Myers. Prior to the elections, the Defense Intelligence 
Agency assessed that an increased overall level of violence and 
possible increased tensions along ethnic lines would mark the post-
election security environment. However, post-election levels of 
violence and ethnic tensions remain below what was anticipated and the 
post-election security situation more closely resembles the period 
preceding the elections. In fact, the success of the Iraqi elections 
has clearly shown the will of the large majority of the Iraqi people to 
seek a government built on votes and the rule of law, instead of rule 
by fear that the insurgents offer. Iraqi Shiites and Sunnis are engaged 
in political discussions as the parties selected in their recent 
elections attempt to form a government in accordance with the 
Transitional Administrative Law.

    49. Senator Levin. Secretary Wolfowitz and General Myers, according 
to Britain's Channel 4 News, Iraqi Interim Foreign Minister Falah al-
Naqib said, ``I think we will not need the multinational, foreign 
forces, in this country within 18 months. I think we will be able to 
depend on ourselves.'' Do you believe that is a prevalent view among 
Iraqi interim government officials?
    Secretary Wolfowitz. Interior Minister al-Naqib's statement 
suggests that Iraqi Government officials are optimistic about the 
progress made to date by Iraqi security forces, and about their 
continued progress in the coming months and years. Although I believe 
most Iraqi officials share this optimism, the prevailing view amongst 
Iraqi leaders is that multinational forces remain in Iraq until the 
mission is accomplished rather than withdraw at some arbitrarily 
established date.
    General Myers. Interior Minister Naqib is no doubt referring to the 
great progress in training the Iraqi security force (ISF) over the last 
year, both police forces in the Ministry of Interior under his 
jurisdiction, and also the Armed Forces in the Ministry of Defense. I 
believe his statement suggests Iraqi government officials are 
optimistic about the progress of the ISF as well as their continued 
success in the coming months and years. I believe the prevailing view 
among Iraqi leaders is that coalition forces remain in Iraq until the 
ISF is capable of maintaining domestic order and denying safe haven to 
terrorists. Our experience is that we cannot rush to a simple timeline 
when determining when the Iraqis will be able to take full 
responsibility for securing their own country.

    50. Senator Levin. Secretary Wolfowitz and General Myers, do you 
agree with that assessment?
    Secretary Wolfowitz. It is not possible to make a precise 
prediction about when the Iraqi security forces will be able to take 
over all security operations in Iraq. As I have stated previously, I 
see no purpose in speculating on when coalition forces will be able to 
withdraw from Iraq. We are concentrating all our efforts on winning in 
Iraq, not on planning our withdrawal.
    General Myers. While we will certainly see progress over the next 
18 months, it is premature to say that the Iraqis will be completely 
ready in that timeframe to undertake the full range of tasks required 
for the internal and external security of their country. In our 
discussions with Minister Naqib and other Iraqi officials, they have 
all recognized the importance of training to a credible standard, and 
not just a certain number of Iraqi troops in uniform or a date on the 
calendar.

                               CORRUPTION

    51. Senator Levin. Secretary Wolfowitz, media reports claim that 
Iraqi Government officials, including Defense Minister Hazem Shaalan, 
have moved $300 million in Iraqi funds to Lebanon. What do you know 
about the truth of this claim?
    Secretary Wolfowitz. I understand that some Iraqi politicians have 
already called for an investigation into Hazem Shaalan's transactions 
while Minister of Defense. However, at this time, I do not have enough 
information to make a definitive statement regarding Minister Shaalan's 
activities.

    52. Senator Levin. Secretary Wolfowitz, what is your assessment as 
to the degree of corruption in the IIG and how concerned are you about 
it?
    Secretary Wolfowitz. Although there is no way to determine the 
degree of corruption in the Iraqi Interim Government, it clearly has 
the potential to become a serious problem. For more than 30 years 
promotions in the Iraqi civil service were not based upon merit, but 
rather were a reward for loyalty to Saddam Hussein and the Baath Party. 
As a result, a culture of corruption permeates the Iraqi bureaucracy, 
and threatens to become a drain on our reconstruction efforts in Iraq.

    53. Senator Levin. Secretary Wolfowitz, what steps is the U.S. 
Government taking in this regard?
    Secretary Wolfowitz. Before transferring sovereignty to the Iraqi 
Interim Government, the Coalition Provisional Authority established 
Inspectors General in each of the Iraqi ministries. Current anti-
corruption efforts fall under the purview of USAID, which has several 
programs designed to build the human resources capacity within Iraqi 
ministries.

                            TRAINING MISSION

    54. Senator Levin. General Myers, I have read of U.S. officials 
describing our training objective as providing the Iraqi security 
forces with the ability to take on a greater portion, or a larger share 
of the security responsibility. If that is true, then presumably we 
would still be required to keep our military forces in Iraq after the 
training is complete.
    Is our objective to have the Iraqi security forces develop the 
capability and the responsibility to provide entirely for their own 
internal and external security, without relying on U.S. military 
forces, or are they only going to shoulder a portion of their security 
responsibilities?
    General Myers. Yes, ultimately as a sovereign nation Iraq is 
responsible for its internal and external security by maintaining 
domestic order, denying safe haven to terrorists and maintaining peace 
with its neighbors. As ISF capabilities develop and its leadership 
matures, Multi-National Force-Iraq will progressively transition the 
counterinsurgency mission to ISF and assign coalition forces to 
supporting roles with a less visible presence.

    55. Senator Levin. General Myers, if we continue the train and 
equip mission at the current rate, how long do you expect it would take 
to complete that mission to the point where Iraqi security forces can 
provide for their own security without U.S. military assistance? Is it 
possible that it could take several years, or longer? What is the 
longest you can currently foresee that training mission lasting?
    General Myers. At this time, I cannot predict how long our training 
mission will last. However, in 2005 ISF will take the lead throughout 
the majority of the country in fighting the counterinsurgency. The pace 
of transition and the completion of our training mission will be driven 
by ISF capability, the level of insurgent activity and the ability of 
the Iraqi government to provide essential services, infrastructure, and 
good governance. ISF is gaining valuable combat experience and 
continues to make progress toward taking the lead in the 
counterinsurgency fight.

                    PERMANENT U.S. PRESENCE IN IRAQ

    56. Senator Levin. Secretary Wolfowitz and Ambassador Schlicher, 
there has been some public confusion about our long-term plans for the 
U.S. military presence in Iraq. For example, there has been public 
concern about the U.S. building 14 ``permanent'' bases in Iraq. Can you 
clarify whether we are building permanent U.S. bases in Iraq, or 
whether our plan is to bring our military forces out of Iraq when we 
complete the training mission. In other words, are we planning to keep 
our military in Iraq permanently, or to withdraw them as soon as our 
mission is complete?
    Secretary Wolfowitz. We are not building permanent bases analogous 
to those in Germany or Korea after World War II, though we are 
currently making improvements to existing bases that will improve the 
security and quality of life for our brave troops now serving in Iraq. 
As the President has stated on numerous occasions, our forces will not 
stay in Iraq longer than is necessary to complete the mission of 
defeating the terrorists.
    Ambassador Schlicher. We are planning to withdraw our forces from 
Iraq as soon as their mission is complete. Their mission will be 
concluded when Iraqi security forces and the Iraqi Government are 
capable of assuming full responsibility for the security of Iraq, or 
when the Government of Iraq asks them to depart. We are upgrading 
facilities in Iraq to support our forces in the performance of their 
mission, not to keep them in the country longer than needed. When they 
return home, the facilities may be useful to the Iraqi security forces.

                        INSPECTOR GENERAL AUDIT

    57. Senator Levin. Secretary Wolfowitz, Stuart Bowen, the Special 
Inspector General for Iraq Reconstruction (SIGIR), issued an audit 
report earlier this week in which he concluded that the CPA failed to 
establish or implement managerial, financial and contractual controls 
needed to ensure that funds provided to IIG ministries were properly 
used during the period before the transfer of sovereignty on June 30, 
2004. The IG's report indicates that CPA was ``burdened by severe 
inefficiencies and poor management'' and failed to ``review and compare 
financial, budgetary, and operational performance to planned or 
expected results,'' leaving the expenditure of nearly $9 billion in 
Iraqi funds ``open to fraud, kickbacks, and misappropriation of 
funds.''
    As a result, the report states, there was ``no assurance that funds 
were not provided for ghost employees.'' The report states: ``For 
example, CPA officials authorized payments of [Development Fund for 
Iraq (DFI)] funds for approximately 74,000 Facilities Protective 
Services (FPS) guards' salaries even though the FPS sites and number of 
guards were not validated. CPA staff identified at one ministry that, 
although 8,206 guards were on the payroll, only 602 guards could be 
validated. CPA staff at another ministry validated the payroll at one 
FPS site and found that although 1,471 guards were on the payroll, only 
642 guards could be validated.''
    What is your response to the CPA IG's report? Do you agree that the 
CPA should have instituted better managerial, financial and contractual 
controls over spending through the Iraqi ministries?
    Secretary Wolfowitz. The DOD fully support the important work of 
the SIGIR. However, we strongly disagree with many of the findings of 
the audit. We concur with Ambassador L. Paul Bremer's response to the 
report, which is included in the SIGIR's report. Our response to the 
audit is also included in the SIGIR's report. I have provided a copy of 
the SIGIR's report along with this response to the committee's 
questions.
    We agree that the CPA faced managerial, financial, and contract 
challenges, given the numerous difficulties inherent in the 
establishment of a coalition organization exercising governance 
authority, the historic nature of its tasks, and the requirement to 
fulfill this vital mission in a combat zone. The CPA acted to address 
these challenges. In this light, we disagree strongly with the 
conclusion that, because of policy decisions regarding Iraqi management 
of the execution of the Iraqi funds, the CPA failed to meet objective 
standards for transparent stewardship of DFI funds. The attached SIGIR 
report includes our comments which provide additional detail.
    [See inserted SIGIR report on page 73 of this hearing.]

    58. Senator Levin. Secretary Wolfowitz, do you support the IG's 
recommendation that we should perform a lessons learned study for the 
planning of specific managerial, financial, and contractual controls in 
future situations of this nature?
    Secretary Wolfowitz. In its report, the SIGIR recommended a lessons 
learned study ``addressing not only the planning for specific 
managerial, financial, and contractual controls in future situations of 
this nature but also the national planning aspects necessary to overall 
management of these type of endeavors should they occur in the 
future.''
    The lessons learned study is currently underway and we support it.

        U.S. MILITARY ROLE IN COUNTERDRUG EFFORTS IN AFGHANISTAN

    59. Senator Levin. General Myers, last December our staff was told 
about a new interagency plan to deal with the drug problem in 
Afghanistan. That plan aimed to increase the capacity of the Afghan 
Government to deal with the production and trafficking of drugs in 
Afghanistan. However, U.S. military forces would not be required to 
seize drugs or drug-related infrastructure unless they came upon them 
in the course of their normal counterterrorist duties.
    On January 31, 2005, in a letter to Secretary Rice, 31 non-
governmental organizations (NGOs) recommended that coalition forces:

          (1) ``focus intelligence collection efforts on identifying 
        major traffickers;
          (2) cease all payments to traffickers; and
          (3) assist in the destruction of laboratories and 
        interdiction of imports of precursor chemicals and exports of 
        narcotics.''

    What percentage or proportion of the Afghan drug profits go to 
funding terrorist activities in Afghanistan or elsewhere?
    General Myers. We believe that drug revenues may equal 60 percent 
of Afghanistan's current gross domestic product, but we cannot say with 
any certainty what. percentage is funneled to terrorist or insurgent 
groups. We do not have sufficient intelligence collection against 
narcotics trafficking to draw clear lines of support to terrorist 
groups. Afghanistan's nascent banking system, combined with the 
traditional hawala remittance system, make drug trafficking funds 
difficult to track. The illegal narcotics industry in Afghanistan is 
comparatively fragmented, with numerous organizations and smuggling 
networks involved. We do not believe that terrorist elements, including 
al Qaeda, remnants of the Taliban and Hezb-i Islami Gulbuddin control 
narcotics networks or rely exclusively on narcotics revenue to fund 
their operations. However, these groups undoubtedly garner some level 
of support from narcotics-related activities. We know that some 
traffickers provide logistical assistance to extremists and some 
extremist groups are raising money by taxing poppy production and 
profiting from the processing and sale of narcotics.

    60. Senator Levin. Secretary Wolfowitz and General Myers, given the 
argument that Hamid Karzai has made that the cash from drug proceeds 
could be used to benefit warlords and terrorists, do you believe that 
the U.S. military should take direct action against the production and 
trade of illicit drugs?
    Secretary Wolfowitz. The goal of the U.S. Government in Afghanistan 
is to help the Afghan government build a capacity to govern themselves, 
and to provide for their own security, including to help them to take 
action against the production and the trade of illicit drugs in their 
country. The U.S. military is assisting in this effort by supporting 
DEA, UK, and Afghan law enforcement activities. We believe it important 
that the U.S. follow the Afghans' lead and to maintain an Afghan face 
on the war against drugs; thus, the U.S. military is not taking direct 
action in this area.
    General Myers. No, coalition forces should not conduct direct 
action against narcotics operations except as consistent with existing 
guidance, which incorporates U.S. law with regard to military 
involvement in law enforcement operations. Our ultimate objective is to 
assist Afghanistan in developing its own capacity to address the drug 
problem in the long term, while providing the support necessary to have 
an immediate impact. An ill-conceived counternarcotics campaign could 
be de-stabilizing to Afghanistan and provide a boost for the recruiting 
efforts of our enemies. U.S. forces do have specific guidance on 
handling narcotics and drug equipment when they are discovered during 
normal military operations, but we believe the right approach is to 
continue to support the law enforcement agencies as part of a multi-
faceted approach to the narcotic issue and continue to help the Afghan 
government develop the capability to deal with the problem.

    61. Senator Levin. Secretary Wolfowitz, could you describe the 
administration position on when and how U.S. forces should destroy 
labs, interdict drugs, and pursue major traffickers?
    Secretary Wolfowitz. In Afghanistan, U.S. troops are authorized to 
conduct military operations against drug trafficking targets when these 
targets are encountered in the course of regular counterinsurgency 
operations. If our troops come across drugs or drug equipment, they 
have been instructed to take action against these targets while doing 
everything possible to keep an Afghan face on counterdrug actions. U.S. 
forces discovering drugs or drug paraphernalia contact Combined Joint 
Task Force-76 for instructions on disposition of the contraband. 
Whenever possible, local Afghan officials will be asked to participate 
if drugs are to be destroyed. If such officials are not available, 
troops are instructed to photograph and report the location of drug 
caches to higher U.S. authorities. Disposition of large caches of drugs 
are coordinated at the Combined Forces Command-Afghanistan level.

    62. Senator Levin. Secretary Wolfowitz and General Myers, what 
payments are being made with DOD funds currently, and if there are any, 
would you favor halting them?
    Secretary Wolfowitz. We know of no DOD funds that are being 
provided to known narcotics traffickers.
    General Myers. We know of no DOD funds that are being provided to 
known narcotics traffickers.

                    AFGHAN DRUG ERADICATION EFFORTS

    63. Senator Levin. Secretary Wolfowitz, the U.N. estimated that the 
amount of land used for poppy cultivation increased 64 percent from 
2003 to 2004, and the U.S. Office of National Drug Control Policy 
stated that there was a 73-percent increase in poppy-cultivated land 
from 2003 to 2004.
    President Karzai has committed the Afghan military to manually 
eradicating about 30,000 hectares of the opium (poppy) crop in 2005, 
only about a 15-percent reduction in the crop if the total harvest is 
as large as last year's. However, Afghan capabilities are very limited; 
the amount of land used for poppy cultivation increased about 73 
percent last year and is likely to grow again in 2005; and eradication 
must take place before the April harvest, coinciding roughly with the 
elections.
    All of this implies that the likelihood of any meaningful 
eradication this year without foreign assistance is very low. According 
to a January 26 Washington Times story, State Department officials 
wanted Congress to earmark funds for aerial eradication, but postponed 
their proposal because of President Karzai's opposition. The 31 NGOs 
who wrote to Secretary Rice on January 31 argue that ``massive 
eradication efforts in 2005 could risk destabilizing large areas of the 
country.''
    What is the DOD position on aerial eradication this year, or in the 
future?
    Secretary Wolfowitz. President Karzai has stated that aerial 
eradication is not an option for this year. Our understanding is that 
Department of State International Narcotics and Law Enforcement will 
provide support to Afghan ground eradication teams. There are no plans 
to have U.S. military forces conduct drug crop eradication.

    64. Senator Levin. Secretary Wolfowitz, will there be any special 
effort to augment Afghan hand-eradication capabilities by the United 
States or other military forces?
    Secretary Wolfowitz. The U.S. Government will work with the Afghan 
Government to help it build its own capacity to eradicate poppy in 
Afghanistan. The goal is to allow the Afghan Government to 
independently keep its level of poppy production below a level that 
threatens the Nation's stability and security. Toward this end, the 
Department of State has reprogrammed funds originally slated for aerial 
eradication to increase the ground eradication program. There are no 
plans to have U.S. military forces conduct drug crop eradication.

    [Whereupon, at 1:50 p.m., the committee adjourned.]


             U.S. MILITARY STRATEGY AND OPERATIONS IN IRAQ

                              ----------                              


                        THURSDAY, JUNE 23, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SR-325, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Ensign, Talent, Chambliss, Graham, Dole, 
Cornyn, Thune, Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, 
Bill Nelson, E. Benjamin Nelson, Bayh, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Sandra E. 
Luff, professional staff member; Thomas L. MacKenzie, 
professional staff member; Elaine A. McCusker, professional 
staff member; David M. Morriss, counsel; Stanley R. O'Connor, 
Jr., professional staff member; Lynn F. Rusten, professional 
staff member; Joseph T. Sixeas, professional staff member; 
Robert M. Soofer, professional staff member; and Scott W. 
Stucky, general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Richard W. Fieldhouse, professional staff member; Bridget W. 
Higgins, research assistant; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; and William G.P. 
Monahan, minority counsel.
    Staff assistants present: Alison E. Brill, Nicholas W. 
West, and Pendred K. Wilson.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; Chris Arnold, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Mackenzie M. 
Eaglen, assistant to Senator Collins; D'Arcy Grisier, assistant 
to Senator Ensign; Lindsey R. Neas, assistant to Senator 
Talent; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Meredith Moseley, assistant to Senator Graham; Bob Taylor, 
assistant to Senator Thune; David S. Lyles, assistant to 
Senator Levin; Sharon L. Waxman, Mieke Y. Eoyang, and Jarret A. 
Wright, assistants to Senator Kennedy; Christina Evans, Barry 
Gene (B.G.) Wright, and Erik Raven, assistants to Senator Byrd; 
Frederick M. Downey, assisant to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Davelyn Noelani Kalipi and 
Richard Kessler, assistants to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Todd Rosenblum, assistant to Senator Bayh; 
and Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
receive testimony on U.S. military strategy and operations in 
Iraq and Afghanistan. I welcome our distinguished panel of 
military witnesses: General Richard Myers, Chairman of the 
Joint Chiefs of Staff; General John Abizaid, Commander of U.S. 
Central Command (CENTCOM); and General George Casey, Commander 
of the Multinational Forces-Iraq.
    I particularly want to thank Secretary of Defense Rumsfeld 
for his total cooperation in working with the leadership of 
this committee to arrange this very important hearing. When I 
first discussed the need for this full complement of military 
and civilian witnesses, the Secretary's reply was: ``Name the 
day.'' Today is the day. Thank you.
    I want to thank each of our witnesses and the countless men 
and women in uniform and the civilians that they lead, for 
their service and their tireless efforts to protect our Nation 
and our allies from the ever-present terrorist threat, 
particularly those serving in Iraq and Afghanistan working to 
secure the peace and self-determination for the Iraqi and 
Afghan people, and to bring hope to these troubled regions.
    Speaking recently to those who have lost their family 
members, President Bush, who has shown a steady and unflinching 
resolve, has asked us to remember the following; ``One, we are 
not going to leave them, not going to allow their mission to go 
in vain; and two, we will complete the mission and the world 
will be better off for it.'' I agree with that assessment.
    Likewise, we are ever mindful of the loss of life and limb 
and the sacrifices of the Iraqi and Afghan people. They are 
more and more each day assuming greater responsibility to 
secure and lead their respective nations.
    On January 30 this year, the Iraqi people took a bold, 
courageous step, in defiance of the threats from insurgents, to 
rescue their country from decades of tyranny and to move in a 
sequence of steps to form a democracy of their own choosing. 
These historic elections in Iraq gave the world hope that an 
important milestone had been reached in the combined efforts of 
the international community to bring peace and security to the 
Iraqi people.
    These initial hopes have been tempered somewhat by the 
reality of the political and ethical challenges that have 
delayed the establishment of the Iraqi Transitional Government. 
The process over the coming months by which the Iraqis adopt a 
constitution and form a permanent government is the key to 
success. With the support of the coalition governments, the 
Iraqi Government must not allow any extensions or delays in 
providing for a constitution, elections, and the formation of a 
permanent government. Only strong political leadership will 
provide a free Iraq.
    All governments must work as partners, must stay the 
course, strengthen their resolve, in order to achieve the 
common goal. All must be truthful and realistic with their 
people about the difficulties that lie ahead. Political courage 
must be as steadfast as the military courage.
    As we look back over the history of the men and women of 
the Armed Forces of the United States in preserving our 
freedom, never have the challenges and responsibilities been 
greater than those that rest upon today's shoulders of the 
generation of military leaders. Terrorism knows no boundaries. 
Terrorists follow no international rules. They have no respect 
for life, limb, or anyone in their path of destruction. 
Terrorism of the magnitude the world is confronting today has 
no precedent in history. They are today's enemy.
    I ask our witnesses to give us their candid assessment of 
the situation and the strategy for the way ahead. The American 
people must clearly understand what is at stake and why their 
mission in Iraq contributes to the United States' security, the 
security of the region, and to a great extent the security of 
the world. It is vital that our witnesses candidly give us 
their assessment of the commitment of the Iraqi people, the 
Iraqi security forces, and their willingness to increase their 
level of responsibility to defeat terrorism and build a 
peaceful nation.
    No matter what level of troops, both coalition and Iraqi, 
no matter what level of weaponry they employ, we will not win 
this battle against insurgents unless every Iraqi citizen joins 
in supporting the efforts to ferret out and rid their nation of 
the insurgency.
    Our great Nation has an enormous capacity for sacrifice and 
hardship when we understand the cause is just and that success 
is critical to the security of our Nation. Americans can and 
will accept difficult challenges and continue to support a call 
for service and sacrifice from our Nation's leaders. Many of us 
lived through such calls during World War II. This global war 
on terrorism today is no less vital to America's future.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    First let me join you in welcoming our witnesses this 
morning, thanking them for their presence. I join with you, Mr. 
Chairman, in expressing the gratitude of the committee to our 
troops for their courage, their professionalism, and their 
sacrifice. Every American is in their debt.
    Our men and women in uniform are serving with great honor. 
They deserve an objective assessment of the situation in Iraq. 
They deserve a clear layout of the next steps there. They are 
not getting either from the administration. Instead, they get a 
repetitious bugle that sounds: Things are going well, things 
are going well, stay the course, stay the course.
    The Vice President said on Memorial Day that the insurgency 
is in its ``last throes.'' But the fact is that the insurgency 
has not weakened. On Tuesday, Lieutenant General John Vines, 
Commander of the Multinational Corps in Iraq, acknowledged the 
following: ``We do not see the insurgency contracting or 
expanding right now.''
    Indeed, growing numbers of fanatic jihadist suicide bombers 
are coming to Iraq with the intent of killing our troops and 
destroying the prospects for an Iraqi nation. Brigadier General 
Don Alston, the chief U.S. military spokesman in Iraq, said a 
few weeks ago: ``This insurgency is not going to be settled 
through military options or military operations. It is going to 
be settled in the political process.''
    The administration has said that Shia and Kurdish militias 
operating independently are not acceptable and that only a 
national army is. But the ground truth is that militias are 
becoming more entrenched and relied upon to maintain order. The 
Iraqi President and Prime Minister in effect acknowledged this 
recently by praising the militias publicly.
    Since March of 2003, more than 1,700 American lives have 
been lost in Operation Iraqi Freedom (OIF), almost 13,000 
Americans have been wounded, and untold numbers of Iraqis have 
met the same fate. The cost to the American people in dollars 
is $230 billion and rising. Staying the course is not only 
hollow-sounding rhetoric, it is an unacceptable policy. We need 
to change the current dynamic in Iraq. The status quo is 
neither static nor acceptable.
    Some have proposed setting a fixed date for departure. I 
believe that policy would be counterproductive. It would give 
an incentive to insurgents and jihadists to simply outlast us 
and would also increase the chances of civil war on our 
departure. At the other extreme, the Secretary of State 
recently said that we would stay in Iraq ``as long as needed.'' 
That is also the wrong signal, an open-ended commitment to the 
Iraqis that we will be there even if they fail to agree on a 
constitution. That lessens the chances that the Iraqis will 
make the political compromises necessary to defeat the 
jihadists and the insurgency and become a nation. Suggesting to 
the Iraqis that we are willing to remain without limit is not 
only unacceptable to the American people, it is also placing 
great stress on our Armed Forces and reducing military 
recruitment. Indeed, it is jeopardizing our volunteer army.
    In looking for ways to change the current dynamic, two 
points are clear. First, only a political settlement will end 
the insurgency. The insurgency cannot be defeated by military 
means. Our troops and a gradually improving Iraqi force will 
help facilitate a settlement, but they will not on their own 
produce one. As General Casey said recently, the political 
process will be the decisive element.
    Second, none of the Iraqi communities want us to leave 
precipitously or to leave without a political settlement in 
hand. Sunni Arabs gradually are becoming aware that the 
departure of U.S. troops would leave them vulnerable militarily 
because of the growing strength of the Shia in and out of the 
army. I believe Sunni Arab leaders recognize that our presence 
provides them some protection, not so much against the 
insurgents, but rather against the Shia prevailing if civil war 
broke out. Sunni leadership, which used to call for our 
immediate departure, no longer does so.
    As for the Shia, their principal leader, Grand Ayatollah 
Sistani, has consistently supported our continued presence. 
Peaceful majority rule favors the Shias since they are in the 
majority, while civil war may or may not have the same result. 
The Shia also want settlement with the Sunnis as the only way 
the country can unite against the foreign jihadists, who aim 
their terror mainly at the Shia. The Kurds also favor our 
continued presence.
    If those two points are correct--there is no military 
solution without a political one and none of the ethnic groups 
in Iraq want an immediate U.S. withdrawal--there is one clear 
message that we can and should send to the Iraqis: You need to 
reach a political settlement on the timetable to which you have 
agreed.
    Secretary Rumsfeld said earlier this week that the 
political process in Iraq ``has to move forward on schedule.'' 
I agree. The Secretary said in addition, ``The more the Iraqis 
delay, the greater the damage, and my view is that it must go 
forward on schedule and that is the President's view.'' I 
agree.
    Our following through on that message is essential. The 
Iraqis have approved a timetable for adopting a constitution, 
August 15, with the possibility of one and only one 6-month 
extension. The United States needs to tell the Iraqis and the 
world that if that deadline is not met we will review our 
position with all options open, including but not limited to 
setting a timetable for withdrawal.
    The successful drafting of a constitution surely does 
involve some different issues, such as the role of Islam, the 
degree of autonomy for the Kurdish areas, and the protection of 
minority rights. We need to put some pressure on the Iraqis to 
deal with these issues in a satisfactory and timely manner. 
Failure to adopt a constitution as scheduled would represent a 
lack of will to create a country and would instead reflect a 
continued willingness to rely on U.S. troops to carry a burden 
that Iraqis must carry.
    The possibility of our withdrawal would also lead to 
increased pressure on the Sunni Arabs from Iraq's Sunni 
neighbors. Those neighbors do not want U.S. forces to leave 
without a political settlement, given their fear of the 
prospect of civil war and instability. Jordan, Saudi Arabia, 
and Syria are all Sunni Arab states. Instability in Iraq would 
threaten their own stability because they perceive it as 
possibly leading to the growth of Iranian power and Shia 
influence closer to home and to greater Kurdish pressure to 
separate from the rest of Iraq, with accompanying pressure from 
Kurdish populations in Syria and Turkey to join them.
    Just the possibility that U.S. forces would leave Iraq 
before a political settlement would motivate Jordan, Saudi 
Arabia, and Syria to pressure their Sunni Arab brethren in Iraq 
to reach a political settlement.
    The most important action that we could take to change the 
current dynamic in Iraq would be for the President to inform 
the Iraqis that unless their own timetable for adopting a 
constitution is followed we will need to rethink our presence 
there with all options open. We must demonstrate to the Iraqis 
that our willingness to bear the burden of providing security 
has limits. We have opened the door for the Iraqis at great 
cost, but only they can walk through it. We cannot hold that 
door open indefinitely.
    Only a constitutional agreement, a political settlement, 
can change the status quo and end the insurgency in Iraq. The 
possibility of our leaving unless such a settlement is reached 
can help bring about that agreement.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    If I could make an administrative note, there will be a 
cloture vote at 10 o'clock this morning. We will recess the 
hearing at 10:15 and promptly resume upon the completion of 
that vote. If in the course of the questioning period any of 
our witnesses feel that their answers to be full and complete 
would require a closed session, we are prepared to recess at 
the conclusion of this open session and hold a brief closed 
session such that we can receive that testimony. Thank you.
    Mr. Secretary.

STATEMENT OF HON. DONALD H. RUMSFELD, U.S. SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you, Mr. Chairman, members of the 
committee.
    Let me begin by saying that the general officers that you 
introduced sitting next to me: General Myers, General Abizaid, 
and General Casey, are doing an outstanding job for our 
country. The American people and our Nation are truly fortunate 
to have men of this professionalism and skill and talent and 
dedication and courage.
    One year after World War II ended, a leading news magazine 
published an article about post-war reconstruction efforts in 
Germany. It was titled ``Americans Are Losing the Victory in 
Europe.'' The author disparagingly wrote: ``Never has American 
prestige in Europe been lower. People never tire of telling you 
of the ignorance and rowdyism of the American troops and of 
America's misunderstanding of European conditions.''
    The year was 1946. But consider how different 1946 looks to 
us today. In retrospect, it was not a time to despair, but a 
time to build, and that is what that generation did.
    It has now been 1 year since the turnover of sovereignty to 
the liberated Iraqi people and, just as Europe was a central 
battlefield, ideological and military, in the war against 
communist aggression, so too the Middle East and Central Asia 
are centers of gravity in today's struggle against violent 
extremism.
    I know the American people still have the same 
determination and resolve. They know today, as then, that 
struggles are not won on defense; they are won on offense. 
Violent extremists have made clear their intention. It is to 
kill as many westerners and moderate Muslims as possible. They 
have access to money and weapons, and they are seeking even 
more dangerous weapons. They are surveying and targeting 
landmarks in our country and other civilized countries.
    Terrorists have to be stopped and the world must find ways 
to encourage would-be recruits to choose a better path. Our 
Nation's actions to liberate Afghanistan and Iraq have 
eliminated two state sponsors of terrorism, most certainly 
contributed to Libya's decision to open its nuclear weapons 
programs to international inspection and to renounce terrorism, 
and encouraged democratic movements in regions that have long 
been breeding grounds for violent anti-western extremism.
    It is not surprising that there are questions about the 
situation in Iraq today. That has always been the case in a 
time of war. Today the questions I hear are something like 
this: Is the effort underway worth the cost and the sacrifice? 
How are the coalition and the new Iraqi Government really 
doing? When will Iraqi security forces be able to assume full 
responsibility for securing their country? What happens next, 
and should Congress set a timetable for withdrawal of U.S. 
troops?
    It is important to note what success will mean. 
Specifically, a free, democratic, peaceful Iraq will not 
provide aid to violent extremists, will not plot the 
assassination of American Presidents, will not invade or fire 
missiles at its neighbors, and it will not use chemical weapons 
on its neighbors or its own people, as Iraq had done in the 
past.
    Let there be no doubt, if the coalition were to leave 
before the Iraqi security forces are able to assume 
responsibility, we would 1 day again have to confront another 
Iraqi regime, perhaps even more dangerous than the last, in a 
region plunged into darkness rather than liberated and free.
    Americans ask, how are we doing in Iraq? The President's 
strategy is clear. It is to empower a democratically elected 
Iraqi Government to aggressively go after the insurgents and 
terrorists, and that is exactly what their forces are doing, 
with some success, to pursue an inclusive constitutional 
political process, to improve public services with the help of 
the international community and the quality of life for the 
Iraqi people, and to enable Iraqi security forces to take 
charge of their own country.
    Each of these strategies depends on the others. Success 
will not be easy and it will require patience and progress on 
each of those three fronts. But, consider what has been 
accomplished in 12 months--not 12 years, but 12 months--since 
sovereignty was passed on June 28. More than 8 million people 
defied terrorist threats and voted in the January election. 
Duly elected Iraqi leaders with input from the Sunni minority 
are now drafting a constitution, to be voted on by the Iraqi 
people by October 15.
    Under their new constitution, a permanent government will 
then be elected on December 15, 2005. I agree completely with 
Senator Levin that it is critically important that that 
timetable not be changed.
    Iraqis are building an economy and it is growing. The 
insurgency remains dangerous, particularly in several parts of 
Iraq. But terrorists no longer can take advantage of 
sanctuaries like Fallujah, and coalition and Iraqi forces are 
capturing or killing hundreds of violent extremists on a weekly 
basis and confiscating literally mountains of weapons.
    The general officers here today are leading the troops that 
are contributing to these accomplishments. They are prepared to 
provide a detailed report on the progress of Iraqi security 
forces. The number of U.S. troops in Iraq has moved from a high 
during the Iraqi election period of about 160,000 to less than 
140,000 currently. But, their priorities have also shifted, 
from conducting security operations essentially to a heavier 
focus on training, equipping, and assisting the Iraqi security 
forces.
    In the past, as we all know, the performance of the Iraqi 
security forces has been criticized as being mixed. Fair 
enough, but consider that 2 years ago few Iraqi security forces 
had the critical equipment, such as radios, vehicles, and body 
armor. Today, the vast majority of Iraqi security forces do 
have the appropriate equipment. The Iraqis had an inexperienced 
military chain of command and weak Ministries of Defense and 
Interior. Today, both are improving, but they have a way to go.
    They had weak unit cohesion and insufficient mid-level 
leadership. Today the leaders at all levels are stepping 
forward. A year ago, six Iraq army battalions were in training. 
Today dozens of trained battalions are capable of conducting 
anti-insurgent operations, albeit with coalition support. 
Sections of the country are relatively peaceful and essentially 
under control of Iraqi security forces at the present time.
    Finally, the question is asked, when can the coalition 
leave and should Congress establish a deadline to withdraw? 
Some in Congress have suggested that deadlines be set. That 
would be a mistake, as Senator Levin has said. It would throw a 
lifeline to terrorists, who in recent months have suffered 
significant losses and casualties, been denied havens, and 
suffered weakened popular support.
    Timing in war is never predictable. There are no 
guarantees, and any who say that we have lost this war or that 
we are losing this war are wrong. We are not. Coalition 
military personnel are in Iraq at the request of the Iraqi 
Government. They are under the United Nations (U.N.) Security 
Council Resolution 1546. The objectives of the overwhelming 
majority of the Iraqis and the coalition are the same and that 
is a peaceful and prosperous Iraq with a representative 
government. Even today, that is a radical notion in that part 
of the world, and the fact is that a new approach is going to 
result in confusion, resistance, and difficulties, as we have 
seen, we understand that.
    Iraq was a violent place before its liberation and there 
will undoubtedly be some violence in Iraq after the coalition 
forces depart. But success in this effort cannot be defined by 
domestic tranquility. Rather, success will be when there is a 
free Iraq where Iraqis are the guaranteer of their own 
security, with minimal coalition involvement, and that will be 
an historic accomplishment.
    The timing must be condition-based. It will depend on the 
extent to which the various ethnic factions reconcile--and they 
are now doing that--the level of support from the international 
community, and with the successful meeting recently in Brussels 
this week international support is growing. The U.N. and North 
Atlantic Treaty Organization (NATO), for example, are 
increasing their commitments.
    The timing will depend on Iraq's neighbors as well, whose 
behavior continues to be unhelpful. Insurgents continue to come 
into Iraq from Syria and Iran. Nations that serve as conduits 
for mass murderers are not friends of the Iraqi people, they 
are not friends of the United States, and they are certainly 
not friends of the civilized world.
    One final point. Someone recently asked me about the 
differences between my current tenure as Secretary of Defense 
and my previous service some 30 years ago. One thing that has 
remained the same is the tendency in some quarters to blame 
America for the world's troubles. Well, I am not one who wakes 
up every morning seeking ways to suggest that America is what 
is wrong with the world. The people who are going on television 
chopping off people's heads and using disabled children as 
suicide bombers, they are what is wrong with the world. The 
violent extremists that killed 3,000 innocent men, women, and 
children on September 11, they are what is wrong with the 
world.
    In every war there are individuals who commit wrongdoing 
and there are setbacks and there are hardships. Recently the 
noted historian and author David McCullough recalled the year 
1776 as the most important year in the most important conflict 
in our history. He said: ``If it had been covered by the media 
and the country had seen how horrible conditions were and what 
a very serious soup we were in, I think that would have been 
it.''
    In 1864 many, including President Lincoln himself, believed 
that he would lose the upcoming election, due in part to the 
slew of criticism he was receiving for his prosecution of the 
Civil War. Speaking to an Ohio regiment, President Lincoln 
said: ``I wish it might be more generally and universally 
understood what the country is now engaged in. There may be 
mistakes made some time and things may be done wrong, while the 
officers of the government do all they can to prevent mistakes. 
But, I beg of you as citizens of this great Republic not to let 
your minds be carried off from the great work we have before 
us.'' That was good advice.
    Today's service men and women, like the generations before 
them, are performing noble work. Though some pundits and 
observers and nonparticipants have criticized the American 
military with inaccurate comparisons and purple rhetoric, those 
of us who work with the men and women in the U.S. Armed Forces 
know otherwise. Our fellow citizens in uniform serve with great 
compassion, with professionalism, amid danger and provocation, 
and we should not allow the actions of a few to distract from 
the mission we face or from the necessity to succeed.
    To all U.S. military personnel and their families, who 
sacrifice while guardsmen and reservists are deployed in 
battle, I offer my fullest appreciation. One day, all those who 
have made sacrifices on behalf of this cause and the American 
people who support their important work will find a place of 
honor in our country's history and they will have won the 
appreciation and respect that they have richly earned, and I 
include the three general officers here today.
    Thank you.
    [The prepared statement of Secretary Rumsfeld follows:]

             Prepared Statement by Hon. Donald H. Rumsfeld

    Mr. Chairman, members of the committee.
    I am joined today by:

        <bullet> General Richard Myers, Chairman of the Joint Chiefs of 
        Staff;
        <bullet> General John Abizaid, Commander of U.S. Central 
        Command; and
        <bullet> General George Casey, Commander of the Multi-National 
        Force in Iraq.

    These general officers are doing an outstanding job and our Nation 
is truly fortunate to have their able service. I am grateful and proud 
to be serving with them.
    One year after World War II ended--a leading news magazine 
published an article about post-war reconstruction efforts in Germany. 
It was entitled: ``Americans are Losing the Victory in Europe.''
    The author despairingly wrote:

          ``Never has American prestige in Europe been lower. People 
        never tire of telling you of the ignorance and rowdy-ism of 
        American troops, of our misunderstanding of European 
        conditions.''

    The year was 1946. But consider how different 1946 looks to us 
today. In retrospect, it was not a time to despair but to build as they 
did.
    Now it has been 1 year since the turnover of sovereignty to the 
liberated Iraqi people. Just as Europe was a central battlefield--
ideological and military--in the war against Communist aggression, so 
too the Middle East and Central Asia are the centers of gravity in 
today's struggle against violent extremism.
    I know the American people still have the same determination and 
resolve. They know today as then that these struggles are not won on 
defense, they are won on offense.
    The task is to help more people understand the nature of this 
struggle we are in. Violent extremists have made clear their 
intentions: It is to kill as many Westerners and moderate Muslims as 
possible.
    They have access to money, and to weapons--and they are seeking 
even more dangerous weapons. They are surveying and targeting landmarks 
in our country.
    They have to be stopped. Together with the world we must find ways 
to encourage any would-be recruits to choose a better path.
    Our Nation's actions to liberate Afghanistan and Iraq have:

        <bullet> Eliminated two state sponsors of terrorism;
        <bullet> Most certainly contributed to Libya's decision to open 
        its nuclear weapons programs to international inspection and 
        renounce terrorism; and
        <bullet> Encouraged democratic movements in regions that have 
        long been breeding grounds for violent anti-Western extremism.

    It is not surprising that there are questions about the situation 
in Iraq today. That has always been the case in a time of war. It was 
true in Washington's time, and Lincoln's time, and Roosevelt's to be 
sure.
    Today the questions I hear are something like this:

        <bullet> Is the effort underway in Iraq worth the cost and the 
        sacrifice?
        <bullet> How are the coalition and the new Iraqi government 
        really doing?
        <bullet> When will Iraqi security forces be able to assume full 
        responsibility for securing their country? and
        <bullet> What happens next, and should Congress set a timetable 
        to withdraw?

    I will comment on each of these questions.
First, whether the effort underway in Iraq is worth the costs.
    It was not long ago, there was relatively little disagreement--
either here at home, or in the United Nations--as to the danger the 
former Iraqi regime posed to the region and the world.
    The only question then was how long the United Nations should wait 
for Iraq to comply with the 17 Security Council Resolutions it had 
defied.
    By contrast it is important to note what success will mean.
    Specifically, a free, democratic, and peaceful Iraq:

        <bullet> Will not provide aid to violent extremists;
        <bullet> It will not plot the assassination of American 
        Presidents;
        <bullet> It will not invade or fire missiles at its neighbors; 
        and
        <bullet> It will not use chemical weapons on its neighbors or 
        its own people.

    Let there be no doubt: If the coalition were to leave before the 
Iraqi security forces are able to assume responsibility--which we must 
not do--we would 1 day again have to confront another Iraqi regime--
perhaps even more dangerous than the last--in a region plunged into 
darkness, rather than bathed in the light of freedom.
Americans ask: how are we doing in Iraq?
    The President's strategy is clear--to empower the democratically 
elected Iraqi government:

        <bullet> To aggressively go after the insurgents and 
        terrorists--and that is exactly what their forces are doing 
        with solid success;
        <bullet> To pursue an inclusive constitutional political 
        process;
        <bullet> To improve public services and, with the help of the 
        international community, improve the quality of life for the 
        Iraqi people; and
        <bullet> To enable Iraq's security forces to take charge of 
        their own country.

    Each of these strategies depends on the others. Success will 
require patience and progress on each of the four.
    But consider what has been accomplished in Iraq in 12 months time--
not 12 years, but 12 months:

        <bullet> More than 8 million people defied terrorists' threats 
        and voted in the January election;
        <bullet> Duly elected Iraqi leaders, are drafting a 
        Constitution to be voted on by the Iraqi people by October 15, 
        2005. Under their new Constitution, a permanent government will 
        be elected on December 15, 2005;
        <bullet> Iraqis are building an economy and it is growing--with 
        a stock market and a stable currency;
        <bullet> While the insurgency remains dangerous in parts of 
        Iraq, Coalition and Iraqi operations are disrupting terrorist 
        sanctuaries, such as Fallujah, and keeping them on the run;
        <bullet> U.S. forces are capturing or killing hundreds of 
        violent extremists on a daily basis and confiscating literally 
        mountains of weapons.

    The general officers here today are leading the troops that are 
contributing to these achievements. They are prepared to provide a 
detailed report on the progress of Iraq's security forces.
    The number of U.S. troops in Iraq has moved from the Iraqi election 
high of 160,000 to less than 140,000 currently. But their priorities 
have shifted--from conducting security operations to a heavier focus on 
training, equipping, and assisting the Iraqi forces.
    In the past, the performance of Iraqi security forces has been 
criticized for being mixed. But consider that:

        <bullet> Two years ago, few Iraqi forces had critical equipment 
        such as radios, vehicles, or body armor. Today, the vast 
        majority of Iraqi security forces have this equipment;
        <bullet> The Iraqis had an inexperienced military chain of 
        command and weak ministries of Defense and Interior. Today, 
        both are improving, but they have a way to go;
        <bullet> They had weak unit cohesion and insufficient mid-level 
        leadership. Today, leaders at all levels are stepping forward;
        <bullet> A year ago, six Iraqi Army battalions were in 
        training. Today, dozens of trained battalions are capable of 
        conducting anti-insurgent operations with Coalition support;
        <bullet> Large sections of the country, including much of the 
        north and south, are relatively peaceful and essentially under 
        the control of Iraqi security forces; and
        <bullet> Responsibility for what had been one of the most 
        dangerous neighborhoods in Baghdad was recently turned over to 
        the Iraqi security forces, and has been relatively free of 
        serious violence.

    Don't believe it when you were told the Iraqi security forces can't 
cut it. They can and they are, to their credit.
Finally, the question is asked: when can the coalition leave? Should 
        Congress establish a deadline to withdraw?
    Some in Congress have suggested that deadlines be set for 
withdrawal. That would be a terrible mistake. It would throw a lifeline 
to terrorists who in recent months have suffered significant losses in 
casualties, been denied havens, and suffered weakened popular support.
    Let me be clear: the United States made a commitment to finish the 
job and we must do so. Timing in war is never predictable--there are no 
guarantees. We can and will prevail, but only if we persevere. Any who 
say we have lost or are losing are flat wrong. We are not.
    Coalition military personnel are in Iraq at the request of the 
Iraqi government and consistent with U.N. Security Council Resolution 
1546. The objectives of the overwhelming majority of Iraqis and the 
coalition are the same: a peaceful and prosperous Iraq with a 
representative government. Even today, that is a radical notion in the 
Middle East. The fact that that is a new approach is going to result in 
occasional confusion, resistance, and difficulties. We understand that.
    Iraq was a violent place long before its liberation, and there may 
undoubtedly be some violence in Iraq after Coalition forces depart. 
But, success in this effort cannot be defined as domestic tranquility. 
Rather, success will be when there is a free Iraq, where Iraqis are the 
guarantors of their own security, with minimal Coalition involvement. 
That will be a truly historic accomplishment.
    The amount of time this will take is not knowable.
    The timing must be condition based. It will depend on:

        <bullet> The extent to which various ethnic factions 
        reconcile--and they are now doing so in impressive ways;
        <bullet> The level of support from the international 
        community--and it is growing. The U.N. and NATO, for example, 
        are increasing their commitments. The international conference 
        on Iraq that recently took place in Brussels elicited strong 
        political statements of support for the emerging Iraqi 
        democracy;
        <bullet> The timing will also depend on Iraq's neighbors, whose 
        behavior continues to be unhelpful.

    Insurgents continue to come into Iraq from Syria and Iran. Nations 
that serve as conduits for mass murderers are not friends of the Iraqi 
people, or of the United States, or of the civilized world.
    One final point. Someone recently asked me about the differences 
between my current tenure as Secretary of Defense and my previous 
tenure some 30 years ago. One thing that has remained the same is the 
tendency in some quarters to blame America for the world's troubles.
    Well, I'm not one who wakes up every morning seeking ways to 
suggest that America is what's wrong with the world. The people who are 
going on television chopping off people's heads or using disabled 
children as suicide bombers--they are what's wrong with the world. The 
violent extremists that killed 3000 innocent men, women and children on 
September 11 are what's wrong with the world.
    In every war, there are individuals who commit wrongdoing. There 
are mistakes, setbacks, and hardships.
    Recently the noted historian and author, David McCullough, recalled 
the year 1776 as ``the most important year in the most important 
conflict in our history.'' He said:

          ``If it had been covered by the media and the country had 
        seen how horrible the conditions were . . . and what a very 
        serious soup we were in, I think that would have been it.''

    Similarly in 1864, many--including President Lincoln himself--
believed he would lose the upcoming election due in part to the slew of 
criticisms he received for his prosecution of the Civil War. Speaking 
to an Ohio regiment, President Lincoln said:

          ``I wish it might be more generally and universally 
        understood what the country is now engaged in. There may be 
        mistakes made sometimes; and things may be done wrong, while 
        the officers of the Government do all they can to prevent 
        mistakes. But I beg of you, as citizens of this great Republic, 
        not to let your minds be carried off from the great work we 
        have before us.''

    That was sound advice then--and it is wise counsel today.
    Today's service men and women, like the generations before them, 
are performing noble work. Though some pundits and observers--non-
participants--have criticized the American military with irresponsible 
comparisons and purple rhetoric, those of us who work with the men and 
women in the U.S. Armed Forces know otherwise.
    Our fellow citizens in uniform serve with great compassion and 
professionalism amid danger and provocation. We should not allow the 
actions of a few to distract us from the mission we face. Or from the 
necessity to succeed.
    To all U.S. military personnel, to their families who sacrifice 
while guardsmen and reservists are deployed in battle, I offer my 
fullest appreciation.
    One day, all those who have made sacrifices on behalf of this 
cause--and the American people who support their important work--will 
find a place of honor in our country's history and they will have won 
the appreciation and respect that they have richly earned.
    Thank you, Mr. Chairman.

    Chairman Warner. Thank you, Mr. Secretary. I might add that 
when a group of us had a chance to be with the President the 
other day, he likewise indicated the extraordinary trust and 
confidence he has in the military officers appearing before us 
today in this hearing and others throughout the world. We are 
fortunate to have them in the service of our country.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Thank you, Mr. Chairman, Senator Levin, and 
members of the committee. Thank you for your continuing support 
of our men and women in uniform and for this opportunity to 
discuss our progress and challenges in Iraq.
    In the year since the transfer of sovereignty in Iraq, we 
have watched the Iraqi government and Iraqi security forces 
make steady progress in providing for their own security. Of 
course, many challenges still remain. We see that every day as 
violent extremists murder innocent men, women, and children and 
sabotage the efforts of the Iraqi people and the coalition. 
But, that is only part of the story. Every day as well, the new 
Iraqi government, with the help of the coalition, takes 
significant positive steps down the road to freedom and to 
security.
    We are on the right course and we must stay that course. 
Under General Abizaid's and General Casey's leadership, we have 
the right strategy for helping build a new and secure Iraq, at 
peace with its neighbors, with a representative government that 
respects human rights and maintains the rule of law.
    The stakes in Iraq are enormous. Iraq is not just a battle 
in the struggle against violent extremism and al Qaeda. It is 
currently the central battle. The enemy is counting on our 
resolve to weaken. I can assure you, however, that our men and 
women in uniform are firm in their resolve.
    We are grateful for the support of the American people and 
that support absolutely must continue until the job is done. 
While we are all eager to see our troops come home, leaving 
before the task is complete would be catastrophic, not only for 
Iraq, but also for the overall struggle against violent 
extremism and for our national security.
    Our troops understand exactly what is at stake in Iraq and 
they know that they are making a huge and important difference. 
One Army captain from Pennsylvania, currently on his second 
deployment to Iraq, wrote him in an e-mail: ``When I am really 
tired, I occasionally think that I am giving a little more than 
my share. But, then I think back to World War II and Korea, 
when soldiers deployed oftentimes not knowing when they were 
coming home. That gets me back in the correct frame of mind.''
    I am very proud of all our service men and women, as I know 
you all are, proud of their tremendous determination, their 
courage, the compassion that they show every day under very 
challenging conditions.
    Shortly we are going to celebrate the Fourth of July, the 
day that our Nation's first leaders told the world what we 
stand for as Americans. As we approach the Fourth, we are also 
reminded that building a free and open society is a very 
difficult task and it takes a long time. But, it is a most 
noble task. I think we are all grateful for our freedoms, we 
are grateful for those that have fought for those freedoms in 
the past and those that today are fighting to defend those 
freedoms as well.
    We thank you for your support and we look forward to your 
questions.
    Chairman Warner. Thank you.
    At this time the committee will stand in recess until the 
completion of the vote. [Recess from 10:10 a.m. to 10:31 a.m.]
    Chairman Warner. General Myers, I believe you had completed 
your statement.
    General Myers. Yes, sir.
    Chairman Warner. We will now hear from General Abizaid.

STATEMENT OF GEN JOHN P. ABIZAID, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Abizaid. Thank you, Mr. Chairman, Senator Levin, 
and members of the committee. I thank all of you for the 
opportunity to join you today.
    I just returned from the region and spent some time in 
Iraq, Afghanistan, and Djibouti. Our troops and their 
commanders remain confident, competent, and courageous. We 
honor their dedication and sacrifice.
    Discussions with Afghan and Iraqi security force leaders 
and visits to their units in the field showed growing 
confidence, increased capability, and increasingly better 
organized chains of command. The keystone to our theater 
strategy is to build effective local forces and, while they 
have made much progress, they are not yet ready to stand and 
operate alone.
    I know we are here today to talk primarily about Iraq, but 
we must not lose sight of the broader struggle under way. The 
same enemy that brought us September 11 fights us in 
Afghanistan and Iraq. They challenge our partners in Saudi 
Arabia and Pakistan. They attack friends in Turkey, Spain, and 
Morocco. They organize to develop or acquire weapons of mass 
destruction and connect their hateful ideology and recruitment 
through the tools of the connected world.
    While we do not exclusively fight al Qaeda and their 
associated movements in our region, they represent the main 
enemy to peace and stability. Their vision of the future is 
best seen in the example of the Taliban's rule in Afghanistan: 
no music, sequestered women, executions in soccer stadiums, and 
destruction of treasured art. Like the ideologies of fascists 
and communists before them, al Qaeda seeks to be the vanguard 
of the extremist movement and the oppressor of free-thinking 
people.
    Our campaign since September 11 has put them on the 
defensive. The enemy is under pressure, but still dangerous, 
still seeking to hit us again at home. I share the view of many 
of our troops in the field that fighting this enemy abroad 
makes it more difficult for them to strike us at home. We can 
decisively weaken the ideological extremists led by bin Laden, 
Zawahiri, and Zarqawi by stabilizing Iraq, stabilizing 
Afghanistan, and actively helping regional nations help 
themselves against this threat.
    The great sense of confidence I gain from American, Iraqi, 
and Afghan troops in the field stands in often stark contrast 
to those who see no obvious progress on the battlefield. I can 
understand the confusion. This is no longer a war of mass fires 
and easily traced maneuvers, but rather a war of subtle 
intelligence action, position, precise strikes, and the 
painstaking work of institution-building.
    The enemy does not seek to defeat us militarily, but to 
wait us out, to sap our confidence, and to break our will. We 
must not let their success about grabbing headlines confuse us 
about our ability to help the people of the region build better 
futures. Militarily, our forces are strong. They provide the 
shield behind which legitimate institutions form. They gain 
time for the political process in Iraq and Afghanistan to 
mature. Elsewhere in the region, their presence and assistance 
help shape capabilities that allow our friends in the region to 
resist extremism.
    For those of us who have spent many months in the field, we 
see good progress in both Iraq and Afghanistan. We sense good 
progress against the extremism that once seemed so pervasive in 
the region. But, we are realistic and we know that great change 
is almost always accompanied by violence.
    It is not our intention today to paint a rosy picture of 
tasks easily accomplished. We have sacrificed much and there is 
much more work ahead. Progress in counterinsurgency and 
counterterrorist work is not easily recognized. Setbacks, 
casualties, and difficult problems undoubtedly remain ahead, 
but with your support and the support of the American people 
success is undoubtedly ahead as well.
    We will need patience and strength to achieve success. Our 
men and women in uniform have both.
    Thank you.
    Chairman Warner. Thank you very much, General.
    General Casey.

  STATEMENT OF GEN GEORGE W. CASEY, USA, COMMANDING GENERAL, 
                   MULTI-NATIONAL FORCE-IRAQ

    General Casey. Thank you, Mr. Chairman, and I thank all of 
the committee for their continued support. As we approach the 
1-year anniversary of sovereignty in Iraq, I continue to be 
inspired by the demonstrated courage, conviction, tenacity, and 
commitment of the Iraqi people as they march toward democracy. 
After more than 3 decades of living under a brutal dictator, 
the Iraqis have embraced the ideals of self-governance and 
tolerance and are fighting and dying to build a better future 
for all Iraqis. Such commitment deserves our admiration and 
continued support.
    In the past year the Iraqis, supported by the coalition, 
have established an interim government, neutralized the Shia 
insurgency, eliminated terrorist and insurgent safe havens 
across Iraq, mobilized their security forces to confront the 
insurgency, increased the pace of economic development, seated 
a democratically elected Transitional National Assembly (TNA), 
and peacefully passed control from the interim government to 
the transitional government. The new government, after a 
transitional period, has formed and aggressively continued the 
campaign against the terrorists and insurgents while building 
inclusive political, governmental, and constitutional 
processes.
    The Iraqi people are serious about their future, they are 
serious about building a government that respects the human 
rights of all Iraqis, and they are serious about defeating the 
terrorists and the insurgents that are doing the utmost to deny 
them their dreams.
    I sense that many view the daily snapshots of violence in 
Iraq in isolation and conclude that our efforts in Iraq are not 
progressing. That is what the terrorists and the insurgents 
would like you to believe. Quite the contrary, the Iraqi people 
make progress every day. They are fighting for their future 
against the remnants of the regime that tyrannized them for 
over 3 decades and they are fighting for their future against 
the extremists with the same goals as those who attacked the 
United States on September 11.
    Now, you hear a lot about what the insurgents do, so I 
thought it might be useful to consider what the insurgents and 
the terrorists have not done over the past year. First of all, 
they have lost their safe haven in Fallujah and they have not 
been able to reconstitute it.
    Second, they have not been able to expand their support 
base across Iraq, nor have they attracted a broad following, 
largely because they have no positive vision for Iraq's future 
to offer. Even by our most pessimistic estimates on the size of 
the insurgency, we believe the insurgency constitutes less than 
one-tenth of 1 percent of the Iraqi population. As I have said 
several times, this is a localized insurgency and in 14 of the 
18 provinces they still average less than 3 incidents of 
violence per day.
    The insurgents also have not prevented the growth of the 
Iraqi security forces, even with almost daily attacks. Iraqi 
security forces, after struggling last spring and fall, drew 
great confidence from their decisive role in protecting the 
January 30 elections. These Iraqi security forces, that now 
number around 170,000, have been further enabled by a more 
proactive partnership with coalition forces that, while only a 
few months old, has enabled the Iraqis to begin moving toward 
assuming the lead for their counterinsurgency effort.
    The insurgents have also not sparked sectarian violence, 
although they work hard at it every day. They cannot do this 
because the Iraqi commitment to something better is so strong.
    Lastly and perhaps most importantly, the insurgents have 
not stopped political and economic development in Iraq. The 
well-known January 30 elections where 8.5 million Iraqis defied 
intimidation and terror to take a stake in their future, the 
formation of the first democratically elected government in 
decades, and the beginnings of the development of an Iraq 
constitution all indicate that the momentum is in favor of 
democracy and not terror.
    What perhaps is less well known is the progress in the 
economic sector, progress that only begins to meet Iraq's 
needs, but progress nonetheless. In the last year, through the 
hard work of Iraqis, the U.S. embassy, and coalition forces, we 
have started over 2,500 of the 3,100 reconstruction projects 
funded by our government and we have completed over 1,300 of 
those. Even more heartening is the private construction of 
homes and businesses that we witness on a daily basis and 
attribute to Iraq's growing economy and public confidence. Iraq 
slowly gets better every day.
    Unfortunately, the tough part about counterinsurgencies is 
that the insurgents do not have to win; they just have to not 
lose. This, as General Abizaid said, is a battle of wills and 
the terrorists and insurgents are challenging ours. They will 
continue to contest the Iraqi political, economic, and social 
advances by attacking innocent men, women, and children, 
symbols of the government, and coalition forces. But they will 
not succeed.
    The stark reality is that insurgencies have not done well 
against democratically-elected governments, particularly 
insurgencies that offer no positive vision. Recent polls 
confirm that Iraqis are: one, confident in their government and 
in their security forces; two, optimistic about their future; 
and three, they intend to vote in large numbers in both the 
upcoming constitutional referendum and the democratic 
elections. The Iraqi people are committed to something better 
than the tyranny that they have known for the past 3 decades 
and are fighting every day for the dream of a better future.
    The last year was one of progress and firsts for Iraq, but 
one also impacted by terror and violence. Yet the Iraqi people 
persevered to their greatest accomplishment in decades, the 
January elections. Six months before the constitutional 
elections, I will tell you, Mr. Chairman, that we are well 
positioned for another Iraqi success. To be sure, there are 
long-term development challenges and much to be done. To be 
sure, Iraq's steady progress will be contested. But, this 
insurgency and these terrorists will ultimately be defeated as 
Iraqis elect a government based on an Iraqi constitution that 
respects the human rights of all Iraqis, as they build Iraqi 
security forces that can maintain domestic order and deny Iraq 
as a safe haven for terror, and as they continue economic 
development programs that help Iraq recover from decades of 
neglect.
    The Iraqi people will continue to be enabled in their 
journey by the determined efforts of the coalition and our 
embassy personnel that have done so much and that have given so 
much over the past 2 years.
    We are humbled by the sacrifices that they and their 
families have made and we continue to be humbled by their 
commitment and their resolve. I could not be prouder of the 
magnificent men and women of our Armed Forces.
    In closing, Mr. Chairman, I can tell you that we make 
progress in Iraq every day. But, it is hard work and it is a 
challenging environment. That said, after a year on the ground 
I can tell you that I am more convinced than ever that this 
mission is both realistic and achievable. It will require 
patience and will, but both the region and our country will be 
better when Iraq succeeds.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    We have had I think very good opening statements from our 
distinguished panel and we will now proceed to a 6-minute round 
of questions.
    Mr. Secretary, I would like to reread a brief part of my 
opening statement and a brief part of Senator Levin's opening 
statement. I said the following: ``The process over the coming 
months by which the Iraqis adopt a constitution and form a 
government is key to their success. With the support of the 
coalition governments, the Iraqi government must not allow any 
extensions or delays in providing for a constitution, 
elections, and the formation of a permanent government. Only 
strong political leadership will provide a free Iraq.''
    Senator Levin has taken it a step further than I have: 
``The United States needs to tell the Iraqis and the world that 
if the deadline is not met we will review''--that is with 
regard to this formation of government--``our position with all 
options open, including but not limited to setting a timetable 
for withdrawal.''
    In your opening statement you said you agree with Senator 
Levin and I would like to have your further amplification with, 
I presume, the statement ``we will review our position''--
certainly we would. ``All options are open.'' That seems to me 
reasonable. ``But not limited to setting a timetable for 
withdrawal.''
    My point is that I see no alternative whatsoever for the 
coalition of governments, and most particularly ours, from 
allowing Iraq to not succeed in the formation of its 
government. I am just wondering, if they are not able to make 
this timetable as laid down for the constitution, the 
elections, and the formation of the permanent government, what 
are our reasonable options? Because we have no alternative but 
to see that that government does succeed at some point in time. 
Otherwise, it will be a signal to worldwide terrorism that they 
stayed the course and indeed thwarted the efforts of the 
coalition forces to achieve the goals of some form of new 
government in Iraq.
    Secretary Rumsfeld. Mr. Chairman, there is no question, as 
each one of us have said this morning, but that there must be 
progress on the political side, there must be progress on the 
economic side, and there must be progress on the security side, 
and they are all linked. To the extent there would be, for 
whatever reason, a delay in moving forward with drafting a 
constitution or a referendum on the constitution or holding the 
elections, it would retard the entire process. During this 
process coalition people are being killed, Iraqis are being 
killed, and it would be an enormous disservice in my view to 
delay the constitution or the elections under the new 
constitution.
    That is what I said I agreed with. It is not for me to tell 
the Iraqi government what the President might do with respect 
to reviewing our situation or anything like that. I might make 
recommendations to the President, but it is for him to make 
those decisions, not me.
    But there are a number of things the Iraqi people must do. 
A number of countries, 32 countries, have sent their finest 
young people over there and liberated that country. They now 
have an opportunity to grab a hold of that country and take all 
the wealth they have in water, intelligence, education, and oil 
and turn it into a model for the Middle East. It is their task 
to do that. They are going to be ultimately the ones who will 
win this insurgency.
    The Iraqi people have to have confidence that they have a 
voice in it, all the Iraqi people. But, they have to fight 
corruption. They are going to have to move forward on the 
political side. They are going to have to provide information 
to the Iraqi security forces so they know where the terrorists 
are hiding and the extremists are so that they can capture or 
kill them. They are going to have to take responsibility for 
all the Iraqi detainees and build prison facilities and 
establish a criminal justice system to see that people are 
dealt with in a proper manner.
    They have a lot of things they have to do. But, one of the 
first and foremost clearly is to see that they move forward on 
the political side and that the Iraqi people feel they have a 
stake in the future of that country.
    Chairman Warner. Thank you, Mr. Secretary.
    General Abizaid, you have had a very long and distinguished 
career in our military and much of that career of service has 
been in this region of the world. Your understanding of the 
people and the culture and their capabilities and the history--
there is a lot to be said that we should have examined with 
greater care the history of this culture as we proceeded with 
this military mission.
    What are your assessments as to the ability of the Iraqi 
people to succeed in the goals outlined very clearly by 
Secretary Rumsfeld just now and in other testimony?
    General Abizaid. Mr. Chairman, I think both General Casey 
and I would tell you that we spend a lot of time working very 
closely with Iraqis on the political side and on the military 
side, and we have known Iraqis that have been killed by the 
terrorists, that have succumbed to the insurgents. It is 
interesting how many times when one of them is killed another 
one will stand up and take their place.
    The desire to be free, the desire to develop a society 
within their own cultural norms, that allows them freedom and 
opportunity for a better future for their families, is not only 
an Iraqi desire; I think it is a desire of most human beings 
everywhere on this planet. That the United States Armed Forces 
help to give them that is absolutely one of the most important 
things I think we have ever been engaged in.
    We often do talk past one another culturally. We do have 
barriers of understanding that get in the way of efficient 
business sometimes. But, as we go down this road, both in 
Afghanistan and Iraq and in other places in the region, the 
cultural gap is closing, and it needs to close faster. There is 
nothing about Islam that says Iraq cannot move in the direction 
it is moving. There is nothing about the Arab culture that says 
that people cannot participate in their future in a free and 
participatory manner.
    The opportunity for a new beginning is clearly there. I 
believe that people throughout the region, not only in Iraq but 
elsewhere, in Lebanon, in Syria, in Saudi Arabia, you name the 
country in the Middle East--but they are all looking for the 
opportunities for reform and a better future and for 
accountability from their governments, and I think that is 
possible.
    Chairman Warner. Let me ask a second part of this question. 
Should there be a delay in adopting the constitution, or the 
invoking of the 6-month extension, creating a perception that 
the formation of this new permanent government is being 
delayed, for whatever reason, what is likely to be the reaction 
of the insurgents and others who want to stop this process in 
Iraq? Will they redouble their efforts? Will there likely be 
more participants from other nations that are flowing into Iraq 
daily? What would be the consequences from a military 
standpoint should that scenario become a reality?
    General Abizaid. My view is that if there is a delay it 
gives the insurgents the opportunity to get better organized, 
it increases the number of deaths and the tempo of action. It 
would be a bad thing, but not fatal.
    Chairman Warner. Thank you.
    General Casey, the committee received an extensive 
briefing----
    General Casey. I am sorry, sir. Before you go on, could I 
just add something on your question about the abilities of the 
Iraqis to succeed in accomplishing their goals? I alluded to it 
in my testimony, but we should not underestimate the impact of 
having lived under the regime of Saddam Hussein. We should not 
underestimate the impact that that has had on the psyche of the 
Iraqi people and the desire for something better.
    They are very resilient. Again, as I said in my opening 
statement, they want something better.
    Chairman Warner. They manifested that in the election 
period.
    General, in terms of the improvised explosive devices 
(IEDs) and other weapons that are being directed at the 
coalition forces, and indeed these insidious type of weapons 
are taking a very high toll of life and limb, our committee 
received I think an excellent briefing from those in the 
Department of Defense (DOD) yesterday who have the 
responsibility of developing the technology and getting it into 
the field to counteract this problem.
    There is a certain realism here that our technology has 
been, I think, reasonably successful in overcoming the 
complicated electronics and the variety of electronics being 
employed in these IEDs. But, now the insurgents seem to be 
departing from burying them and putting them in static 
positions and going more to the mobile platform, namely 
stealing a car and then utilizing that car and the armaments in 
it to bring about death and destruction.
    Much of the technology that we put into effect does not 
have the same level of deterrence in overcoming those systems 
once you go into that mobile platform. How are we going to 
address this situation?
    General Casey. Senator, just two points I would make here. 
First of all, I thank the committee up front for their great 
support. I think you might be interested to know that as a 
result of the additional protective gear and vehicles that have 
been sent over there, what we have seen over the last several 
months is that our return to duty rate, someone who is wounded 
but not seriously enough to be evacuated from the theater, has 
gone up by over 10 percent. So now over 70 percent of our young 
men and women who are wounded are only wounded slightly. So 
that is a huge step forward.
    On the shift to car bombs, I think it is not so much a 
shift as an increase in the use of car bombs to create terror. 
I think it is interesting that, while the overall number of 
attacks has gone down, the casualties of those attacks have 
gone way up because they are driving car bombs into crowds of 
civilians for the sole purpose of terror.
    Now, how do you deal with that? This is part of the nature 
of the war that we are in, and really any war. Action, 
reaction, counteraction. Our commanders on the ground are 
continuously adapting and adjusting, not only to what the enemy 
does, but also to try to out-think the enemy and get ahead of 
him.
    So as we work against the car bombs, while the 
technological solutions are not a silver bullet, as you 
suggested, they are a part of the adaptation of a more holistic 
strategy: one, to conduct operations along the borders to 
disrupt the flow of the suicide bombers and foreign fighters 
that drive those suicide car bombs; two, to attack the 
facilitators that take those car bombers, match them up with 
the car; three, to attack the car bomb makers and the cells 
that make those.
    We have been attacking each of those three areas here 
across Iraq over the past 6 weeks to 2 months. So we are 
adopting a holistic approach to this.
    But I will tell you, Senator, it is very hard, if not 
impossible, to defend against someone who is willing to kill 
themselves to accomplish their objective.
    Chairman Warner. The suicide participant, I agree.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Abizaid, can you give us your assessment of the 
strength of the insurgency? Is it less strong, more strong, or 
about the same strength as it was 6 months ago?
    General Abizaid. Senator, I would say, in terms of 
comparison from 6 months ago, in terms of foreign fighters, I 
believe there are more foreign fighters coming into Iraq than 
there were 6 months ago. In terms of the overall strength of 
the insurgents, I would say it is about the same as it was.
    Senator Levin. So you would not agree with the statement 
that it is in its last throes?
    General Abizaid. I do not know that I would make any 
comment about that, other than to say there is a lot of work to 
be done against the insurgency.
    Senator Levin. Well, the Vice President has said it is in 
its last throes. That is the statement of the Vice President. 
It does not sound to me from your testimony or any other 
testimony here this morning that it is in its last throes.
    General Abizaid. I am sure you will forgive me from 
criticizing the Vice President.
    Senator Levin. I just want an honest assessment from you as 
to whether you agree with a particular statement of his. It is 
not personal. I just want to know whether you agree with that 
assessment. It is not a personal attack on him, any more than 
if he says that something is a fact and you disagree with it. 
We would expect you to say you would disagree with it.
    General Abizaid. I gave you my opinion of where we are.
    Senator Levin. General Casey, you have said that the 
political process will be the decisive element. Can you expand 
on that?
    General Casey. I can, Senator. As we look at how to fight 
this war, we are fighting a counterinsurgency. If you look back 
historically at how insurgencies have been defeated, they have 
been defeated when the insurgents saw their options as better 
protected in the political process and their prospects for 
economic advancement to be better protected by the political 
process than fighting for them. That is the essential element 
here.
    The timetable that has been established for the political 
process is a great forcing function to keep this moving. As was 
discussed earlier, I also support the notion that any extension 
of the constitutional process would not be a good thing.
    Senator Levin. Beyond their own timetable?
    General Casey. I am not sure what you mean by ``beyond 
their own''----
    Senator Levin. They have a timetable of August 15 for a 
constitution and then they have allowed themselves under their 
own law one 6-month extension. That is it.
    General Casey. Right, and what I am saying is I do not even 
believe that they ought to have the 6-month extension.
    Senator Levin. I agree with that fully. But if they do not 
meet their own timetable, what you are saying is it could have 
severe negative consequences on our troops and on the outcome?
    General Casey. It certainly has the potential for that, 
Senator.
    Senator Levin. Well, I agree with that.
    I think everybody wants them to meet that timetable. The 
President has flat-out said that they should meet the 
timetable. Our Secretary of Defense has said again this morning 
how important it is, how essential it is that they meet their 
timetable, and again earlier this week said that it is 
absolutely important that they meet their timetable. It seems 
to me that it is important that the administration say publicly 
that there will be consequences or might be consequences in 
terms of our policies and actions if they do not meet that 
timetable.
    I very much welcome the statements here this morning as to 
how essential it is that they meet it. But, unless we do more 
than just say the words that it is important or essential or 
critical, unless we also give a message that we are going to 
have to review our situation if they do not meet their own 
timetable, it seems to me those words become hollow.
    The Secretary of State made a statement, which is that we 
are going to keep our forces there as long as they are needed. 
That has the opposite effect of telling them that if they do 
not meet their timetable for a political agreement, which is 
essential to ending the insurgency according to all your 
testimony, we are going to need to assess our situation. We are 
not going to decide in advance we are setting a deadline. We 
are not going to say what the consequences are going to be, but 
we are going to look at all options, including the possibility 
of setting a timetable.
    That, it seems to me, is a critically important thing for 
the administration to do, and what troubles me is that the only 
public statement that really we have had on that so far that I 
think is relevant is the opposite, which is the Secretary of 
State saying we will be there as long as we are needed. That is 
open-ended. If they do not agree to a constitution, if they do 
not agree to a political settlement, we are going to be needed 
for a much longer time than if they do.
    So I would hope, Secretary Rumsfeld, that you would take 
back at least this suggestion to the administration, to the 
President, even though you do not want to tell us or do not 
know perhaps what your own advice would be on this key issue as 
to what public statement should be made if they do not keep 
their own timetable. I would hope that you would take back the 
suggestion that, in order for those important words to have 
some kind of ``oomph'' behind them, some kind of impact, there 
has to be a suggestion which is explicit: Folks, political 
settlement is essential to ending the insurgency. Our experts 
all here say that. A political settlement requires a 
constitution, and if you do not meet the deadline for settling 
your political differences and adopting a constitution, then we 
are in a deeper soup than we are in now relative to the 
insurgency. That is the testimony here this morning.
    I would hope, Mr. Secretary, that you would pass along this 
suggestion, that there be an explicit statement to the Iraqis 
that not only do we expect them to keep their timetable for 
adopting a constitution, but that if they do not that we would 
have to assess our position, not prejudging what we would do, 
but looking at all options, including but not limited to 
setting a timetable for withdrawal. Are you willing to at least 
consider that and take that suggestion back?
    Secretary Rumsfeld. I will be happy to take that back, and 
I do know what I think. I would like to clarify one thing. You 
seem to include in their timetable the possibility of a 6-month 
delay. I want it very clear that I do not favor a 6-month delay 
even though that may be permitted under the Transitional 
Administrative Law.
    Senator Levin. Well, good for you. I hope that the words 
then are followed by actions as to what will be the effect if 
they extend it. That is fine with me.
    Secretary Rumsfeld. Fair enough.
    Let me make one other comment, Senator Levin. You raised 
the question of the Vice President's remarks about the ``last 
throes.'' You and I both have emphasized the importance of 
progress on the political side. The enemy knows that as well, 
and they know that if a democracy is established with a 
permanent government under a constitution in Iraq that they 
have lost a great deal. I do not doubt for a minute that they 
will respond to that challenge and recognize how important it 
is for them not to lose and in these final months between now 
and that constitution-drafting and the election they may very 
well be in their last throes by their own view because they 
recognize how important it will be if they lose and in fact if 
a democracy is established.
    I think those words, while I would not did not use them, I 
think it is understandable that we should expect that kind of 
response from the enemy.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses. General Casey and General 
Abizaid, thank you for your outstanding leadership to the men 
and women who are serving this Nation. Also, I would express my 
appreciation to others, like General Petraeus, who are doing 
such an outstanding job.
    I share your view that there are some signs of progress 
that should be encouraging to us and I share your view that we 
have to stay the course and the worst thing we could do would 
be to set a time or date of withdrawal of U.S. troops until the 
Iraqi military is able to take over those responsibilities of 
ensuring the security and safety of the Iraqi people as they 
transition to democracy.
    I also must tell you I am very worried. My concerns range 
from overstressing our National Guard and Reserves, some of 
whom are going back to Iraq for the second and third time, to 
our recruiting shortfalls. I am not satisfied yet with the 
plans that you may have to address that issue.
    General Casey, I may have gotten the wrong briefing 
yesterday, but I understand the attacks are up and casualties 
are up, not down, over a year ago. Go ahead, please.
    General Casey. I was specifically speaking about attacks 
against civilians.
    Senator McCain. I see, thank you.
    General Casey. I am sorry. Just to be clear, attacks now 
currently as compared to a year ago are actually about the 
same. If they are up it is only slightly, it is not 
significant.
    Senator McCain. Thank you. But the fact that it is not 
significantly down is not encouraging to me.
    General Casey. As it should not be.
    Senator McCain. General Casey, could we talk a little bit 
about the training of the Iraqi military? We went back and 
forth, perhaps for too long, in this committee about how many 
were trained and equipped, and then I think all of us agreed 
that we should grade by units rather than individuals. What 
percentage of the Iraqi units would you judge now are combat-
ready?
    General Casey. Senator, let me use the same kind of 
criteria we use for the United States Army.
    Senator McCain. Go ahead.
    General Casey. Let me give you some generalities here. 
First of all, let me tell you what we have done over the past 
months. We have developed a readiness assessment very similar 
to our own readiness assessment process. We have established 
four readiness categories. I think General Petraeus may have 
talked to you about that. It is a classified assessment, just 
like our own is a classified assessment.
    We categorize the units by those who are ready for 
independent counterinsurgency operations--that is a very high 
standard and we do not expect many of those to make that gate 
for some time.
    The second category is those that are capable of 
counterinsurgency operations with enabling support from us, 
with our transition teams and with intelligence and medevac, 
those kind of supports from us. That number is increasing daily 
and we will get a good number of units there probably before 
the end of this year.
    The third category is those that are good enough to operate 
with us, but not operate by themselves even with our help. Then 
the last category are those that are forming and are not ready 
at all.
    Senator McCain. I understand.
    General Casey. So, that is how we lay that out.
    Senator McCain. Well, I think we need to know that 
information, General Casey. I do not know why it is classified. 
We need to know how things are progressing in Iraq. That is the 
key element to success in Iraq.
    Maybe, Mr. Chairman, we can somehow elicit that. We seem to 
have great difficulty getting information, including redacting 
of information in the Boeing thing and the failure to get other 
information. I find that very frustrating.
    General Casey, I do not think it is an illegitimate nor 
should it be a classified answer, what percentage of those 
170,000 are combat-ready.
    General Casey. Okay, and I am not----
    Chairman Warner. We can proceed to a closed hearing 
following----
    Senator McCain. Well, then we will proceed to a closed 
hearing. I think the American people need to know, Mr. 
Chairman. They are the ones who are paying for this conflict. 
But, I will drop the question for now.
    General Abizaid, obviously one of the major problems that 
we have is this new influx of foreigners into Iraq across 
Syrian borders; is that not correct?
    General Abizaid. That is correct, Senator McCain.
    Senator McCain. A larger and larger percentage of these 
suicide bombers come from Saudi Arabia, Jordan, and other 
countries, is that not correct?
    General Abizaid. That is correct. We have also seen an 
influx of suicide bombers from North Africa, specifically 
Algeria, Tunisia, and Morocco.
    Senator McCain. Syria is facilitating this passage through 
money, training, equipment, and other means; is that correct?
    General Abizaid. I think I would put it somewhat 
differently. I would say that there is a clear node inside 
Syria which facilitates it. Whether or not the Syrian 
government is facilitating it or ignoring it is probably a 
debatable question. But the key node is Damascus in Syria.
    Senator McCain. It is a growing problem?
    General Abizaid. It is.
    Senator McCain. If Syria does not enforce its borders, 
should we reach a point where we may not want to respect those 
borders?
    General Abizaid. I think that question is best put to the 
policymakers. But I would tell you that the Syrians have not 
done enough.
    Senator McCain. I think it is probably a tough question for 
you.
    General Abizaid, my other comment is that I believe that 
too often we are going into the same places we have been in 
before, and that means we are not staying and clearing as 
opposed to coming in and striking and leaving. Maybe it is the 
training of the Iraqi military that would help us, because 
clearly we do not have enough troops to do all that. Maybe it 
is the training of the Iraqi troops that would do that.
    But, do you see any improvement in that scenario? For 
example, I hear in Fallujah now we are having firefights again 
after one of the toughest battles in really American military 
history, much less in the Iraqi war. I would be interested in 
your comments about that.
    General Casey. If I could, Senator. It is probably more 
appropriate for me to take that question than it is for General 
Abizaid.
    Senator McCain. Go ahead, General.
    General Casey. As I mentioned, we are fighting a thinking 
enemy here. This conflict ebbs and flows--action, reaction, 
counteraction. We are constantly moving forces around, trying 
to take advantage of vulnerabilities that we see in him, and 
sometimes we move forces to react.
    These Marine operations that we have just seen out west are 
intelligence-based operations designed to disrupt the flow of 
foreign fighters through the Euphrates River Valley into 
Baghdad. The operations that we are doing up north, in the 
northwest, with our Third Armored Cavalry Regiment and the 
Third Iraqi Army Division, are the same thing: going out after 
intelligence and then conducting operations based on that 
intelligence.
    Your notion that after these operations are conducted 
putting in Iraqi security forces to sustain the success is 
exactly the right notion, and it is exactly the notion that we 
are following. As they continue to develop, you are going to 
see more and more Iraqis taking charge of areas and coalition 
forces stepping back. But your notion is exactly right.
    Senator McCain. Thank you. Again, I want to thank you for 
your leadership. You give us confidence, you give us hope. I 
can only speak for myself, but I know I speak for many of my 
colleagues. This is a conflict we have to win and we cannot 
afford to lose. We are appreciative that we have the quality of 
leadership that we have there today.
    Thank you.
    General Myers. Can I follow onto just a couple of 
questions?
    Chairman Warner. General Myers.
    General Myers. Senator McCain, the one on Syria. My worry 
is not just the border, it is the ease with which foreign 
fighters transit through Syria and somehow are facilitated as 
well, not just getting past the borders, but what might happen 
in terms of identification they acquire somewhere along the 
way. Whether or not the Syrian Government is involved in that 
is pretty murky. But it is clear that foreign fighters are 
going----
    Senator McCain. At least they must be acquiescing, would 
you think?
    General Myers. You would think so. I mean, it is a pretty 
tightly controlled country, so you have to assume that they 
have some knowledge of what is going on in their capitals and 
in their land. I think that is inexcusable. It disrupts 
stability in Iraq and it contributes, of course, to the killing 
of coalition men and women. So, it is unacceptable behavior and 
it is happening. I would enlarge that a little bit.
    The other question, you mentioned the health of the Reserve 
component, and I share your concerns. I think we have worked 
all our forces very hard. That is one of the things that we 
have to be very aware of. I do not know of reservists that have 
gone back for a second or a third time unless they have done it 
voluntarily. Now, in the Air Force they will have done that, 
but I do not know of other reservists, unless it is voluntary, 
that have gone more than once.
    We track that. If we could track it by name we would. We do 
not have the data to do that, but we track it by individuals, 
basically, in units is how we do it.
    But, I do share the concern about the health of the force, 
certainly.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman. I want 
to thank General Casey, General Myers, General Abizaid, and 
Secretary Rumsfeld for their service to our country.
    During the course of their presentations we heard the words 
``dedication,'' the ``commitment,'' ``sacrifice,'' and 
``courage'' to describe our Armed Forces, and that is something 
that all of us admire, respect, and commend for those men and 
women in the regular forces, the Reserves, and the Guard. Quite 
frankly, it puts an additional burden, I think, on all of us to 
make sure that we are going to get it right over in Iraq, 
because the kinds of sacrifice that all of you have talked 
about about American service men and women and in terms of the 
Iraqis as well mean that we have a real responsibility to get 
it correct.
    That comes to the policymakers and moves out of those that 
are out there going on patrols every day and every night and 
doing the job that they feel is important and is important in 
terms of the United States. So it is the policy. It is the 
policymakers.
    Which brings me, Mr. Secretary, to you. Secretary Rumsfeld, 
we are in serious trouble in Iraq and this war has been 
consistently and grossly mismanaged. We are now in a seemingly 
intractable quagmire. Our troops are dying and there really is 
no end in sight.
    The American people I believe deserve leadership worthy of 
the sacrifices that our fighting forces have made and they 
deserve the real facts. I regret to say that I do not believe 
that you have provided either.
    You were wrong in September 2002 when you told the House 
Armed Services Committee that, knowing what we know about 
Iraq's history, no conclusion is possible except that they have 
and are escalating their weapons of mass destruction (WMD) 
programs. You were wrong when you told this committee that no 
terrorist state poses a greater, more immediate threat to the 
security of our people than the regime of Saddam Hussein in 
Iraq.
    When General Shinseki estimated that we would need several 
hundred thousand soldiers, you scoffed and said the idea that 
it would take several hundred thousand U.S. forces was far from 
the mark. When the massive looting occurred after Baghdad fell 
because we did not have enough troops for security, you 
callously said: Stuff happens.
    You wrongly insisted after Saddam fell that there was no 
guerrilla war, even though our soldiers continued to be killed. 
In June 2003 you said, ``The reason I do not use the phrase 
`guerrilla war' is because there is not one.''
    You wrongly called the insurgents ``dead-enders,'' but they 
are killing Americans, almost three a day, and Iraqis with 
alarming frequency and intensity.
    You wrongly sent our service members into battle without 
the proper armor. When asked by a soldier about inadequate 
equipment, you said: ``You go to war with the army you have. 
They are not the army you might want or wish to have at a later 
time.''
    You exaggerated our success in training capable Iraqi 
security forces. In February 2004, you told this committee: 
``We have accelerated the training of Iraqi security forces, 
now more than 200,000.'' That was in February of this year. In 
fact, we had far fewer actually able or capable of fighting 
then and far fewer that are capable even now.
    So, you basically have mismanaged the war and created an 
impossible situation for military recruiters and put our forces 
and our national security in danger. Our troops deserve better, 
Mr. Secretary, and I think the American people deserve better. 
They deserve competency and they deserve the facts.
    In baseball it is three strikes, you are out. What is it 
for the Secretary of Defense?
    Secretary Rumsfeld. Well, that is quite a statement. First 
let me say that there is not a person at this table who agrees 
with you that we are in a quagmire and that there is no end in 
sight. The presentations today have been very clear, they have 
been very forthright.
    Second, the suggestion by you that people are painting a 
rosy picture is false. There has been balance in my remarks. It 
is always possible for you to select out a word or two and cite 
it and suggest that that was the thrust of it, but the fact is 
from the beginning of this we have recognized that this is a 
tough business, that it is difficult, that it is dangerous, and 
that it is not predictable.
    Third, the issue of a guerrilla war. I mean, my goodness, I 
do not think it is a guerrilla war. You may think so. I do not 
know if anyone at this table thinks so. It is an insurgency. It 
is a semantic issue, but listing that as some sort of crime or 
wrongdoing or misleading it seems to me is a world class 
stretch.
    I did call them ``dead-enders.'' I do not know what else 
you would call a suicide bomber. What is a person who straps a 
vest on themselves, walks into a dining hall, and kills 
themselves and kills innocent Iraqi people or innocent 
coalition soldiers? It seems to me that that is a perfectly 
appropriate comment.
    With respect to the Iraqi security forces, there has been a 
great deal of misinformation that has been thrown around in 
this country. You know and we have told this committee on 
repeated occasions that in the early periods they included the 
site protection people, so the numbers were higher by some 
80,000. We said that. It is in the material that is presented 
to your committee every week or 2. There is an asterisk in 
there, a footnote; it says it. We have repeated it, and to then 
pull that number out and say it is less today it seems to me is 
misleading.
    I will say that the idea that what is happening over there 
is a quagmire is so fundamentally inconsistent with the facts. 
The reality is that they are making political progress without 
question. Reality is that the American forces that are training 
and equipping and mentoring the Iraqi security forces are doing 
a darn good job, and the number has been going up steadily and 
consistently, and I would be happy to have General Abizaid or 
General Casey mention the effective work they are doing.
    To denigrate them and to suggest that they are not 
capable--to be sure, they are not like the U.S. forces. They 
are never going to be like U.S. forces. There is not an army or 
a navy or an air force on the face of the Earth that is 
comparable to the United States military. But that does not 
mean that they are not capable of doing that which needs to be 
done.
    To talk about the total number of 168,500 and suggest that 
because they all cannot be deployed across the country at any 
given moment, with their own lift and their own intelligence 
and their own combat support, it seems to me misunderstands the 
situation. In the material we give you a large number of them 
are police. They are not supposed to deploy anyplace. Policemen 
in Washington, DC, do not get in airplanes and fly to 
California.
    These people are trained to be border guards. They do not 
deploy. They do not need to deploy. They go out to the border 
and they guard the border. They are policemen; they go to the 
city and they do their police work. There is a full range of 
security forces. Site protection people, they go out to an oil 
well and they sit there and guard the oil well.
    There are a limited number of military people and special 
police battalions that have the responsibility of 
counterinsurgency and they do an increasingly good job.
    I must say that I think the comments you made are certainly 
yours to make and I do not agree with them.
    Senator Kennedy. Well, my time is just expired. But, Mr. 
Secretary, I am talking about the misjudgments and the mistakes 
that were made, the series which I have mentioned, the 
disarming of the Iraqi army. Those were judgments that were 
made and there have been a series of gross errors and mistakes. 
Those are on your watch.
    Isn't it time for you to resign?
    Secretary Rumsfeld. Senator, I have offered my resignation 
to the President twice and he has decided that he would prefer 
that he not accept it, and that is his call.
    Senator Kennedy. Thank you, Mr. Chairman.
    General Casey. Excuse me, Mr. Chairman. But, as the 
commander in Iraq, I would like to put myself on the record, 
Senator Kennedy, as saying that I also agree with the Secretary 
that to represent the situation in Iraq as a quagmire is a 
misrepresentation of the facts. I thought I was fairly clear in 
what I laid out in my testimony about what is going on in Iraq, 
but you have an insurgency with no vision, no base, limited 
popular support, an elected government, committed Iraqis to the 
democratic process, and you have Iraqi security forces that are 
fighting and dying for their country every day. Senator, that 
is not a quagmire.
    Senator Kennedy. Mr. Chairman, I put in the record the 
interview of General Vines, who says the situation is 
absolutely static in Iraq today. That is on June 21, 2005. I 
will put his in the record as well. Thank you.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. This is an important issue. Are there any 
other members of the panel that wish to address that question?
    General Myers. It is clearly not a quagmire. It never has 
been. The term has been used loosely and it is not accurate in 
my estimation. I identify myself with General Casey's comments.
    Chairman Warner. General Abizaid.
    General Abizaid. I guess the only thing I have to say is I 
have been fighting this next to the Secretary for a long time 
and there is no doubt that I certainly have made my mistakes. 
But, when it comes to toughness and ``stick-to-it-iveness'' and 
fighting the enemy the way they need to be fought, I am 
standing by the Secretary.
    Chairman Warner. Now, Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I think we all know that the cut-and-run caucus is always 
alive and well. It does not matter what war it is, what 
conflict it is, and it certainly is active today.
    In the opening statement you made, General Myers, you said 
that for us to leave prior to the time that our mission is 
complete, it would be catastrophic. I agree with that, but I 
want to make sure that the other three witnesses get on the 
record as to agreeing with that statement. General Casey, 
General Abizaid?
    General Casey. I am certainly in agreement.
    General Abizaid. I agree with General Casey, sir.
    Senator Inhofe. Good.
    A year ago the American people would not have known what we 
were talking about if we mentioned an IED. They do today. We 
had a hearing, as the chairman said, yesterday or the day 
before on this and at Fort Irwin last week there was an IED 
seminar. You have briefly addressed this, but I would like to 
get on the record any progress that is being made, anything 
specific to the IED and what it is looking like in the future, 
if you could comment, any of you who want to, to elaborate any 
more than you already have.
    General Casey. Other than the session, Senator, that you 
have already alluded to, where the Army continues to focus 
their efforts technologically to give us the tools that we need 
to defeat these IEDs, that process is continuous and it is 
ongoing.
    I will tell you that I have asked several times. What we 
really need is a way to set off a blasting cap from a distance. 
All of these IEDs and car bombs are all triggered by a blasting 
cap and if you can set that off--if you think about it, have 
you ever been by a construction site where you see the sign 
that says: ``Turn off your two-way radios; blasting caps in 
use.'' My sense has always been if you can do it with a radio, 
why can you not do it in Iraq?
    Senator Inhofe. General Casey, some of us have been exposed 
to some new technologies out there that are working on that 
right now, and hopefully there will be technological help in 
the field for you on that.
    Any comment, General Abizaid?
    General Abizaid. Senator, it is very clear that, in today's 
connected world, the insurgents are sharing lessons learned. 
They do it on the Internet. They do it in a lot of different 
ways. We see their technologies moving from the battlefield in 
Iraq to the battlefield in Afghanistan and no doubt we will see 
that elsewhere.
    This is, like General Casey said, it is action, reaction, 
counteraction. We have to tighten our tactics, techniques, and 
procedures as much as we can. But, I am convinced, like General 
Casey is, that there are technologies out there that could be 
more useful and we have to work real hard to find them.
    Senator Inhofe. Thank you. We will try to help in that 
regard.
    It has appeared to me that most people who are critical of 
what is going on over there are the ones who do not go over and 
see for themselves. Unfortunately, if you rely on the media for 
your information as to the progress of the conflict over there, 
then you are in really bad shape. This has bothered me a lot. I 
think most of the members of this committee have been there. I 
have been there quite a few times, twice in the last 3 months.
    You go over, like in the Sunni Triangle, and experience 
over there with General Madhi, all of you know him. He used to 
be the brigade commander for Saddam Hussein in Fallujah. He 
hated Americans, and now he has been training with our marines. 
He looked at us and said that when the marines had to rotate 
and go out they actually cried. Here is a general that just 
hated Americans under Saddam Hussein and he has actually 
renamed his Iraqi security forces the ``Fallujah Marines.''
    At the same time we were there, at Tikrit they had the 
blow-up of the training area. Ten were killed, 30 were severely 
wounded. General Myers mentioned, or one of you did, the fact 
that they are giving members of their family to replace those 
who are killed. All 40 families that were involved replaced the 
person that was either killed or injured with their own people.
    As you go across the Sunni Triangle, where they are 
supposed to hate us the most--in a helicopter maybe 100 feet 
off the ground is the safest way to do it--and you see our 
troops throwing candy and cookies that came from the people 
back home, and the little kids in the villages waving American 
flags and waving at us. That is not the picture you get in the 
media.
    I would only ask you this question. That was about a month 
ago. Do you see any deterioration in that support that we are 
getting from those people out in the villages as a result of 
some of the increase in attacks or of the negative media that 
we have?
    General Casey. Senator, we do not. As I mentioned, the 
insurgents and the terrorists have a fairly narrow base that 
they operate from, and the people in the villages that you 
mentioned are the same people who want a better future for 
their family and they want to be part of the political process.
    If I could just give you an indicator, that being recent 
polling across Iraq. Better than 80 percent of the population 
says that they want to vote, they are going to vote in the 
referendum and they are going to vote in the election based on 
that constitution. They want to be part of this process.
    Senator Inhofe. Thank you.
    General Myers. In fact, Senator, let us put up the chart, 
``Confidence in the National Government.''
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Myers. It is a different slant on it, but recent 
polling data. This is the confidence that the Iraqi people have 
in their government. It starts back in December 2004 and it 
goes through May of this year. I know some of it is hard to 
read, but you can see the increase in the green and the 
percentage of people that have now more and more confidence as 
time goes on. The big surge after the elections, and that surge 
has continued, I think, which just adds to, adds to what 
General Casey said.
    Senator Inhofe. I appreciate it.
    Mr. Chairman, I think we should get copies of that. It is a 
very significant chart.
    Again, let me just thank you for the great job you are 
doing. Hopefully we can--one last question, Mr. Chairman.
    Chairman Warner. I have to say, Senator, roughly 
calculating, these witnesses have to appear before the House at 
2:00.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Warner. I am anxious to have all members have 
their opportunity.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Abizaid, we are at a juncture in this effort that 
requires not only military forces, but complementary civilian 
forces--State Department personnel, aid workers--because we are 
in a phase where we have to inspire political engagement and 
also reconstruct the shattered infrastructure. Do we have 
sufficient civilian personnel throughout the country to do 
that?
    I am under the impression that State Department personnel 
are volunteers and many are volunteering out of their 
expertise. Is that your impression?
    General Abizaid. Senator Reed, I do not know that I can 
comment specifically on their authorized strength versus what 
is out in the field. But, I can say that this war must be 
fought with all of the agencies of the United States Government 
fully engaged, with people that stay in the field long-term, 
that are in the right place at the right time. I believe that 
there are clear indications that we have to do better in this.
    Senator Reed. So, without putting words in your mouth, your 
impression is they are not fully engaged? Again, that goes to 
the overriding issue of how serious we are about winning this 
war if a major component of our strategy, the civilian side, is 
manned by volunteers and is not fully engaged.
    General Abizaid. Senator, of course a State Department 
person, for example, is not the same as an infantryman on the 
battlefield. But a State Department person in a Provincial 
Reconstruction Team (PRT) in Afghanistan, or a U.S. Agency for 
International Development (USAID) person in that same sort of a 
location is worth an awful lot to us. As a matter of fact, the 
combat troops provide the shield behind which their work can be 
done.
    I think we need more of those types of dedicated 
professionals out in the field. I want to make it very clear, 
from the time that you traveled around with me, that when you 
find those people out there they are magnificent, they are 
every bit as magnificent as our troops. We need to check to 
make sure we have the right ones at the right place for the 
right amount of time.
    Senator Reed. Thank you.
    General Casey, you are the ground commander. What is your 
estimate of how long this level of violence can be sustained, 
the car bombing? Again, we are talking about terrorist 
activities more than conventional engagements. Is this a year 
or 2, given the flow of insurgents, given the access to 
weapons?
    General Casey. As several people have commented on over the 
course of the hearing here, Senator, political and economic 
advances will impact on that. So, it is very hard to gauge. I 
will tell you that there is sufficient ammunition stashed 
around Iraq purposely that is available to these insurgents. 
That will be available to them for some time. They are not 
having to import the ammunition that they put into these 
devices.
    But, as the political process takes hold here, I think you 
will see a gradual lessening of the insurgency.
    Senator Reed. General Casey, it is interesting because we 
saw the political process take hold with the elections, which 
were quite stirring. When I was there over the Easter holiday 
with you and General Abizaid, there was a sense that perhaps a 
breakthrough had been made. But, since that time they have 
shown, the insurgents, great resiliency, cunning, the ability 
to supply themselves from indigenous stockpiles, and to create 
a level of violence that is extremely disturbing, at least here 
in the United States. I do not know if further political 
progress in the next year or 2 will have that much of a 
dampening effect.
    But let me----
    General Casey. If I could, Senator. I am sorry----
    Senator Reed. Yes, General.
    General Casey. That first election was a first step. It was 
a great step. It was a magnificent day for the Iraqi people. 
But, as we discussed when you were there, it is a first step. I 
tried to talk to everybody who came over, just to say, look, 
this is not over yet; this is a resilient insurgency. They are 
committed in their own way and we are in a fight.
    Senator Reed. Thank you.
    I am glad General Myers put that chart up, Mr. Secretary, 
because if you did the numbers for the American public you 
would probably be running exactly the opposite direction. We 
have a credibility gap here with the American people. Forget 
people here on this dais. I think it is obvious why some 
Americans are very distrustful of what is going on. They were 
told this was a war about WMDs and there are no WMDs. They were 
told that it was about terrorism, but there are tenuous links 
to terrorists. In fact, there are more international terrorists 
in Baghdad today than there were several years ago. They were 
told that we would be greeted as liberators. We are engaged in 
a very fierce fight that is taking roughly a battalion-sized 
group of Americans every month as casualties, killed, wounded, 
and injured. Your own plans called for a steep reduction in 
troops immediately after the conventional efforts. That never 
transpired.
    We have, I think, an erosion of trust which this hearing I 
suppose was an attempt to stem. I think they also see at the 
end of this process, not this transformed democratic state in 
the Middle East, but a fragile client of the United States for 
many years to come, and that has given them great concern. The 
polls measure that.
    I think also our moral clarity was seriously undercut by 
Abu Ghraib, and I do not feel yet we have held senior officials 
accountable for what took place there and other parts of the 
area of operations and indeed in Guantanamo.
    Now, at the end also I think we will find a broken Army. We 
cannot sustain the tempo of operations for the next year or 2. 
The comments that Senator McCain and others made about our 
Reserve Forces. We still have huge threats, I would argue much 
more daunting than Iraqi, North Korea, Iran, and other places.
    So I guess, Mr. Secretary, the question is what can you say 
to try to bridge this credibility gap? As General Abizaid has 
said, we are not truly engaged on the civic side. We have 
volunteer State Department people. They struggle to find enough 
people to go out there. That is not a serious effort to win a 
war. As General Casey said, this violence is likely to 
continue, because of supplies in country and the commitment of 
these terrorists, for many months ahead.
    Secretary Rumsfeld. Senator, you said even my own plan 
called for steep reductions. I did not have a plan like that. I 
am sure you can find somebody who had a plan like that, and 
maybe General Abizaid did or Tom Franks did. But, we had not 
made judgments. We had a plan that would have flown in as many 
troops as were needed to succeed in defeating the Saddam 
Hussein regime, and it happened that that occurred at the level 
where we stopped it.
    It was not my recommendation. It was the battlefield 
commander's recommendation. They had a variety of sensitivities 
as to what they would do with the troop levels. In the event it 
got worse, it would go up. If it got better it would go down.
    But, to pull up that and suggest that that is some error or 
wrong or mistake is just inconsistent with the facts.
    The broken Army argument worries me. The United States Army 
is the finest in the world, without question. The Air Force and 
the Navy and the Marine Corps are in good health. There are 
some shortages in recruiting for elements of the Army. 
Retention, however, is high. Retention is particularly high of 
people who have served in Afghanistan and Iraq. Thus far we 
have used something less than 50 percent of the Reserve 
components, the Guard and the Reserve. That is just a fact.
    There are people who have, as General Myers said, 
undoubtedly served two or three times over there, or in Bosnia 
or Kosovo or Afghanistan or Iraq. The process we have is to do 
everything humanly possible to see that those are individual 
volunteers, and that has been overwhelmingly the case. They are 
people who put their hand up and said: I have been there and I 
want to go back and I want to serve my country.
    You are quite right, there are other threats and dangers in 
the world. If you ask General Myers or General Pace, the people 
who meet with the chiefs and the combatant commanders, whether 
the United States is capable of meeting those other demands, 
they will answer you that we are capable of meeting those other 
demands. If you ask what are we doing about avoiding having a 
broken Army, the answer is--we had yesterday I think another 2 
hours on the subject of all the things we can do to reduce 
stress on the force. We have something like 47 items that we 
are working on and have been for well over a year and a half to 
see that the stress on the force is relieved. It has involved 
tens of thousands of people who have been rebalanced and 
shifted.
    The implication that there is an inattentiveness or a lack 
of concern about the stress on the force is simply not correct. 
We are deeply concerned about it and we are working the 
problem, and when this is over we will not have a broken Army.
    Senator Reed. Well, Mr. Secretary, what I think I heard you 
say is if the plan works it is your plan; if the plan does not 
work it is the Army officer's plan. I do not think that is 
responsible.
    Chairman Warner. Senator, we are not going to be able to 
allow other Senators their opportunity. I want to make certain 
that there is a full response to your important question. I see 
that the Chairman wishes to respond to the question.
    General Myers. Just 10 seconds. I just need to state my 
belief, and my belief is that we really--in my view, we do not 
have a more daunting threat to U.S. national security than 
violent extremists. I think that is our primary threat right 
now. I do not think it is North Korea or other places in the 
world. I think it is violent extremism is the most daunting 
threat and the one that can have the biggest impact on our way 
of life.
    Chairman Warner. General Abizaid, do you wish to respond?
    General Abizaid. Mr. Chairman and Senator Reed, I think it 
is very important that we never lose sight of this problem of 
WMDs. This enemy that we are fighting in the region seeks to 
obtain a biological, chemical, or nuclear weapon, and if they 
can acquire it or develop it they will use it against us. There 
should be no mistake about that.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Mr. Chairman, thank you.
    Gentlemen, we appreciate all of your service. Secretary 
Rumsfeld, I am particularly pleased that you have committed 
yourself to serving this country in the way that you have. You 
and the President made a commitment to allow the military to 
make honest suggestions about how to fight this war and to give 
them the resources they have needed, and I do not think it is 
fair to say that you are blaming them for problems if they did 
not ask for more soldiers. I think we know how that happened 
and everybody understands it, and I certainly do not believe 
you should resign and I honor your commitment, your 
transformation of the military, your tough, steadfast support 
for the soldiers in the field, and for our military efforts in 
the war against terrorism.
    General Casey, this chart that was put up there I think is 
rather important. It showed that in December only 6 percent of 
the Iraqi people had a great deal of confidence, but as of May 
it is now 41 percent. A total of 74 percent have confidence in 
their national government.
    Would you say that that is an absolutely critical question 
for the future of Iraq, the confidence that the people of Iraq 
have in the ability of their government to function? Is that 
not a source of encouragement for us of a significant nature?
    General Casey. It is certainly a source of encouragement to 
me in my job. In fact, you recall I mentioned that in my 
opening statement, the fact that the confidence of the Iraqi 
people in their government is high.
    Senator Sessions. This is in the face of this newer tactic 
or repeated tactic of automobile attacks that hit so many 
civilians. They move into crowds and have killed and injured 
quite a number of civilians in recent months. But still the 
numbers are holding firm. How do you evaluate that?
    General Casey. As I mentioned, we should not underestimate 
the commitment of the Iraqi people to wanting something better. 
What is happening there with these car bombs is murder and we 
ought not forget that. As I said, one tenth of 1 percent of the 
population we think may be supporting or participating in this 
insurgency. The rest of the Iraqi people are moving forward, as 
this chart here indicates.
    There is another chart up here, if you do not mind, 
Senator. If you would put up the chart there with the four pie 
charts on it.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Casey. This is also very important to me here, 
because it reflects how the Iraqi people think about their 
security forces. You can see up in the top left-hand corner 
that they believe the Iraqi security forces are winning the 
battles against the terrorists. If you look on the right-hand 
side, they believe that their Iraqi security forces are 
professional and well-trained. You can follow your way around 
that chart.
    Chairman Warner. Excuse me, General. We will need to know 
who prepared that poll and the circumstances under which it was 
prepared.
    General Casey. I will give you that data for the record, 
Senator.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Senator Sessions, please proceed.
    Senator Sessions. We all value free speech and people are 
able to express themselves as they desire in this great 
country, and we want to see people around the world have the 
opportunity to express themselves. It seems like to me, 
however, that we need to be careful about the comments that we 
make. We know a false story in Newsweek magazine led to riots 
in Pakistan when it was alleged that a Koran had been flushed 
down a toilet, whereas the truth is that our soldiers in 
Guantanamo wear gloves, they give everyone a Koran that wants 
one, and they treat it with respect, and many other things are 
done to show respect for the Islamic religion.
    We have had 29 hearings on prisoner abuse and, frankly, 
there has been absolutely no proof of any systematic abuse, and 
what we have seen is consistent prosecutions and discipline of 
soldiers and military people and others who violated our 
standards of treating prisoners in a humane way.
    I would just say that I think the military has handled that 
well. But, it does appear to me that, if you read the 
newspapers, you would draw a different conclusion.
    General Abizaid, you have been in the region for some time. 
Would you say that, with regard to recruiting these terrorists 
to come in the country, the riots in Pakistan, the ability of 
our troops in Iraq to win the confidence of the people there, 
that our efforts can be adversely affected by false charges 
against our military, and does it have impact on the personal 
safety of the soldiers this Congress has sent in harm's way to 
execute our policies?
    General Abizaid. Senator, this conflict in which we are 
engaged is more about perceptions in many respects than about 
true battlefield capability. Our enemies want people to believe 
that we do not respect them, that we dishonor them, that we are 
against Islam. They want to create the impression that we will 
steal their resources, that we will ravage their countryside.
    The truth is that as long as we tell the truth and get that 
story out and concentrate, not only about whatever we may have 
done wrong, but also telling the story, the great untold story, 
about this enemy, I think we will be just fine. The vast 
majority of people in the region hate the extremists. They do 
not want to follow them. False stories giving them an 
opportunity for hope, however, really hurt us very much.
    In one of Zarqawi's letters to his followers he gave 
numerous reports from U.S. media sources that showed we were 
losing, that we were losing our will, that we were unable to 
fight this fight. I do not think we should give false hope to 
this enemy. We will defeat them.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    General Myers. Mr. Chairman, if I may, please.
    Chairman Warner. Yes, General Myers.
    General Myers. Let me just tag onto General Abizaid's 
comments. Fundamentally this is going to be about resolve, the 
perception issue. It is about resolve, about staying power, 
about patience. All war, particularly this conflict I think, 
demands that. When it is about resolve and persistence and 
patience, I can guarantee you our military is being very 
effective over there every day.
    Our folks know how to fight. Sometimes you hear criticism 
about our inability to wage urban warfare. That is rubbish. We 
are the best urban warfighters in the world. We are better than 
the adversary. We have not made this a contest of who kills the 
most, because in the end I do not think that serves anybody 
very well. We have learned our lessons, and I do not want us to 
do that.
    But, I think the American public can be assured that our 
military is very effective at what they are doing.
    So if resolve is important, then leadership is important, 
and we have to be very careful what we say, all of us. We do 
not want to say it is too easy, it is too hard. We want to say, 
as best as we know, the facts and present them.
    Earlier today we were talking about the threat and there 
was a comment made about the threat, that the threat is static 
according to General Vines in a Baghdad press conference that 
he had with the press corps back here. Here is what General 
Vines said. He said: ``I need to clarify. The reason that I 
said that I assumed the condition will remain relatively 
static''--and I think the condition is the insurgency--``keep 
in mind that those elections are only 4 months away. I mean, 
there--I do not have any reason to believe there is going to be 
a significant change in 4 months, absent a political 
breakthrough.''
    So they were well-qualified statements. We have to be very 
careful when we make statements that we say what we mean and we 
portray the facts the best we can.
    I would like to enter General Vines statement in the 
record, please.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Warner. Without objection, General; and I thank 
you for that contribution.
    Secretary Rumsfeld.
    Secretary Rumsfeld. Mr. Chairman, in that connection, where 
we have inaccurate statements or inaccurately cited statements, 
Senator Kennedy cited this statement that we go to the war with 
the Army we have. Let me read the full answer that I gave and 
if anyone can find any implication of callousness in it, I just 
cannot detect it.
    I said: ``I talked to the general coming out here about the 
pace at which the vehicles are being armored. They have been 
brought from all over the world, wherever they are not needed, 
to a place where they are needed. I am told they are being--the 
Army is, I think, something like 400 a month are being done, 
and it is essentially a matter of physics. It is not a matter 
of money, it is not a matter on the part of the Army of desire. 
It is a matter of production and capability and doing it. And 
as you know, you go to the war with the Army you have. They are 
not the Army you might want or wish to have at a later time. 
Since the Iraq conflict began, the Army has been pressing ahead 
to produce the armor necessary at a rate they believe--and it 
is a greatly expanded rate from what existed previously, but--a 
rate that they believe is a rate that they can accomplish at 
the moment.
    ``I can assure you that General Schoomaker and the 
leadership in the Army and certainly General Whitcomb are 
sensitive to the fact that not every vehicle has the degree of 
armor that might be desirable for it to have, but that they are 
working on it at a good clip.
    ``It is interesting. I talked a great deal about this with 
a team of people who were working on it hard at the Pentagon. 
If you think about it, you can have all the armor in the world 
on a tank and a tank can still be blown up, and you can have an 
up-armored HMMWV and it can be blown up, and you can go down in 
the vehicle. The goal we have is to have as many of those 
vehicles as is humanly possible with the appropriate level of 
armor available for the troops, and that is what the Army has 
been working on.''
    The Washington Post put on the front page: ``You go to war 
with the Army you have,'' implying a disinterest. It is that 
kind of treatment and the kind of treatment here today, 
dredging up that old quote out of context, that I find harmful 
to what we are trying to accomplish.
    Senator Sessions. Mr. Chairman, let me just say, there is a 
lot of politics here and we are used to give and take, and we 
take people's statements out of context politically a lot of 
times. All of us have done it. But this is a war. We have 
soldiers out there, and we need to be particularly careful that 
we do not misrepresent things that place our soldiers in more 
harm's way than they need to be.
    Chairman Warner. Thank you.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and thank you for your 
service under very difficult circumstances. I think that one of 
the challenges we face in our country as well as in Congress is 
that there are grounds for reasonable disagreements about how 
we pursue our goals in Iraq and elsewhere. I absolutely agree 
that our enemies are violent, nihilistic extremists. I agree 
that if we and the Iraqi people and their government are 
successful in Iraq it will be a transformative historic event.
    I think it is also fair to point out that there are great 
risks and dangers associated with this strategy, and that the 
young men and women who wear the uniform of our country are put 
in harm's way every day. I know how heavily that weighs on all 
of us, those of you who command them and those of us who vote 
to send them there and vote to try to provide the resources 
that they need.
    So, while there might be reasonable disagreements about how 
we pursue our goals, I hope, Mr. Secretary, you would agree 
that Democrats and Republicans, people of every political 
belief and none at all, united after the September 11 attacks 
on our Nation. That has been especially evident here in this 
Senate Armed Services Committee, under the bipartisan 
leadership of Chairman Warner and Ranking Member Levin.
    Mr. Secretary, would you agree with that statement?
    Secretary Rumsfeld. Senator, there is no question but that 
the country and Congress united after September 11.
    Senator Clinton. Mr. Chairman, I am going to read you a 
quote from today's newspaper: ``Conservatives saw the savagery 
of September 11 and the attacks and prepared for war. Liberals 
saw the savagery of the September 11 attacks and wanted to 
prepare indictments and offer therapy and understanding for our 
attackers.''
    Mr. Secretary, do you agree with that statement by a senior 
member of this administration?
    Secretary Rumsfeld. I do not know who made the statement or 
the context of it, and I have just gotten through saying that 
when one takes a single sentence or a single comment out of a 
longer statement that may have context, I find frequently that 
it is harmful. I do not know who said it or what the context 
was, and obviously it is not something I said.
    Senator Clinton. I appreciate that.
    Well, it is a statement by Karl Rove and it is the kind of 
statement that is particularly harmful and painful. It is the 
kind of statement that is unnecessary. It is the kind of 
statement that demonizes Americans of good faith, seeking to 
support the men and women in uniform, seeking to protect them, 
seeking to support you, despite the fact that we might have 
serious questions and even disagreements about strategy and 
tactics.
    It politicizes and turns into a partisan game something as 
serious as the attack on our Nation on September 11 and 
something as deadly as the conflict in which we are currently 
engaged.
    I would hope, Mr. Secretary, that you and other members of 
the administration would immediately repudiate such an 
insulting comment from a high-ranking official in the 
President's inner circle.
    It is very disturbing to many of us, increasingly so, that 
we cannot have a national conversation about something as 
important as the conflict that we face, which I for one believe 
is a long-term challenge to our very existence, and is 
certainly a challenge that you are attempting to deal with in 
the field and in the Pentagon.
    It is not just people on one side of the aisle who have 
raised these issues. A recent bipartisan group of Members of 
Congress called for an end to the conflict, a withdrawal of our 
troops, something I do not agree with. But, I understand the 
frustration and the concern and anxiety that motivates such a 
statement and question, and I would not in any way question the 
resolve, toughness, or patriotism of anybody who raises 
legitimate questions and has disagreements about how we are to 
pursue our objectives.
    With due respect, I think it would be helpful if we would 
hear a little bit more of that tone from our President and from 
our Vice President and from our other high-ranking officials in 
the administration. I am old enough to remember how deeply 
divided our country was in Vietnam. I never want to see that 
again. We may have disagreements about how to engage in this 
conflict and how to win it, but I never want to live through 
that again and I do not think any of us do.
    I would respectfully suggest that perhaps we adopt a 
somewhat different tone and approach in discussing these very 
critical matters for the benefit of all of us, and particularly 
for the benefit of the young men and women who we are so proud 
of and so grateful to for their sacrifice.
    Secretary Rumsfeld. Senator, I certainly agree. I think you 
will find the tone in my remarks fit what you are talking 
about. I think that it is unfortunate when things become so 
polarized or so politicized, and you have heard some of that 
here today. It is not helpful.
    In my remarks I pointed out that there are a number of 
questions that are raised by the public, by Members of the 
House and the Senate, and that is a perfectly proper and 
legitimate thing to do. Our democracy permits that. We can live 
through it in a wartime period if we do it in an orderly way 
and a sensible way and a civil way.
    Senator Clinton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Clinton.
    Senator Collins, I understand you yield. Senator Graham 
must soon leave to preside over the Senate, so Senator Graham.
    Senator Graham. Thank you, Senator Collins, for that. Mr. 
Chairman, thank you very much.
    Just recently here in the Senate we have spent a lot of 
time discussing what one Member said. That was, I thought, way 
out of bounds. That Member apologized. That was good. There was 
a time when no one seemed to want to correct that statement, 
and some of the things that Senator Clinton talked about are 
really not helpful.
    We talk about losing the war and what it would mean. The 
only way, gentlemen, I see that we could possibly lose in Iraq 
is to leave the country in shambles, not prepared, not capable 
of defending itself and taking care of this new democracy 
because we left too soon, before they had a chance to get a 
functioning army and a functioning police force and to create 
honest judges and to have the rule of law that we would put the 
whole world at risk.
    So to anyone, Republican or Democrat, who thinks that a 
timetable is the answer, I could not disagree more. How hard is 
it to create a country where everybody buys in? It is pretty 
hard, and 100 and something years ago we were in a Civil War. 
It started in my State. This is hard. How long does it take to 
get over a 1,400-year religious dispute? Probably a little 
longer than between now and December.
    We have bought into a model that is extremely difficult, 
and you cannot kill enough of these people. The model is to 
leave in Iraq the chance for them to govern themselves where 
moderation trumps terrorism, where mothers have a say about 
their children, where you can go to court based on what you 
did, not who you are. That is a very big challenge and the only 
answer.
    Losing is leaving before the job is done. What would make 
us leave? The last time an American lost on the battlefield was 
when the Confederacy was defeated. We will not lose a battle. 
It is not a military problem in terms of losing. We will lose 
this war if we leave too soon, and what is likely to make us do 
that? The public going south, and that is happening and that 
worries me greatly.
    So, Mr. Secretary, you have described the dynamic in 1946, 
I think very accurately. There was a lot of concern about 
reconstructing Europe after World War II. I see this engagement 
in Iraq as very similar to our World War II endeavor, not 
Vietnam. This is not about trying to take sides in a dispute 
within a country. This is about taking sides in a dispute 
between freedom-loving people and terrorists.
    Whether we should have been there or not is no longer the 
question. We are there. The people who want us to leave are the 
same people who tried to kill us on September 11.
    It is a World War II event, but the public views this every 
day, Mr. Secretary, more and more like Vietnam. Only 39 percent 
in the last poll support the idea that we should be there.
    What do you think is going on and how can we correct that?
    Secretary Rumsfeld. Senator, the members of this committee, 
everyone in this room, and everyone listening know the answer 
to that question as well as I do, and possibly better. Our 
system says that we place all our faith, all our hope, in the 
people of the country, and that, given sufficient information, 
over time they will find their way to right decisions. I 
believe that.
    I have watched polls go from 0 to 55 percent and back down 
to 15 percent in 6 weeks, and anyone who starts chasing polls 
is going to get seasick.
    Senator Graham. Do you believe this is an acute problem or 
a chronic problem, with the public support waning?
    Secretary Rumsfeld. An acute or a what?
    Senator Graham. Chronic problem. Because in the last year, 
sir, the public support in my State has turned, and I worry 
about that because that is the only way we will ever leave 
before we should, is if the public loses faith in us. I am here 
to tell you, sir, in the most patriotic State I can imagine 
people are beginning to question, and I do not think it is a 
blip on the radar screen. I think we have a chronic problem on 
our hands. If you disagree, I certainly respect that.
    Secretary Rumsfeld. Well, that is the time that leadership 
has to stand up and tell the truth, and if you are facing a 
headwind you have two choices: You can turn around and go 
downwind or you can stand there and go into the wind, and that 
is what needs to be done. We have leadership in this country 
that is capable of doing that, let there be no doubt.
    I think the American people have a good center of gravity. 
Individually they have inner gyroscopes that may tilt from time 
to time, but they get recentered, and they, given appropriate 
leadership and continued success on the political and the 
security side in that country, I am absolutely convinced that 
we will have the willpower and the staying power and the 
courage to do what is right there.
    The alternative is to turn that region back to darkness, to 
people who behead people, and that is not a happy prospect.
    Senator Graham. I could not agree more.
    One last thought and I have to go. General Abizaid, based 
on the military situation as you know it, what is the 
likelihood of the insurgents and the terrorists combined 
launching a Tet-type offensive, where there are coordinated 
attacks throughout the country that would result in substantial 
loss of American or coalition lives? Because if that did happen 
I really worry about the response in this country. How likely 
is that and what can we do to prevent it?
    General Abizaid. Senator, I can tell you, and George will 
undoubtedly talk about this for Iraq in particular, but there 
is always a likelihood of a militarily surprise. There is 
always an opportunity for the enemy to figure out a way to 
inflict casualties, to grab the headlines.
    The challenge for us is to stay tough enough when that 
happens to see ourself through it. We cannot be defeated by the 
headlines. We cannot be defeated by this enemy. No doubt that 
they can do us damage. In Afghanistan right now in particular, 
we are getting ready to go to an election in September. The 
enemy is coming as hard as they can. They have issued orders to 
everybody that they can get their hands on to try to disrupt 
this election because they are so afraid of it. But the 
violence will not win.
    Chairman Warner. Thank you very much, Senator.
    General Casey. I am sorry, Senator; if I could add to that.
    Chairman Warner. Yes, General Casey, you may reply.
    General Casey. Senator, I would just respond to that last 
question about Tet. I believe we have greatly reduced the 
potential or the capability for that to happen.
    As I have listened here this afternoon there seems to be 
some perception that the attacks have increased. Well, they 
have from the low levels they sank to after the elections, but 
last August the rate of attacks was at 800 per week. Last 
November--I am sorry: they were over 900. In the elections, 
over 800. We are talking for the last 7 weeks they have been 
relatively constant at about between 450 and 500. So we are 
almost half of where we were when it was really hard.
    We have brought down that capability, and that is why the 
absence of a safe haven becomes so important.
    Senator Graham. I would like to correct the perception that 
some people may have. I did not disagree with what Senator 
Clinton said. I am all for us working together, and there are 
no bad Americans here. Whether you are liberal, moderate, or 
conservative, you are not the enemy. The enemy is the people 
trying to kill us.
    Chairman Warner. Thank you very much.
    Senator Bayh.
    Senator Bayh. Gentlemen, I would like to thank all of you 
for your service to our country.
    General Myers, I would like to start with you if I could. 
In February, in speaking about the history of insurgencies, you 
indicated that they tended to run from 7 to 12 years in length. 
I would like to ask you about that. If we say that this one has 
been going on for about 2 years now, does that mean we are 
looking at by historical standards another 5 to 10 years of 
this insurgency?
    General Myers. I think the answer is that we do not know. 
One of the things we have not done very well in the hearing so 
far is, when we talk about the insurgency, to describe for a 
minute its constituent parts, because it is not homogeneous. 
You have the foreign fighters who, despite what happens 
politically in Iraq, will continue to try to do the coalition 
and Iraqis in. They will only be persuaded to quit in a 
political sense when the Iraqi people say enough is enough and 
we are not going to----
    Senator Bayh. I guess another way to ask my question is, 
knowing what you know about this particular insurgency, do you 
have reason to believe that it would take less time than the 
average that you cited, the same, or perhaps more?
    General Myers. Well, I do not know. I do not know the 
answer to that question. I do think that, with the political 
progress we have talked about, the insurgency will crest and 
will start to reduce. A lot of these fighters are fighting 
because there are foreign forces in the country. Some of them 
are fighting because they want to be the next Saddam Hussein 
regime. Those will go away. I think it will lessen over time. 
How long it goes on, I do not know. Certainly not at this scale 
for 7 to 9 years. That is not anything that I have in my mind.
    Senator Bayh. Thank you, General.
    Mr. Secretary, that leads me to you and a very difficult 
question of how do we define success. I think I would associate 
myself with the comments of Senator Graham and my other 
colleagues that the key here is the American people, our 
endurance. I think what they are looking for is two things: how 
do we define success; and second, some benchmarks for 
evaluating our progress toward reaching that goal. I would like 
to ask you about both of those things.
    What concerns me is that this may be an asymmetric 
situation, where even though the political process moves 
forward, even though the Shia and the Kurds get their act 
together, including some of the responsible Sunnis in this 
process, if you just have a hard-core--pick a figure--5 
percent, 4 percent, armed and violent people, are they able to 
undermine the wishes and the progress of the vast bulk of a 
society?
    So in an insurgency that may go on in some form for a 
considerable period of time, when do we determine the country 
is stable enough, no longer a threat to its neighbors, not a 
haven for terrorists from which to threaten the rest of the 
world? We may conclude that the success is something less than 
perfect.
    So my first question is, how do we define success? Then my 
second question would be, what benchmarks do we look to? 
General Casey, this may involve you. You mentioned that there 
was a surge leading up to the elections, now we are at about 
450 attacks a month. A year from now, what benchmark can we 
set? Should it be 350 attacks, 250 attacks? Are there other, 
economic benchmarks we should set, numbers of jobs created, 
that kind of thing?
    What objective criteria can we look to to evaluate our 
progress toward what we define as success?
    So, Mr. Secretary, first you on how we define success. Then 
you and perhaps the other gentlemen in terms of the objective 
benchmarks we should look to to evaluate our own performance.
    Secretary Rumsfeld. Senator, I do not know if you were here 
when General Casey made a comment estimating the size of the 
insurgency, but it is nowhere near 4 or 5 percent of the 
population.
    Senator Bayh. No, I was just using that as an example. Some 
small number of people and whether--it is an asymmetric 
situation. Half a percent, whatever the figure might be, if 
heavily armed----
    Secretary Rumsfeld. What did you use, George?
    General Casey. One-tenth of 1 percent.
    Secretary Rumsfeld. I will answer. A handful of people 
can--it does not take a genius to kill people. It was 18 people 
who killed 3,000 people on September 11. You do not have to 
have armies and navies and air forces or large numbers. A small 
number of people, determined to give up their own lives, can go 
around and indiscriminately kill thousands and thousands and 
thousands of human beings.
    Now, how do you define success? I think I would separate it 
between success for the United States and success for Iraq 
slightly. In the last analysis, if this does go on for 4, 8, 
10, 12, 15 years, whatever--and I agree with General Myers; we 
do not know--it is going to be a problem for the people of 
Iraq. They are going to have to cope with that insurgency over 
time. They are ultimately going to be the ones who win over 
that insurgency, and I believe they will win.
    Now, for the United States success is slightly different. 
Success for us is liberating those people, which is done by 
passing sovereignty to an Iraqi government, which is done by 
putting them on a path to fashion a constitution, which is 
underway, and a path to elect a new government under that new 
constitution, helping them get support from the international 
community, which they now have from NATO and the U.N., and 
helping them to raise money from the international community to 
help train, equip, and organize their security forces so the 
security forces can take over the responsibility for the 
security of that country.
    It is not our task to stay there forever. The success will 
be if you have a single country, a moderate regime that is 
respectful of the various elements within it, even if there is 
a low-level insurgency that continues at 300 or 500 or whatever 
the number may be, but that they have the people who can cope 
with that, and that they are not attacking their neighbors and 
they are not using chemical weapons on their own people and 
they are not giving $25,000 to suicide bombers' families after 
they go out and kill innocent men, women, and children, as 
Saddam Hussein was.
    Senator Bayh. Which leads to the question of the benchmarks 
and how we can determine that point at which our job is done, 
even if the low-level insurgency may continue for some time. So 
do you, Mr. Secretary, gentlemen, do you have----
    Secretary Rumsfeld. We have dozens of benchmarks in the 
security side for our forces and our successes. We have dozens 
of benchmarks that we use for the Iraqi security forces. The 
State Department has dozens of benchmarks they look at with 
respect to electricity, water, schools, those types of things, 
and the economic things. So you have political, economic, and 
security benchmarks and they all have to go forward together. 
The benchmarks are there and we would be happy to brief you on 
them.
    General Myers. If I may, let me just go into a little bit 
more detail on those benchmarks. In the National Security 
Strategy for Iraq, there are now seven strategic objectives. We 
just added one. The last one we added was to promote strategic 
communications.
    The first one is to transition to Iraqi security self-
reliance. So that is one of them, and that is the objective. 
Under the objective then we have some objectives and goals and 
metrics to measure our progress, just exactly what the 
Secretary said.
    The second one, a strategic objective, is a free and 
democratic state of Iraq. That has a lot to do with their 
political development. We have objectives and goals and metrics 
under that one as well.
    The third one is to provide essential services to the 
citizens of Iraq, and we have metrics under that.
    The fourth one is to establish a foundation for a strong 
economy, and you hit on that. One of the things we track is job 
creation. That is one of the things that would be one of the 
benchmarks you would want to track.
    Senator Bayh. General, will we be publishing our progress 
toward meeting these benchmarks at regular intervals, so that 
the American people can know about our progress?
    General Myers. I think we would be happy to brief people on 
it, sir, yes.
    The fifth one is to promote the rule of law, because that 
is so essential to dealing with the situation they have there. 
The sixth one is international engagement and assistance, so we 
track the international community and how they support a free 
and democratic Iraq.
    So we have done a lot of work in the strategic planning. It 
is not just the DOD. This is the U.S. Government. The 
objectives came out of the Department of State, as a matter of 
fact. But it is an inter-agency effort to develop metrics to 
track these objectives and we do that.
    Chairman Warner. Thank you very much, General.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Abizaid, you have a great deal of understanding and 
knowledge of the Iraqi people and their leaders. For that 
reason, I want to pursue with you the very intriguing proposal 
that Senator Levin advanced in his opening statement. That is 
that we need to find a way to put more political pressure on 
the Iraqis to make more progress toward a political solution, 
and he has suggested that we do that by, if deadlines are not 
met, saying that we would reevaluate all of our options.
    I share Senator Levin's concern that we need to change the 
dynamic in Iraq. It worries me greatly when I read the briefing 
that Lieutenant General Vines gave, in which he says that, 
``Attacks against the civilian populace in May were the highest 
total since major combat operations terminated in 2003.'' I am 
convinced that a political solution is the key to ending 
support for the insurgency.
    How do we send a message to the Iraqi leaders that they 
must make more rapid, sustained progress toward the kind of 
political settlement that is needed to end public support, to 
the extent that it exists, for the insurgency? Do you think it 
would be useful to send the kind of message that Senator Levin 
has suggested?
    I am not talking about a timetable for a withdrawal, which 
I oppose, but creating some idea that there would be 
consequences if progress is not made.
    General Abizaid. Senator Collins, actually the person that 
knows the Iraqis the best in this room is the guy that meets 
with their leadership every day, and that is George Casey, 
sitting down there at the end. I defer to him.
    I will say I think it is our duty to tell them what we 
think, to demand in a way that partners demand of one another 
proof of principle that they are serious about what they are 
doing, that they are serious about moving forward in a society 
that includes all Iraqis, serious in moving forward in a 
society where they protect human rights. We have to ask it of 
them. It is not too much.
    Senator Collins. General Casey, are we sending that message 
very clearly?
    General Casey. Loud and clear, Senator. The charge and I 
meet with the Prime Minister regularly. He fully understands 
that they need to move out with the constitutional development 
process. The chairman of the TNA fully understands. The 
director of the constitutional drafting committee fully 
understands. That message gets sent loud and clear, Senator.
    Senator Collins. General Myers, you and I have talked many 
times about the strain that we are placing on our Guard and 
Reserve, and I have to tell you that I think this is getting 
worse, not better, and that we are simply asking too much of 
the Guard in particular through multiple, repeated, and lengthy 
deployments.
    I want to give you an example. A constituent of mine who is 
a helicopter mechanic, and she is an Army National Guard Staff 
Sergeant, her name is Jessica Wing. She left Bangor, Maine, 
last Friday morning for what will be her fourth deployment 
overseas in 10 years--four deployments in 10 years. She has 
been deployed to Haiti, to Bosnia twice, and soon she will be 
in either Iraq or Kuwait.
    Now, I understand that the Department's policy mandates 
that Guard and Reserve members must not be deployed for more 
than 24 cumulative months unless they volunteer. But the key 
here is the word ``cumulative.'' I also know there is the one 
in five rule, stipulating that only one 24-month cumulative 
deployment can take place within the 5-year period. But even if 
the deployments are not for 24 months, it still imposes a 
tremendous hardship for a Guard member to be deployed overseas 
four times in 10 years.
    What specifically is being done to alleviate repeated 
deployments of those, like this staff sergeant, who have 
specialty skills in areas that have unusually high demand? In 
her case she is a helicopter mechanic and I can see why you 
would need helicopter mechanics.
    I have to tell you, from my personal conversations with 
Guard and Reserve members in Maine, we are already seeing the 
impact on recruitment and I think we are going to start seeing 
it on retention as well.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Myers. Senator Collins, we are all concerned about 
that. The health of our Reserve component is very important to 
the national security of this country. There are lots of 
efforts going on. A couple of the major ones--and I think we 
have discussed these in previous hearings perhaps, but we came 
out of the Cold War and into this century with a Reserve Force 
that was pretty much set up for the Cold War, the thought being 
that you pressed a button--you are in World War III, you push 
the button, the Reserves have about 9 months to train and then 
they follow forces to defend the North German Plain against the 
Warsaw Pact.
    We find ourselves in this security environment with a much 
different threat and a much different need. Even before this 
threat, we recognized the need to transform our Reserve 
component. So we are rebalancing over 100,000--I think it is 
115,000 or 125,000--reservists so we have more of what we need.
    We clearly have in our Reserve components--I am talking 
Army now--more artillery capability than we need, less military 
police (MPs), less intelligence companies, less transportation 
companies. So the Army is about, while we are at war, 
transforming their Reserve components to be configured more 
appropriately with the needs of today. That will take time.
    In the meantime, helicopter mechanics are at a premium 
because a lot of our capability, by conscious decision back in 
the 1970s and 1980s, was put in the Reserve component. So when 
the Nation is at war, that is where you go.
    Now, we have also tried very hard for the last, well, since 
September 11--and we have done this imperfectly at the 
beginning; I think we are still not perfect, but we are pretty 
darn good at trying to provide predictability to people like 
the mechanic you talked about in Maine, because you are right, 
reservists make big sacrifices, not only like the rest of the 
active duty, but they have employers to worry about and other 
situations. So, it is more difficult.
    I cannot talk about her four deployments and how long each 
one was and so forth. My guess is some of them were probably 
not all that long. We do not argue with the cumulative issue. 
We know what the law is, but the Secretary's policy is, we 
mobilize you one time and you may not reach your 25 cumulative 
months, but we are not going to remobilize you just because you 
have 6 months or a year left. We are not going to do that. We 
have a policy of no remobilizations of the Guard and Reserve 
unless they are volunteers. I do not know the status of this 
young lady, if she is a volunteer or not. She might very well 
be a volunteer. You probably know. I do not happen to know.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    So I think as we go forward we need to restructure the 
Guard and Reserve so we do not have shortfalls and have to rely 
on a lot of in lieu of training, which means we pick units that 
are not particularly trained for a certain skill, MPs for 
instance. We will take an infantry unit or we will take an 
artillery unit and we will train them in MP skills. That takes 
more mobilization time to do that.
    We have to reconfigure our Guard and Reserve. We are doing 
that. I think we are providing very good predictability. The 
Guard and Reserve know they are only going to be called up one 
time for this conflict. That is our policy right now.
    Chairman Warner. Thank you, General.
    Senator, it is such an important question. Would you try 
and provide for the record the questions raised by the General?
    Senator Collins. I would be happy to.
    [The information referred to follows:]

    The Guard and Reserve understand they are likely to be called up 
one time, not to exceed 24 months during this conflict. As of May 31, 
2005, 509,229 Reserve component service members had been mobilized, 86 
percent were mobilized once; 12 percent were mobilized twice, and 3 
percent were mobilized more than twice; none were mobilized in excess 
of 24 months.

    Chairman Warner. Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. I thank the 
witnesses very much for being here today.
    I want to begin in an unusual place. By total coincidence, 
in going through the annual reading of the Bible that I do, 
this morning the page turned to a story from the Book of 
Numbers where the children of Israel, having been liberated 
from slavery in Egypt, having experienced the miracle at the 
Red Sea, having been brought to Mount Sinai to receive the Ten 
Commandments, are now getting closer to the Promised Land.
    The people essentially ask Moses to send some 
representatives to scout out the Promised Land. As well 
remembered, most of them come back with what turns out to be an 
unreliably negative report, that there are giants there and 
that this is an impossible situation, except for Joshua and 
Caleb, who argue: Remember our history, remember what we have 
just experienced. Remember the promise we have, the purpose we 
have, one might even say the destiny we have.
    The people, unfortunately, listen to the naysayers, and 
actually ask if they might be returned to Egypt. The Lord is 
not happy with this response and the rest, unfortunately, is 
history, which is they wander for 40 years before they enter 
the Promised Land.
    Now, I am not comparing the situation in Iraq today to that 
story from the Bible. But as always, I think the Bible is 
instructive and offers us some lessons here, and particularly 
because we are at a moment, as Senator Graham described, where 
I fear that American public opinion is tipping away from this 
effort. We have to, as Joshua and Caleb did, remind them of the 
history and of our own national purpose and destiny, that in 
fact because of the bravery and brilliance of the American 
military the people of Iraq were liberated from a brutal 
dictator and a real enemy of ours, a ticking time bomb to us, I 
believe; that the Iraqi people came out and voted in great 
numbers; that they have formed a government; that they are 
working on a constitution; and that they face a brutal enemy, 
but one that will never defeat the American military on the 
field of battle.
    They will only defeat us, as one of you said earlier, on 
the field of American public opinion. We cannot let that 
happen. The consequences for our security would be disastrous.
    I happen to believe, following the State Department, that 
Saddam Hussein was a supporter of terrorism. That is what the 
State Department said before the war. Many did not believe 
that. But today there is no doubt about it, this is the central 
battlefield in the global war on the terrorists who attacked us 
on September 11. They are streaming in there. If we hesitate, 
if we do not draw together, if we do not understand how much we 
and the Iraqi people have accomplished and that we have a 
purpose here that is related to our national destiny, the 
future for our children and grandchildren is going to be a lot 
less safe than we all want it to be.
    I believe that is an opinion that is shared broadly in this 
Congress. There may be differences of opinion about tactics, 
but we have to draw together to make that case to the American 
people, because today most of what they know about the war is 
the stories they see every evening about the suicide bombers. 
They do not know about the progress on the ground. They do not 
know about the political progress, et cetera, et cetera.
    So I want to ask, toward a strategy of victory, this 
question, Mr. Secretary. We have been over this ground before 
and all of us I think have to be honest with each other and 
with the American people. I continue to be worried about 
whether at this moment we have enough troops in Iraq. I read 
the stories in the paper of field commanders saying they take a 
city but they do not have enough people to leave, either our 
own coalition forces or the Iraqi security forces, to secure 
it, and then the insurgents, the terrorists, come back.
    When I was last in Iraq--and I have been there three times 
in the last year--I was so proud of our military and the great 
morale there. I asked about the stream of insurgents and 
foreign fighters coming across the Syrian border, why do we not 
stop it? They said we do not have enough personnel to do it.
    I want to ask you two questions about that. One, at this 
moment--forget the past; we are talking about now and in the 
future--until the Iraqi security forces are fully where we want 
them to be, do we not need--let me ask it in a more open way: 
Do we need more troops?
    Then I would ask a second question. If we had a larger 
active duty Army and Marine Corps, would we have more troops 
there on the ground? I know you understand the difference 
between those two forms of that question.
    Secretary Rumsfeld. Senator Lieberman, I must say I find 
myself in agreement with almost every word that came out of 
your mouth and I respect the thoughtfulness of it. I guess the 
only thing I would say is, you say you sense the American 
people are tipping away from support. I have a feeling they are 
getting pushed myself.
    But it has always been so. George Washington was pounded 
and pounded and pounded and almost fired. Abraham Lincoln was 
pounded and pounded. It was not popular. There were deep 
divisions, deep disagreements, and our country survived them 
all.
    My goodness, in the first part of World War II we lost 
battle after battle after battle and people said: Oh my 
goodness, is it not terrible; we are going to lose. In the Cold 
War, people wanted to toss in the towel. We have always 
survived these things. We can do that.
    The American people are solid, and I do not mean solid in 
support of the war. They are solid human beings, and if we tell 
them the truth and provide the right kind of leadership, by 
golly, they will support a worthy, noble goal. When it is done 
they are going to be able to look back with a great deal of 
pride on what has been accomplished, just as the men and women 
in uniform do.
    Now, we cannot seal our own borders. It does not surprise 
me a bit that you can say some commander in Iraq says we do not 
have enough troops to seal the border. But my goodness, that is 
the plus side. You might seal the border if you had solid 
people along there and all kinds of military equipment. You 
would have to have force protection for it, and you would 
become a world-class occupying power. You would immediately 
assume all the burden of the intrusiveness of hundreds and 
hundreds and hundreds of thousands of troops trying to seal 
that border.
    Now, I am not the one to answer your question. The people 
at this table are the ones who give military advice as to how 
many troops we ought to have in that country. I am the one who 
catches the dickens from everyone who says we should have more 
or we should have fewer. The number we have is the number they 
have asked for. The number they have is the number I have 
agreed with. The number they have is the number I have 
recommended to the President, and I happen to believe they are 
right. I am convinced they are right.
    There is a tension between too many and too much 
intrusiveness and too much of an occupation and alienation of 
the population and too few. I think we are about right. I would 
like to hear their answers.
    Senator Lieberman. So would I. Thank you.
    General Abizaid. Senator Lieberman, I will certainly 
comment about the force levels within the CENTCOM area of 
operations. It sometimes is not readily apparent, but having 
more troops in the region is not necessarily the answer to all 
of our problems out there.
    First of all, we have to recognize that we are the shield 
behind which politics has to take place, economic development 
has to take place, diplomacy has to take place, et cetera. Too 
much of a footprint in the region creates more resistance than 
I think people generally appreciated. It is very important that 
we work the art of this, which is to have the right number that 
allows the development of local security forces to be 
successful.
    This is really an insurgency that Iraqis and Afghans will 
have to win. This is really a part of the world where the 
people of the region will have to show that they want a better 
future and they are willing to fight for themselves. We can 
help them. We can help them shape that future. But, to do it 
with too many troops I think creates a burden and a direction 
that is not necessarily one that will be successful.
    Senator Lieberman. If I may just shape the question to 
General Myers and General Casey: I hear you and my question is 
now in this next period of months, which are very important 
because of the constitution-writing, the referendum, and the 
election, when there is going to be an incentive on the 
terrorists to escalate, do we have enough troops there? Are the 
Iraqi security forces adequately prepared to take on the 
responsibility themselves?
    General Casey. Senator, we do today. As I mentioned, we are 
constantly reading the enemy, adjusting, adopting, looking for 
ways to affect him. I have said since my confirmation hearing 
before you: If I assess that I need more troops, I will ask for 
them. Before the last election, we did our assessment, saw that 
we needed more troops, and we asked for them and we got them, 
and they made a huge difference in the election.
    Now, we are certainly looking ahead to October. It is 4 
months out. We are looking at that very carefully. You have the 
Iraqi security forces who are developing and, as I mentioned, 
we have increased our focus on their development with our 
transition teams and with partnership relationships between our 
units and theirs. So they are getting better faster.
    We are in the process right now of doing what I mentioned 
to you. We are reading the situation and we will make our 
assessments, and if we decide we need more, Senator, we will 
ask for them.
    Senator Lieberman. I appreciate that.
    Thank you.
    Chairman Warner. Thank you.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    Obviously we all agree that getting America and American 
troops out of there as quickly as possible is in all of our 
interests. I am one of those who believe that our very presence 
there inspires more insurgents. But frankly, it is obviously 
way too early to get us out.
    I think the Iraqi people and the Iraqi government really 
appreciate the fact that we are there, that we are sacrificing, 
that we are losing some of our troops and others being wounded. 
They would like to see us out as early as possible, but, as has 
been said, not too early.
    To address that need, and you all have shared before this 
committee many times, the key to withdrawing that is to get the 
Iraqis up and trained as quickly as possible. I was just in a 
meeting with the Senate leadership and the Prime Minister of 
Iraq just about an hour and a half ago. The whole issue of 
training came up and there were several questions addressed 
with the Prime Minister on training.
    Historically, if you look at what America has done with 
Latin America, we have brought a lot of their folks up here and 
we have trained them here. It has been something that has been 
very effective, not only for the training itself but also post-
training and when they are in government we have then a lot of 
people who actually think pretty positively about America and 
some of the values that we have up here.
    We posed this question to the Iraqi Prime Minister. France 
I guess has offered--although the Iraqi Prime Minister does not 
think that they have been clear on exactly what they have 
offered--and some of the other countries have offered to train 
in their country. We are doing, obviously, a huge amount of 
training. We are trying to get it up as quickly as possible.
    But the question remains, how do we get more countries to 
step up to the table to help us with the training and how do we 
get the Iraqis then to accept, if those countries want to do 
the training in their country? With our experience with Latin 
America it seems to have had a positive effect. How do we get 
the Iraqis to go along with that? Anybody who wants to answer 
that I would be more than pleased to hear from.
    Secretary Rumsfeld. We are already training Iraqis outside 
of the country. They are being trained in several countries for 
different purposes, and certainly they can be trained in 
country, they can be trained out of country. It is something 
that is already happening.
    Senator Ensign. I realize that, but the question--even the 
Prime Minister answered this morning on, for instance, the 
French. The French have supposedly offered to train 1,700, 
taking some of the Baathists who, when we de-Baathified there, 
trying to take some of those folks who we have cleared through 
and get that officer corps up and trained. That was something 
that was addressed with the Prime Minister and he did not seem 
to think that the French had necessarily made clear exactly 
what they have offered. Some of the Senators who were there 
thought that the French had made it clear what they had offered 
to train on their soil, but the Iraqis were resistant to 
bringing them to France to train.
    General Casey. I am not aware of that, but I will certainly 
look into it when I get back.
    Secretary Rumsfeld. It just came up very recently and I am 
sure the Iraqis are sorting it out with the French.
    Senator Ensign. Let me go down a different line of 
questioning, then. I believe, and it has been said today, the 
critical piece of this is that the American people--there is no 
question that the American military is the best fighting 
military in the history of the world and these insurgents 
cannot on a military level defeat us. The only way that they 
can win is back here, back home, defeating us politically if we 
lose the support of the American people and if the leaders do 
not stand up and show the kind of leadership that leaders in 
the past in America have shown.
    General Abizaid, I would like to ask you--and with what has 
happened in these last 2 weeks, this puts you in a tough 
position, but you are a big boy and you have been in tough 
positions before. This is a very political institution here and 
I want to ask you a tough political question, because I think 
we have responsibilities as political leaders to be careful 
when we are at war in the words that we choose, how we say them 
and what we say.
    Recently we have had some leaders here in the U.S. Senate 
and the House that have talked about and compared what some of 
our troops have been doing at Guantanamo Bay to the Nazis and 
other terrible regimes around the world in the past. Does that 
damage what is going on in our war efforts? Does that encourage 
recruitment, funding for the terrorists, the morale? Does it 
hurt the morale of our troops? Does it help the morale of the 
other side?
    I guess I would like to have some honest assessment of some 
things that have been said up here, and I know we all know what 
we are talking about here.
    General Abizaid. Well, Senator, I have been in a lot of 
tough positions, but I am certainly not going to comment on any 
specific political person who might have made a specific 
political comment.
    I will tell you something very important. I travel around 
the region a lot and as I was just coming out of Afghanistan, 
Iraq, Djibouti, and various places where I talked to our troops 
and the troops we are training in the Iraqi and the Afghan 
security forces, I never sensed the level of their confidence 
higher. When I look back here at what I see is happening in 
Washington, within the Beltway, I have never seen the lack of 
confidence greater.
    Now, I cannot answer that question. Maybe it is something 
we are not doing right in the field. But, I can tell you that 
when my soldiers say to me and ask me whether or not they have 
support from the American people, that worries me. They are 
starting to do that. When the people that we are training, 
Iraqis and Afghans, start asking me whether or not we have the 
staying power to stick with them, that worries me too.
    I would say we need to have a frank discussion with 
ourselves. I am not against the debate. We that are fighting 
the war and think it is a war worth fighting. We are making a 
huge difference. The people we are helping think that we are 
fighting a war that is worth fighting. We are making a huge 
difference. But, we cannot win the war, American soldiers 
cannot win the war, without your support and without the 
support of our people.
    We cannot ignore the problem. We need to move together to 
understand it and fight it together.
    Senator Ensign. Well, Mr. Chairman, I realize my time is 
expired and I appreciate your indulgence. The point that I 
think is important to make here is that all of us as leaders, 
we have a responsibility in choosing our words very carefully 
at a time of war.
    America is about free and open debate and we should never 
back away from that. However, with freedom comes 
responsibility. We as leaders have a great responsibility, 
especially when it comes to the lives of the men and women who 
are in uniform who are in harm's way. If we are endangering 
those, if we are encouraging the enemy, we had better be 
careful with the words that we choose.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, that is a very important question 
that you have asked and I commend General Abizaid for his very 
candid and forthright reply.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. I thank you for this 
hearing, and I thank our friend here for what he has said, your 
ranking member.
    I have been listening to what has been said here, and there 
has been a good bit of speechifying on both sides. I regret 
that it seems to be a situation in which the witnesses have all 
the time they want to talk, but not the Senators.
    Mr. Secretary, I watched you with a considerable amount of 
amusement. We have to be careful what we say, that is what 
everybody is saying, so I am going to try to be careful in what 
I say.
    I have been here a long time, longer than you have. But 
that does not make any difference. I have seen a lot of 
Secretaries of Defense that have come before this committee. I 
was on this committee years ago when the late Senator Richard 
Russell was the chairman. I do not think I have ever heard a 
Secretary of Defense who likes to lecture the committee as much 
as you appear to do. I hope I am not wrong in my judgment.
    I say with all due respect to you, I think you have a very 
tough job and in many ways you have been a good Secretary of 
Defense.
    Let me tell you, nobody knows more about the courage of our 
soldiers and marines and people, nobody knows more about that 
than we do. We know about that. Nobody questions the ability of 
our soldiers. They are the finest in the world. Of course they 
are. We all know that. Nobody criticizes that. I hope that 
anything I say never leads the people out there who are risking 
their lives every day, risking their lives this very minute, I 
hope nothing I ever say reduces the respect for them or makes 
them feel that we do not respect them. We love them, our 
troops. Our troops, yes, they are out there every day giving 
their lives.
    I think we all have to be careful what we say, we here and 
you too. There have been a lot of careless statements made by 
the administration, and you too, Mr. Secretary, I say most 
respectfully. I make mistakes too. Who does not? But to come up 
here and lecture these people, you seem--you are pretty feisty. 
I kind of like that in a way, but at the same time I remember 
that it is we the people that count. We are up here, we try to 
represent the people. We have to run for election and re-
election.
    I cannot refute a sneer. Who can refute a sneer? Many times 
I think that that is what we get, Mr. Secretary, when you come 
up here. I cannot refute a sneer. I say that with great 
respect.
    But, let me tell you something. The people up here have to 
go before the people out there. You may not like our questions, 
but we represent the people. This Constitution [indicating], 
what is it about? ``We the people.'' Now, you may not like our 
questions, but we represent the people.
    I have had my fill of the administration forgetting that 
this is a constitutional system in which there are three 
separate but equal branches. Sometimes I think this 
administration forgets that the legislative branch is the first 
branch mentioned in this Constitution. We poor Senators, you 
can lecture us if you like, but we ask the questions that the 
people ask of us, whether you like it or not. We are going to 
ask you.
    The problem is we did not ask enough questions at the 
beginning of this war that we got into, Mr. Bush's war.
    I know that my time is up, but I have been waiting a while. 
That is the problem here, we do not have time. I know you have 
another engagement.
    There are three separate branches, and it is about time 
that the administration understands that we have not asked 
enough questions. The press did not ask enough questions. The 
Senate did not ask enough questions when they voted wrongly to 
shift the power to declare war, as it were, to one person. That 
was wrong. I do not care whether he is a Republican or a 
Democrat.
    We represent the people of this country. We are elected. We 
have to ask questions whether you like it or not. These people 
around here may phrase their questions any way they want and 
some of them may be loaded, they may be political. I have heard 
a good bit of politics on both sides of this question.
    But, when it is all said and done, the men and women out 
there who are dying and their people back home, their wives, 
their sisters, their fathers, their brothers, their husbands, 
their mothers, they are wondering, too.
    We did not ask enough questions when we went into this war. 
The Senate did not ask enough questions and I am ashamed of my 
own great body here that it did not ask enough questions. It 
was said, well, you will appear to be unpatriotic if you ask 
questions.
    We are asking questions. The American people are asking 
questions. I may not like it, but they are asking questions. 
They are the people who are in there--the American people have 
not been told the truth. You say we should tell them the truth, 
Mr. Secretary. That is the problem, the American people have 
not heard enough of the truth.
    Forgive me to appear to be perhaps discourteous. I do not 
mean to be discourteous. I have just heard enough of your smart 
answers to these people here who were elected. We were elected. 
You are not elected. We are elected. You have been elected. You 
know what it is to have to run for office, so you asked 
questions too when you were on this side of the table. We have 
to ask questions. The people out there want us to ask 
questions.
    Get off your high horse when you come up here. I have to 
run for reelection. You do not, I do. This is the Constitution 
and we represent the people who send us here. That is what we 
are supposed to do.
    Now let me ask a question. We have been paying for the war 
in Iraq on a cash and carry basis from the very beginning. I 
have asked these questions before. I do not necessarily hold 
you to blame, but somebody ought to do better. We have been 
paying for the war in Iraq on a cash and carry basis from the 
very beginning. The administration has consistently refused to 
budget for the war--you have heard me say this before--in the 
annual budget process, opting instead to present a series of 
must-pay bills to the American people in the form of 
supplemental appropriation requests.
    When are we going to see some truth in budgeting from the 
administration? The cost of the war in Iraq is not just a one-
time pop-up expense. It has evolved into a long-term financial 
burden on the American people.
    Now, Congress is considering proposals to add billions of 
dollars in bridge funding to this year's defense authorization 
and appropriations bills. Simply put, Congress is being forced 
to take up the slack for the administration's refusal to budget 
for the war.
    The American people have not been told the truth. You say 
if we tell the American people the truth. The American people 
have not been told the truth. I have asked this question from 
the beginning: What is this war going to cost? Well, I kind of 
get a sneer back. What is it going to cost? It is costing the 
American people in blood and it is costing them in their 
treasure.
    Is this any way to budget for a war? Why will not the 
administration send to Congress a detailed budget estimate for 
Iraq for fiscal year 2006? That is a good question, Mr. 
Chairman. It is a rhetorical question, but we have to face it 
here. We do not get a budget from the administration. We just 
get supplementals: These are bills we have to pay. The American 
people do not really see and understand what we are paying for 
this war.
    Chairman Warner. Could the witness respond to your 
question, Senator?
    Senator Byrd. Yes, but I am going to have my say, too.
    If you wish to respond to this, Mr. Secretary, in your 
usual fashion, go ahead. But, I am asking questions that the 
people back home ask me. All I have said, I hope I have said it 
with considerable respect. I respect you. You have a hard job. 
I know that. We have a job, too. We have to ask questions.
    So what is your answer to that question, if you care to?
    Secretary Rumsfeld. Senator Byrd, my recollection is that 
we did try to budget in advance for Operation Enduring Freedom 
and Congress refused to allow us to do it and said that the 
information was too tentative and preliminary because you 
cannot know what is going to happen in the future in a war, and 
they preferred that we do it in supplemental. It is a matter 
that was worked out between the Office of Management and Budget 
and Congress. It is not something that any Department has a 
voice in.
    Senator Byrd. That was at the beginning. That was a long 
time ago.
    Secretary Rumsfeld. Yes, sir. My understanding is that wars 
have historically been budgeted through supplementals.
    Senator Byrd. That is not exactly the truth.
    Secretary Rumsfeld. In any event, the American people do 
get told the truth. Congress is presented with a budget, and 
then it is simultaneously frequently presented with a 
supplemental and all the information is there. It is just not 
integrated into the budget. But, it is not as though there is 
something that is not known to Congress, because Congress has 
the responsibility of appropriating the funds, as you know 
better than any.
    Senator Byrd. Is that your answer?
    Secretary Rumsfeld. That is my answer, yes, sir.
    Chairman Warner. I thank you, Senator Byrd. I have to move 
on. I have three other colleagues.
    Senator Byrd. Mr. Chairman, I thank you. You are a great 
chairman and I respect you. I know what you are up against. It 
is not your fault. Thank you very much.
    Thank you, thank you. I thank all of you for what you are 
doing every day for our country. I respect that. I respect that 
uniform that you wear, every one of you. But, you too have to 
understand that we are the elected representatives of the 
people. We have to ask questions and they do not have to be 
softball questions.
    Thank you very much for what you do. Have a little respect 
for what we try to do.
    Chairman Warner. Thank you.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    Let me just give you my evaluation of what you have been 
telling us and then ask a couple of questions----
    Chairman Warner. Would you allow me an interruption?
    Senator Talent. Sure.
    Chairman Warner. The full panel has to appear before the 
House of Representatives. I will recognize each of the 
remaining Senators here, then we will have to draw this hearing 
to a close.
    Senator Talent. All right, then maybe I had better skip my 
evaluation and just ask the questions.
    Chairman Warner. Just in terms of others who would like to 
follow.
    Senator Talent. It seems to me that, in the areas of 
economic reconstruction, political activity, and the formation 
of a government and political institutions, we are making 
progress. I think it is a significant thing that there has been 
no ethnic or religious civil war as such there. That was always 
the worst case scenario in my mind. I think maybe we have 
Ayatollah Sistani and some other people to thank for that.
    There has been no attack here, and I think we have to take 
the cost of the war, a couple hundred billion dollars--what is 
that, 1 to 2 percent of the gross domestic product (GDP) in the 
last couple of years. I do believe there is a connection 
between that and the fact that we have not been attacked here. 
It is harder for them to attack us when we are on the offense, 
and that is a big plus.
    I also think it is an enormously important strategic 
objective for us to gain. All that I think may be on the side 
of progress and, if not good news, progress toward 
accomplishing the objective. On the con side, if you will, or 
the negative side, the IED problem is worse than we 
anticipated, and I do not know that we have figured out yet 
what to do about it.
    It is striking to me that the training is harder than I 
think we maybe thought it was going to be. Let me ask you this 
with regard to the training. One of my difficulties is a lot of 
what I want to ask about I think I have to ask about in closed 
session. Is it your sense that a substantial proportion of the 
Iraqis that we are training are willing to stand and fight in a 
combat situation? Maybe they are poorly led, maybe they do not 
have all the sophistication that our troops have, but do they 
have the fire to fight? That is the first question.
    If they do not and to the extent that they do not, what can 
we do about that? Because wars against terrorism are part 
combat, but they are also a lot questions of resolution between 
who has the resolve. They are struggles between peoples in that 
sense.
    The second is a broader issue. It does seem to me that this 
whole enterprise would be easier if we had a larger Army, 
simply for a larger rotational base. Mr. Secretary, I hope--and 
I liked your comment on this--that as you do the Quadrennial 
Defense Review (QDR) and we move forward that we consider this 
with regard to all the services, that we do not--we try and 
predict with the QDR what the threats are going to be, but we 
do not know. I hope that we will err on the side of having too 
much rather than too little.
    I said this all throughout the 1990s, when we went at the 
beginning of that decade from 12 divisions to 10. I suspect if 
we had those other two divisions and maybe if we had done some 
different apportionment between the Reserve components and the 
Active-Duty components, this would be a lot easier now just 
from a rotational perspective.
    So first, is it your sense that they are willing to stand 
and fight, if you can answer that in an open session? To the 
extent that that is not true, what are we doing about that? 
What can we do about that?
    Then, Mr. Secretary, would you comment on whether the 
situation with the Army in Iraq has affected your thinking 
regarding the QDR?
    General Casey. Senator, I will take the first one there. As 
I mentioned in my opening statement, after some difficulties 
last spring the Iraqi security forces are in the fight every 
day and we have not had a failure of the Iraqi security forces 
in the face of fairly determined opposition since the 
elections.
    Again, as I said in my statement, they gained a lot of 
confidence in themselves in what they did during the elections. 
You have heard the stories about tackling suicide bombers and 
falling on top of them to protect the people. So that spirit 
has continued on through our training and development.
    Senator Talent. When you say ``have not had a failure,'' 
you mean that they have not just turned and run or hunkered 
down and refused to confront the enemy?
    General Casey. Just exactly the opposite. They have been 
attacked by multiple car bombs. They have stood and they have 
fought.
    I will tell you, our strategy to put small teams of 
coalition forces with them has also helped to stiffen their 
will and their resolve and their capacity.
    Senator Talent. That is true when they are encountering 
bands of insurgents in small arms attacks and ambushes and the 
like?
    General Casey. Everything we have seen so far.
    Secretary Rumsfeld. Senator, you are quite right, the QDR 
is underway and one of the key questions is the size of the 
forces, particularly the ground forces. Simultaneously we have 
been doing a series of things that have the effect of 
increasing the size of the Armed Forces, and particularly in 
the skill sets that are needed.
    For example, in the Navy we have been using sea swaps, 
where we change crews overseas, so we maintain a capability and 
use fewer people for longer times. We have thus far only used 
about 40 or 45 percent of the Guard and Reserve. The problem is 
that their skill sets are not properly balanced, so we have 
been shifting the balance within the Guard and Reserve, and as 
between the Active Force and the Guard and Reserve.
    Under the new National Security Personnel System, we are 
going to be able to do a much more effective job with our 
civilian force and we are going to be able to take a number of 
military people out of the jobs they are in, which are 
essentially jobs that can be done by civilians. So, without 
increasing the overall size, we will have a larger number of 
uniformed personnel available for military functions.
    In addition, we have increased the size of the Army. We are 
increasing it by 30,000 troops beyond the increases that we are 
achieving through all of these other activities. But in the 
process, the QDR should come out with some visibility as to 
what might make sense for the period.
    Senator Talent. My time is up, Mr. Chairman. But I am 
speaking more in terms of an attitude as you size all this up. 
I know this is what I am going to be thinking when we receive 
the QDR over here, that let us err on the side of too much--
because if we are wrong, if we cut it too fine an area, we have 
to spend a whole lot more to try and deal with that than we 
would if we had sustained a somewhat larger force.
    I know the recommended force when I came into Congress in 
1993 was 12 divisions, and I am wondering if we should not, to 
take care of all contingencies, just err on the side of having 
too much rather than too little. I hope you will consider that 
as you consider the QDR.
    Thank you, Mr. Chairman.
    Secretary Rumsfeld. Thank you.
    Chairman Warner. Thank you, Mr. Talent.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman and 
gentlemen. As always, thank you for your appearance here today 
and providing the information, but most of all thank you for 
the great leadership that you are providing. General Abizaid, 
General Casey, when you get back in theater just let your 
troops know that we greatly appreciate the great service that 
they are providing, not just to our country but for freedom 
around the world and the hopeful freedom of the Iraqi people.
    General Myers, I was interested in your comment in your 
opening statement where you said troops understand what is at 
stake in Iraq. You are exactly right.
    General Casey, you were kind enough to host a couple of us 
over there several months ago. We were there at Thanksgiving. 
When I had the opportunity to go out and look your troops in 
the eye, what we saw were very professional men and women who 
are committed to freedom, who understand why they are there, 
and who would rather be at home, but they know they are there 
for the right reason and they are doing great work.
    You have a young captain over there who happens to be from 
my home town, a young man that I have known all his life. He is 
my first West Point graduate. I sent him an email. It has been 
about a month or so ago, I guess. He is with the 3rd Infantry 
Division. He was in the original march to Baghdad. He is back 
over now for his second tour.
    He responded with an email. Mr. Chairman, I would like to 
quote a little bit of this email that I got back from this 
captain. He said: ``Things have been progressing well here in 
our sector, although Baquba still sees its fair share of 
violence every now and then. Most if not all attacks are 
conducted via car bombs, probably the most cowardly manner in 
which a terrorist can become a martyr. We think these car 
bombers are mostly foreign fighters.'' Again, you have verified 
today that exact fact.
    He talks about, General Abizaid, something called a q-a-d-
a-h. Is that a ``qadah''? I do not want to be mispronouncing 
that. Apparently it is the equivalent of a county in the United 
States. He says: ``We have over $19 million dedicated to the 
qadah assistance alone. We have built countless numbers of 
schools, roads, mosques, water treatment plants, switchboards, 
et cetera. We just recently finished up a project that will 
provide fresh drinking water to over 25,000 people in three 
different villages for the first time in 35 years. The local 
governments would be operating completely on their own if it 
were not for the lack of a budget. They are in the process, 
however, of compiling and submitting budget requests for fiscal 
year 2006 to Baghdad by no later than the end of July, so we 
are seeing great progress in that area.''
    He then talks about the economy over there and what is 
happening in the local community relative to an increase in 
economic activity, and he concludes that paragraph by saying: 
``Once the security situation is under control, I think we will 
see a huge capacity for private businesses investing in the 
local economy.''
    Secretary Rumsfeld, in agreeing with you, as I do, relative 
to what you said about getting pushed, I think that is exactly 
right. This young man said: ``Most people back home do not hear 
about all of these things and I wish the press would do more to 
cover them.''
    He then goes on to address an issue that a lot of us have 
asked questions about and a lot of the press have asked 
questions about for the whole time that we have been there. I 
did not ask him this in my email to him. He volunteered this. 
He says: ``Additionally, our equipment is all to standard. We 
receive updated material and technology almost weekly and 
soldiers feel more than safe with their equipment. The biggest 
threat by far is still roadside bombs, followed by vehicle 
accidents. The armored HMMWV is an excellent machine, however, 
and it does its job 99.99 percent of the time. Whenever we 
leave the gate, it is standard operating procedure to wear all 
protective equipment--throat guard, shoulder guard, groin 
guard, arm guards, kevlar vest, helmet, ballistic eye 
protection, and earplugs. It is plenty heavy, but it saves 
lives.''
    He concludes by saying: ``The bottom line is that we are 
making great progress, and we may be replaced by an Iraqi 
battalion instead of a U.S. unit. This is in line with reducing 
the footprint of coalition forces in Iraq.''
    I wanted to get that in the record. We have a job to do 
here. Senator Byrd is right, we are required to ask tough 
questions, but by the same token when things are being done 
right over there I think we have an obligation to tell the 
American people it is going right.
    Part of your responsibility in being here today is to 
answer those tough questions, but also to get the message out 
that things are being done right. War is very difficult, it is 
nasty, and we are dealing with people who want to kill and harm 
Americans every day. That is their sole goal in life. But, 
thanks to the folks that are operating under each of you every 
single day in Iraq today, in Afghanistan and other parts of the 
world, we are making progress with freedom. We are going to 
continue fighting until we win this war. It is all because of 
the leadership of you gentlemen here, but it is also primarily 
because of the brave men and women that serve under you. So I 
just thank you for that.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, I thank you for your statement 
and I wish to associate myself with your observations.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    I want to thank each of you gentlemen for your tremendous 
leadership, for all that you are doing in service to our 
country. It is a privilege to have you here and to hear from 
you.
    General Casey, you mentioned in your opening statement that 
the Iraqi people make progress every day. I have been heartened 
to learn of the Iraqi government's television ad campaigns 
encouraging the Iraqis to report insurgents' movements. I have 
been interested in this very popular Iraqi television program, 
``Terrorism in the Hands of Justice,'' that profiles captured 
suspected insurgents. Apparently there are hundreds of calls 
coming in through the insurgent tip line.
    Could you comment on this growing trend of the Iraq people 
to speak out and not tolerate insurgents in their midst? I 
would be interested in just hearing more of your thoughts on 
that.
    General Casey. We have, Senator, seen quite a large 
increase in the willingness of Iraqis to come forward and 
provide information on the insurgents.
    This television program that you mentioned, ``Terrorists in 
the Hands of Justice,'' has become a national phenomenon. When 
you talk to the Iraqis, when they see someone who tries to be 
looked at as something to be feared and they see that it is 
just a wimpy little man, they feel much stronger than that.
    On the tips, you mentioned that. We have seen a huge 
increase in the tips on these hotlines. We had less than 50 
back in January. We are up over 1,700 now.
    I am not sure what this chart here says.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Myers. That is the number of hotline tips and how 
they have grown since January. They have really started to 
spike since April when the Iraqi government started to 
advertise that this service was available. In an insurgency, of 
course, intelligence is key and indigenous intelligence is even 
more key, and that is what that represents.
    General Casey. So, we have seen them up over 1,700 when you 
add up the ones from all of the different division areas across 
the country.
    The other thing I would say is people are walking in and 
pointing out weapons caches to us in large numbers. We have 
picked up over 1,300 weapons caches just since the elections. 
These are people going out and saying: See that stick right 
there; dig underneath there. There will be tons of ammunition 
underneath it.
    So the Iraq people are taking a stake in the future and are 
becoming more and more forthcoming.
    Senator Dole. Thank you.
    Now, in the past reconstruction projects have been spread 
throughout the country. Utilizing this approach can be 
difficult because security forces can be spread too thin. The 
Iraqi Foreign Minister is now advocating for a more 
geographically focused reconstruction effort in safer areas, as 
I understand, where there is less risk and security can be 
concentrated.
    What about this? Secretary Rumsfeld, can you comment on 
that? What do you recommend to better facilitate reconstruction 
efforts?
    Secretary Rumsfeld. Well, as we indicated, Senator, all 
three pieces have to go forward together. The security has to 
go forward for the economic piece of it and the reconstruction 
to take hold, and the political piece has to go forward for 
each of them to take hold.
    There has been a tension clearly over time of in some 
instances trying to put more reconstruction funds into areas 
that are the least friendly, on the idea that it will make them 
happier and their electricity will be better and their water 
will be better. The argument against that, obviously, is that 
you are rewarding bad behavior. So, there are others who say 
put the reconstruction money first into places that are 
behaving properly and supporting the government and doing 
things that are rational, and that is a perfectly legitimate 
position as well.
    No matter where you put it, it makes no sense to use 
reconstruction funds if it is going to be destroyed immediately 
thereafter. As I say, it does not take a genius to blow up 
something and to damage something. It takes a genius to build 
something.
    I am not familiar with what you said about the latest Iraqi 
government. Are you, George?
    Senator Dole. The Foreign Minister.
    General Casey. No, I am not familiar with that, either. 
But, I agree with what the Secretary said. There are different 
ways of looking at this, but all of our commanders have some 
flexibility with the money that they have for economic 
projects. They use that to influence support for us rather than 
support for the insurgents.
    General Abizaid. Senator, if I could add just one comment. 
It kind of gets back to the points that Senator Levin was 
making about asking our partners in Iraq to be accountable. We 
really must focus in on the rule of law in terms of justice, 
prisons, detainees, et cetera. In the long run, corruption and 
criminality could be a greater threat to a free Iraq than 
terrorism, and it is vital that we focus on the rule of law.
    Senator Dole. Thank you.
    The Center for Army Lessons Learned released a report in 
April, I believe, of 2004. They emphasized: ``A missed intent 
in local negotiations can mean future significant problems in 
dealing with other issues. It is imperative that communications 
be clear and effective and that all concerned are aware of its 
implications.''
    I would like to ask you just to comment briefly on the 
efforts to overcome the cultural barriers; the previous 
shortage, for example, in translators, where we are on that.
    General Casey. We have made great progress in translators 
here over the last 6 months, and I am well over 80 percent of 
filling our requirements for that. It is especially important 
because I added a requirement for an additional thousand 
translators for these teams that we are putting out with the 
Iraqi units.
    For all those teams, we have put them through an extensive 
training program that emphasized the cultural context, 
basically to inform them so they could deal well with the 
Iraqis. We worked that very hard, and I think what we are going 
to see is the more time that our folks spend working directly 
with the Iraqis the closer the bonds become and the more 
effective the working relationships become.
    Senator Dole. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    This concludes the question period. Senator Levin, do you 
have a comment?
    Senator Levin. Just very quickly. Senator Dayton was really 
looking forward to the hearing, but he has a Base Realignment 
and Closure Commission regional meeting today in North Dakota 
and he is therefore unable to be here. But, I wanted just to 
make that note for the record.
    I want to thank you, Mr. Chairman, for convening this 
hearing. As you and I think all of us agree, we are deeply 
appreciative of the dedication and service of our witnesses 
here. These hearings always should be lively, given the 
circumstances that I think are very challenging, and it lived 
up to that description.
    Chairman Warner. Thank you, Senator Levin.
    I would like to make an observation. I thank you again, Mr. 
Secretary and our witnesses, for making this hearing possible. 
It really is of historic proportions, and I think we have had 
an excellent exchange of views and I commend you on your 
responses to a series of tough questions.
    There remains, General Casey, some material which I am sure 
you will provide the committee with regard to the classified 
sections relating to the status of the training and the ability 
of the current Armed Forces of Iraq.
    Senator Byrd mentioned Senator Russell and it reminded me 
that I was privileged to be at the DOD at the time he was here 
in the Senate and occupied a chair not unlike that which you 
are in now, Mr. Secretary, before that distinguished Senator. I 
have had the privilege of dealing with every Secretary of 
Defense in the 35 years that I have had the opportunity and 
really the privilege to associate with the DOD in one way or 
another.
    I want to say, Mr. Secretary, through the years that we 
have known each other I have enjoyed our working relationship. 
I look forward to continuing that and I have full confidence in 
your ability to lead the DOD, under the direction of a 
courageous Commander in Chief, our President.
    The hearing is concluded.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                      IMPROVISED EXPLOSIVE DEVICES

    1. Senator Inhofe. General Abizaid and General Casey, in the last 2 
days, there has been a great deal of media coverage with regard to 
improvised explosive devices (IEDs). It is apparent from our casualties 
that the biggest danger our military faces in Iraq is a result of IEDs. 
Coalition forces, Iraqi security forces, and Iraqi civilians face these 
same threats. Brigadier General Joseph Votel, USA, the Director of the 
IED Defeat Task Force, is quoted in Defense News as stating that IED 
incidents--the discovery or detonation of a bomb--have surged in recent 
months and are currently running at about 30 per day. I realize and 
applaud all the fine work that is being done by this Task Force in a 
very time critical environment to diminish any further escalation of 
these devices. Like you and my colleagues and all Americans, I remain 
concerned about what more we can do to keep the insurgency from 
continuing to make and adapt these devices to combat whatever offensive 
or defensive measures we put in place.
    I know there was a counter-IED seminar at Fort Irwin last week, 
which was also attended by some of our coalition partners. Without 
getting into any classified areas, what assurances can you offer that 
there continue to be initiatives in the pipeline to defeat the 
insurgency's successful use of IEDs, especially the recent elevated use 
of vehicle-born IEDs, and what can Congress do to better protect our 
troops on the ground?
    General Abizaid and General Casey. Central Command's (CENTCOM) 
counter-IED initiatives fall into two broad categories: adaptive 
tactics and material solutions. The Joint Improvised Explosive Defeat 
Task Force (JIEDD TF) Field Teams are very effective in developing and 
teaching tactics to our deployed units. Material solutions, such as 
enhanced body armor and armored vehicles reduce the lethality of IED 
attacks. Moreover, the growing suite of technical countermeasures is 
also very beneficial in countering the IED threat. Congress' continued 
support to programs which develop and field counter-IED solutions 
provides many of the tools our service members need to adapt to 
evolving IED threats.

    2. Senator Inhofe. General Abizaid and General Casey, it is my 
understanding that to track and capture the makers of these IEDs, human 
intelligence (HUMINT) plays an especially critical role. Are there any 
blockers to continuing to build our HUMINT capability as rapidly as we 
need to and what are we doing to overcome any such blockers?
    General Abizaid. HUMINT does play an especially critical role in 
the effort to identify, track, and capture IED makers and others 
involved in these attacks against U.S. and coalition forces. CENTCOM is 
working to build a HUMINT capability that will make us more effective 
in countering IED and other types of attacks; however, there are 
blockers that will need to be overcome. Primarily, the blockers fall 
into two related areas, Operational and Technological.
    Operationally, CENTCOM is challenged by the lack of trained and 
experienced collection teams. Due to increased demand in Iraq and 
Afghanistan, beyond pre-war projected requirements, there are not 
enough trained personnel to meet requirements for continued force 
rotations into the AOR. To address this issue, the Services are making 
a concerted effort to recruit and train HUMINT collectors to satisfy 
current requirements and provide for a sustained HUMINT collection 
effort to support OIF, OEF, and the global war on terrorism. CENTCOM is 
also doing a better job of educating our tactical commanders who 
control these assets to ensure efficient utilization and to focus on 
priority threats such as IEDs.
    Technologically, CENTCOM is challenged by the lack of a streamlined 
information management architecture that puts priority intelligence 
information into the hands of the warfighters in a timely manner. To 
address this issue, CENTCOM has developed web-based reports portals for 
U.S. and coalition collectors and this has greatly improved the ability 
to report and disseminate validated intelligence information. CENTCOM 
is also working on solutions, such as the Joint Intelligence Operations 
Capability-Iraq (JIOC-I), that will enable the movement of information 
from battlefield collectors to analysts and on to the affected 
commanders who need the intelligence to counter IED and other threats. 
CENTCOM will need a continued commitment of resources to sustain this 
effort and to seek advanced solutions, up to and including an 
overarching intelligence community architecture that is capable of 
direct support to the warfighter.
    General Casey. HUMINT plays a critical role in tracking and 
capturing the makers of IEDs. Our HUMINT experience base is increasing 
and our methods are evolving to meet the threat. The services are 
increasing the number of interrogators and tactical HUMINT collectors 
to meet our current needs. We have certainly had HUMINT successes and 
continue to integrate lessons learned to develop sources that can 
provide the actionable intelligence we need.

    3. Senator Inhofe. General Abizaid and General Casey, I believe we 
all agree that the success of a new Iraq depends on Iraq being able to 
secure itself. We are making great progress in this area. I have seen 
positive changes in my two visits to Iraq this year. What I'd like to 
know is, with the increasing casualties amongst Iraqi security forces 
and civilians, are you seeing the Iraqi populace and the new Iraqi 
government providing critical information or taking definitive actions 
to ``help us, help them'' be a free people and defeat this insurgency 
by pinpointing where the insurgent is hiding, and where the IEDs are 
being manufactured?
    General Abizaid. The Iraqi populace and the new Iraqi government 
are both providing an increasing amount of critical information to 
counter the insurgency to include taking definitive actions in 
pinpointing where insurgents are hiding and where they are emplacing 
and manufacturing IEDs. CENTCOM's goal in this effort is to facilitate 
the establishment and growth of coalition and partner nation Counter-
IED capability, including transfer of C-IED Technology, Tactics, 
Techniques, and Procedures (TTP).
    General Casey. Overall, there is an extremely positive trend in the 
flow of information between the Iraqi people and coalition forces. For 
example, the number of tips that we are receiving from average Iraqi 
citizens is significant. In the month of May alone, Multi-National 
Corps-Iraq received 1,282 tips of which over 70 percent were considered 
actionable.
    Multi-National Force-Iraq and the Iraqi Transitional Government 
routinely share intelligence and operational information to detect and 
defeat insurgents. This organizational cooperation, along with 
information provided by the Iraqi people, are powerful tools toward 
defeating the insurgency in Iraq.

                     TROOP LEVELS AND END STRENGTH

    4. Senator Inhofe. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, recently, many of my colleagues in Congress 
have been pressing the Department of Defense (DOD) and the 
administration to reduce the number of troops in Iraq. Right now we 
have about 135,000 U.S. troops on the ground in Iraq. They have a 
mission, a critical mission: to defeat the insurgency, train the Iraqi 
security forces to protect themselves, and enable a free Iraq. I 
believe and support strongly that we base any withdrawal timeline on 
the mission, and only on the mission. There has been significant 
progress in Iraq. I have seen it. We expect continued progress with the 
Iraqis scheduled to hold their first election under their new 
constitution at the end of this year which the current Iraqi government 
is working toward.
    Along with our Active-Duty Forces, we have relied heavily on our 
Reserve and National Guard, all of which who have done an exemplary 
job. However with recruiting and retention challenges, I am concerned 
if we are maintaining adequate end strength in our military forces to 
meet the rotational needs of the Operation Iraqi Freedom (OIF) mission. 
Gentlemen, is this a concern you share?
    Secretary Rumsfeld and General Myers. Thanks to you and the other 
members of this committee and the support of Congress, we have adequate 
end strength to meet the needs of the Nation. However, current 
operational and personnel tempos are significant and will likely remain 
so for the near term. Accordingly, the Services are working to 
rebalance within and between Active and Reserve components to increase 
warfighting capability and responsiveness and to ease stress on our 
units, troops, and their families. Some of the initiatives include the 
Army's transition to 43 ``modular'' brigade combat teams, shifting 
billets across the Services from low demand to high demand skills, and 
capitalizing on military-to-civilian conversions. In addition, end 
strength is a significant focus item for the Quadrennial Defense 
Review.
    General Abizaid. Recruiting and retention is a concern to everyone 
that wears the uniform but this question is better answered by the 
Services since they are responsible for recruiting. The Services have 
continued to fill Central Command's force requirements with properly 
trained and equipped units for our efforts in Iraq and Afghanistan, as 
well as the rest of the Central Command area of responsibility.
    General Casey. I maintain a consistent dialogue with the services 
that provide forces for OIF, and they are able to meet the operational 
requirements with the existing personnel structure. I defer any 
assessment of overall end strength issues to the Service Chiefs and 
Department of Defense leadership.

    5. Senator Inhofe. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, what do you see on the horizon with regard 
to the negative recruiting trend, particularly in the Army and Marine 
Corps, and what plans are there to address this concern?
    Secretary Rumsfeld and General Myers. We anticipate that the rest 
of fiscal year 2005 will be very challenging for both active and 
Reserve component recruiting, and are particularly concerned with the 
active Army, Army Reserve, and Army Guard. To mitigate the challenges, 
we have increased the numbers of recruiters, enhanced enlistment 
bonuses, and have focused our marketing strategy not only on potential 
recruits but also on the influencers (parents, teachers, etc.) who play 
an important role in our overall effort.
    General Abizaid. Recruiting and retention is a concern to everyone 
that wears the uniform but this question is better answered by the 
Services since they are responsible for recruiting. It should be noted 
that the Services have continued to provide the forces needed in the 
CENTCOM Area of Responsibility (AOR) and those troops remain fully 
capable of completing the mission.
    General Casey. First, let me say that the patriotism and 
performance of the young men and women serving with me in Iraq is 
unsurpassed. These young Americans serving in Iraq--from both the 
active and Reserve components--tend to re-enlist at rates exceeding the 
established goals.
    I remain confident that recruiting and retention programs of each 
service will continue to meet the foreseeable operational requirements 
in my command. I defer any assessment of overall end strength issues to 
the Service Chiefs and Department of Defense leadership.

                      PRISONERS AT GUANTANAMO BAY

    6. Senator Inhofe. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, a lot of controversy has surrounded the 
prisoners held at Guantanamo Bay lately. Inflammatory statements have 
been made and inflammatory articles have been written. Many claim that 
we should charge these prisoners or just let them go. This is of course 
the same group of people who believed we should treat terrorism as a 
crime and not as a war. This is the same group of people who watched as 
Osama bin Laden and his thugs attacked American interests repeatedly 
and simply sent the Federal Bureau of Investigation (FBI) to 
investigate and try to bring these people to justice, after the fact.
    In a Washington Post article dated October 22, 2004, John Mintz 
wrote: ``At least 10 detainees released from the Guantanamo Bay prison 
after U.S. officials concluded they posed little threat have been 
recaptured or killed fighting U.S. or coalition forces in Pakistan and 
Afghanistan. . . . One of the recaptured prisoners is still at large 
after taking leadership of a militant faction in Pakistan and aligning 
himself with al Qaeda. . . . In telephone calls to Pakistani reporters, 
he has bragged that he tricked his U.S. interrogators into believing he 
was someone else.'' The reporter further reported about one former 
detainee named Mehsud: ``Mehsud said he spent 2 years at Guantanamo Bay 
after being captured in 2002 in Afghanistan fighting alongside the 
Taliban. At the time he was carrying a false Afghan identity card, and 
while in custody he maintained the fiction that he was an innocent 
Afghan tribesman, he said, U.S. officials never realized he was a 
Pakistani with deep ties to militants in both countries. . . .''
    Last week, Attorney General Alberto Gonzales said, ``There are 12 
people that we have released that we know have come back and fought 
against America because they have been recaptured or killed on the 
battlefield. . . .''
    I would like to hear your view of this debate. Should these men be 
charged or released? Do you believe they would return to theatre to 
cause you additional trouble?
    Secretary Rumsfeld and General Myers. The bottom line is crystal 
clear: the United States Government (USG) should not serve indefinitely 
as the world's jailer. Much of the controversy surrounding the 
prisoners detained at Guantanamo Bay is based upon an inadequate 
understanding of who we have detained there, the circumstances of their 
capture, and of the processes we have instituted to continually 
evaluate their status. When detainees began to be captured in the 
field, the USG created a formal system of evaluations culminating with 
annual reviews to determine the status of each individual detainee. 
Despite protests to the contrary, our system and its procedures are 
fair and impartial; detainees' rights are acknowledged. Some detainees 
are released. A few have been recaptured. To date, the rate at which 
released detainees from Guantanamo Bay have ``returned to the fight'' 
has been between 5 percent and 6 percent.
    The Department of Defense continues to believe that detainees 
remaining under military control should be carefully screened, 
thoroughly evaluated, and either released or transferred to their home 
countries, or charged and tried in a military commission. No evaluation 
process is without risk, and we are confident that we have mitigated 
that risk as much as possible.
    General Abizaid. Those detainees that the U.S. Government believes 
to be credible and continuing threats to U.S. interests should continue 
to be detained until they are no longer a threat. These individuals 
will in fact, as they have asserted, and in some cases have shown, 
return to the fight if given the opportunity. Releasing detainees from 
Guantanamo prematurely will endanger not only U.S. military forces, but 
the United States, its citizens, allies, and interests. CENTCOM 
strongly believes the majority of detainees held at Guantanamo would 
attempt to re-engage our military forces in armed conflict if released.
    General Casey. Although the prisoners at Guantanamo Bay are outside 
my direct purview, whether any individual will be released or charged 
will be decided on the facts and circumstances of each person's case. 
It is always possible that anyone who is released may return to cause 
us trouble in the future. Under U.N. Security Council Resolution 1546, 
we are working with the Iraqi Transitional Government to secure Iraq 
and help establish an Iraqi system of processing detainees based on due 
process principles.

                             MEDIA COVERAGE

    7. Senator Inhofe. General Abizaid and General Casey, during my 
last two trips to Iraq I met many soldiers and marines who believed the 
media coverage was unbalanced. They told me the successes achieved by 
our forces seemed to not be news worthy, and the media at every 
opportunity touted the insurgents' successes. With the exception of the 
coverage of the election in January, I must agree. What is your 
perception of the media coverage? How does that affect your mission?
    General Abizaid. The media trends toward reporting on the negative 
and/or sensational issues; that is the nature of the news business. To 
some extent the events in Iraq and Afghanistan are viewed through a 
``soda straw.'' The 24-hour news cycle compresses the allotted time for 
coverage forcing the new agencies to pick the most sensational stories. 
This results in not every story being reported. The most unreported 
story in Iraq and Afghanistan is the true nature of the enemy. This is 
a despicable enemy that people need to understand. They are killing 
civilians, Muslims, and are destroying Iraq's national infrastructure. 
This continued perception that the media only reports the negative out 
of Iraq and Afghanistan does have an impact on the morale of the troops 
and CENTCOM does all it can to counter that effect.
    General Casey. Media coverage needs to focus on the progress in 
Iraq as well as the violence.

    8. Senator Inhofe. General Abizaid and General Casey, what can we 
do to get a more balanced story?
    General Abizaid. CENTCOM has a proactive and aggressive program of 
embedding and getting interviews and stories out to the news media. 
Transparency is the best policy and CENTCOM has worked hard with the 
media to maintain that transparency and will continue to do so. In 
Afghanistan, hundreds of media embeds have taken place and since the 
beginning of Operation Iraqi Freedom, CENTCOM has embedded over a 
thousand media representatives with CENTCOM forces. Observing the 
events as they occur, and living with U.S. forces for days or weeks at 
a time has produced some of the most accurate reporting we have seen. 
CENTCOM has also devised a ``virtual embed'' program in which we use 
satellite technology to enable a news anchor to speak directly with a 
home town soldier, marine, sailor, or airman. The potential audience 
reached through this program has totaled more than 2 billion. CENTCOM 
will continue to seek new and innovative methods to tell our story.
    General Casey. Have reporters get out with units and stay long 
enough to understand what is going on.

                      DEMOCRACY IN THE ARAB WORLD

    9. Senator Inhofe. General Abizaid, in a recent article you stated: 
``Politics will assure the defeat of the insurgency, provided the 
politics are open, transparent, and legitimate. It is clear we are 
moving in that direction.'' It seems to me that this same strategy is 
starting to work in Lebanon, Libya, Afghanistan, and maybe someday in 
Egypt and Saudi Arabia to name just a few countries in the region. What 
do you see as the major obstacle to achieving an open, transparent, 
legitimate political environment in Iraq and what is your assessment of 
the changes we see taking place in the region? Are they sustainable?
    General Abizaid. The main obstacle to achieving an open, 
transparent, legitimate political environment in Iraq is providing 
inclusiveness in the political process for the diversity of religious, 
ethnic, and tribal influences throughout the country. Eventual success 
in Iraq will not be won by military operations on the ground, but by 
the formation of a central government that is representative of the 
people, and therefore fully supported by the people. This inclusiveness 
must be protected by a constitutional structure that guarantees the 
minority rights. If the Iraqi people truly believe that their voice is 
fairly represented in governmental decisions and that the government 
represents stability and a better future for them and their children, 
the insurgency will no longer have a place to hide.
    The need for inclusiveness during the political process is well 
recognized at all levels of the political spectrum and continues to be 
a priority of all concerned. More importantly, the Transitional 
Government of Iraq recently demonstrated its commitment to inclusion 
when the parliamentary committee charged with drawing up Iraq's new 
constitution approved the appointment of 15 additional Sunni 
representatives to assist with this all important task. So while equal 
representation for all in the political process is a major obstacle, it 
is an obstacle that is receiving the proper attention at all levels and 
will be overcome.
    The recent political events observed throughout the region in 
Lebanon, Libya, and Afghanistan is indeed encouraging. These events 
also lend credibility to the concept that an open, transparent, and 
legitimate political process can significantly alter the direction in 
which a country is moving. The sustainability of these events 
throughout the region cannot be predicted, but our eventual success in 
Iraq and Afghanistan will certainly play a role in the continuation of 
future change throughout the region.

    10. Senator Inhofe. General Abizaid, in the same article you 
stated: ``The Afghans and Iraqis on this trip kept saying to me over 
and over again, `Are you going to stick with us?'. . . I kept telling 
them over and over again, `Yes we will.' I ask the American people not 
to make a liar of me.'' What will happen in the region if we don't 
stick with them?
    General Abizaid. While it is hard to predict the unknown, it is 
possible to foresee certain possible outcomes. Leaving Iraq before the 
security forces and government are ready to take on the challenges of 
an evolving democratic state could have far reaching consequences for 
Iraq and the region as a whole. The greatest concern would be that the 
fledgling government would collapse and Iraq would devolve into civil 
war, with the country eventually splitting into the autonomous regions 
of Kurdistan, Shia south and Sunni western and central Iraq. If this 
were to happen, Iraq could become a major terrorist sanctuary and a 
destabilizing influence for Iraq's surrounding neighbors, resulting in 
a regression from the gains in regional democratization that has been 
recently witnessed.
    Iraq's energy infrastructure would also likely continue to fall in 
a state of disrepair due to internal strife resulting in increased 
pressure on the world's oil markets. Certainly, none of the above would 
be in the strategic interests of the United States and would require an 
even greater investment than currently anticipated to rectify such a 
situation.
    With regard to Afghanistan, the effect of abandonment would be 
slower to evolve than in Iraq due to the more advanced progress of the 
political process and the greater degree of governmental control there. 
Yet, while greater maturity exists, the political, economic, and 
security infrastructure simply is not in place to ensure the continued 
success of democracy in Afghanistan. Recognizing the presence of a 
substantial narcotics influence in the country, you could see a gradual 
degeneration into a narco-terrorist state dominated by warlords and 
terrorist activities.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                 NATIONAL GUARD AND RESERVE DEPLOYMENTS

    11. Senator Collins. General Myers, you and I have talked many 
times about the strain that we are placing on our National Guard and 
Reserve. I am concerned that the situation is getting worse, not 
better, and that we are asking too much of the Guard in particular, 
through multiple, repeated, and lengthy deployments.
    I would like to share an example with you. A constituent of mine is 
a helicopter mechanic and an Army National Guard staff sergeant. Her 
name is Jessica Wing. Staff Sergeant Wing left Bangor, Maine, last 
Friday morning for what will be her fourth deployment overseas in 10 
years. She has had four deployments in 10 years--to Haiti, to Bosnia 
twice, and soon she'll be in either Iraq or Kuwait.
    I understand that the DOD's policy mandates that Guard and Reserve 
members must not be deployed for more than 24 cumulative months unless 
they volunteer, but the key here is the word ``cumulative.'' I also 
know there's the one-in-five rule stipulating that only one 24-month 
cumulative deployment can take place within the 5-year period. But, 
even if the deployments aren't for 24 months, it still imposes a 
tremendous hardship for a Guard member to be deployed overseas four 
times in 10 years.
    I would like to know what specifically is being done to alleviate 
the repeated deployments of those like this staff sergeant who have 
specialty skills in areas that have unusually high demand? In her case, 
she's a helicopter mechanic, and I can see why there is a high demand 
for helicopter mechanics. From my personal conversations with Guard and 
Reserve members of Maine, we are already seeing the impact on 
recruitment, and I think we are going to start seeing it on retention 
as well.
    General Myers. The senior DOD leadership shares your concerns. At 
least 47 specific initiatives across the Department of Defense address 
these concerns regarding the high demand for our Reserve Forces and 
there is progress. Many of our guard members and reservists have 
volunteered to serve longer, but none have been involuntarily mobilized 
for more than 24 cumulative months.
    Staff Sergeant Wing is a well-respected Soldier who has served this 
Nation with honor and distinction. During her 12 years of service with 
the active component of the Army, she deployed overseas three times, 
for an approximate total deployment time of 15 months. The number and 
length of these deployments is well within the norm for Army Active-
Duty Forces. After a 1-year break in service, she joined the Army 
National Guard in 2001, and is currently preparing for her first 
overseas deployment as a guard member.
                                 ______
                                 
                Question Submitted by Senator John Thune

                           OPERATIONAL TEMPO

    12. Senator Thune. General Myers, can you describe the impact and 
strain of the repeated rotational deployments of ground units and air 
squadrons to Iraq--some are beginning their third tour--has had on 
yearly training cycles, readiness ratings and maintenance cycles--and, 
of course on the home-base infrastructures that support these units?
    General Myers. As we continue to source theater requirements, there 
are many units that are going to experience significant operational 
tempo and personnel tempo, impacting on people, equipment, and 
training. These stresses are not likely to decrease in the near term. 
Low-density, high-demand assets, combat support and combat service 
support forces are especially strained because their skills are 
critical to current global operations. The continuing operational 
requirements for these specialists will result in reduced between-
deployment dwell time and additional training requirements. Because 
many of these units are in the Reserve component; their challenges are 
further affected by Reserve mobilization policies and time constraints.
    The most significant impact of repeated deployments has been on at-
home preparation for full-spectrum wartime missions. In some cases, 
units are completing training cycles that are modified to suit theater-
specific requirements, including additional work on non-primary tasks. 
For example, combat units that would usually train to high-intensity 
conflict also train for stability operations, or an in-lieu-of unit 
receives additional training because it will be performing a non-
primary task. Over the course of repeated deployments, our challenge is 
to ensure that each unit maintains its readiness in primary tasks while 
prepared for its current mission.
    The requirement to leave equipment in theater, wear and tear, and 
combat losses have accelerated maintenance cycles and increased some 
equipment requirements in theater. These requirements have been met by 
focused depot maintenance in theater, cross-leveling into deploying 
units, and by sourcing from new production. These efforts ensure 
deployed units have everything they need, but some non-deployed units 
and home stations will report reduced readiness rates as a result.
    We have initiated multiple efforts to reduce and mitigate the 
impacts of these challenges. The Active/Reserve component balance is 
being restructured to relieve stress on high demand units. Supplemental 
funding has been targeted to address many materiel shortfalls. U.S. 
Joint Forces Command, as the joint force provider, is now sourcing 
globally to address requirements.
    Along with resetting returned units, the Army is transforming to a 
modular force that will increase the number of available combat units, 
reducing sourcing stress. In addition, the Army has implemented a new 
process of Army Force Generation, the structured progression of 
increased unit readiness over time. Army Force Generation results in a 
larger steady-state pool of usable, trained, ready, and cohesive units 
available for operational deployment in support of regional combatant 
commanders and civil authorities.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                            FORCE PROTECTION

    13. Senator Akaka. Secretary Rumsfeld, recently General Conway, 
Director of Operations for the Joint Chiefs of Staff, told reporters 
that insurgents are developing a shaped explosive charge ``sufficient 
to penetrate certain levels of armor.'' Could you tell us what steps 
you are taking to improve the armor on High Mobility Multipurpose 
Wheeled Vehicles (HMMWVs), Bradleys, and Strykers to compensate for 
this new explosive?
    Secretary Rumsfeld. [Deleted.]

                         U.S. STRATEGY IN IRAQ

    14. Senator Akaka. Secretary Rumsfeld, recently we have witnessed 
little reduction in the number of insurgent attacks, little increase in 
the ability of the Iraqi Armed Forces and police to protect their own 
countrymen, and have seen a drop in support by Americans of the ongoing 
conflict in Iraq. My question to you is what efforts, if any, are being 
undertaken by the Department to adjust the U.S. military strategy in 
order to make progress in these areas before there is any further 
erosion in the support of the global war on terrorism?
    Secretary Rumsfeld. Although I share your concern over the how the 
continued violence in Iraq may affect support for the war on terror, I 
do not believe that events in Iraq warrant a major change of U.S. 
military strategy at this time.
    The key to victory in Iraq, as with all counterinsurgencies 
throughout history, is the creation of an indigenous Iraqi security 
force capable of protecting its people from internal and external 
threats. Although the American forces in Iraq represent the most lethal 
and highly trained military force ever deployed in history, there are 
limitations to what they can achieve. Iraqi forces possess linguistic 
and cultural knowledge that U.S. forces lack, and can undertake 
missions such as searching for weapons caches in mosques that may be 
self-defeating when performed by Americans. Our basic strategy, 
therefore, is to hunt and kill or capture terrorists in order to create 
the breathing space necessary to train and equip the Iraqi security 
forces that are the key to winning the counterinsurgency fight.
    Although the terrorists can still achieve tactical victories by 
slaughtering innocent Iraqis, this basic strategy is succeeding. As of 
20 June 2005, we have trained and equipped more than 168,000 Iraqi 
forces. While it will take time for all of these forces to develop 
leadership, unit cohesion, and field experience, it is incorrect to say 
that there has been little increase in the ability of the Iraqi Armed 
Forces and police to protect their own countrymen. Iraqi security 
forces now bear the primary responsibility for securing Haifa Street 
and portions of the Diyala Province--two former focal points of 
insurgent activity--with the result being a significant reduction in 
terrorist attacks. Equally tellingly, not a single police station has 
been abandoned under fire this year, a quantum improvement over some of 
the worst setbacks of 2004.
    The terrorists have similarly failed to deal any significant 
setbacks to our political strategy of developing a representative 
government in Iraq that is effective, suited to Iraqi culture and 
conditions, respectful of Iraq's diverse population, and conducive to 
the development of free institutions. Although the terrorists have 
nihilistically killed scores of Iraqis, they have failed to stop the 
transfer to Iraqi sovereignty, failed to incite an Iraqi civil war, 
failed to stop the Iraqi elections, failed to stop the formation of a 
democratic Iraqi government that represents all of Iraq's diverse 
population, and failed to derail the drafting of the constitution. 
Because of our efforts to build a democratic government that represents 
all of Iraq's religious, ethnic, and sectarian groups, Iraqis continue 
to volunteer in droves to serve in the Iraqi security forces.
    We will obviously make adjustments to the development of these 
forces as necessary. This year we have begun to place greater emphasis 
on improving their logistical capability to sustain operations and 
their ability to support and conduct operations above the battalion-
level. We have also begun deploying U.S. military mentors with Iraqi 
security forces to help with their on-the-job training. But, in my 
opinion eschewing patience and determination for radical shifts in our 
military strategy, even as we see that strategy bearing fruit, would be 
a mistake at this time.

    15. Senator Akaka. Secretary Rumsfeld, the preferred targets of the 
insurgents continue to be the Iraqi police and security forces. In the 
past you have testified that while there is no exit strategy for the 
United States, we are committed to ensuring that the Iraqis can provide 
security for their citizens and their elected government. In the past, 
you have provided testimony to this committee that included the number 
of Iraqi security forces that have volunteered, the number that have 
been trained, and lines of Iraqis waiting in line to volunteer, thus 
increasing the size of the Iraqi security forces. What impact do these 
insurgent attacks have on the U.S. strategy of remaining in Iraq until 
the Iraqi security forces are capable of maintaining order in that 
country?
    Secretary Rumsfeld. Each terrorist attack in Iraq is a tragedy, and 
the United States regrets the loss of life and suffering caused by each 
bombing. However, although attacks against Iraqi recruits represent 
tactical successes for the insurgents, they do not alter the reality 
that the terrorists have failed to achieve any of their strategic 
objectives. The terrorists have failed to stop the transfer to Iraqi 
sovereignty, failed to break our coalition and force a mass withdrawal 
by our allies, failed to incite an Iraqi civil war, failed to stop the 
Iraq elections, and failed to stop the formation of a democratic Iraqi 
government that represents all of Iraq's diverse population. Similarly, 
despite the brutality of the attacks you cite, they have failed to stop 
Iraqis from volunteering in droves to serve in the Iraqi Security 
Forces. Leaders from all of Iraq's major ethnic, religious, and 
sectarian groups (including the Sunni Arabs) have declared that it is 
permissible and desirable for their followers to serve their country 
and join these forces. Hence, the size and capability of the Iraqi 
security forces continues to grow, and these attacks have had no 
decisive impact on our broader strategy in Iraq.

                         IRAQI SECURITY FORCES

    16. Senator Akaka. General Abizaid and General Casey, the preferred 
targets of the insurgents continue to be the Iraqi police and security 
forces. In the past this committee has received testimony that while 
there is no exit strategy for the United States, we are committed to 
ensuring that the Iraqis can provide security for their citizens and 
their elected government. Previous testimony to this committee has 
included numbers of Iraqi security forces that have volunteered, 
numbers that have been trained, and have shown lines of Iraqis waiting 
in line to volunteer, thus increasing the size of the Iraqi security 
forces.
    My question for each of you is with the increase in insurgent 
attacks against the Iraqi forces, are you seeing a reduction in the 
number of volunteers similar to the reduction the U.S. is seeing in its 
recruitment numbers?
    General Abizaid and General Casey. There has not been a decrease in 
the number of volunteers to join the Iraqi security forces. On the 
military side, there are more than 15,000 recruit volunteers in the 
pipeline waiting for basic military training dates. Additionally, the 5 
active military recruiting centers continue to process between 50-100 
recruits per day. On the police side, there is currently a hiring 
freeze because the Ministry of Interior exceeded their authorized 
police personnel requirements by 70,000. There remains great interest 
in joining the Police service as evidenced by the Baghdad Police 
recruiting center turning away 1,200 volunteers on 10 July 2005 because 
of the aforementioned hiring freeze.

    17. Senator Akaka. General Abizaid and General Casey, news reports 
indicate that in some cities it is the political parties that control 
security through their militias, not the Iraqi police forces or Iraqi 
security forces, especially in the south. Reports, for example, 
indicate that in the southern city of Basra the local mullahs have to 
give individual approval to police officer recruitment. These militias 
may become even more important as the Iraqis take over more political 
control. Are you concerned about this and what should we do about it?
    General Abizaid and General Casey. CENTCOM is aware of the militias 
and closely monitors their activities. Currently, there are no 
indications that political parties control security through their 
militias. Ultimately the status of militias will be determined by Iraqi 
law. Until that decision is taken, CENTCOM's objective is to ensure 
that militias do not interfere with the function of government or the 
legitimate political process in Iraqi.

    [Whereupon, at 1:31 p.m., the committee adjourned.]


             U.S. MILITARY STRATEGY AND OPERATIONS IN IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Ensign, Talent, Chambliss, Graham, Cornyn, 
Thune, Levin, Kennedy, Lieberman, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Fletcher L. Cork, receptionist.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Gregory T. 
Kiley, professional staff member; Sandra E. Luff, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Elaine A. McCusker, professional staff member; David M. 
Morriss, counsel; Lucian L. Niemeyer, professional staff 
member; Stanley R. O'Connor, Jr., professional staff member; 
Lynn F. Rusten, professional staff member; Kristine L. 
Svinicki, professional staff member; and Richard F. Walsh, 
counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Gabriella Elsen, research assistant; Bridget W. 
Higgins, research assistant; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; and William G.P. 
Monahan, minority counsel.
    Staff assistants present: Micah H. Harris, Jessica L. 
Kingston, Catherine E. Sendak, Jill Simodejka, and Pendred K. 
Wilson.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Chris Arnold, assistant to Senator 
Roberts; Arch Galloway II, assistant to Senator Sessions; 
Mackenzie M. Eaglen, assistant to Senator Collins; D'Arcy 
Grisier, assistant to Senator Ensign; Lindsey R. Neas, 
assistant to Senator Talent; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Jen Wilson, assistant to Senator Graham; 
Russell J. Thomasson, assistant to Senator Cornyn; Stuart C. 
Mallory, assistant to Senator Thune; Sharon L. Waxman and Mieke 
Y. Eoyang, assistants to Senator Kennedy; Erik Raven, assistant 
to Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Darcie 
Tokioka, assistant to Senator Akaka; William K. Sutey and 
Caroline Tess, assistants to Senator Bill Nelson; Eric Pierce, 
assistant to Senator Ben Nelson; Kimberly Jackson, assistant to 
Senator Dayton; Todd Rosenblum, assistant to Senator Bayh; and 
Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
receive testimony on U.S. military strategy and operations in 
Iraq, Afghanistan, and in other areas of the Central Command 
(CENTCOM). We welcome our distinguished panel of witnesses: 
Secretary of Defense Donald Rumsfeld; General Richard B. Myers, 
Chairman of the Joint Chiefs; General John Abizaid, Commander, 
U.S. Central Command; and General George Casey, Commander, 
Multi-National Forces-Iraq. We look forward to your testimony.
    I, and other members of this committee, wish to thank each 
of our witnesses and the countless men and women they represent 
for their service and their tireless efforts to secure peace 
and self-determination for the Iraqi people, Afghanistan 
people, and others.
    I want to especially thank General Myers for his service, 
not only for the past 4 years as Chairman of the Joint Chiefs, 
but over 40 years of distinguished service in uniform. 
Tomorrow, you will turn over your responsibility as Chairman to 
General Peter Pace, United States Marine Corps. This will be an 
important day for you, your lovely wife and family, and General 
Pace and his family. You've served the Nation faithfully, with 
distinction, and with great credit to the uniform that you 
proudly wear, General. Well done, sir.
    General Myers. Thank you, Mr. Chairman.
    Chairman Warner. We're ever-mindful of the sacrifices of 
the men and women of the Armed Forces, and that of their 
families at home, as we open this hearing.
    We have an unusual day in terms of the schedule of the 
Senate before us; and, in consultation with the ranking member, 
I've made the decision that we will proceed this morning until 
the hour of approximately 11:15, at which time we'll stand in 
recess, such that the colleagues on this committee can join all 
others in the vote on the next Supreme Court Justice, Chief 
Justice. So, after that, we'll resume at 12:15. At about 1:15, 
we will go into a closed session for a short period, in room 
219, following which our distinguished panel of witnesses go 
over to the House of Representatives.
    Given that set of circumstances, I'll ask unanimous consent 
that my statement, in its entirety, be put into the record, 
such that we can move promptly to our witnesses.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets this morning to receive testimony on U.S. 
military strategy and operations in Iraq. I welcome our distinguished 
panel of witnesses: Secretary of Defense Donald Rumsfeld; General 
Richard B. Myers, USAF, Chairman of the Joint Chiefs of Staff; General 
John Abizaid, USA, Commander of U.S. Central Command; and General 
George Casey, USA, Commander of Multinational Force-Iraq. We look 
forward to your testimony.
    I want to thank each of our witnesses, and the countless men and 
women they represent, for their service and their tireless efforts to 
secure peace and self-determination for the Iraqi people, and to bring 
hope to a troubled region. I want to especially thank General Myers for 
his service, not only for the past 4 years as Chairman of the Joint 
Chiefs, but for his 40 plus years of distinguished service in uniform. 
Tomorrow, you will turn over your responsibilities as Chairman to 
General Pete Pace, USMC. This will be an important day for you, your 
family, General Pace, his family, and the Nation. You have served your 
Nation faithfully and well--well-done, sir!
    On October 15, the Iraqi people will take another courageous step--
in defiance of the terrorists--to rescue their country from decades of 
tyranny and move a step closer to democracy. The historic elections in 
Iraq--elections for a transitional government last January, this 
upcoming referendum on the constitution, and elections for a permanent 
government in December--give us hope that success is within reach in 
our efforts to achieve peace and security for the Iraqi people. 
Political, religious, and ethnic challenges remain, and a persistent 
insurgency continues to hinder stability and reconstruction efforts, 
underscoring the importance of our continued commitment to `stay the 
course.'
    I ask our witnesses today to give us their candid assessment of the 
situation and the strategy for the way ahead. The American people must 
clearly understand what's at stake, why the operation in Iraq 
contributes to U.S. security and the security of the region, and why 
continued sacrifice of blood and treasure is necessary, particularly in 
light of new, pressing needs at home.
    We are mindful of the loss of life and limb, and the sacrifices of 
the Iraqi people, as they are more and more--each day--assuming greater 
responsibilities to secure and run their nation. It is important that 
our witnesses address the commitment of the Iraqi government, the Iraqi 
Security Forces and the Iraqi people to defeating the terrorists and 
building a peaceful nation. We have seen many Iraqis sitting on the 
fence to see who will win. We even hear talk of the possibility of 
civil war in Iraq. The turning point in this conflict will come when 
Iraqis truly want to take charge of their destiny and join in ferreting 
out those who perpetrate violence and chaos to further their own goals.
    During the course of Operation Iraqi Freedom, we have often heard 
of ``turning points'' or ``critical milestones.'' I too believe we are 
approaching a ``turning point,'' in terms of the willingness of the 
American people to continue to support the effort in Iraq, particularly 
as we face significant challenges at home in the aftermath of two 
devastating hurricanes.
    I have great confidence in the wisdom of the American people. Our 
great Nation has an enormous capacity for sacrifice and hardship when 
we understand that the cause is just and that success is critical to 
the security of our Nation. Americans can accept difficult news and 
support a call to service and sacrifice from our Nation's leaders. Many 
of us have lived through such calls to duty during World War II and the 
Korean War. This global war on terrorism is no less important. We must 
show the American people we are making real progress, and if we are 
not, we must work harder. They will respond with their support.
    At the same time, we must ensure that the Iraqi Government is 
developing the structures that will fairly and efficiently provide the 
services its citizens require. We have heard that the several changes 
of interim governments and the associated turbulence within ministries 
has caused uneven development and shortfalls in the support for the 
Iraqi people. I hope our witnesses can address how we can expect that 
recent announcements that the Department of Defense will take over 
assistance and mentoring of the Iraqi ministries of defense and 
interior will improve and accelerate the ability of the Iraqi Security 
Forces to establish a more secure, stable environment in Iraq.
    Over the next 3 months, the Iraqis will vote on a constitution and 
elect a permanent government that is, hopefully, inclusive of all 
ethnic, religious, and tribal elements and committed to democratic 
principles. We must help them to develop the security structures that 
will allow for necessary political and economic development, and that 
will allow our troops to begin coming home.
    We are engaged in a worthy cause in Iraq; a cause about which our 
men and women in uniform are, and should be, justifiably proud. It is 
not only the United States and its coalition partners that have a stake 
in Iraq. The whole world will be a better, safer place with a free, 
democratic, prosperous Iraq that can serve as a model of hope for the 
region and beyond.
    Yesterday, Generals Abizaid and Casey, in a classified briefing for 
all Senators, outlined the strategy for the way ahead. I hope some of 
the key points of those very thorough briefings can be shared with the 
American public today so they can understand the scope of our efforts, 
the importance of this endeavor, and the challenges that lay ahead.
    Yesterday's session was very comprehensive and informative, but did 
not permit detailed questions. I intend to manage the time this morning 
so that all Senators have the opportunity to ask their questions and so 
that we can adjourn for a classified session in order to permit a full 
discussion. As you all know, we have a very important vote at 11:30 
p.m. for the Chief Justice of the Supreme Court. Accordingly, we will 
recess this hearing at 11:15 a.m., reconvene at 12:15 p.m., and recess 
at 1 p.m. We will then proceed to a closed session from 1:15 p.m. to 
1:45 p.m., and then adjourn.
    Mr. Secretary, I know you and your fellow witnesses are scheduled 
to testify before the House Armed Services Committee this afternoon. I 
will ask my colleagues to help me manage our time to be respectful of 
that commitment, as well.
    I thank all of our witnesses for being with us today.

    Chairman Warner. After the Secretary's comment, we'll 
receive briefings from General Abizaid and General Casey. The 
Senate, in closed session yesterday, had those briefings, again 
this morning at a breakfast briefing, on the House of 
Representatives side, for Senators and House members.
    I wish to make a point that I think you're setting forth, 
with great clarity, the strategy of this country and the 
importance of everything that is being done by the Armed Forces 
of the United States to secure the freedom of this country here 
at home and abroad. I commend you for what I have heard in the 
past 24 hours from each of you.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    I want to join Senator Warner in welcoming our witnesses 
this morning.
    I especially want to express our gratitude and our 
congratulations to General Myers for his more than 40 years of 
distinguished service to this Nation. I have a fuller statement 
about that, but like most of the rest of my statement, I will 
be putting that in the record.
    General Abizaid and General Casey, thank you both for your 
service, and please convey to the personnel under your command 
our gratitude for all that they have done, and are doing. 
Please assure them that while there are differences among us 
about a number of issues relative to Iraq, all Americans hold 
our troops in the highest esteem and are united in our 
determination to give them and their families our full support.
    This is a important hearing, coming, as it does, a little 
more than 2 weeks prior to the national referendum in Iraq on 
its draft constitution. Our military leaders have repeatedly 
told us that there is no purely military solution in Iraq and 
that a genuine broad-based political settlement among Iraqis is 
essential for success and for the defeat of the insurgency. 
That means that we must do all that we can to encourage that 
political settlement, which many believe is not embodied in the 
Iraqi constitution in its present form.
    While the Kurds and Shiites are generally happy with the 
draft constitution, the Sunni leadership strongly opposes that 
draft constitution. While our hope is that a new constitution 
would serve to unite the Iraqis, the more likely scenario is 
that the Sunni Arabs will vote overwhelmingly against it, but 
will be unable to defeat it. If that scenario comes to pass, 
the danger is that the draft constitution will cement the 
differences between the Sunni Arabs, on the one hand, and the 
Shiites and Kurds on the other.
    The distinguished International Crisis Group, in a policy 
briefing released just on Monday, concludes that ``Without a 
strong U.S.-led initiative to assuage Sunni Arab concerns, the 
constitution is likely to fuel, rather than dampen, the 
insurgency, encourage ethnic and sectarian violence, and hasten 
the country's violent breakup.''
    I believe that if the Iraqis do not come together to reach 
a political solution by the end of the year--and adopting the 
draft constitution in the face of overwhelming opposition of 
one of the three main Iraqi groups doesn't meet that 
description--that we must then consider a timetable for the 
withdrawal of our forces. I emphasize the word ``consider.'' 
That is not setting a date for departure at this time. That's 
simply conveying clearly and forcefully to the Iraqis that the 
presence of our forces in Iraq is not unlimited. The 
administration's repeated statements that we will stay in Iraq 
as long as needed sends the wrong message. We should not 
mislead the Iraqis into thinking that they have unlimited time 
to reach a broad-based political settlement. Because if they 
think that, they are less likely to make the compromises 
necessary to reach a political settlement.
    I would hope that our witnesses would address the 
importance of a political coming-together on the part of the 
Iraqis, in terms of a military success. I would hope our 
witnesses would talk about whether the insurgency has declined 
or whether it has increased or whether it's about the same as 
it was a few months ago, when they were here last. I would hope 
that our witnesses would discuss the status of Iraqi forces, in 
terms of their capability and their ability to take on the 
insurgency.
    I would ask that the balance of my statement, Mr. Chairman, 
be inserted in the record.
    Chairman Warner. Without objection.
    Senator Levin. I thank you.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    I want to join Senator Warner in welcoming our witnesses this 
morning.
    I especially want to express my gratitude and congratulations to 
General Myers for his more than 40 years of service to the Nation.
    General Abizaid and General Casey thank you also for your 
extraordinary service and please convey to the personnel under your 
command our gratitude for all that they have done and are doing for us 
and to assure them that, while there may be differences among us about 
a number of issues relative to Iraq, all Americans hold our troops in 
the highest esteem and are united in our determination to give them and 
their families our full support.
    This is an important hearing, coming as it does a little more than 
2 weeks prior to the national referendum in Iraq on its draft 
constitution.
    During my last trip to Iraq in July, I met with many of the leaders 
of Iraq's three major groups--Kurds, Shiites, and Sunni Arabs--to 
obtain their views on a number of issues. On one issue, I found the 
leaders of all three groups to be in agreement, but for different 
reasons. None of them wanted the U.S. military forces to leave Iraq now 
or in the immediate future. Shiites want us to stay until the Iraqi 
security forces are strong enough to deal with the insurgency on their 
own. The Kurds want us to stay indefinitely. The Sunni Arabs want us to 
stay as a deterrent against those who might want to take revenge 
against them for the actions of Saddam Hussein who favored the Sunni 
Arabs.
    Our military leaders have repeatedly told us that there is no 
purely military solution in Iraq and that a genuine, broad-based 
political settlement among the Iraqis is essential for success and for 
the defeat of the insurgency. I believe that we must do all that we can 
to encourage that political settlement, which many believe is not 
embodied in the Iraqi constitution in its present form. The Kurds have 
pushed for a loose federalism in which they can organize into an 
autonomous region with a strong measure of local control over the 
region's natural resources.
    The Shiites have also supported a loose federalism with an 
expectation that they can also organize into one or more autonomous 
regions with control over natural resources. The Sunni Arabs, on the 
other hand, who are predominant in the central and western areas of 
Iraq, which are lacking in oil resources, favor a strong central 
government that has a higher degree of control over Iraq's natural 
resources.
    The upshot is that the Kurds and Shiites are generally happy with 
the draft constitution and their leaders, notably including Grand 
Ayatollah Sistani, are encouraging their followers to vote for the 
draft constitution in the October 15 referendum. The Sunni leadership 
strongly opposes the draft constitution.
    While our hope was that a new constitution would serve to unite the 
Iraqis, the most likely scenario is that the Sunni Arabs will vote 
overwhelmingly against it but will be unable to defeat it. If that 
scenario comes to pass, the danger is that the draft constitution will 
cement the differences between the Sunni Arabs on one side and the 
Shiites and Kurds on the other. The distinguished International Crisis 
Group, in a policy briefing released this past Monday, concludes that 
``Without a strong U.S.-led initiative to assuage Sunni Arab concerns, 
the constitution is likely to fuel rather than dampen the insurgency, 
encourage ethnic and sectarian violence, and hasten the country's 
violent break-up.''
    Within recent days, the Saudi foreign minister, Prince Saud al-
Faisal, has been warning that Iraq was hurtling toward disintegration 
and could drag the region into war. He is quoted as saying that ``There 
is no dynamic now pulling the nation together. All the dynamics are 
pulling the country apart.'' He said that his concerns are shared by 
Iraq's neighboring countries. What, if anything, can we do to encourage 
a different result?
    I believe that, if the Iraqis do not come together to reach a 
political solution by the end of the year (adopting the draft 
constitution in the face of the overwhelming opposition of one of the 
three main Iraqi groups, doesn't meet that description), we must 
consider a timetable for the withdrawal of our forces.
    That's not setting a date for departure at this time. That's simply 
conveying clearly and forcefully to the Iraqis that the presence of our 
forces in Iraq is not unlimited. The administration's repeated 
statements that we will stay in Iraq as long as needed sends the wrong 
message. We should not mislead the Iraqis into thinking they have 
unlimited time to reach a broad-based political settlement. If they 
think that, they are less likely to make the compromises necessary to 
reach a political settlement.
    Nor should we engage in self-deception. We can't stay for an 
unlimited time due to the strain on our forces and the impact on 
recruitment from repeated tours in Iraq and Afghanistan.
    There are other important reasons why we can't stay in Iraq for an 
unlimited time: The United States has borne a heavy burden to rid Iraq 
of Saddam Hussein and to try to bring stability to the country. More 
than 1,900 U.S. service men and women have made the ultimate sacrifice 
and more than 14,000 have been wounded. We are also mindful of the more 
than $200 billion of taxpayers' funds that have been expended in 
support of that effort. The American people will not support an open-
ended ``we'll stay as long as they need us'' commitment if the Iraqis 
don't make the compromises they need to make so they can achieve the 
political unity so vitally necessary to defeat the insurgency.
    We must also be candid about the situation in Iraq.
    Consider this statement:

          Four months ago, Vice President Cheney said ``I think the 
        level of activity that we see today, from a military 
        standpoint, I think will clearly decline. I think they're in 
        the last throes, if you will, of the insurgency.''--Larry King 
        Live, May 30, 2005.

    That's wishful thinking, according to all the sources available to 
me.
    Similarly, we must not engage in wishful thinking about the 
capability of the Iraqi security forces. The Department of Defense, at 
first, and the Department of State, now, provide an unclassified report 
relative to that on a weekly basis to Congress. The most recent report, 
dated September 21, 2005, states that there are 192,000 trained and 
equipped Iraqi security forces, with 104,000 under the Ministry of 
Interior and 88,000 under the Ministry of Defense, of whom 87,000 are 
in the Iraqi Army. What is missing is any statement as to the 
capability of that force, particularly what number of Iraqi security 
forces are capable of dealing with the insurgency independently of U.S. 
and Coalition forces.
    Secretary Rumsfeld, in a press briefing on September 9 with Iraqi 
President Talibani, said ``The coalition forces and the Iraqi security 
forces now numbering something like 190,000 are aggressively attacking 
or capturing or killing terrorists or insurgents all across this 
country. . . . The skill of the Iraqi security forces is improving 
every week. . . .''
    That statement inaccurately suggests that 190,000 Iraqi security 
forces are aggressively attacking or capturing or killing terrorists 
all across Iraq. But the facts are far different than that suggestion.
    Thus far the Department refuses to give Congress and the American 
people unclassified information about the capability of the Iraqi 
security forces. The justification that providing the information in an 
unclassified form would be aiding the enemy just doesn't wash. The 
enemy knows very well what the capabilities and weaknesses of the Iraqi 
forces are--Americans have a right to know too.
    General Pace's answer to my question for the record on June 29, 
2005 at his nomination hearing to be the Chairman of the Joint Chiefs 
of Staff provided more unclassified information than any report we have 
received to date. In his answer, General Pace stated:

          ``Only a small number of Iraqi security forces are taking on 
        the insurgents and terrorists by themselves.''

    Exaggerating our progress in defeating the insurgency or in 
standing up an Iraqi Army that is capable of independently dealing with 
the insurgency serves no useful purpose.
    Our best chance of success in Iraq is to press for a political 
solution by letting the Iraqis know that our military forces can't stay 
in Iraq indefinitely and if they do not reach a political settlement by 
the end of the year--one way or another--we must consider a timetable 
for our withdrawal. For as our military leaders often remind us, there 
is no purely military solution in Iraq and a genuine, broad-based 
political solution among the Iraqis is essential for success and for 
the defeat of the insurgency.
    I wish to convey my congratulations to General Richard D. Myers on 
his retirement from the Air Force and thanks for his nearly 40 years of 
faithful service. General Myers entered the Air Force through the 
Reserve Officer Training Corps and served in a variety of operational 
command and leadership positions in a variety of Air Force and joint 
assignments, culminating the highest position a military officer can 
hold--that of Chairman of the Joint Chiefs of Staff. As Chairman, he 
joined a very select group of only 14 other generals who came before 
him in that position. Unlike many of those generals, General Myers 
served as Chairman during war, with the extraordinary responsibilities 
attendant to a wartime Chairman. In so doing, he never forgot that his 
first loyalty, and his highest priority, was toward the health and 
welfare of all of our military personnel and their families. I wish 
General Myers and his family the best for a well-deserved retirement.

    Chairman Warner. Colleagues, before we begin to hear from 
our witnesses, I recognize that a quorum is present. I now ask 
the committee to consider a list of 3,979 pending military 
nominations. These nominations have been before the committee 
the required length of time. No objections have been raised 
regarding them.
    Is there a motion to favorably report 3,979 military noms 
in the Senate?
    Senator Levin. So moved.
    Senator Inhofe. Second.
    Chairman Warner. Hearing both, all in favor, say aye. [A 
chorus of ayes.]
    Opposed? [No response.]
    Ayes have it. Passed.
    Secretary Rumsfeld.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Thank you, Mr. Chairman, members of the 
committee. Chairman Myers and I are joined today, as you 
pointed out, by the combatant commander of the Central Command, 
General John Abizaid, and the Iraq commander, General George 
Casey. They are back in Washington for meetings of the 
combatant commanders and to brief the National Security 
Council. We're all pleased to be able to have this opportunity 
to meet with this committee.
    These general officers have been entrusted with protecting 
the interests and security of the American people in those 
vital parts of the world. The President has great confidence in 
them; and the country, I believe, can be encouraged and 
grateful to them for their leadership.
    General Abizaid's briefing is based on his perspective as 
the combatant commander responsible for the region of the world 
most troubled by violent extremism. General Casey will discuss 
the situation in Iraq--certainly an important front, but not 
the only front in the global war on terror.
    As you pointed out, Mr. Chairman, this will be General 
Myers' last appearance before this committee as Chairman of the 
Joint Chiefs of Staff. For the past 4 years, Dick Myers has 
been a wise and valued counselor to the President, to the 
National Security Council, and to me during all of the most 
important discussions and decisions affecting the security of 
the American people. Members of the National Security Council 
have asked his advice on literally thousands of matters. It has 
always given me great confidence that I always knew that every 
piece of advice he has given has been rooted in his devotion to 
the United States of America, to the American people, and to 
the men and women in uniform. I certainly want to join in 
thanking General Myers for his four decades of superb service 
to our country.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Mr. Chairman, Senator Levin, members of the 
committee, as the Secretary said, I have just over 24 hours 
left as the chairman. I also understand that this is my 64th 
congressional hearing. Perhaps it's fitting that this is one of 
my last official activities since the job began, with 
confirmation hearings, just over 4 years ago.
    Through all the national security discussions we have had 
over the years, it's clear that all of us share a deep love for 
our country, and we share a strong belief in the ideals upon 
which this Nation was founded--freedom, justice, equality--and 
we share our commitment to defending those ideals. Our united 
efforts to meet this commitment--never been more important than 
today, when violent extremists and terrorists threaten all that 
we hold dear. So, I thank you, this committee, for your 
leadership in sustaining our Nation's unity and resolve for the 
long war.
    I think we also share tremendous pride in our troops and 
all their accomplishments--their professionalism, their 
courage, their selflessness, their compassion. They are 100 
percent committed to accepting nothing short of winning this 
important struggle, and they understand perfectly what they've 
been asked to do.
    They can take great pride in their many successes--the 
recent elections in Afghanistan, the constitution being debated 
in Iraq, and the growing capabilities of Iraqi and Afghan 
security forces. All they need from us is the resources to 
finish the job, the continued resolve of the Nation, and the 
support of the American people. I thank you for ensuring they 
have those three things. It's been an honor to serve alongside 
all our men and women in uniform and to represent them in front 
of this committee.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, General Myers.
    General Abizaid.

STATEMENT OF GEN JOHN P. ABIZAID, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Abizaid. Mr. Chairman, Senator Levin, and members 
of the committee, thank you for the opportunity to join you 
today.
    Over the past several months, I have spent considerable 
time in the CENTCOM theater meeting with regional leaders, our 
commanders and troops, and our partners' commanders in the 
field. The region churns with undercurrents of change 
representing both opportunities and challenges for us. Our 
troops continue to perform at levels of operational excellence 
that are unmatched. It's a privilege to lead such courageous 
young men and women. They are courageous, they are committed, 
they are competent. If I could bottle up what they represent, 
and sell it, I'd be a rich man.
    I want to talk briefly today about the al Qaeda threat. 
That's the main threat that we face in a region beset with many 
difficulties. While al Qaeda does not represent the main part 
of the insurgency in Iraq, it is certainly present in Iraq. 
While it doesn't represent the main source of difficulties in 
Pakistan's Northwestern Territory and Waziristan areas, it 
certainly plays a role there. Al Qaeda has struck in Saudi 
Arabia, in Egypt, in Spain, in London, in Washington, in New 
York. Its global reach and its ability to inflict damage should 
not be underestimated. In this year alone, over 400 suicide 
bombers have been deployed worldwide, and thousands and 
thousands of innocent civilians, most of whom are Muslims, have 
been killed by al Qaeda, as al Qaeda attempts to become 
mainstream, ideologically, in the region.
    In June, I briefly spoke to you about the broader struggle 
in the region, and I wish to deepen this discussion by focusing 
on the al Qaeda threat. I think such a focus should also 
provide a fuller understanding of what's at stake in the 
region, where Iraq and Afghanistan fit, and causing the 
dialogue to extend beyond just what's happening in Iraq and 
just what's happening in Afghanistan, as if what's happening 
there is unconnected to the broader pressures in the region 
caused by extremism, such as represented by al Qaeda, and other 
issues, such as Sunni/Shia violence that we see starting to 
develop in various places.
    Al Qaeda and associated extremists are the main enemy to 
peace and stability in the region. The enemy that brought us 
September 11 continues to represent one of the greatest dangers 
to this Nation.
    First, this enemy is driven by a militant ideology that 
celebrates murder and suicide. In the Taliban's rule, in 
Afghanistan, we saw how this ideology oppressed the masses and 
covered a nation in darkness--no music, executions in soccer 
stadiums, women sequestered, works of art destroyed.
    The good news, however, is that the vast majority of people 
in the Middle East and Central Asia and the Horn of Africa 
don't buy this perverted view of Islam. They want to lead a 
better life. They want to lead a more prosperous life. They do 
not want the extremists to win.
    But the grip of this ideology should not be underestimated. 
Communism and fascism started with relatively few, but deeply 
committed adherents, and the hate preached by al Qaeda 
resonates with some misguided people who believe that al Qaeda 
represents a true Islamic alternative. It does not.
    Second, the enemy is empowered by modern communications, 
expertly using the virtual world for planning, recruiting, 
fundraising, indoctrination, and exploiting the mass media. 
Their main effort is not to defeat us militarily, but to break 
our will by capturing the headlines, by making us think that we 
cannot help the people in the region help themselves against 
the extremist ideology. They know that propaganda and grabbing 
headlines are more important than military operations.
    Importantly, this enemy seeks to acquire weapons of mass 
destruction, and will certainly use such weapons if they obtain 
them. They experimented with anthrax in Afghanistan. They tried 
to develop crude chemical weapons in Afghanistan. They're 
always talking about how they might develop a radiological 
dispersal device. If they could buy or acquire a nuclear 
weapon, they would. This is not my guess; this is what they 
say. It's well known, they want to do this, and they'll stop at 
nothing to try to do that.
    These extremists are ruthless. Their depraved attacks and 
robust suicide-bomber network intimidates entire communities, 
and, indeed, intimidates entire countries. They are masters of 
intimidation, but they are not masters of the battlefield. They 
can kill innocents, but they can't win a single engagement 
against military forces properly deployed. This ability to 
intimidate gives them power beyond their relatively small 
numbers. It also gives them a chance, if we fail in our mission 
to prevent them from spreading their ideology, to gain more and 
more adherents, and eventually gain an opportunity to achieve a 
safe haven, not unlike the one that they achieved in 
Afghanistan.
    I'd ask the committee to bear with me for a few moments and 
look at a few charts that describe the enemy's strategy in 
their own words.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Their objectives are very clear. They believe in a jihad--a 
jihad, first and foremost, to overthrow the legitimate regimes 
in the region. But, in order to do that, they have to first 
drive us from the region. This is what they believe. They 
believe, ultimately, that the greatest prize of all is Saudi 
Arabia and the holy shrines there, and no one knows this better 
today than the Saudis do.
    The enemy will then try to create and expand a geographic 
safe haven in the region, which they will call the Caliphate. 
That's what they called it in Afghanistan. That's what they 
called it in Fallujah. That's what they call it in Waziristan. 
They will try to reestablish a Caliphate throughout the entire 
Muslim world and apply a very, very narrow form of Shariah law, 
a form of Shariah law not believed in, or practiced, anywhere 
in the Muslim world today. It certainly would allow al Qaeda 
and their proxies to control a vast degree of oil wealth that 
exists in the region. It certainly is clear that they intend to 
destroy Israel in the process, as well.
    Next slide.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    As they expand to look for safe havens, they are moving 
into areas of the world, such as the middle of Africa, the Horn 
of Africa, Southeast Asia, and they operate from bases of 
relative safety, especially within the virtual world, where 
they purvey their hatred through the Internet from places such 
as Germany, Holland, and even use servers here within the 
United States. They aim to take advantage of open societies and 
strike those open societies when they're ready, at their time 
and place of choosing.
    Next slide.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    There are many active jihads, of course, that they are 
participating in. While they are not the main enemy in all of 
the jihads, they participate in every one of them because they 
are trying to cause instability. They feed on instability.
    You see here the future fight. They'll eventually exhaust 
the far enemy, which is us and our allies, and overthrow the 
regimes of the region.
    To see, in their own view, off of one of their Web sites--
next slide--to give a view of how they see it, you see here, in 
green, the first step to achieve an al Qaeda-dominated 
Caliphate throughout the known Muslim world. Then you see, down 
in the corner, where they think it will go in a hundred years. 
Let there be no doubt about what they think.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Just as we had the opportunity to learn what the Nazis were 
going to do from Hitler's words in ``Mein Kampf,'' we need to 
learn what these people intend to do, from their own words.
    Next slide.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    There are a lot of different ways to look at this enemy. 
Perhaps the most classic way to look at this enemy is by taking 
a look at a map and see support nodes and leadership nodes, 
lines of communication, places where the enemy can operate, 
where we know them to operate, where we understand that their 
cells exist, where they are not openly active, yet somehow 
manage to organize suicide bombing and activity against 
reasonable governments and properly appointed governments in 
the region. They also operate in areas where there is no 
governance, and they take advantage of these ungoverned spaces 
to operate decisively, and organize and plan and train.
    If you look at the geographic representation of al Qaeda 
and their associated movements, and you see how distributed it 
is, you get the mistaken belief that it is not a global or 
borderless organization. It's not like IBM, a monolith that's 
centrally led from a central headquarters; it's much more like 
McDonald's, a franchise that is decentralized and linked, in 
many ways that I think the next chart represents in a much 
better way.
    It shows, at the bottom, the traditional areas of where we 
find the enemy--in training camps, places where military forces 
can have effect against them, where leaders and fighters can be 
captured and killed, where technical expertise can be 
interdicted. But, in reality, this enemy has adapted to the 
environment of our strength and our power, and the strength of 
regional governments, and they have developed a media and a 
propaganda campaign, that you see up here in the blue, an 
Internet and proselytizing campaign.
    [The slide referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Recruitment and education. They develop safe havens that 
are both geographic in ungoverned spaces and virtual, within 
the Internet and within the mass media world. They have front 
companies. They buy off politicians. They develop facilitators 
and smugglers. They deal with financiers that move drug money 
around, as well as other illicit money. They have sympathetic 
nongovernmental organizations that they sponsor to transfer 
some of their hateful ideology in very, very insidious ways 
around the region.
    This type of enemy is a type of enemy that requires not 
only military pressure to get at those things that you see in 
yellow, but it requires all elements of international and 
national power to put pressure throughout the network over time 
in order to squeeze the ideology, defeat its sources of 
strength, and ultimately allow the good people of the region to 
have the courage and the ability to stand against this type of 
an organization.
    We know the enemy's strategy, and we have a rare 
opportunity to get in front of these extremists and focus on 
them now before al Qaeda and its underlying ideology become 
mainstream. We will do this through an indirect approach. We 
must help others in the region help themselves by promoting 
self-reliant partners who are willing to face the enemy from 
within their own countries and within their own borders. As we 
do this, we should in fact, in the long war over time, reduce 
our military footprint in the region, being mindful of the fact 
that first we must stabilize Afghanistan, stabilize Iraq, 
continue to deter Syria and Iran, and protect the flow of oil 
vital to all the economies of the world and the peoples of the 
region. We must make clear to the people of the region that we 
have no designs on their territory and resources. We must make 
clear that we fight with them out of mutual respect and mutual 
self-benefit.
    We must also enhance our own networks among our agencies, 
our allies, our coalition, and the partner governments to 
ensure that we're coordinating all of our instruments of 
national power in the fight against al Qaeda.
    Our military forces in the region are playing a key role in 
implementing this strategy to defeat al Qaeda, and we have had 
much success. We recently were able to kill the number-two 
leader in al Qaeda in Iraq. Our allies in Pakistan, and our 
friends in Saudi Arabia, have relentlessly produced results 
against al Qaeda in certain parts of their territories. Our own 
forces have fought al Qaeda wherever we've found them, and have 
had good effect, but we have not finished the job. Their 
leadership remains at large, their financial flows remain, and 
we must continue to keep pressure on them over time to ensure 
that the ideology that they represent does not grow mainstream 
within the societies.
    In Iraq and Afghanistan, our forces provide the shield 
behind which legitimate and representative governments and 
economic development are taking root. It is so important for us 
to understand that it is a combination of military power, 
economic power, diplomatic power, and political power that will 
ultimately spell the end of al Qaeda's hateful ideology.
    Elsewhere, such as in the Horn of Africa, our training 
assistance enables nations to strengthen their military 
capabilities and to strengthen their counterterrorist 
capabilities over time. We are part of a much broader force.
    Back in March 2003, there were about 275,000 American 
troops in the region. Today, it's about 200,000. As Afghanistan 
and Iraq stabilize over time, you could see it possible--and 
indeed beneficial--for that strength to come down as, and only 
if, indigenous capabilities improve to the point that local 
nations can fight the fight themselves.
    Certainly there has been progress, and General Casey will 
talk about progress in Iraq. But in Afghanistan, the recent 
successful elections there constituted another significant 
setback for the Taliban and al Qaeda. In Pakistan, President 
Musharraf is leading his country, not only in hunting down 
extremists, but in discrediting their ideas. In Saudi Arabia, 
security forces are aggressively combating that country's 
terrorists that have been so aggressively pursuing all of the 
instruments of national power that exist within the Kingdom.
    It is important, I think, in closing Mr. Chairman, that we 
recognize the global threat that al Qaeda presents to the 
United States and to the civilized nations of the world. We are 
not yet organized to the extent that we need to be to fight 
this enemy with coordinated and synchronized international and 
interagency action. We have time to do that, but we need to 
seize the moment and do it now.
    Thank you, sir.
    Chairman Warner. Thank you very much, General. I appreciate 
that you and General Casey have returned from your duties 
abroad to meet the important challenge to brief not only the 
President, but as you have been briefing here for 2 days, 
Congress and the American people about this global threat and 
how we, working with other nations, are combating it.
    General Casey.

  STATEMENT OF GEN GEORGE W. CASEY, USA, COMMANDING GENERAL, 
                   MULTI-NATIONAL FORCE-IRAQ

    General Casey. Thank you, Mr. Chairman.
    As we approach the referendum on the Iraqi constitution, 
and for the elections for a government based on that 
constitution, the Iraqi people are locked in a struggle between 
tyranny and democracy.
    They're fighting for their future against the remnants of 
the regimes that tyrannized them for over three decades and 
against the elements of the global terrorist network, that 
General Abizaid just talked about, who seek to establish Iraq 
as a base from which they can export terror throughout the 
Middle East and around the world. With our support, I am 
convinced that the Iraqis will prevail.
    Our efforts in Iraq have been guided by a campaign plan and 
a strategy based on proven counterinsurgency principles in 
close coordination with successive Iraqi governments to guide 
us to our end state, and that end state is an Iraq at peace 
with its neighbors and an ally in the war on terror, with a 
representative government that respects human rights and 
security forces that can maintain domestic order and deny Iraq 
as a safe haven for terror.
    I'll say more about the strategy, the operational concept, 
and our assessment of the enemy and the insurgency in closed 
session, but I think it's important to note some of the broad 
concepts that underpin our efforts in Iraq.
    First of all, the capacity of Iraqi security forces has 
increased quantitatively and qualitatively over the past year. 
At transfer of sovereignty last June, there was one battalion 
in the Iraqi Army, some number of partially trained and 
equipped National Guard Forces--Iraqi National Guard Forces, 
and some 3,000 police. Today, the number of police is more than 
doubled. We have more than 100 Iraqi Army and special police 
battalions participating with us in conducting 
counterinsurgency operations. We have also developed with the 
Iraqis, a readiness reporting system, not unlike that we have--
the one we have in place for our own forces, that allows us to 
measure their capabilities and their growth monthly. So, over 
the past 18 months, we have built enough Iraqi capacity where 
we can begin talking seriously about transitioning this 
counterinsurgency mission to them.
    Second, our strategy was underpinned by a close study of 
the histories of counterinsurgency operations, and that told us 
a few things that we have weaved into the strategy:
    First of all, history tells us that external powers, 
without a strong indigenous partner in the security side, have 
not fared well in dealing with insurgencies.
    Second, the average counterinsurgency in the 20th century 
has lasted 9 years. Fighting insurgencies is a long-term 
proposition, and there is no reason that we should believe that 
the insurgency in Iraq will take any less time to deal with.
    Third, based on history and my personal experience in the 
Balkans, we determined that the longer that the coalition bears 
the brunt of the counterinsurgency fight, the longer we'll bear 
the brunt of the counterinsurgency fight. This is about 
dependency.
    So as we looked at all those things, we adopted a strategy 
to take early action to empower Iraqis. I think this is a key 
element of our strategy that everyone needs to understand. The 
Iraqi people have confidence in their security forces, and they 
want to be protected by them. Iraqi leaders want to take the 
lead in defending the Iraqi people, and the strategy that we've 
crafted helps them do this.
    Third point. We and the Iraqis adopted programs to enhance 
the development and performance of the Iraqi security forces by 
placing coalition transition teams with Iraqi security forces 
and by partnering Army units with coalition units to enhance 
the amount of training and capabilities that were available to 
help the Iraqis grow. This process began in the spring, and is 
currently implemented across Iraq in army, special police, and 
border units. These programs allow us to directly improve the 
operational capability and effectiveness of Iraqi units, to 
build strong Iraqi chains of command and counterinsurgency 
capability, and to enhance the development of Iraqi military 
and police institutions. We have just completed an assessment 
of the transition team concept, and we're very pleased with the 
positive impact that these programs have had across the Iraqi 
forces.
    Fourth point. Our aim is to defeat the terrorists and 
foreign fighters and to neutralize the insurgency while we 
progressively transition the counterinsurgency campaign to 
increasingly capable Iraqi security forces and ministries. This 
is no easy task, and it will not be done overnight. But we 
strongly feel that getting the Iraqis into leading the 
counterinsurgency effort, as they are capable, will allow us to 
gradually reduce the visibility of coalition forces across Iraq 
and ultimately, as conditions warrant, to begin to reduce our 
presence in Iraq, taking away one of the elements that fuels 
the insurgency, that of the coalition forces as an occupying 
force. We are quite clear that whatever we do with the Iraqi 
security forces must be sustainable over the long term.
    Now if I could, I'd just like to take a moment to address a 
couple of questions that relate to this that I am continually 
asked:
    Question one: Do you have enough troops?
    Question two: Do you still see it's possible to take fairly 
substantial reductions next spring?
    Now, these are difficult questions that cause some people 
to scratch their heads, especially when you ask them both at 
the same time. But let me take a couple of swings at those.
    First of all, I have and I will continue to ask for what I 
need to--what I need to have to accomplish this mission. You 
asked me that, Mr. Chairman. I think the ranking member asked 
me the same thing at my confirmation hearing. I've continued to 
do that. Today in Iraq, we have over 350,000 coalition and 
Iraqi security forces available for security operations.
    Second, I think it was Yogi Berra that said, ``Predictions 
are hard, especially when you're talking about the future,'' 
and it is. You can only make predictions if you make 
assumptions and then by going back and continually evaluating 
those assumptions. With my subordinates, we continually 
reassess the situations on the ground in Iraq, we challenge the 
assumptions that we've made, and we make projections on our 
requirements for forces, and we adapt our projections to the 
situation on the ground.
    Third, as I suggested earlier, in Iraq more coalition is 
not necessarily better. More and more capable Iraqi security 
forces are better. Increased coalition presence feeds the 
notion of occupation, it contributes to the dependency of Iraqi 
security forces on the coalition, it extends the amount of time 
that it will take for Iraqi security forces to become self-
reliant, and it exposes more coalition forces to attacks at a 
time when Iraqi security forces are increasingly available and 
increasingly capable.
    Fourth point, reducing the visibility and ultimately, the 
presence of coalition forces as we transition to Iraqi security 
self-reliance remains a key element of our overall 
counterinsurgency strategy. Any changes to our posture will be 
conditions-based and made in conjunction with our coalition and 
Iraqi partners; but it remains a key element of our overall 
strategy.
    So, there are a lot of factors that we consider and some 
tough calls that we're going to have to make here over the 
coming months, but I want to reiterate to you again, Mr. 
Chairman, what I said to you at my confirmation hearing. I'll 
continue to ask for what I need to successfully accomplish this 
mission.
    Back to the strategy then. We've crafted a strategy for 
success in Iraq based on historical lessons, counterinsurgency 
principles, and the realities on the ground in Iraq, and this 
is a strategy that will enable the Iraqis to take charge of 
their future. To be sure, the next couple of months are going 
to be tough and difficult, as our enemies also recognize what's 
at stake here as we complete this political process. They're 
already challenging the referendum process with increased 
terror attacks to create the impression that attempts at 
progress are futile and that Iraq will never become a modern 
democratic society. They're attacking the will of the Iraqi 
people and the will of coalition publics. They're failing in 
Iraq.
    Across Iraq, 98 percent of eligible Iraqis have registered 
to participate in the referendum and the elections. Better than 
90 percent of Iraqis have stated their intent to vote. Probably 
most importantly, Sunni Arabs who boycotted January's election 
remain committed to participating in both the referendum and 
the election. This is a significant step forward from earlier 
this year.
    Further, as I mentioned, we continue to make substantial 
progress with Iraqi security forces. Today, we expect to have 
60,000 to 70,000 more Iraqi security forces available for 
referendum security than we had in the January elections. By 
the elections in December, we expect that to rise to about 
100,000 more Iraqi security forces available for election 
security. As a result, I only asked for 2,000 additional forces 
to help us with this year's election process, as compared to 
12,000 that I asked for, for the January elections.
    Militarily, coalition forces and Iraqi security forces 
continue to pressure terrorists and insurgents across Iraq, and 
Iraqi security forces are progressing and continuing to take a 
more prominent role in defending their country. In the recent 
success in Tal Afar Iraqi security forces outnumbered coalition 
forces for the first time in a major operation. A year ago, 
that division didn't exist. We've also had good successes 
against the al Qaeda network, killing or capturing more than 20 
of their key leaders since July, including the recent death of 
one of Zarqawi's key lieutenants, Abu Azzam.
    We and our Iraqi colleagues remain postured to provide 
security for the referendum and the election. While I expect 
the insurgents and the terrorists to pull out all the stops, 
they will not be able to stop the political process from going 
forward.
    We're in a tough fight, but we've been in tough fights 
before to advance the cause of democracy and to protect our way 
of life. We should not be afraid of this fight. We and the 
Iraqi people will prevail in this battle of wills if we don't 
lose ours.
    Now, I know some of you worry about the impact that the 
calls for early withdrawal from Iraq has on our troops in Iraq. 
In some recent discussions with a group of soldiers, I asked 
them, what was the impact--what did they think about with what 
was going on in the United States with the antiwar movement? A 
sergeant major responded to me that he'd just had a 
conversation about that with some of his soldiers. Here's what 
they said, ``Tell those folks not to speak for us. September 11 
won't happen again. We'll beat them here.''
    The soldiers get it. This is the mettle of our troops. As 
I've said many times, and as General Abizaid said at the 
beginning of his statement, I continue to be amazed at their 
courage, their commitment, and their ability to make a 
difference in a challenging environment every day.
    Mr. Chairman, in conclusion, we and our Iraqi colleagues 
continue to make progress in Iraq every day. Some days, the 
steps are smaller than others, but we are more relentless in 
our progress than those who seek to disrupt it. We have a 
strategy and a plan for success in Iraq, and we are broadly on 
track in achieving our goals.
    It's hard work in a challenging environment, but we have 
the best of America and coalition countries, military and 
civilian, committed to defeating terrorism and tyranny in Iraq 
so that we can all live safer. Success in Iraq will require 
patience and will, but both the United States and the region 
will be safer when we prevail.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, General.
    Again, General Abizaid, General Casey, those are strong 
statements preparing Congress with new knowledge with regard to 
your detailed plans to confront the uncertainties of the 
future. Through each of you, we convey, again, to the men and 
women of the Armed Forces under your command and their 
families, our deepest appreciation for their service and their 
sacrifice.
    Secretary Rumsfeld, we often hear the phrase ``stay the 
course,'' and we are now receiving, I think, a good briefing as 
regard to the military progress. I personally agree that there 
is progress. I was privileged to be in Iraq several weeks ago, 
and I saw it with my own eyes. General Casey, the thoughts of 
your troops, I confirm their belief in what they are doing and 
their willingness to stay the course.
    But, Secretary Rumsfeld, the infrastructure in Iraq is an 
integral part of any measure of progress. In the course of our 
visit--myself with Senator Stevens--I'll speak only from my own 
views--I felt that the Secretary of Defense in that 
organization was not, in my judgment, showing the strength and 
the decisiveness that is needed at this time. To some lesser 
extent, I was concerned about the Interior Ministry, and that 
individual's ability to step up and deal with this situation.
    I want to ask you--I saw reports the other day about a 
change, which I heartily endorse. When we started, the basic 
responsibility of the refurbishment of the infrastructure--now, 
that's electricity and water and security and other matters--
was largely under the jurisdiction of the Department of 
Defense, and then it shifted when Ambassador Negroponte took 
his office to the Department of State. Now, could you clarify, 
with regard to the Defense Ministry and the Interior Ministry, 
some, as I understand it, re-shifting of that responsibility 
back to your Department. I, frankly, endorse it, but I think 
the details should be made known.
    Secretary Rumsfeld. Mr. Chairman, my understanding is that 
the--if, by ``infrastructure,'' you mean electricity and water 
and sewage and all those types of things, I know of no plans to 
move those--responsibility for those to the Department of 
Defense. I am told that General Casey and U.S. Ambassador 
Zalmay Khalilzad, have recommended to Washington that the 
Department of Defense take over responsibility for the Ministry 
of Interior and the Ministry of Defense, which have also been 
under the Department of State.
    When I say ``take over responsibility,'' these are very 
fragile institutions. They don't have a history there of strong 
ministries that are democratic and representative of all the 
elements in the society. The problem we have in the country is 
that you could have security forces, but unless the security 
forces on the military side work well with the police side, 
unless they have a chain of command that's clear, unless the 
ministries are able to support them and see that they can 
provide the kinds of combat support and combat service support 
and logistics that hare needed, unless they are properly 
connected to the Intelligence Community, they don't do as well 
as they otherwise would do. General Casey, who could respond to 
this, has recommended, I believe--and it's now being considered 
in Washington--that the Department of Defense, which has a 
major interest in seeing that those two ministries, alone--not 
the reconstruction ministries or the infrastructure ministries, 
but just those two ministries--work very closely with the 
train-and-equip activity, both ours and the North Atlantic 
Treaty Organization's (NATO) activity, and that we assume 
responsibility for strengthening the competence in those 
ministries.
    One of the problems we face is a real one. If you think 
about it, we've gone in Iraq from the governing council to the 
interim government, now a transitional government, and we have 
an election in December for a permanent government. Every time 
you change governments, there's a lot of turbulence. Those 
ministries have not had the stability that would be desirable.
    We look forward with a great deal of hope to the time when 
the Iraqis will have a 4-year government, and those ministries 
will have some stability and less turbulence, and that we will 
be able to assist them in developing the kinds of systems and 
procedures and approaches that will make them more effective.
    Chairman Warner. Mr. Secretary, when we were there, we 
learned--and I'll address this to General Casey--that the 
Minister of Defense didn't have the money to pay his troops in 
some instances. Is that correct, General Casey? I mean, to me, 
that is an egregious breakdown of responsibility.
    General Casey. That's exactly the type of ministerial 
capacity that we intend--or try to help them build. He had the 
money, Senator. He didn't have a system in place that got the 
money to the right place at the right time. That's something 
that is symptomatic of both the Ministry of Interior and 
Ministry of Defense.
    What we tried to do with this proposed shift is to have one 
person responsible for the ministries, from the foot-soldier 
all the way up to the ministers, so that we can generate the 
institutional systems that you all look at here, with all of 
our Armed Forces, that will sustain the Iraqi security forces 
so they can accomplish their mission.
    Chairman Warner. Can you give us your own views with regard 
to the forthcoming referendum on the constitution, and the 
likelihood of its being adopted?
    General Casey. I can, Senator. My personal views are--and 
this is backed up by my intelligence analysts--is that it will 
likely pass, that there will be a sizeable no-vote by the Sunni 
minority--but we don't think right now that they have the 
capability of getting a two-thirds majority in the three 
provinces they need for this to pass.
    That said, there's a lot that could happen here in 2 weeks, 
and we'll really just have to wait and see what the outcome is.
    Chairman Warner. Fine.
    Colleagues, I've just been handed my card. I'm going to 
stop my questioning promptly, because I'm hopeful we can get as 
many Senators in before the 11:15 termination.
    Senator Levin?
    Senator Levin. Thank you.
    General Casey, you indicated that you were going to comment 
about previous statements of yours about prospects for 
reductions in American forces next spring. You laid out all of 
the factors that go into that kind of a decision. Are you 
projecting now, based on any assumptions you want to make, that 
there will be a drawdown of American forces, starting next 
spring? Are you making that projection at this time?
    General Casey. As I said, Senator, reductions in coalition 
forces--conditioned-based reductions of coalition forces is a 
critical element of our strategy----
    Senator Levin. Right.
    General Casey.--and we certainly do look to do that over 
the course of next year.
    Senator Levin. Are you projecting that those conditions 
would exist next spring, as of this time?
    General Casey. Senator, the next 75 days are going to be 
critical in what happens after that. I'd like to wait until we 
get through this political process here to give you a better 
assessment of that.
    Senator Levin. Do you have milestones, a timeline, which 
would reflect how we would reduce our forces? When Iraqi forces 
gain certain strength, how many Iraqi battalions would have to 
be assessed at a particular level in order for a U.S. battalion 
to withdraw? Do you have that kind of a timeline and that kind 
of a milestone?
    General Casey. We do not have a timeline or milestones that 
directly tie the drawdown of coalition units to numbers of 
Iraqi battalions. As this happens, it will happen in a phased 
way around the country. So, it's not something that lends 
itself--that when--for example, when you have 20 Iraqi 
brigades, you'll be able to downsize four U.S. brigades--it's 
not quite that simple.
    Senator Levin. All right.
    General, I want to just reinforce something the chairman 
said about the Iraqis not having funds to pay their troops. 
When we met with President Talibani here a few weeks ago, he 
confirmed reports that they did not have the funds to pay their 
troops. It wasn't a matter of not getting the money to the 
right place at the right time; he said they did not have the 
funds to pay their troops. Are you saying that's not accurate?
    General Casey. I know that was true for the Ministry of 
Interior. I do not recall that being true for the Ministry of 
Defense.
    Senator Levin. All right, but the Minister of Interior 
handles the police.
    General Casey. That's correct.
    Senator Levin. How many of the 190,000 are police?
    General Casey. About 84,000.
    Senator Levin. So half, roughly, of the so-called security 
forces were not being paid, because the money wasn't there. 
Now, that represents more than incompetence. I'm afraid that 
may represent corruption, and worse. But how can we tolerate 
that situation? Was there corruption involved in that, in your 
judgment?
    General Casey. I have no knowledge or evidence that 
corruption was directly involved in that.
    The other thing, Senator, my knowledge of this situation is 
it wasn't that half of the people couldn't get paid; there were 
spots, like Fallujah and like different places, that could not 
be paid.
    Senator Levin. Some of the 84,000--I overstated that--but 
some of the 84,000 in the police. Do we have any idea what 
percentage were not paid?
    General Casey. I don't. I don't, Senator.
    Senator Levin. Well, it's totally intolerable. I would hope 
that you'd give the committee a report on that.
    General Abizaid, let me ask you the----
    General Casey. Senator, if I could, the Secretary just 
showed me. It's about 67,000, on the local police.
    Senator Levin. Who were not paid, or a part of that----
    General Casey. No, that's the total number----
    Senator Levin. Total.
    General Casey.--of that 84,000.
    Senator Levin. Total. Okay, thank you.
    General Abizaid, in your judgment, what is the importance 
of a genuine broad-based political coming-together among the 
Iraqis as being vital to defeat the insurgency? How important 
is that, that there be a political coming-together among the 
Iraqi factions?
    General Abizaid. Senator Levin, I think it's absolutely 
vital.
    Senator Levin. Do we know whether or not, if the 
constitution passes, but with a strong majority of Sunnis 
opposing that passage, whether or not the passage, under that 
circumstance, would represent a plus or a minus, in terms of 
their coming together politically? Do we have a prediction on 
that, a feeling about that?
    General Abizaid. I would defer to General Casey on that, 
Senator Levin.
    Senator Levin. General Casey, do you have a feeling about 
that? If there's a strong majority of Sunnis--which is very 
possible--that vote against that constitution, could that not 
possibly lead to a worsening political situation, rather than a 
better one?
    General Casey. I think that's entirely possible, Senator. I 
mean, as we've looked at this, we've looked for the 
constitution to be a national compact. The perception now is 
that it's not, particularly among the Sunni.
    Secretary Rumsfeld. Current indication, Senator, is that a 
majority of the Sunnis will vote against it. That's the 
impression you get from the polls and the conversation.
    Senator Levin. Right.
    Secretary Rumsfeld. On the other hand, the positive side of 
it is they do plan to participate fully in the election.
    Senator Levin. Right. But I think General Casey's answer, 
that if a vast majority vote against the constitution, and that 
that could, indeed, worsen the political situation, I would 
hope the administration would not just simply continue to say, 
``We're there as long as you need us. We're there as long as 
you need us.'' I mean, we're doing our part, and the Iraqis, it 
seems to me, must be told that they have to settle their 
political differences and come together politically. If that 
constitution is adopted, and that adoption does not represent 
the coming-together, as, I think, is very possible--and, 
indeed, likely--I would hope the administration, Secretary 
Rumsfeld, would let the Iraqis know they have work to do 
politically to pull together their house, their political home, 
even if the constitution's adopted, that that isn't enough, if 
there's going to be a faction which is seriously opposed to 
that constitution, even if they do participate in the 
elections. Can that message be delivered to the Iraqis so they 
don't think they have us there for some unlimited period and it 
doesn't make any difference if they work out their political 
differences?
    Secretary Rumsfeld. General Casey, you're in the meeting 
with the Ambassador and the Iraqis on a continuing basis. I 
would say that that message does get communicated, wouldn't 
you?
    General Casey. I would not say it's necessarily as forceful 
as Senator Levin just put it.
    Senator Levin. Thank you. My time is up.
    Chairman Warner. Thank you very much.
    Senator Levin. I would hope it would be forcefully 
delivered.
    General Casey. If I could----
    Chairman Warner. Yes, go ahead, General.
    General Casey.--just respond. Senator, you asked me, 
``Could it have an adverse effect?'' I said yes. But it could 
also have a positive effect. If you look at what has been 
kicked into the next assembly in the constitution, which are 
really the major building blocks of federalism and other 
things, it could drive the Sunni to participate even greater in 
the elections in December, to get into the assembly. They then 
could get into an alliance with other secular parties, and this 
process could move forward. So, it can work both ways.
    Senator Levin. Either way.
    General Casey. It's not necessary bad.
    Senator Levin. It could work either way.
    General Casey. Yes.
    Senator Levin. Thank you.
    Chairman Warner. When we commenced the hearing today, I 
advised the committee that we would have a closed session. We 
are continuing to do that, but we've shifted it from SH-219 to 
the Armed Services hearing room, room SR-222.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Myers, thank you again for all your great service 
to this Nation. We'll miss you, and we appreciate everything 
that you have done in service to our Nation.
    General Abizaid, there was a report sent over, I think, 
last June that three of the hundred Iraqi battalions were fully 
trained and equipped, capable of operating independently. What 
is that number now?
    General Abizaid. The number now is, if you're talking about 
level-one trained----
    Senator McCain. Yes.
    General Abizaid.--it's one.
    Senator McCain. They have one battalion.
    General Casey. Senator, if I might, could I take that? 
Because I think I'm more familiar with it than General Abizaid.
    Senator McCain. Sure.
    General Casey. I mentioned, in my opening testimony, that 
what we were focused on is putting Iraqis in the lead as soon 
as they are capable. We fully recognize that Iraqi armed forces 
will not have an independent capability for some time, because 
they don't have the institutional base to support them. So, 
level one, as you'll recall from the slide, is--that's what's 
got one battalion. It's going to be a long time----
    Senator McCain. It used to be three. Now we've gone from 
three to one?
    General Casey. Pardon me?
    Senator McCain. It was three before.
    General Casey. Right.
    Senator McCain. Previous report was we had three 
battalions. Now we're down to one battalion.
    General Casey. Right, and things changed in the battalions. 
I mean, we're making assessments on personnel, on leadership, 
on training. There are a lot of variables that are involved 
here, Senator.
    Senator McCain. Your response to Senator Levin was that you 
are not planning on troop withdrawals, because you want to see 
what happens in the next 75 days. Is that--was that a correct--
--
    General Casey. Senator, that's not how I'd characterize----
    Senator McCain. Okay.
    General Casey.--my response. I said that we're--
conditioned-based reductions of coalition forces remains an 
integral part of our overall strategy. I believe I did say to 
the Senator that that still remains possible in 2006.
    Senator McCain. Are you planning on troop withdrawals for 
next year?
    General Casey. I just said that, Senator, yes.
    Senator McCain. Yes or no.
    General Casey. Yes, Senator, I do believe that the 
possibility for conditioned-based reductions of coalition 
forces still exists in 2006.
    Senator McCain. The Camp al Qaim, senior U.S. Marine 
commander said, ``Insurgents loyal to Abu Zarqawi have taken 
over at least five key western Iraqi towns on the border with 
Syria.'' How many times are we going to read about another 
offensive in Fallujah, Mosul, Ramadi, al Qaim, where we go in, 
we take control, and we leave, and the bad guys come back 
again? How often are we going to read that, General Casey?
    General Casey. Hopefully not too frequently, Senator. In 
the last 90 days, we've pushed five Iraqi brigades and about 
four coalition battalions into Anbar Province. The issue has 
always been the availability of Iraqi security forces to remain 
and retain control.
    Senator McCain. Some would argue that maybe it was the 
availability of American forces. There's 1,000 marines 
stationed in the desert, populated by 100,000 Sunni Arabs. The 
border between Syria and Iraq, obviously, is not under our 
control. Do you agree with that? Is the border between Syria 
and Iraq under our control?
    General Casey. No, Senator, it's not. Since April, we have 
had an objective of restoring Iraqi control to that Syrian 
border before the elections. The operation you saw in Tal Afar 
is a part of that strategy, and you will see operations along 
the Euphrates Valley here in the near term.
    Senator McCain. I was interested in your comment, ``The 
longer we carry the brunt of the insurgency fight, the longer 
we will carry the brunt.'' Does that mean that the Iraqis are 
able to carry the brunt?
    General Casey. That means, the longer that we lead, 
Senator, the longer we'll continue to lead. That's why we have 
a conscious strategy of passing that off--the lead off----
    Senator McCain. That assumes----
    General Casey.--to the Iraqi----
    Senator McCain.--that assumes that the Iraqis are capable 
of assuming that leadership, General Casey. Most people that I 
talk to say, by most measures, they're not ready to do that. 
So, what we're doing here--I'd refer to General--David 
Ignatius' column, from what they--the military described a 
military approach that's different, at least in tone, from what 
the public perceives for their commanders. Iraq is in an 
endless tunnel. They're planning to reduce U.S. troop levels 
over the next year to a force that will focus on training and 
advising the military--Iraqi military.
    Nobody could argue with that, but there's one fundamental 
problem with it, and that is whether the Iraqis are capable of 
carrying out their own military responsibilities. The 
President, yesterday--you might understand that the American 
people are a little confused--says, ``Bush warns of upsurge of 
violence in Iraq before next month's voting.'' So, Americans 
are seeing, on the crawl on their television set, ``American 
marines killed, soldiers killed, more people killed, hundreds--
a couple of hundred in 1 day,'' and yet we are now planning on 
troop withdrawals.
    General Casey, I'm not worried too much about the impact on 
American military morale, because I have great faith in them. 
I'm worried about the impact on the insurgents. You're planning 
on troop withdrawals--you and General Abizaid--without any 
criteria being met, that I can see. We're certainly 
broadcasting that in very loud and clear tones, as you did 
several months ago, when the President said, ``We are going to 
do whatever is necessary,'' it stopped for a while, and now 
it's there again.
    We're making--you're taking a very big gamble here. I hope 
you're correct. I don't see the indicators yet that we are 
ready to plan or begin troop withdrawals, given the overall 
security situation, and that just isn't my opinion alone.
    General Abizaid would like to respond, Mr. Chairman. My 
time is expired.
    General Abizaid. Thanks, Senator McCain. If I may, I'd like 
to point out a couple of things.
    First of all, the war has moved to the west, which is a 
good scene, a good indicator that Iraqi and U.S. forces are 
having an effect elsewhere. The amount of infiltration across 
the Syrian border remains a concern, but it's down--not so much 
because of Syrian activity, but because of U.S. and Iraqi 
activity.
    Iraqi casualties are probably taking place at around four 
times the level of our own, which indicates a willingness to 
fight for their own country. Their organizational capability is 
pretty good, as well.
    But I can assure you, Senator McCain, General Casey and I 
want to win this war. If we need to ask for more U.S. troops, 
in the short term or in the long term, we will.
    Senator McCain. General, there is no expert that I know 
that doesn't attest that we needed more troops at the time a 
lot of us said we needed them.
    My time's expired, Mr. Chairman.
    Chairman Warner. General Casey, do you wish to add anything 
to this very important question by Senator McCain?
    General Casey. If I could, to the Senator's point that we 
don't have any way of measuring the progress of these forces. 
That's exactly what the purpose of putting the transition teams 
with these forces and producing these monthly readiness reports 
is. We are fighting with them side-by-side on a daily basis, 
improving their capabilities day-by-day. Our sense is that when 
we get them in the lead, they'll learn faster and they'll 
improve faster, rather than following us around and watching us 
do what we do. We're measuring this very carefully, and we're 
not going forward with this capriciously. As I said, this is an 
integrated strategy, and the reductions will come when the 
conditions are met, as an overall part of the strategy.
    Chairman Warner. General Myers.
    General Myers. Thank you, Chairman.
    Just a comment on Senator McCain's comment that experts 
have said we've always needed more troops. We've all heard 
those calls. I respect the people--some of the people who have 
made those calls. But the facts, as I know them, that there's 
not been anybody in a position of responsibility for carrying 
out the mission in Iraq--that has said that or believes that--
it's a complex situation that is not well understood by folks 
who fought in Vietnam, for instance, or fought in the World 
Wars. This is a much more complex situation. The task is very 
hard. I think General Casey established it in his opening 
remarks, when he said that if we're viewed as occupiers, we 
draw fire just by being occupiers.
    I think the thing we have to do, Senator McCain, is 
convince people this is not a cut-and-run strategy, this is a 
win strategy. It's trying to walk that very fine line between 
being seen as an occupier and being effective in winning this 
war and helping the Iraqis stand up on their feet and take the 
fight to the enemy. I just keep hearing, ``More troops,'' but I 
can tell you that the people we talk to, the academics that we 
bring in, the ex-military experts--and we'll talk to anybody 
that will write about this or talk about it; we're happy to 
talk about it--and this strategy has been reviewed--George, I 
don't know how many times we've picked at your strategy, but--
by the Joint Chiefs of Staff, and we certainly don't think that 
more American forces is the answer.
    Senator McCain. Mr. Chairman, I felt compelled to just make 
one comment.
    General Myers seems to assume that things have gone well in 
Iraq. General Myers seems to assume that the American people--
the support for our conflict there is not eroding. General 
Myers seems to assume that everything has gone fine and our 
declarations of victory, of which there have been many, have 
not had an impact on American public opinion.
    Things have not gone as we had planned or expected, nor as 
we were told by you, General Myers. That's why I'm very 
worried, because I think we have to win this conflict. So, 
you've been bringing in the wrong experts, in my view, because 
the conflict has not gone as it was testified to before this 
committee by this group of witnesses.
    I thank you, Mr. Chairman.
    Chairman Warner. The record will remain open for purposes--
I will allow you to rebut that--the record is open on this very 
important question. Any of the witnesses may supplement.
    One last comment.
    General Myers. I don't think this committee or the American 
public has ever heard me say that things are going very well in 
Iraq. This is a hard struggle. We are trying to do in Iraq what 
has never been done before. This is historic. It's historic, in 
terms of our security, because it's part of the global war that 
General Abizaid talked about. This is, for al Qaeda, a center 
of gravity. Whether we like it or not, those are the facts. We 
have the al Qaeda leader in Iraq that's been charged to 
continue the fight, not only in Iraq, but in Europe and the 
United States. That's a fact. That's what he's been charged to 
do by the leader of al Qaeda.
    I don't know how you characterize what goes on in Iraq, but 
we set out milestones way back at the end of major combat. The 
first remarkable thing that happened in Iraq was, our troops 
took Baghdad just weeks after many critics said, ``You're in a 
quagmire''--maybe some of the same experts that think we need 
more troops--that, ``You're in a quagmire.'' Then, a few weeks 
later, Baghdad falls.
    It is not easy to do what we're trying to do in Iraq. It's 
not easy for the U.S. Government or our coalition friends to do 
it. We've made lots of mistakes along the way, Senator McCain--
no doubt about it--because it's never been done before. It's 
never been attempted before. But the outcome is so potentially 
stabilizing for the region and for our country.
    So here we are, we've had several transitional governments. 
We said the Iraqis would develop a constitution and have a vote 
in October. That's going to happen. We're going to have 
elections in December. I think that in a sense, things are 
going well. It's not easy. The people that understand that are 
the people that volunteer to go over there. If you talk to the 
men and women, they understand what's at stake, and they're 
willing to go out on patrol, on raids, to protect 
infrastructure, to protect individuals, and put their lives in 
harm's way, because they understand what's at stake.
    So, I'm not going to be Pollyannaish about this--this is 
tough--and I don't think I ever have been. But I think I've 
been a realist, and I think I trust the judgment of people on 
the ground and people on the Joint Staff that have just come 
back from Iraq, the battalion commanders, the brigade 
commanders, the general officers. I respect their opinion. 
They've been over there in the crucible with the blood and the 
dust and the gore, and those are the people that I trust their 
opinion. I particularly trust the opinion of General George 
Casey and General John Abizaid. They've been at this a long 
time, and they know what they're doing. We should trust them.
    Chairman Warner. Thank you very much.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman, and 
thank all of you for the continued service to the country.
    I'm concerned, Mr. Secretary, by the continuing reports 
that the Iraqi police and security forces we're training are 
substantially infiltrated by the insurgents. Earlier this 
month, I received a shocking letter from a retired military 
officer, whose nephew is a marine recently sent to Iraq, and 
his letter says that, ``My nephew was briefed by just-returned 
marines that 100 percent of the Iraqi police and army have now 
been compromised by insurgents. He and his fellow marines were 
warned that any and all operations that involve the Iraqi 
police or army units would result in ambush. Not all Iraqi 
police or army are members of the insurgency, but he was 
briefed that all units were infested with hostile 
collaborators, to the point of being dysfunctional as a part of 
security forces.''
    We've had warning signs before about infiltration. A year 
ago, the New York Times reported that an advisor to Prime 
Minister Allawi said that as many as 5 percent of the Iraqi 
Government troops are insurgents who have infiltrated the ranks 
or they're sympathizers. At the time, we had Lieutenant Colonel 
Jeffrey Sinclair, the 1st Division, said, ``The police and 
military forces all have insurgents in them. You don't have a 
pure force.''
    Then in February, Major Don McArdle, who is the deputy 
commandant of the 4th Iraqi Division Training Academy, said, 
``After a recent battle in Mosul, some insurgents' bodies were 
found wearing identification tags from the academy.''
    In February, Anthony Cordesman of the Center for Strategic 
International Studies said, ``Penetration of the Iraqi security 
and military forces may be the rule, not the exception.
    Then on July 25, the Inspectors General of the State 
Department and Defense Department released a joint report 
saying this, ``Even more troubling is infiltration by intending 
terrorists or insurgents. There is sufficient evidence to 
conclude that such persons are, indeed, among the ranks of the 
Iraqi Police Service (IPS).''
    The report also says, ``A nettlesome issue has been the 
fact that some graduates do not enter the Iraqi police service 
after completing training. Even tracking of the numbers 
trained, but not assigned, is an elusive problem. Some U.S. 
sources assert that the number might be as high as a third or 
more of those who have gone through basic training.'' A third 
or more.
    The report went on to say that the questions of 
accountability for controlled equipment is particularly 
critical. The specter of weapons issued to members of the Iraqi 
police service but falling in the wrong hands is a concern. As 
we all know, President Bush has said that our forces will stand 
down as the Iraqis stand up. The question is, Who are we 
helping to stand up? Are the insurgents benefitting from the 
military training and the equipment and using inside knowledge 
to ambush and kill our soldiers?
    Can you assure us, Mr. Secretary, and the American people, 
that we're not training the insurgents in the Iraqi security 
forces?
    Secretary Rumsfeld. Senator, there's no question but that 
the vetting issue is a difficult one, and an imperfect one. The 
people who are volunteering undoubtedly have among them 
individuals who are attempting to infiltrate. The percentages 
you have cited, I've not heard from anyone in any kind of 
authority, the 100 percent or 30 percent or those kinds of 
things.
    It's a problem that's faced by police forces in every major 
city in our country, that criminals infiltrate and sign up to 
join the police force. We know that this is a difficulty. They 
do have a vetting process. They also, today, have a better 
insight into it, as General Casey said, because they have 
embedded Americans in the Iraqi forces, so they're better able 
to see how the leadership is, where the weaknesses are, and 
where the possible infiltrations might have occurred.
    General Casey may want to comment on it.
    Senator Kennedy. Yes, perhaps, General Casey, tell us the 
extent--I mean, through your--how much of a problem. We have 
the IG's report, as of July. It's quite extensive on this, the 
other kinds of comments and statements that have been made that 
it is a problem, and that it's not getting any better. I would 
want your response.
    General Casey. Senator, my assessment is that it is more 
problematic with the police than it is with the army, because 
the police are primarily recruited locally, and the army is 
broadly recruited nationally. As the Secretary suggested, there 
is a vetting process, but it's a very difficult process, and 
it's not a failsafe process for sure.
    Numbers like 100 percent are not numbers that I know. We 
certainly do expect that there is some infiltration of the 
police, and, to some extent, the military forces, but we don't 
see it in a way that would render these forces incapable.
    Now, if I could just add one last thing?
    Senator Kennedy. Yes.
    General Casey. We saw something down in Basra that is also 
troubling, and that is the presence of people in the police 
departments whose loyalty are more to their militia leaders 
than they are to the chief of police. That was part of the 
situation down there.
    Senator Kennedy. In your report that you're coming out in 
October with can you expand on this, give us a fuller kind of 
report?
    Just in the last moments that I have, I'm deeply concerned 
by the grisly photos, American soldiers near the dead and 
mutilated bodies that have been posted on the Internet. There's 
a story in the Washington Post today, and it's reminding us of 
the pictures that were there after Abu Ghraib. It's against the 
background of that excellent letter by that extraordinary young 
captain--it was in the Post yesterday--Ian Fishback. It said, 
``Despite my efforts, I've been unable to get clear, consistent 
answers from my leadership about what constitutes lawful and 
humane treatment of detainees.'' What in the world is going on 
when we see, in the Internet, the American servicemen posed 
against mutilated bodies? What does it say about our respect, 
for those that we are fighting certainly, but our respect for 
the dead, and particularly the dead of other countries and 
other traditions? What are we doing about it?
    General Casey. Senator, those photos are not something that 
we condone, and we're taking appropriate action to ensure that 
that practice, such as it exists, is halted.
    Senator Kennedy. My time is up.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, for clarification purposes, there was an 
article in one of yesterday's papers talking about how the 
suicide bomber had penetrated the Green Zone. Then it was 
retracted today. Did it not happen?
    General Casey. Senator, I don't have specific knowledge on 
that particular article that you're talking about.
    Senator Inhofe. Oh.
    General Casey. But I have no knowledge of a suicide bomber 
penetrating the Green Zone.
    Senator Inhofe. That's very good. Very good.
    The chairman talked a little bit about some of the things, 
in terms of infrastructure, and when--on quite a number of 
trips that I've been over there, and I have--and on, in 
particular, I remember General Petraeus talking about the 
effectiveness, Mr. Chairman, of the Commanders Emergency 
Response Program (CERP), and how significant that is. For a 
very small amount of money they're in a position to see what 
needs to be done immediately in certain areas. I'd like to have 
you comment--perhaps General Casey, you'd be the best one--on 
that program.
    General Casey. It's probably our most effective program, 
Senator. Last year we spent over $700 million, dispensed out 
through the commanders--small, high-impact projects that 
affected the local communities. This is one of the best 
programs we have, and that our commanders have, to influence 
things economically within their areas.
    Senator Inhofe. In other words, the money spent there is 
far greater than going through a process where something might 
be done 6 months from now.
    General Casey. Certainly, it has greater local impact.
    Senator Inhofe. Yes.
    General Casey. But the country still needs big projects and 
long-term----
    Senator Inhofe. Yes, I understand that. Thank you very 
much.
    Yesterday in the closed briefing--and I can say it now, 
since you repeated it in this open briefing--you talked about 
the average insurgency, and it takes about 9 years to put down. 
Consequently, one of the participants, or one of the Senators 
in the audience--said, in a rather loud voice, right after 
that, where several people were listening, ``Well, we've signed 
up for 9 years.'' I'd like to--my interpretation of that 
statement, that you repeated today is, yes, that's true, and 
this could take 9 years, but it doesn't mean that we are going 
to be doing it for 9 years. Would you clarify that?
    General Casey. That's exactly right, Senator, and that's 
the thrust of the strategy. The strategy is to put the Iraqis 
in a position to deal with the insurgency while we bring it 
down to a level----
    Senator Inhofe. Very good. That clarification, I think, is 
very important.
    I think, if you're--we all remember the prophets of doom 
before the January election. We found them to be wrong. Those 
same prophets are out there right now. I have every reason to 
believe--quite frankly, I take the oversight responsibilities 
of this committee very seriously. I've been over there many 
times, and I will be over again next week. But, you did an 
excellent job, General Casey, of outlining those good things 
that have taken place and you put it in a very good light.
    I would suggest any of those who are here--the Senator from 
Massachusetts, in my understanding, has not been there 
personally--if you rely on reports, and if you rely on the 
media, and the distorted way in which the media is reporting 
what's going on there, you're not going to get a very good idea 
of what's really going on. I can remember so well spending one 
whole trip in the Sunni Triangle, in Fallujah, just talked to 
the troops there. You used that quote, ``September 11 won't 
happen again, because we'll defeat them here.'' I heard that 
same thing said by a Marine sergeant over there in Fallujah. 
The former brigade commander that is--hated Americans--he was a 
brigade commander for Saddam Hussein--now, after having 
experienced embedded training with our marines over there, has 
totally changed his mind. He loves them. He actually cried when 
the rotation came. I mean, these things are actually happening 
over there. He renamed the Fallujah security forces the 
``Fallujah Marines.''
    I was there right after, in Tikrit, when the explosion took 
place. Forty people, Iraqis in training for security forces, 
were either killed or were injured. In that case, the families 
of those who were killed or injured actually replaced, with 
another member of the family, each one who went down.
    Now, that's very significant that we talk about that, 
because these things are happening, and anyone who's been over 
there will tell you, the first thing you get from the young 
troops that are there is, ``Why is it the media doesn't 
understand what we're doing, what our commitment is, the threat 
that our Nation is facing?''
    Now, last June, we had a hearing on the Improvised 
Exploding Devices (IEDs) by General Votel. I'd like to know, 
since that time, is there any update on that particular 
progress--any progress that's being made in terms of the threat 
of the IEDs?
    General Abizaid. Senator, with your permission, I'd like to 
hold the IED discussion for the closed hearing.
    Senator Inhofe. That's perfectly reasonable.
    Since my time is rapidly going by, let me get one last 
question in here.
    General Abizaid, I'm reading a quote from you, ``The 
Afghans and Iraqis on this trip kept saying to me over and over 
again, `Are you going to stick with us?' I kept telling them 
over and over again, `Yes, we will. I ask the American people 
not to make a liar out of me.' ''
    That was a great statement. I've thought the cut-and-run 
caucus is alive and well here in Washington. I'd just like to 
have you make any comment you can make. If we should surrender, 
if we should cut-and-run at this time, what would be the 
result?
    General Abizaid. It would be a disaster for the region, it 
would be a disaster for the United States, it would be a 
disaster for the people in the region. Senator Inhofe, I look 
at this region--I've been around this region most of my 
professional life--there are good things happening in the 
region that aren't measured by what soldiers do. People are 
debating the future of governments. People are participating in 
electoral sorts of organizations and activities that were 
unheard of years ago. People are standing up for their rights. 
People are coming forward and debating their future in a way 
that I've just never seen before. I don't believe any of that 
would have happened were it not for the American soldier, 
sailor, airman, and marine.
    In the long run, there's nothing to be afraid of. We can 
win the fight. It's difficult. It's costly. But the 
implications of allowing the region to become dominated by the 
ideology of al Qaeda are the same as the implication, in the 
years previous to World War II, of allowing fascism to become 
the ideology of Germany. It will lead to a big war that none of 
us can stand.
    We have to fight. We have to win. We can't walk away from 
this enemy. Nor can we walk away from the good people of the 
region. We're fighting their enemy side-by-side, and over time, 
more and more people will realize that.
    It's easy to wring our hands and say, ``Oh, woe is us.'' 
But those of us that are in the field don't say that. We say, 
``We're winning.'' But it's not going to be easy.
    General Myers. Senator Inhofe, if I may, just let me add a 
comment to that. If we were to lose in Iraq, whatever that 
means--pulling out, or whatever--that is a battle in this 
longer war that we've talked about, the war on terrorism. My 
view is that as soon as we pull out, that would embolden this 
al Qaeda organization, their violent extremist techniques, and 
that surely the next September 11 would be right around the 
corner. It would embolden them beyond belief if we were to cut-
and-run, as some have said, and we can't afford to do that.
    Senator Inhofe. Thank you, General. By the way, let me 
associate myself with the remarks and the compliments about 
you, General Myers. Thank you so much for your service.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, General Abizaid and General 
Myers, for those very powerful statements.
    Senator Reed.
    Senator Reed. First, General Myers, let me too, compliment 
you on 40 years of honorable service to the Nation in the 
uniform of our country. That's something we all can agree upon, 
it's something to be very proud of. Thank you, sir.
    Mr. Secretary, last September General Kern came before the 
committee and, in response to a question from Chairman Warner, 
indicated that the Inspector General of the Department of 
Defense and the Inspector General of the Central Intelligence 
Agency (CIA) had taken upon the task, in his words, ``of 
investigating the ghost-detainee policy.'' Can you give us an 
update on those investigations, when they are to conclude and 
when we might get the results?
    Secretary Rumsfeld. I have no information about the CIA 
investigation. I certainly can get you an answer as to when the 
IG in the Department estimates that they'll complete it.
    Senator Reed. Thank you.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Reed. Mr. Secretary, one other thing. In response 
to Senator Kennedy's question, you--and I might have misheard 
you, but you seemed to imply that every police department is 
infiltrated by criminals?
    Secretary Rumsfeld. No. I think what I said was, if you 
look around our country and other nations, and look at big-city 
police departments, they do have a problem of vetting to see 
that they are not infiltrated by criminals. We do know, from 
time-to-time, that there are scandals in police departments in 
major cities in the United States--certainly in my lifetime, 
I've seen it--where individuals did end up inside the police 
department. But I didn't make any blanket statements----
    Senator Reed. I just wanted to clarify that, Mr. Secretary.
    General Abizaid, I agree with your analysis of the threat 
we face. It's a distributed network threat, entrepreneurial, 
ideologically driven, and committed, regardless of what we do 
in Iraq to attack us here in the United States again. The 
question you raised, I think, is the primary question before 
us, How does Iraq fit into that overall threat?
    Many Americans today are suggesting it doesn't fit very 
well. That because of our presence there, because of the 
activities there, because of the events there, we are not 
winning the allegiance, support, and cooperation of allies. You 
have the Foreign Minister of Saudi Arabia, who has said 
recently that he sees the country disintegrating, and that 
disintegration could lead to a regional conflict between Sunni 
and Shia. Just yesterday, Secretary Hughes was assailed by a 
Turkish women's rights activist about our policy in Iraq; the 
very good people that we would expect would be with us and be 
supportive. On the tactical level, evidence suggests that there 
are numerous recruits going to Iraq from other countries in 
order to fight us, to keep this insurgency going.
    An issue that I find very troubling is that, in some 
respects, all of our activities there might be of marginal 
relevance to those other cells in other places, particularly 
Europe, who might be much more capable of mounting an attack 
against our homeland because of language skills and ability to 
move quickly through airports. I think the American's idea of a 
terrorist is someone dressed like an insurgent in Iraq, with--
not someone with a British accent or a European accent.
    So, the question is, how much does Iraq complement and help 
our strategy overall, which I agree with you, is a long-term 
battle?
    General Abizaid. I think, in the long-term strategy, 
Senator, we certainly have to stabilize Iraq. I believe we have 
to stabilize Iraq. We haven't made the terrorists that have 
come our way; al Qaeda has made the terrorists that have come 
our way. We didn't ask for this war; it was thrust upon us. The 
entire region plays in different ways in the overall battle. 
The most important thing is that Iraq stabilizes, Afghanistan 
stabilizes. I believe, when that happens, it starts to be the 
beginning of the end for the extremist movement.
    Senator Reed. But General, just in response, we did not ask 
to be attacked on September 11, but we certainly made a 
conscious decision to attack Iraq, on evidence which some 
people debate. Now many people--not just myself, but many 
others--are questioning whether that commitment of resource, 
commitment of effort, is really going to defeat this, overall, 
on a much more lethal threat, which you described very well, 
which is located in London, in Hamburg, in Manila, in Jakarta. 
We're engaged there. I agree with you, we can't leave it 
unstable. But that might be just because of the fact we at 
least prompted the instability by our actions.
    General Abizaid. Senator, I don't know that I would say 
it's our actions at all. I'd say that the main theater of 
military activity is Iraq. The main effort is George Casey. We 
have to stabilize Iraq in order to fight the broader al Qaeda 
threat. The foreign-fighter network is not just focused on 
Iraq. It moves worldwide. It's global. The fact that it happens 
to manifest itself by a large number of suicide bombers in Iraq 
gives us an opportunity to attack it, gives us an opportunity 
to understand the network. This suicide bombing network that 
exists in Iraq exists in other places all around the world.
    So, al Qaeda, as I said in my presentation Senator, is not 
the main enemy in Iraq; it is the most dangerous enemy in Iraq, 
and it feeds on the instability of Iraq. We have to stabilize 
Iraq in order to fight the broader enemy, and the broader 
enemy's going to be with us for a long time. But we can't walk 
away from al Qaeda. They won't let us.
    Senator Reed. My time is up.
    Senator Inhofe [presiding]. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Myers, let me begin my comments today by echoing 
the thanks of my colleagues for your extraordinary service. We 
very much appreciate your strong commitment to your country, 
and we wish you well.
    General Casey, for the past year, this committee has 
received regular briefings on the status of the training of the 
Iraqi security forces. The training and equipping of those 
forces are a key part of our strategy, as you've outlined again 
today. It is, therefore, discouraging to hear today that there 
is only one Iraqi battalion that is fully capable. As Senator 
McCain has pointed out, that number is fewer than just a few 
months ago when we were briefed on the status of the training 
efforts. That contributes to a loss of public confidence in how 
the war is going and whether the strategy is the appropriate 
one and it's being executed properly, whether or not we're 
making progress. It doesn't feel like progress when we hear 
today that we have only one Iraqi battalion that is fully 
capable.
    I have two questions for you. One, have we lost ground in 
the training of the Iraqi security forces? Two, how many fully 
trained Iraqi forces do we need in order for American troops to 
withdraw from the country without plunging it into chaos, an 
outcome that none of us wishes to see?
    General Casey. Thank you, Senator. I'm struggling here a 
little bit with this ``fully capable,'' because when--and it 
may be something that we put on ourselves because of our 
military ethic. But when we say a unit is ``fully capable,'' 
that means something to us. It means that they are capable of 
going out and conducting operations without any other support. 
That's a high standard, and we recognize that.
    We also recognized that it was going to take the Iraqis--
one, because of recruiting and training issues, but also 
because of ministerial support along the lines of what the 
Senators were talking about earlier, in terms of pay systems--
that it was going to be a while before the institutions of Iraq 
could support a military. So, we didn't want to wait until 
everybody was 100 percent fully capable. We adopted a strategy 
that says, ``Give them the transition teams, get them to a 
level two, where they can lead, and get them into the lead with 
our transition teams and enablers.'' That's the one we're 
focused on and there's over 30 battalions already in that 
category.
    So, I understand what you're saying, how it could be 
perceived as disappointing, but really, at level two and level 
three, all of those units are operating with us. In level two, 
they have the capability to lead.
    So, have we lost ground? Absolutely not. In fact, as I 
mentioned in my opening statement, the transitions that we 
placed with the Iraqi security forces have enhanced what these 
organizations and these units have been able to do.
    I will tell you, there's a lot of intangibles with unit 
readiness. For example, if a battalion commander gets dismissed 
and he goes off, that unit takes a couple of steps backwards, 
and then you have to rebuild that. So I mean, this is a 
constant battle and challenge, but the transition teams have 
given us the insight and the visibility into the real 
capabilities of these units. So we see it, warts and all. 
That's the only way we're going to get it fixed.
    How many fully-trained Iraqis does it take before we can 
start drawing down coalition forces? As I mentioned to somebody 
else earlier, it--we are not tied to a specific number. This 
will take place regionally, as regional--as the forces within 
those regions reach appropriate levels. Then we will gradually 
start pulling coalition forces out. So, it's not: we have to 
get to some number and then we can start. We'll be able to 
start gradually, as these Iraqi security forces become capable 
of taking the lead, with our support.
    Secretary Rumsfeld. If I might add, Senator Collins--if one 
thinks about it, out of 194,000 Iraqi security forces, the army 
is 75,000. There are any number of other elements included in 
that number that are able to do what they are designed to do. A 
police unit's able to do what it's designed to do. The border 
enforcement, the highway patrol, the special police commandos, 
dignitary protection, these people are out doing what it is 
they are trained and equipped to do. What we've done is to look 
at a grading system that we use here in the United States and 
try to determine for the Iraqi Army how they would fit. That's 
where you get that one unit.
    On the other hand, if you think about it, we don't judge 
our other alliances that way. We have NATO activities that 
don't have the enablers that they need to operate 
independently, and we have to participate with them, with 
intelligence or with command and control or with airlift or 
special reconnaissance activities. If you think about it, our 
alliance with Korea is one where we're together, and a good 
deal of what they do, we do with them in assisting them.
    So, it's not clear to me that this ability to operate 
independently is necessarily the determinative metric. It needs 
to vary for each of the various elements as to what we ought to 
set as a standard. I think reality is, these folks are not 
going to end up at a level of U.S. forces, period. There isn't 
a military in the Middle East that's anywhere near U.S. levels.
    General Myers. Senator, as a way to measure progress--and, 
George, help me on this--but I think we have 86 Iraqi army 
battalions today that are operating with us. How many did we 
have a year ago, of those 86?
    General Casey. Probably no more than a handful, Chairman.
    General Myers. I think that bespeaks the progress as we 
move forward. Those are 86 battalions that are out there 
operating with our folks.
    The people I've talked to, in my recent trip over there--
talked to this great army major--sorry, captain----
    Chairman Warner [presiding]. General, I regret to----
    General Myers. Okay.
    Chairman Warner.--say that we--I've been informed by our 
respective leadership that we're asked to take our seats for a 
very important vote of the Senate. So, we will now stand in 
recess, but before I do so, until the hour of 12:15--Secretary 
Rumsfeld, I had a very interesting telephone call last night 
from a Paul Steiger, managing editor of the Wall Street 
Journal. He represents, in his capacity, a large group of 
people. They're experiencing--he was speaking on behalf of the 
entire media, which is his responsibility in his group--that 
they're encountering some difficulties. I'm going to leave with 
you, as I depart now, the copies of the correspondence that I 
have received from him, which I understand has also been 
forwarded to your office. Perhaps when we resume, you might 
have some comment on that. I think it will require a period of 
time for you to fully assess the problem that he described, and 
in all probability, to put in place such corrective measures as 
you desire.
    So, I'll leave that with you, in hopes that maybe you can 
make some brief comment when we return.
    We stand in recess until 12:15. [Recess.]
    Chairman Warner. The hearing will resume.
    Mr. Secretary, as we concluded, I gave you correspondence--
which has been forwarded to your office, but through other 
channels--from various individuals who have responsibility 
regarding the press that are, I think, serving the interests of 
our country as well as they can under difficult circumstances. 
My understanding is that you'll take this under consideration. 
Perhaps General Casey, who has the action responsibility, has a 
comment or two. Am I correct in that?
    Secretary Rumsfeld. Yes, indeed, thank you.
    General Casey. Senator, I haven't had a chance to go 
through the whole letter, but I understand the issue. It's an 
issue that we take very seriously. What I will do when I get 
back to Baghdad is, I'll get a few of the local journalists 
together and work through some of their concerns with them. 
I'll also take a look at this letter here and get some 
responses back.
    [The information referred to follows:]

    My impression is Multi-National Force-Iraq's practice of holding 
periodic forums between coalition public affairs personnel and western 
media representatives is an effective tool. Representatives gather, 
voice concerns and, where possible, we endeavor to resolve issues. We 
meet quarterly in Baghdad with western media bureau chiefs. Reuters, 
along with other major news organizations, participates in these 
meetings. These meetings provide Multi-National Force-Iraq and the 
media an effective forum for sharing information and addressing issues 
and concerns and strengthening the relationships between the media and 
Multi-National Force-Iraq. My staff and subordinate commanders are 
sensitive to the significance of journalist detentions and continue to 
explore additional methods and processes for tracking the status of 
detained journalists.

    Chairman Warner. Yes. If I might suggest, I would, on 
behalf of CENTCOM--because it relates, I'm sure, to the 
journalists in Afghanistan, as well--make a direct 
communication with the two principals that have forwarded the 
letters to myself, other Members of Congress, and to the 
Secretary of Defense, as well as convening, in country, a 
representative group to try and get their views. Then once we 
gather the facts, I'm sure we can hopefully address this 
matter.
    Now, I also suggested during the interim that it was my 
concern that listening very carefully to testimony this 
morning, we need to have a clarifying and condensed set of 
facts to give the American public--and, indeed Congress--a more 
exact status of our efforts, together with coalition partners, 
NATO, and others, to train the Iraqi security forces. I think 
you're prepared to give that, General Casey?
    General Casey. Thank you for the opportunity, Senator, 
because I don't think I did Senator Collins' question justice 
in trying to explain the way we rate these forces. I would not 
want people to think, because, in the first category, we've 
gone from three to one, that we're actually taking a step 
backwards with the Iraqi security forces, because that's just 
not the case.
    A couple of points:
    First of all, this ``fully capable.'' I mentioned in my 
testimony that one of the driving forces behind all of the 
strategy is that we need the Iraqis to be able to sustain the 
capability that they have as we progressively draw down and 
after we're gone. So, we wanted to set a very high standard, 
and that became category one.
    Now, we recognize that it was a standard that they were not 
going to achieve for some time. That's why we focused on the 
second level, and that's the level where they take the lead and 
we put them in charge.
    I'll give you an example of the capabilities of those units 
that are in that second category. Just recently, the 3rd Iraqi 
Infantry Division conducted a three-brigade operation into the 
town of Tal Afar with coalition forces. I mentioned in my 
testimony that that was the first major operation which the 
Iraqi security forces outnumbered the coalition forces. All 
those brigades and all the battalions in those brigades were 
level-two/level-three, yet they fought with us into a major 
urban area, into an urban defense, and conducted the toughest 
type of ground combat very successfully. You'll recall, about 
500 insurgents and terrorists killed or captured as a result of 
that whole operation.
    So that's the kind of capabilities these units that are 
categorized as level-two and level-three have, because they're 
able to do it with our enabling support. If they had been able 
to do it all by themselves, without any of our support, they 
would have been in level-one, and that's some time in coming.
    So, I don't know if that gives it a little bit more 
granularity, but as I mentioned, we are making great progress.
    Chairman Warner. Yes. Bottom line, you are making progress, 
and the progress can be documented, and you see it every day 
with the performance, which is, every day increasing in the 
professional capabilities of these forces.
    General Casey. Thank you, Senator. I couldn't have said it 
better.
    Chairman Warner. Well, I thank you very much.
    Senator Ben Nelson, you----
    Senator Levin. If Senator Nelson would just yield for 1 
minute--just for 30 seconds.
    Senator Ben Nelson. Yes, Mr. Chairman.
    Senator Levin. It would be helpful to your point if you 
gave us how many level-two there were 4 months ago or a year 
ago, and how many there are now, how many level-three a year 
ago, how many there are now.
    General Casey. Yes.
    Senator Levin. Talk about granularity, it would help the 
point you're making, and I think you should just do it very 
clearly. But I'd just suggest that to you, and I don't want to 
take any more of Senator Nelson's time.
    General Casey. I'm sorry, if I could just respond to that? 
We didn't start this until May.
    Senator Levin. Fine, give us May and now.
    General Casey. Okay. May was just a trial, too, so--I got 
it.
    Chairman Warner. All right.
    Senator Levin. Excuse me.
    Chairman Warner. The Chairman has indicated that you wish 
to address----
    General Myers. If I could tag onto General Casey's point 
for just a minute, some of the things that we measure, I think, 
are interesting. The task forces that conduct raids in Baghdad, 
26 percent of those are either Iraqi-led or Iraqi-only. So, 
over a quarter of the major activities take place in Baghdad 
are Iraqi-only or Iraqi-led. Just 3 or 4 months ago, George, 
that was probably zero.
    Task Force Baghdad Combat Patrols--this is the last week of 
July, basically--43 percent of the combat patrols in Baghdad 
are Iraqi-only or Iraqi-led. Forty-three percent.
    Task Force Baghdad Checkpoints, in the last week of July--
it's 22 to 28 July, actually--Iraqi-only/Iraqi-led, 72 percent. 
Seventy-two percent of the Task Force Baghdad Checkpoints, 72 
percent, are Iraqi-only/Iraqi-led.
    If you go to multinational operations in North Central, we 
can compare the period 3-to-9 June to 2-to-8 September. In 
June, Iraqi-only/Iraqi-led checkpoint operations in North 
Central Iraq, 77 percent to 92 percent in September.
    So, everything you measure, the Iraqis are more and more 
involved, and those aren't just, obviously, the level-one 
battalion; those are all Iraqis in the fight.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me extend my appreciation to General Myers for your 
outstanding service and best wishes for a long and happy 
future.
    As we look back, our mission in going to Iraq was to remove 
Saddam and, ultimately, democratize, through the workings with 
the Iraqi forces and people, the country of Iraq. Now, we've 
removed Saddam from power, and historic elections have been 
held to elect the National Assembly and Prime Minister, and, of 
course, a constitution has been approved by the Assembly. 
Hopefully, the Iraqi people will vote it up or--well, vote it 
up, but we'll soon know whether they're going to vote it up or 
down.
    So, really what we're working at, it seems to me, is 
helping the Iraqi people do two things--one is govern 
themselves; and, two, defend themselves, because if they can't 
defend themselves, it's going to be very difficult--mostly 
likely impossible--to govern themselves.
    We have measurable benchmarks and events that work toward 
self-governance. One of the frustrations that I keep picking up 
from people when I'm talking to them back home is, we don't 
have similar measurable guideposts or measurable results to be 
able to determine what is happening. So, you have some people 
saying we're winning the war and others saying we're losing the 
war, when the truth of the matter is, we need to find out what 
kind of progress we're making. Many of the questions today were 
based on trying to determine progress. I don't think there's 
anybody that's going to raise question about whether or not 
we're making progress, but there probably will be some 
questions about: How much progress do we need to make and--
maybe, Have we made?--and, more important, maybe, How much 
progress do we need to make, to be able to satisfy both self-
governance and self-defense?
    Now, I understand the importance of capability and 
readiness of the Iraqi forces to be able to do what is 
necessary to defend themselves. I understand condition-based 
reductions.
    My first question is, what are our goals to achieve--to 
train, equip, and I suspect, get experience for sufficient 
troops to be able to defend themselves in Iraq?
    General Casey. As I mentioned earlier in this, Senator, we 
have said that we were going to train and equip a total number 
of around 350,000 Iraqi security forces. That process will go 
on for some time, and particularly because the police training 
is a 10-week program----
    Senator Ben Nelson. It's obviously important to have the 
entire security forces in place, because of other things, but 
what kind of numbers do we look at or what percentage have we 
achieved with Iraqi forces, equivalent of Special Operations 
Forces, capable and ready to fight the insurgency to a 
standstill and defeat it?
    General Casey. There are 10 Iraqi divisions, and they have 
been placed around Iraq and partnered with coalition divisions. 
The Iraqis have placed two divisions in the most--each--in the 
most difficult areas.
    Senator Ben Nelson. Are these part of the level-one force?
    General Casey. They are a part of the force that is 
progressing from level-three to level-two to level-one, and 
will progress there over time.
    But we don't need to have that whole force at level-one, or 
even that whole force at level-two, before we can begin 
considering coalition reductions, because regionally, there 
will be units that achieve capability faster than other units. 
We're not waiting to get all 10 of these divisions all across 
Iraq level-two before we start drawing down forces. We'll 
actually start drawing them down by smaller-sized units as 
Iraqi brigades take over places around Iraq.
    Senator Ben Nelson. Do we know, in our own minds--and this 
is probably something that needs to be handled in a secure 
setting--what the number is that is really going to be required 
of those 10 units to be able to defeat the insurgency? We talk 
about it in 10 years, so is the variable 10 years? Can we 
defeat them faster if we have more? Are we faced with 10 if we 
have less? Or how does this equation work?
    General Casey. Last year--or, actually, around this time--
we went through a very thorough analysis of what security 
forces the Iraqis needed, and--both on the military side and on 
the police side--and that is the force we are building to now.
    I just instructed General Dempsey, who just replaced 
General Petraeus now, that I thought it was time to conduct a 
similar review to go back and look at what we have programmed, 
where we are, and decide if those forces are in fact, still the 
forces that we need to do what you say, to be able to defeat 
this insurgency over the long haul. We will continue to assess 
and evaluate this as we go forward.
    Senator Ben Nelson. The American people understand the 
checkpoints for self-governance. Is it possible to put 
together, whether we're 20 percent capable at the present time, 
30 percent--in 6 months, will we be at 50 percent capability 
and readiness to defeat--``they'' with our embedded help--when 
I say ``we,'' I'm talking about Iraq and our embedded help--
will we be at a point, in 6 months, at 50 percent capability, 
to defeat the insurgency?
    General Casey. As has been suggested here, from a 
military--in a police capability, we're not going to defeat the 
insurgency. Then, as you mentioned, the political side also has 
benchmarks and milestones.
    So, it's really the interaction of all of the different 
elements--political, economic, military--that has to come 
together over the next period of months and years if we're 
going to ultimately defeat this insurgency.
    Senator Ben Nelson. But most of the people want to know 
whether it's months or years. I'm not trying to pin you down in 
an unfair way, but I hear this constantly about those who are 
trying to push for a timetable. I'm less interested in pushing 
for a timetable than I am in knowing what percentages we are at 
the level of reaching our ultimate goal. That is also a factor 
that's variable for time, as well--as you say, for the 
political capabilities, as well as military capabilities, and 
perhaps as well as governing capabilities. I understand it's 
all tied together.
    General Casey. Right, and your question's a fair one. We 
have now good visibility on the military units. We also are 
starting to get better visibility on the ministries, because 
those are the institutions that provide the logistical and the 
pay and all the other support that these military units and 
police units need, to exist.
    Now--and it's all--again, the military and police side of 
this is all interrelated, as well. I do not have an overall 
metric that ties all that together and say, okay, we're 60 
percent there, in terms of security capability toward our broad 
objective.
    Senator Ben Nelson. But don't you think the----
    Secretary Rumsfeld. May I make a comment?
    Senator Ben Nelson. Sure.
    Secretary Rumsfeld. First of all, I think you mentioned 10 
years----
    Senator Ben Nelson. Well, I--9 years.
    Secretary Rumsfeld.--for an insurgency, and I would like to 
make sure that everyone understands----
    Senator Ben Nelson. Yes.
    Secretary Rumsfeld.--that that is not General Casey's 
prediction.
    Senator Ben Nelson. I understand.
    Secretary Rumsfeld. That's the average length----
    Senator Ben Nelson. I understand.
    Secretary Rumsfeld.--of insurgencies. Insurgencies 
ultimately are defeated by the indigenous people in that 
country, not by outside forces, because outside forces can, in 
fact, contribute to the growth of an insurgency if they are 
seen as an occupation force.
    With respect to your question, the answer is, it seems to 
me, in two parts. First, the political and the economic and the 
security all have to go forward together. To the extent there's 
a failure on the economic or the political side, it makes the 
security situation in an insurgency environment more difficult. 
Now, that means that there isn't an answer to your question, 
where you could say 10 percent, 20 percent, or 30 percent, I 
don't believe.
    Second, we've looked at the things that are easy to count--
numbers of divisions, readiness levels, and the like. The 
reality is that the soft stuff that you can't count is every 
bit as, and possibly even more, important than the hard stuff. 
What do I mean by the ``soft stuff''? The relationship between 
the police and the military, the relationship between those 
entities and the Intelligence Community, the noncommissioned 
officers and the ribcage of a military or a police 
organization, the strength of the ministry and the 
effectiveness of the chain of command, the turbulence in the 
ministry. All of those things are going to either favorably or 
unfavorably affect the progress on the security side, and it 
seems to me that----
    I'm going to give you one example. Let's say that we have 
an election--the constitution passes, which I believe it will, 
and there's an election December 15, and a new government comes 
in. Let's say it takes 30 days to form the new government. 
There's a new Minister of Defense, and he's effective, and he 
decides not to change everything for the sake of change, and he 
immediately takes advantage of the outside assistance and forms 
an effective ministry. That's one scenario.
    The other is, the election takes place, there isn't a new 
government in 1 month; it takes 4 months or 5 months to form 
the new government. The Minister comes in, and he decides he's 
going to swing the wheel this way or that way and change 
everybody, and there's turbulence.
    Now, all of that's going to affect the effectiveness of the 
security forces every bit as much as the numbers.
    Senator Ben Nelson. Would that be part of the equation that 
you're working on for condition-based reduction?
    Secretary Rumsfeld. Exactly.
    Senator Ben Nelson. So, it's pretty hard to decide whether 
you're going to do anything in the next 6 months, isn't it, if 
you don't know all these variables?
    Secretary Rumsfeld. You can't know the variables. You can't 
know how--what Syria's behavior's going to be. Are they going 
to be helpful or harmful? You can't know what Iran's going to 
be doing. Are they going to be helpful or harmful? That's why 
you have to use the phrase ``condition-based.'' It is not 
possible to look out there.
    But the progress that's being made politically is real. 
They did draft a constitution, they are going to vote on it, 
there is going to be an election. That's good stuff. That's 
historic. By the same token, the progress on the security 
forces--every single week that goes by, the numbers of security 
forces go up. Total. Even if we were to come down, even if the 
coalition were to go down, because of the growth in the Iraqi 
security forces, the total forces are going up. That's a good 
thing. We believe that, over this period of time, there will be 
opportunities to transfer, as the General says, pieces of 
responsibility, pieces of real estate, over to Iraqi security 
forces and that's a good thing.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Secretary Rumsfeld, I think that was a honest and direct 
answer to our questions. It's just a difficult thing to build 
from scratch a military and police force capable of operating 
on its own.
    General Myers, it's an honor to have served with you, in a 
way, to think that you've testified before 64 committee 
hearings is a stunning and ominous thought, really. You have 
done so and won the constant respect and admiration of the 
Members of Congress. None of them have ever doubted your 
integrity, your commitment to our men and women in uniform, 
your commitment to victory, and your willingness to take any 
effort possible. You've been honest with us time and time 
again. If that had not been so, you would have felt the sting 
in complaint. You've not felt it. It's a remarkable 
achievement. Your 40 years of service is something you can take 
pride in, and all Americans do.
    General Myers. Thank you, Senator.
    Senator Sessions. General Abizaid, you gave us a great 
briefing yesterday, that was a closed briefing, and a part of 
that--and some of the same things you've said today. I thought 
it was comprehensive. I thought it was wise. I thought it was 
good advice for America. No less than Ted Stevens, who's the 
President pro tempore of the Senate, who chairs the Defense 
Subcommittee of the Senate Appropriations Committee, and who's 
been a champion of defense, said it was an extraordinary 
briefing, one of the best he'd heard in years. I felt the same 
way.
    So, I was a bit taken aback when the assistant Democratic 
leader came out of the meeting--I'm not sure he stayed to the 
end--and said no plan had been presented. I think you felt you 
gave a plan. I did. Perhaps I won't ask you to comment on that. 
But that's the way I felt about it.
    As with regard to the American people and our concern over 
the progress, the American people want to see progress. There 
have been ups and downs, we'll always have. But I have no doubt 
that they are committed to seeing this through. There's no 
movement out there to abandon our soldiers, and what I hear 
from families who have lost loved ones is that they want us to 
succeed and to affirm the sacrifice their family members made.
    General Myers, let me start off with you. If others would 
like to comment on this, I'd like to pursue it with some 
interest. That is the military's role. Many of the questions 
that have been given to you today have dealt with 
infrastructure, they have dealt with political issues, they 
have dealt with relations with foreign countries, they have 
dealt with electricity and water and sewage, and the mood of 
the people in Iraq, and communications to the people in Iraq. 
We have a lot of questions about that, and in the Armed 
Services Committee, it's you, in uniform, that are here 
answering all those questions. But isn't it a fact that the 
political process, the economic program, the education and 
health program, the infrastructure, electric and water, dealing 
with matters like corruption and political efficiency, that is 
not the Defense Department--Defense Department is not the lead 
agency for that, but it is now the State Department?
    General Myers. Senator Sessions, you make a very good 
point. Insurgencies we've talked about aren't defeated just 
militarily. There's always a political component, an economic 
component, educational opportunities, an information component, 
both internally and externally. What we've tried to do is 
harness all instruments of our national power, and all the 
instruments of national power for our international friends and 
partners in this--is to bring those instruments of national 
power, of which the military is just one, to bear on the 
problem.
    I think that our military has done a terrific job, being 
first on the ground, to fill a lot of those roles. We had 21-
year-old soldiers advising town councils on how to organize, 
relying on their high school civics lessons, of course, and 
their own good common sense and judgment. But that has to 
transition at some point to where we have seasoned individuals 
that are steeped in these kind of matters to be mentoring the 
Iraqi folks, and that is certainly not the role--not the sole 
role of the Department of Defense. Most of those areas you 
mentioned are the responsibilities of other departments and 
agencies in this government, to include the State Department, 
as you said.
    Senator Sessions. You might advise in that, and you may 
even support them, but as the decisionmaking authority and 
responsibility would be those agencies and not the Department 
of Defense that's responsible.
    General Myers. That's correct. As we do with our troops 
that are in Iraq, and as we've done with our commander in Iraq, 
General Casey is going to serve, as far as we know now, about 2 
years in Iraq. Our troops serve about a year. We need other 
departments and agencies to put their people over there with 
that same dedication and that same commitment of time to do the 
sort of work they need to do to finish the job.
    Senator Sessions. I think we have to make sure that State--
we all--we've been asking, ``Is the military adequately 
prepared, staff committed, got an adequate program?'' We also 
need to be asking whether the other agencies of government 
are--who, in recent months, assumed primary responsibility for 
these ideas, whether they're making adequate progress.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, I agree with you. It seems to me, 
Mr. Secretary, that's been brought up by, first, General 
Abizaid, in his opening comments, now General Myers, the fact 
that the military is doing its job, but we need greater support 
from other departments and agencies of the Federal Government. 
Do you have a comment on how we can bring to bear--what could 
the Congress do to help you?
    Secretary Rumsfeld. It is a fact. Another fact is that the 
United States Government, in the domestic areas, is not 
organized, trained, and equipped to do those things. We're not 
structured in a way that they can readily deploy people of 
certain competence levels, the way the Department of Defense 
can. It is a reality that, to the extent our country's going to 
be called upon to be engaged in these types of things, that we 
do need to look at roles and missions in the executive branch 
of the Federal Government, and the mirrored relationship in 
Congress. I mentioned one of the things earlier today, and 
that's the authority to help train and equip other countries. 
To the extent we can build partnership capacity in other 
countries, we relieve ourselves of that burden. To the extent 
we can do things like getting coalition countries to help us, 
we relieve ourselves of that burden.
    The NATO train-and-equip in Iraq is a perfect example, 
where we are getting--all of the NATO countries are, in one way 
or another, now assisting in Iraq. So, too, in Afghanistan, 
where the NATO has taken over the north, it's now taken over 
the west, it's going to be taking over the southern sector of 
Afghanistan, as well as the original Kabul ISAF activity, and 
that's good progress. It's important that--as General Myers 
says--we recognize.
    I'll just make a comment about Afghanistan. The bond 
process produced an arrangement whereby lead countries would 
take responsibilities for certain things. The British took 
responsibility for the drug problem in Afghanistan. The 
Italians, as I recall, took the civil justice system and the 
criminal justice system. The Germans took the border patrol and 
various things. The reality is that the progress in those areas 
in Afghanistan has been slow, because it's hard stuff. It isn't 
easy to do. Those countries don't have a background in 
developing that kind of competence. They're used to functioning 
in dictatorships.
    So, partly it's just because it's hard stuff, partly 
because it's--the other countries and other elements of our 
government haven't fully arranged themselves to do as good a 
job as might be necessary.
    Chairman Warner. Let's just take a minute on our 
government. We have to put that as the highest priority, 
because we are, daily, taking casualties. To the extent that 
infrastructure is not being brought together contributes to 
that casualty rate.
    Secretary Rumsfeld. The executive branch has created a new 
entity inside the Department of State on--what's it called?--
Office of Reconstruction and Stabilization--they have selected 
a new individual to assist in that--Ambassador Pascual, as I 
recall, who is a very capable person. The Department is 
focusing on that. The Department of State also has assigned 
Karen Hughes to be involved.
    Chairman Warner. All right.
    Secretary Rumsfeld. So, there are steps being taken.
    Chairman Warner. All right. Thank you.
    General Abizaid, do you----
    General Abizaid. Mr. Chairman? Mr. Chairman, if I could 
just add something to this.
    I want to make sure we make it clear here that we don't 
regard the other agencies of the U.S. Government as not doing 
their jobs. We want to make clear to everybody that we need 
them with us out in the field, because they add so much, 
especially in the counterinsurgency environment. A young State 
Department officer that can work the politics in an Afghan 
province is worth a battalion. A USAID person that can help 
move a road project forward is worth a company. It's just so 
important for us to understand that it's these young people 
that can come forward, stay with us long enough to learn the 
area--I believe there's absolutely no shortage of volunteers, 
but we need to make sure the priorities are right--in the 
field, not in Washington.
    Chairman Warner. All right. I'll address this further, 
because I witnessed a superb job being done, on my last trip, 
by the State Department people that are implanted with our 
forces.
    Senator Dayton, you're next.
    Senator Dayton. Thank you, Mr. Chairman.
    General Myers, I want to join with my colleagues in 
thanking you for your extraordinary service to our country.
    General Abizaid, you define the war in Iraq as a war 
against al Qaeda. If so, I think you're describing the failure 
of U.S. policy there, which is not a military failure at all, 
but it's a failure caused by strategic miscalculations by 
policymakers and the operational disasters that have plagued 
the last 2\1/2\ years. Whether they were avoidable or not, I 
guess hindsight will see. But Iraq was not a haven for al Qaeda 
before the U.S. invasion. Iraq was not, as it's been called, 
the front line of the international war against terrorism 
before the war began.
    I agree you, what you've all said, that we are there, and 
that we must be successful. I think, as you've defined it, I 
would read ``success'' as when the Iraqis can prevail there, so 
that we don't have to. I don't question the absence of a plan, 
but I think what people are asking here today the progress, or 
lack thereof, toward the goal, and what the anticipated 
timetable is.
    It's been now, almost, I believe, 2 years since the 
training of the Iraqi forces has begun--began in earnest. 
General Petraeus and others undertaking that, extremely well-
qualified U.S. leaders in that regard. As I talked to 
Minnesotans, particularly those whose husbands and wives and 
fathers and mothers are serving over there, they keep asking, 
``Why is it that we have to--their loved ones--why do we have 
to keep doing what the Iraqis seemingly can't, or won't, do for 
themselves?''
    I'd like to read just a brief excerpt from the recent Time 
magazine--describes the situation recently--September 6 in Tal 
Afar--and just ask you your response. It said, ``The 2-day 
grace for civilians to evacuate stretches to a 4-day standstill 
as the Iraqi Prime Minister orders a tactical pause. He insists 
on assurances from his military commanders that the battle will 
be a decisive success. The wait leaves U.S. troops embittered, 
their momentum lost to what they see as political 
calculations.'' ``This is turning into a goat blank,'' bemoans 
angry Green Beret. ``By the time the Prime Minister approves 
the assault into al Qaeda's heartland, it fizzles. Not a 
hostile shot is fired, not a single enemy fighter is found. 
Safe-houses and weapons caches are empty, cleansed like an 
operating room.''
    It sounds to me, if that's an accurate portrayal of--
description by somebody who was onsite, that this is--as 
Senator Levin said, an indication of a government or a 
military--Iraqi military command that believes they have all 
the time in the world and that we're going to be there with 
them, or for them, for as long as the 9 years, or whatever it's 
going to be.
    I guess I echo what others have said, but the absence of 
their demonstrated willingness or ability, or combination of 
the two, to stand up and take responsibility for their own 
country against insurgents from within their own country, or 
outside the country--but I gather, the insurgent force--the 
military insurgent is primarily in--from within the country--I 
mean, at what point are they going to be responsible? Why 
won't--if they won't take responsibility after 2 years of 
training, how do we believe that they will in the next 6 
months, 12 months, or whenever?
    General Casey. Let me take that, Senator.
    First of all, I haven't read that article, but what you 
read is not an accurate portrayal of the Prime Minister's role 
in the sequence of operations in Tal Afar. I was personally 
involved with that.
    Senator Dayton. I've known the media to be wrong, myself.
    General Casey. Right. But that was not the case.
    Senator Dayton. Okay.
    General Casey. In fact, the government was working quite 
closely with us to set the conditions that made the military 
success there possible. They sent a team up to Tal Afar and 
negotiated with the sheikhs, got all the sheikhs from the 
different tribes together, and got them to invite the military 
force in. That was a huge plus for our soldiers. They put in 
place emergency measures--curfews, vehicle bans, closed the 
border, put an exclusion zone on the border, again--to make the 
job easier for our troops. They pulled together a $50 million 
reconstruction package and compensation package for Tal Afar. 
Those were some of the conditions that were being set as we 
went between the 6th and the 10th of September. So the Prime 
Minister wasn't pulling the string on that, but they were 
actively helping us.
    On your question of, ``Why do we have to keep doing things 
for the Iraqis?''--and, as I mentioned in my opening statement, 
we recognize that we need to empower the Iraqis and to get them 
in the lead as soon as they are capable. They want that. The 
leaders want it. The Iraqi people want it. It's a matter of us 
assisting them with their training and equipping and making 
them better faster. They're embracing that. We are making 
progress on that, and we're really at a different level now 
than we were 2 years ago.
    Senator Dayton. General, how long does basic training for 
basic American soldier take?
    General Casey. I think it's about 9 weeks, and then 
advanced training after that is added on.
    Senator Dayton. So, again, I just--I cannot understand how 
almost 2 years now after we've begun the training--and I don't 
question the capability of General Petraeus and others who have 
led the training--but almost 2 years later, we don't have 
Iraqis that are trained to do what I guess our soldiers are 
trained to do after 9 weeks, or whatever advanced training 
thereafter.
    General Casey. It's--basic training, they've done, and they 
are--most of the Iraqi soldiers that have been through the 
basic training are--not as capable as ours, certainly, but they 
can do basic tasks. But it's taking those soldiers, putting 
them in units, training them as units at progressively higher 
levels. Until Iraqi commanders at the colonel and general-
officer level can direct and plan Iraqi forces in conducting 
Iraqi operations, they're not going to be able to take over, 
and that's the whole strategy.
    Senator Dayton. Thank you, Mr. Chairman.
    Secretary Rumsfeld. May I make a brief comment?
    General Abizaid. Senator, I'd like to make a comment, if I 
may. It has to do with the Iraqis. You ought to read David 
McCullough's book, ``1776,'' about the----
    Senator Dayton. I've read it.
    General Abizaid. --the birth of our own Army. It's amazing.
    You ought to consider, in most of the 33 years I've been 
serving in the United States Army, we've struggled to make 
ourselves better. We just do that all the time. So, I have 
great respect for the Iraqis and what they're trying to do. 
Sometimes we give the impression that they're not organized, 
they're not trained, they're infiltrated. More Iraqis have died 
fighting for Iraq against this insurgency than have Americans, 
and that deserves our respect and thanks. We're fighting with 
them, not against them. It's just, time and time again, that we 
have to understand that this war in the Middle East is as much 
about respect for the people that are fighting with us as it is 
anything else.
    Chairman Warner. Thank you very much.
    Senator Graham?
    Secretary Rumsfeld. Mr. Chairman, may I make a quick 
comment on that?
    Chairman Warner. Yes, Mr. Secretary.
    Secretary Rumsfeld. This is an important subject.
    First of all, just historically, we ought to refresh 
ourselves that Zarqawi was already in Iraq before the war ever 
started. Zarqawi was running terrorists out of Iraq in several 
countries before the war ever started. Saddam Hussein was 
listed as a terrorist state before the war ever started. Saddam 
Hussein was giving $25,000 to the families of suicide bombers 
before the war ever started.
    With respect to the Iraqis taking hold, General Abizaid's 
right, the Iraqi security forces have lost more people than the 
coalition have since a year ago September. They've lost twice 
as many. The people who are running for office are threatened. 
Their lives are threatened. The people who are voting, their 
lives are threatened by the people who are trying to prevent 
democracy from occurring in that country. There is a lot of 
Iraqi courage that's being demonstrated in that country every 
day.
    Chairman Warner. Thank you very much, Mr. Secretary. I 
think it's helpful that we get the full picture on this very 
important issue.
    Senator Graham.
    Senator Graham. Thank you. You just stole my first 
question. My first question was going to be to say that I think 
the casualty figures for us is 1,922. That may be wrong, but 
it's over 1,900. Is that correct?
    Secretary Rumsfeld. I was using the killed-in-action. Ours 
are currently 1,475, I believe. The Iraqis have had roughly 
double since--I think it's a year ago September.
    Senator Graham. That was the point I was going to make. If 
there's a reason to be optimistic in all of this, I think the 
reason to be optimistic is, this is the only place in the Mid-
East, or anywhere in the world I know, where people are taking 
up arms against the Zarqawis of the world.
    Mr. Secretary, I would suggest to you, you give us a 
complete number if you can later on. How many Iraqis have died 
fighting the insurgency? How many Iraqis have been killed 
trying to run for office? How many Iraqis have been killed 
joining the army? I think the numbers are large, and it gives 
me a sense of optimism because, at the end of the day, all you 
can ask of anyone is to be willing to fight and die for your 
freedom. So, I think that's the most optimistic thing that's 
available to us, something for us all to hang onto is that the 
Iraqis whatever problems they have, they are still fighting and 
dying for their own freedom, and it makes me proud to be their 
partner.
    Now we need to know a number because I think the American 
people need to know a number too.
    But the one thing I've found about this hearing, the tone 
has changed as there's certainly a political component of 
whether we should have went into Iraq to begin with, and it's 
being replaced with some pretty good questions on both sides of 
the aisle.
    You mentioned trust, General Myers, about the officers 
serving with you on the panel and the people in the field. It's 
not a question of trust, but I think we're in a position now of 
``trust, but verify.'' Because I've heard things from panels 
before. I'm no military expert. I'm a military lawyer, so I 
certainly know my limitations. But I do have common sense, 
General Casey, and you said the last time we were here the 
insurgency was one-tenth of 1 percent. I was amazed at how you 
could pick a number so accurately. I was skeptical if anybody 
really knows the number of insurgents over there to the point 
that it's one-tenth of 1 percent. When you say that, it bothers 
me. Do you still believe that?
    General Casey. Senator, what I said was, ``Even by our most 
pessimistic estimates of the insurgency, we estimate it to be 
less than one-tenth of 1 percent of the overall population of 
Iraq.'' I think that's still about right.
    Senator Graham. My comment to you is that you have no way 
of knowing, and no one does. I don't have any confidence in 
that number. I know you're on the ground. I know you're risking 
your life. But the point we've learned about Iraq is that it's 
fluid and it changes. Getting your hands on this is very 
difficult. The insurgency changes. Its makeup is changed to 
where the foreign fighters are now the biggest threat. The 
Sunnis are beginning to join. So I'd just caution you, just--
okay to say we don't know how many, but we're going to go after 
all the ones we can find. There are a lot of Iraqis who are 
fighting them in addition to us.
    Zarqawi has lasted a long time in Iraq--who said he was 
there before--was that you, Mr. Secretary? He was there before, 
but he survived a long time. Common sense tells me there must 
be a support network over there, fairly sophisticated, for this 
guy to have survived this long, and that's just common sense.
    My question, fairly simply put: In hindsight, looking back, 
has there ever been a point in time, to anyone in this panel, 
where it was clear looking backward, that we did not have 
enough troops to secure the country?
    General Myers. I guess I'll start. It's been clear to me 
from the beginning--from the beginning--that we've had the 
right number of troops, given the balance that we're trying to 
balance, given the balance between being occupiers--seen as 
occupiers or seen as liberators. It's a tough balance.
    Now, things have changed. So, in hindsight--I don't know in 
hindsight that I would change my opinion. There are some things 
we'd do different in hindsight, there is no question, but I 
don't think it has to do with the number of troops.
    Senator Graham. I don't mean to cut you off, but I've only 
have 5 minutes.
    General Myers. Okay.
    Senator Graham. I would suggest that one of the lessons of 
Abu Ghraib is that we had an ill-prepared force for the mission 
assigned to them, that the people in that prison weren't really 
well trained to run a prison. They were overwhelmed, because in 
August you had 600 prisoners, by October you had 6,000 
prisoners, and it's clear to me that the people at Abu Ghraib 
weren't equipped and trained to handle the mission, and they 
got overwhelmed. That would be an example. It was clear to me 
that the looting was rampant right after the fall of Baghdad.
    I'm not blaming you. I'll take blame. I thought it would be 
a lot easier than it has been. I thought the Iraqi people would 
step up to the plate. I missed it a mile. If you want somebody 
to blame, I went home and said, once the statue fell, ``Good 
times are ahead.'' I misunderstood.
    The point I'm trying to make, it's clear to me there have 
been times in the past where we didn't have enough troops. If 
you don't see that, that bothers me and please, anyone else, 
join in in answering.
    General Casey. I'd just note, Senator Graham, that the--on 
two occasions--last year's elections and this year's 
elections--I didn't have enough troops to do what I needed to 
do, and I asked for more, and I received them.
    If I could go back to your original comment, Senator, my 
comment on the one-tenth of 1 percent was more a comment about 
the 99.9 percent of the Iraqi population that wants something 
better, rather than a comment on the size of the insurgency, 
which we all know is very difficult to calibrate.
    General Myers. It is difficult to calculate, even though 
we've been pressed, right here in this hearing room, by the 
way. I've been pressed, personally been talked to very 
strongly, ``Give us the number. Give the American people the 
number.'' As you've just stated, Senator Graham, when you're 
dealing with an insurgency, you can't come up with a number. I 
think we've done exactly the right thing there. I think the way 
General Casey puts it is about right. I mean, we do have ideas 
and numbers, but in insurgencies, you always have people that 
on one day, are insurgents; on the next day, are 
businesspeople, and depending on how the political process is 
going and their economic fortunes are going, will have 
different views.
    Whether or not we had the right training and the right 
number of folks in Abu Ghraib is one issue. Whether or not, in 
the broader sense, which I thought you were talking about, that 
we had the right number of troops, generally in Iraq, is 
another issue. I'll stand by the commanders' requests for those 
troops. Of course, right after major combat there were 
proposals to go way down in troop strength, and it was others 
that prevailed and said no, we should not do that. We've made 
adjustments from the day major combat was over, and we had the 
flexibility to do that, because we brought the 4th Infantry 
Division (ID) in after major combat for the very purpose of 
trying to work through the stability and reconstruction that 
would follow.
    So, I think we've called our audibles. I agree that the 
folks at Abu Ghraib obviously could have been better trained, 
and perhaps they needed more. Now, it turns out there are 
resources in country that could have been redistributed, but 
unfortunately, commanders on the ground that were involved in 
Abu Ghraib, and responsible for it, didn't make those requests.
    Chairman Warner. Thank you very much, Senator.
    General Abizaid. Senator, if I could say a word or two.
    Chairman Warner. Go ahead.
    General Abizaid. Obviously there's a certain amount of 
frustration where we're obviously not getting through. At one 
point, I think it was in--during the presidential election 
period, we were very close to 200,000 U.S. troops in Iraq, 
which was more than we had at any time during the ground 
campaign, by a substantial amount. So our numbers have gone up, 
and they've gone down, and they have responded to what we think 
we need. But at the same time, we've always been mindful of 
saying, ``Look, you Iraqis need to understand that you have to 
step up to the plate.'' So, there's a tension and there's an 
art in all of this that's difficult.
    But I would like to say something. I don't believe that 
we're fools. We have made mistakes. Abu Ghraib was a huge 
mistake that we've tried to recover from in a lot of different 
ways. We made probably a clear mistake in the way that we 
originally resourced our headquarters right after the movement 
phase of the ground war, and we corrected that. As I look out 
now, I'll take responsibility for that. There are a lot of 
mistakes in war. The key is whether or not you can learn from 
your mistakes. I think in balance, we've done pretty damn good.
    Senator Graham. See, that's the ultimate question. Mr. 
Chairman, I don't mean to belabor this. Because there's some of 
us who believe that a larger military footprint, particularly 
in the support area, would have advanced the cause quicker. 
When you see a city cleaned up with a major military action, to 
be reoccupied, whether it's a lack of Iraqi troops or American 
troops, that dynamic needs to stop. So, we've seen several 
instances of where the insurgencies have been defeated by Iraqi 
and American troops fighting very bravely, only to reappear in 
the same areas and that confuses us.
    General Abizaid. But Senator, if I may, there is no 
straight line in counterinsurgency business. There's an awful 
lot of learning that has to go on. For example, you take the 
first battle of Fallujah--obviously, if you had just taken away 
the military component and isolated it and said, ``Do this,'' 
and then not added into it the governance component, you might 
have had a different conclusion, but you might have, overall, 
destroyed your ability to accomplish the mission in the long 
term.
    Getting back to Senator Nelson's point, this issue of 
governance and military indigenous forces being built together 
in a synchronized fashion, it's the key to success. But there 
are so many outside influences that move around it and flurry 
around it, that make it difficult for commanders on the ground 
to sense, the most important sensing is whether or not the 
Iraqis are willing to fight for their own country. So far, 
General Casey and I can say to you and to our Secretary, yes, 
they are. The day they're not, by the way, we'll come forward 
and we'll tell you. But give them a chance.
    Chairman Warner. Thank you very much.
    Before we proceed--Mr. Secretary, you quite accurately 
reported that the total number of deaths associated with 
combat-related activities is around 1,450. But when you add 
those that have lost their lives in a noncombatant, nonrelated 
status, it's about 1,922. That's the figure that so often is 
reported, and I want those following this hearing to be able to 
reconcile the two different figures.
    I think it's always imperative, when we talk about our 
casualties of the wounded, and that is over 12,000 who have 
suffered, in one degree or another, the combat wounds.
    Secretary Rumsfeld. Just for the record, you're quite 
right. I said killed in action, and there have been an 
additional 450 to 500 that have been killed in noncombat 
environment. The wounded--the actual killed-in-action thus far 
is 1,480, and--I don't know what the date of this is, but the 
U.S. wounded is roughly in the 14,700----
    Chairman Warner. I think it's very important that we----
    General Myers. Another important number there, Mr. 
Chairman, is that of the wounded, of which we see many of them 
back here in the two major hospitals here in town, of the 
14,752--is the number I have as of yesterday--about 50 percent 
were returned to duty in just several days, which is--which I 
think is a tribute to the commanders and NCOs, their tactics, 
techniques, and procedures, and the gear that has been----
    Chairman Warner. Good.
    General Myers. --provided, and equipment that's been 
provided----
    Chairman Warner. Protection gear.
    General Myers. --protection gear, and so forth, which is a 
remarkable number, unlike any other time in our history, in 
terms of combat. I mean, it's just absolutely remarkable.
    Chairman Warner. Thank you very much, gentlemen.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    General Myers, let me join the chorus of thanks to you for 
your extraordinary service. I was thinking, as the hearing was 
going on, that it's a measure of the respect that this 
committee has for you that, on the day before you end your 
remarkable career in the military, we're still asking you tough 
questions, and you're answering them.
    General Myers. I appreciate the opportunity and thank you 
for the comments, Senator.
    Senator Lieberman. Thank you.
    I thank all of you for being here. I particularly thank 
General Abizaid and General Casey for coming back. I think you 
know, and you've testified to it, that in a conflict of this 
kind there's a battlefield at home, as well as a battlefield 
over there. Support for the war is eroding here. We can feel it 
at home, when we go home. We can see it in the public opinion 
polls. It's very critical that you, in the uniformed military, 
be part of two things--two questions we have to answer. One, is 
it worth it for us to be in Iraq? Two, is what we're doing 
working? I think you've fanned out across Capitol Hill this 
week in a very effective way. Tough questions. But those are 
the kinds of exchanges from which progress occurs. I think we 
have to figure out a way that you do the same with the--more of 
the American people, that they get to see you, hear you, and 
maybe even have opportunities to question you.
    I appreciate General Abizaid's introduction. The global war 
against Islamist terrorism is critical to our future security. 
I don't think you'd get anybody on this panel, or most anybody 
in this country, who would disagree with that.
    Senator Reed raised an important question, which is--there 
are a lot of people out there who don't get it, exactly how 
Iraq fits into that. I think we have to begin to describe what 
would happen if we failed in Iraq, which is that there--and one 
of you said it, and we have to say it over and over again--
would undoubtedly be a civil war, there would undoubtedly be 
destabilization in the entire region. If any of us were the 
terrorists, you'd say, ``Well, how about that? We have a method 
that works here, so--we did it in Iraq, now let's take it to 
Saudi Arabia or Egypt or the Gulf States.'' You just think 
about the implications for them and for us. So, I think maybe 
people need to be reminded, in a very personal way, why this is 
important.
    But the second part of it is, is it working? Here, we have 
a real challenge, because what the people see every night on 
the television is suicide bombing. In the classified briefing 
you gave yesterday, you gave a measure of how successful we've 
been at not losing battles, if you will, or platoons, or any 
platoon. But as the people see those suicide bombings going 
off, they interpret them as defeat. I think we have to convince 
them, one, that we've--I think you've convinced us that you 
have a plan. I think the question is, is the plan working? The 
second part of that, I would appeal to you--I think you said it 
to Senator McCain when he talked about people arguing for more 
troops there; I'm sympathetic to that point of view, myself--I 
hope you'll--I said to John afterward, ``We ought to give you a 
list of names of people who tell us we need more troops there, 
we'd be better off,'' and urge you to hear them out and respond 
to them.
    But here's my question, and this is the difficulty. How do 
we defeat an enemy of this kind, where it is a fraction of the 
overall Iraqi population, but it's--they're prepared, in 
unbelievable numbers, to blow themselves up? They hate--as 
somebody--Tom Friedman said they hate us, or they believe in 
their cause more than they love their own lives and they keep 
coming back. I think, by one standard, it would be hard to say 
that there were fewer of the enemy today than there were 6 
months or a year ago.
    So, as I look at Iraq--and I think a lot of people are just 
following with less support of what we're doing there than I do 
say, ``Wow, the economic reconstruction isn't going very 
well.'' Maybe that's because of the security problems. 
Remarkably, the political situation is going a lot better than 
most people had a right to expect. People came out and voted in 
January, constitution formed. It's not perfect--overall, real 
progress. Hopefully, it'll be adopted in the referendum and 
then the election.
    But I think so long as the suicide bombers go on, and we 
don't show the progress better than you've reported today, in 
the training of the Iraqi security forces, we have a problem 
with American public opinion.
    So, see if I can focus that in the question. How do we 
defeat an enemy like this, where they're not fighting fair, 
they're just going to vulnerable targets and blowing themselves 
up? That creates a certain amount of havoc, both on the 
battlefield and particularly here at home.
    General Casey. Why don't I take a swing at that first? 
Because that's precisely the challenge that we're working to 
deal with. I may go into a little more detail in--if you're 
there for the closed session. But in general terms, first you 
have to stop them from coming into the country. That was the 
discussion we were having earlier about restoring Iraqi control 
to their borders. We've had success up in the north, and we'll 
continue to work that. We're working on the Euphrates River 
Valley, which is where most of these guys are coming in now. 
We'll restore Iraqi control over that border.
    Then you have to disrupt the facilitation networks all 
throughout the country. Then you have to go after the leaders 
and the facilitators who are actually instructing these folks 
where to go, and to linking them up with the car bomb, and then 
the last part is the guy who makes the car bomb.
    There are all these pieces of this network that have to be 
attacked, and are being attacked, simultaneously. But trying to 
kill and capture someone who's willing to kill himself is not 
an easy task.
    General Abizaid. Senator, I would just add a point that I 
have tried to make on other occasions. We have to expose the 
enemy. No culture will respect itself when it understands that 
its young people are killing themselves by killing innocent 
women and children that are minding their own business. I don't 
believe any culture anywhere can stand for that. Ultimately, 
there are antibodies within the true Islamic community that 
will prevent this from happening, and we have to help those 
people help themselves against this phenomenon. We see the 
Saudis, in particular, working very hard now to fight against 
this phenomenon. They've dropped down the number of people that 
are infiltrating into Iraq, because they're pushing it, they're 
attacking the sickness within the extremist groups. But it's 
incumbent upon everybody in this part of the world to not use 
extremists to further their ends, but to stamp it out before it 
becomes their worst enemy, as well.
    Senator Lieberman. I appreciate the answers, particularly 
the part, which I wish we had begun earlier, to try to block 
the borders across which those foreign fighters are coming.
    My time is up. I just want to say--and I'm not going to ask 
another question--there's a confusion--I think we have to--I 
urge you to try to work up a better explanation of the progress 
we're making in the training of the Iraqi security forces, 
because I know it--Senator McCain said there were three at the 
top level. I heard, in an earlier briefing, that there was one. 
So, it's one-to-one. Now, we still might ask, ``Why hasn't it 
improved?'' But at least it hasn't gone down.
    The second is--in that second category, where they can 
stand up and fight, but they need our logistics support, 
there's been an increase there, and I think we have to give 
people a sense of--as I said, ``It's worth it, and it's 
working.'' Part of the ``working'' is that we're making 
progress. I thank you for your testimony, look forward to 
working with you toward that progress.
    General Myers. Senator Lieberman, if I--could I just--let 
me just tag onto----
    Senator Lieberman. Sure.
    General Myers. --what General Abizaid said on how you 
confront the long war. He had a chart up--I think it was his 
last chart--and it had a big circle, and it talked about the 
virtual and the real elements that--an insurgency--that 
attracts people to commit suicide for their extremist's 
beliefs--needs to function. On that chart, perhaps the most 
important element is getting the voice of moderation, of 
moderates, heard.
    I think, on the good-news front, if you check in the Middle 
East, and around the world, for that matter--that the moderates 
are speaking out more and more. The al Qaeda and these violent 
extremists, I think have way overplayed their card, and the 
moderates are now understanding that what they represent is 
outside any religion that anybody believes in, and it's 
certainly outside civilization. This is uncivilized behavior, 
and that is something nobody wants to tolerate.
    So, there are parts of this that are working, but it needs 
a broader strategy. If you look at that chart--the financing, 
the rest of that--there are lots of parts of that that have to 
be addressed, that has to be addressed with all instruments of 
national power, both here and internationally, and that's how 
you eventually get to the point where people aren't willing to 
come forward and do that, where it's just so abhorrent.
    Senator Lieberman. Thanks. My time is up. Thank you.
    Chairman Warner. Thank you very much.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I join in thanking General Myers for your many years of 
service and wish you well as you head into retirement.
    One of the challenges for those of us sitting on this side 
of the table is that the strategy which you have described--and 
I think, earlier, was characterized as a strategy with great 
clarity--has neither benchmarks nor results that we can see, 
which lead us to believe it's a strategy that is working. So, 
even if it's a strategy with clarity, it may not be a strategy 
with success. I think that's the challenge for us, to try to 
understand where we are in this situation.
    Secretary Rumsfeld, when you were actually a Member of 
Congress years ago, you said, about a previous war--namely, 
Vietnam--``The people of the United States must know not only 
how their country became involved, but where we are heading.''
    So, to that end, I'd like to ask, first, General Casey, a 
recent article in Foreign Affairs by Andrew Krepinevich asserts 
that the United States lacks a coherent strategy for defeating 
the insurgency and winning in Iraq. He argues that the 
President's statement that, ``As the Iraqis stand up, we will 
stand down,'' describes a withdrawal plan rather than a 
strategy.
    Mr. Krepinevich lays out a strategy for countering the 
insurgency by shifting U.S. military efforts from focusing on 
chasing and killing insurgents to seeking to provide security 
and opportunity to the Iraqi people by ensuring the safety of 
key areas, and gradually expanding those secure areas over 
time--sometimes referred to as the ``oil spot theory''--thereby 
denying the insurgency the popular support it needs.
    Now, the article concludes that in order for this strategy 
to succeed, it will require at least a decade of commitment and 
hundreds of billions of dollars, and will result in longer U.S. 
casualty rolls.
    General Casey, do you have an opinion of Mr. Krepinevich's 
assessment that we need to focus in Iraq away from hunting down 
insurgents and toward an emphasis on providing secure areas 
that deny popular support to the insurgency?
    General Casey. I read the article, and a couple of general 
impressions. I think he has a very good view of history, and he 
has a very good feel for counterinsurgency doctrine. But my 
sense is, he has misapplied this strategy in Iraq. I read it as 
is a sequential strategy for a rural insurgency, rather than an 
urban insurgency that we're dealing with in Iraq.
    These cities, like Tal Afar for example, have a quarter-
million people, so they're not hamlets. They're fairly 
substantial cities.
    The other piece is the sequential piece. While it is a 
well-accepted piece of counterinsurgency doctrine that you need 
to protect the population and you need to isolate them from the 
insurgents--and we are doing that across Iraq--I think there is 
a misperception that all we're doing is running around chasing 
people and trying to kill them, that our soldiers and leaders 
are not out there every day gathering intelligence, protecting 
the population, assisting the population, and things--as was 
mentioned earlier, the CERP program, where they invest in the 
communities.
    So, our soldiers have a very good feel for 
counterinsurgency doctrine. I recently sent a team out there to 
see how they were applying it, and the team came back and said 
that they generally have it about right. Sure, there are things 
we can do better, but we're applying counterinsurgency doctrine 
to the situation in Iraq, and doing it fairly well.
    So broadly, good thoughts on how to deal with things, but I 
think a sequential strategy like he suggests in Iraq, I think 
we're past that. We had to do it in Fallujah and those places 
last year, when we didn't have enough Iraqi security forces. 
Now we're getting to the point where we do.
    Senator Clinton. General, the problem, of course--again, 
from this side of the table--is that we can't even secure a 6-
mile road from the airport into Baghdad. It's very hard to get 
whatever the metrics are that we are asked to judge success by. 
I think there is a--at least--again, based on people with whom 
we speak and who reach out to us--an acceptance of the fact 
that the insurgency has gotten more organized, more deadly, and 
larger.
    The London Times quoted an American intelligence officer in 
Baghdad, who said, ``We have reason to believe that Zarqawi has 
now given tactical command in the city over to groups that have 
had to merge under him for the sake of their survival.''
    This week, the Washington Post quoted the top U.S. military 
intelligence officer in Iraq, Major General Zahner, as saying, 
``I think what you really have here is an insurgency that's 
been hijacked by a terrorist campaign.''
    What is troubling to many of us is that the numbers that 
are reported to us of the insurgents continues, if not to grow, 
at least not to decrease. A recent Center for Strategic and 
International Studies (CSIS) study concluded that there was an 
unsettling realization that the vast majority of Saudi 
militants who have entered Iraq were not terrorist sympathizers 
before the war, and were radicalized almost exclusively by our 
invasion and what happened next.
    So it is difficult for us. On this committee, you have 
people who have spent a lot of time trying to understand this. 
If we can't understand what the metrics of success are, if we 
don't see the results of this strategy with clarity, I think it 
is hard to expect the American people, who tune in and out of 
this as the information comes to them, to understand exactly 
where we are headed. So, I guess I join my colleagues on both 
sides of the aisle in expressing concern and frustration that 
we just don't see the success of the strategy that you have 
described and that you have very eloquently defended in the 
course of this hearing and on other occasions.
    General Casey. Senator, I take your point on the metrics. I 
would say that the rude Irish myth is a little dated. There has 
not been a casualty there since June. Iraqi security forces 
have gone out there with our coalition forces, and we are able 
to use that route without great danger of casualty.
    Your comments on the insurgency, on the levels of violence, 
I recognize that that is what it appears, but that is what the 
terrorists and insurgents are trying to convey. They're trying 
to convey that they are winning. They're doing it by murdering 
innocent Iraqis and by putting car bombs and improvised 
explosive devices against us and our Iraqi colleagues and 
against civilians. It's a tough situation, but that's what a 
terror campaign is all about. This is about political will and, 
as I said in my opening statement, they are attacking ours and 
the will of the Iraqi people. They're not winning in Iraq, and 
they will only win here if we lose our will.
    Senator Clinton. Thank you, Mr. Chairman.
    General Myers. A couple of extra points, Mr. Chairman.
    We have Andy Krepinevich--he's either been in or he will be 
in--we've asked him to come in and talk to us on the Joint 
Staff and talk about his theory, because as this has been from 
the beginning, we're happy to have folks that think there's a 
better way of doing this come talk about their particular 
strategies.
    Then back to Senator Lieberman just for a minute--but it 
ties into this as well, about winning. Every time a terrorist 
blows himself up or injures civilians, the violent-extremist 
cause loses. Now that might not have been true early on, but 
it's certainly true today. If you remember, after the London 
bombings, there was a fatwah issued by moderate Muslim clerics 
in Europe, in Asia, and in the United States. Those bombings 
have dropped Osama bin Ladin's rating, which was--at some 
point, he was favored in Iraq by over 70 percent. Seventy 
percent said ``pretty good guy.'' Now it's around 20 percent.
    So their strategy is not working, they have no offer of 
hope, and I would say our strategy is. But as George says, it 
is the test of wills. In Iraq, they get it. We have to make 
sure we stay stalwart too, at the same time being flexible 
enough to adjust strategies as required. I think that you have 
a team here that's willing to do that.
    Chairman Warner. Thank you very much.
    For the benefit of all present, recognizing we have two 
members that have yet had their question opportunity--both 
members will be accommodated--at the conclusion of their 
questioning period, this hearing will be completed.
    Mr. Secretary, we will ask that the record remain open, 
such that we can place into the record certain classified 
material which General Casey was anxious to provide. Now, we 
have to close the hearing, in recognition that you have to 
appear before the other body at 2 o'clock. We want to, in every 
way, accommodate that schedule. Am I not correct in that?
    Secretary Rumsfeld. That's correct, yes, sir.
    Chairman Warner. Thank you. I appreciate that we've had a 
very good hearing, and we've been able to accommodate all 
Senators.
    You're next, Senator Chambliss, for a period of 6 minutes, 
followed by Senator Nelson.
    Senator Chambliss. Thank you very much, Mr. Chairman. I 
will be brief.
    Gentlemen, first of all, let me once again thank you for 
great service that each of you provide to our country. We can't 
tell you enough how much we appreciate you, and particularly 
those brave men and women that serve under you.
    General Myers, I don't know how many more times we will see 
you, but just know how much we appreciate your great service to 
America, as well as to the United States Air Force.
    General Myers. Sir, it's been a privilege.
    Senator Chambliss. You have been a great trooper in every 
single way.
    I just want to make a comment, because I take a little bit 
of a different take than some of my other colleagues do about 
what's happening over there now. General Casey and General 
Abizaid, I had the privilege of meeting with you--I didn't see 
you the last trip, General Abizaid, but did see General Casey 
once again--I was there in Thanksgiving last year, was back 
last month, and, gentlemen, I don't have to tell you that the 
difference in what I saw between November last year and August 
this year was amazing.
    When General Petraeus laid out for us the chart which 
showed the dynamics of what we have done under his leadership 
in transforming the Iraqi Army, it's truly amazing what's been 
done in a short period of time. We've argued within this 
committee about how many troops were trained. There have been a 
lot of numbers that were thrown out there. We all have 
ultimately agreed that it doesn't make any difference what the 
numbers are, it's how many are ready to go to battle. What 
General Petraeus has done with your help is to take whatever 
number--and it's probably 170,000 that have been trained; they 
may not be ready to go into battle, but there is 170,000--and 
he's taken individuals who had never held a gun before, in 
hundreds and hundreds and hundreds of instances, and trained 
those individuals to be, not just infantrymen, but to drive 
tanks, to be medical corpsmen, to be engineers, to do all the 
things that people have to do at every level of a trusted and 
competent military, and that has not been an easy task.
    The one thing that General Petraeus, or any other person 
who is responsible for training the military can do, is to 
train somebody how to be a leader. Leadership has to come from 
within. Anybody who is a member of the Iraqi Army now who 
exhibited leadership before would have probably been in 
opposition to Saddam and he'd have been killed, or his family 
would have been raped and tortured. So, these are individuals 
who have never exhibited leadership before, because they've 
been afraid to.
    As you have gone through this process of training those 
individuals, the leadership within the Iraqi Army is starting 
to surface. General Casey, I know you talked to us about the 
fact that we have three Iraqi patrols now. I don't remember 
whether they--what, really, the size of them were, but they 
have taken over segments of Baghdad, and they are patrolling 
Baghdad on their own. Sure, we'll continue to advise them, but 
they're doing it. The leadership has surfaced within those 
groups of soldiers, and it's spreading. It's going to take some 
more time for that to happen, but it is happening.
    The other thing I will say, in closing, is--and we have 
expressed this to the White House, and I'm pleased to see that 
you're here today talking about the good things that are 
happening over there, and that you're going to be doing more of 
this, because the American people have to hear it. They have to 
hear about the good things that are happening over there, in 
addition to what they're going to read in the paper tomorrow 
about the IED that exploded today and took some more American 
lives. The people who need to be talking about that to the 
American people are you.
    I told General Petraeus if he could go on the Sunday talk 
shows, or in whatever forum, to talk about what he's doing it 
would have a much greater impact than any of us talking about 
it, and certainly the individuals who are critics of what's 
going on over there are not talking about the good things that 
are happening.
    So, I'm pleased to see you here. I will have to say, 
General Casey, the morale of your troops was unbelievable. My 
National Guard unit, which has 3,500 people over there today, 
had lost 16 soldiers when I was there. I talked to General 
Rodeheaver when I got out of the vehicle. He came to me, and I 
said, ``How's the morale of your troops? What's going on?'' He 
said, ``You won't believe it.'' He said, ``We're still grieving 
for our lost comrades, but morale is extremely high. These are 
very professional men and women.'' What he told me is exactly 
what I saw when I had a chance to look those national guardsmen 
and women in the eye.
    So, in spite of all the negative press and the negative 
comments that are ongoing, I walked away from there with the 
feeling that it's tough--and, General Myers, you're right--it's 
not a pretty picture to paint--but those men and women are 
doing a hell of a job of winning this war. We may not be 
winning the political war right now, but if we don't win the 
military side of it--and we're doing that--we'll never win the 
other side of it.
    So, I appreciate the great job you're doing, and I know we 
have to stay the course, and we have to continue to do the 
things that each of you, and the folks under you, are doing 
every single day over there. So, thank you.
    Chairman Warner. Thank you very much, Senator Chambliss.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    I'm going to shift to another subject about Iraq, Captain 
Scott Speicher.
    But, before I do, General Myers, thank you for your public 
service. You've been at this for 40 years. I too was 
commissioned 40 years ago, but my public service took a 
different path. On the occasion of your retirement, Grace and I 
look forward to seeing you and Mrs. Myers socially.
    General Myers. I hope so, too, Senator. Thank you.
    Senator Bill Nelson. Yes, sir.
    Also, before we get to Captain Speicher, Mr. Secretary, it 
needs to come to your attention--as I spoke with one of your 
Assistant Secretaries, Mr. Grone, you are about to have the 
threat of taking away the entire Gulf of Mexico off of Florida 
as one of the most significant training areas that you have, 
where you're not only training the F-22 and the F-35 pilots, 
but also you're shooting a lot of your more exotic warfare that 
you need plenty of airspace. What Mr. Grone did not understand 
was, he thought he had the luxury of several years to work this 
out with the Minerals Management Service in the Department of 
the Interior on the expansion of oil and gas leasing on the 
surface of the Gulf below, when in fact, you have a matter of 
days, or at least weeks, to register how this would impair the 
training capability for the United States military if you are 
denied that area. Because yesterday a bill was marked up in a 
House committee that, in fact takes all of the area, except for 
25 miles from shore, and opens it to oil and gas leasing. I've 
been the one that has been raising this, trying to protect the 
interests of the United States military. I think the Department 
has had the idea, ``Well, we can work this out with the 
Department of the Interior.'' Well, there is a freight train 
that is starting to move in the aftermath of Katrina and the 
fear of the shortage. In this atmosphere, I don't want your 
United States military preparedness to get hurt by you being 
denied all of that area, because you can't be shooting things 
down there on the surface of the water if they have oil and gas 
rigs all over there. So, I bring that to your attention.
    Now, I want to get to Captain Speicher. There was the 
review board. They concluded there was no evidence that he was 
dead, and that there was sufficient evidence that he probably 
survived being shot down, and that there may be Iraqis who know 
of his fate. Both the review board and Secretary England agree 
that the search must continue.
    So, General Casey, can you describe the effort to continue 
to try to determine the fate of Captain Scott Speicher?
    General Casey. Senator, I have not had an update on Captain 
Speicher since the review board has met, so I cannot give you 
that. But, as soon as I get back to Iraq, I will get right back 
with you and let you know what that is.
    [The information referred to follows:]

    The recovery and return of Captain Michael Scott Speicher to 
friendly control remains an operational priority for MNF-I. To that 
end, intelligence collection and operational efforts are continuously 
planned and, where actionable intelligence exists, recovery missions 
are executed. In addition, all necessary and appropriate follow-up 
actions are taken, to include the testing and analysis of all remains 
uncovered during any exploitation of a reported burial site, to 
determine if the remains are those of Captain Speicher.
    In November 2005, a suspected burial site in the Baghdad area 
[Deleted.]
    The most recent [Deleted.]
    [Deleted.]
    The Defense Intelligence Agency's exploitation of captured regime 
documents continues in Iraq, Qatar, and the United States, providing 
new insight into Iraq's prisoner handling procedures. A thorough review 
of those documents is ongoing and any leads derived from the 
exploitation will be vetted and developed with the goal being the 
production of actionable information to locate and repatriate Captain 
Speicher.

    Senator Bill Nelson. Does anybody else on the panel want to 
comment on that?
    Secretary Rumsfeld. We do know that Captain Speicher 
remains on the priority list for gathering of intelligence and 
information. There's data-searching taking place in Iraq, 
there's data-searching taking place outside of Iraq, in another 
Gulf location. The interest that we have is the same as your 
interest.
    General Myers. We're doing the same thing for Sergeant 
Maupin, as well.
    Chairman Warner. Thank you very much.
    I ask the witnesses if they could indulge just a few 
minutes. We've been joined by the Senator from Missouri.
    Senator Talent. Thank you, Mr. Chairman.
    Chairman Warner. This panel must get to the House of 
Representatives.
    Senator Talent. Then other than to say thank you, General 
Myers, for your service in particular, and all of you, two very 
brief questions. Number one: Are we, in your judgment, doing 
enough to empower local commanders to do smaller projects that 
are appealing to the population in their particular area? I saw 
a lot of this in Sadr City when I was there last--almost, if I 
can say it, a kind of a petty-cash fund to go out and do some 
local work. Evidently, that's been very successful in helping 
to recruit the population in our behalf.
    What, if anything, can we do when we go into places like 
Tal Afar, to help ensure a longer-term, more secure type 
situation? Because I know we've been going in, search-and-
destroying, and then having to--what, in your judgment, can we 
do there? Maybe to General Abizaid and General Casey?
    General Casey. I'll take first on the CERP. We have 
something we call bulk-CERP, which does exactly what you said, 
almost a petty-cash thing that the local commanders use to get 
that out there. I don't think you were here when I said we've 
spent over $700 million in CERP this year, and it has been the 
best assistance for the local commanders.
    Senator Talent. I'm really glad you recognize that, and I 
hope we make as much available as they think they can need.
    General Casey. Thank you. Now, on Tal Afar--and this is a 
great question, because it speaks to a strategy that we have 
used in Najaf, Fallujah, Samara, and we applied with this new 
government in Tal Afar. Before we go in--and this gets to the 
question--we sit down with the government and say, ``Okay, what 
are you going to do politically here to make it easier for our 
troops? What are you going to do economically to ensure there's 
humanitarian assistance available, that there's reconstruction 
money available, that there's compensation available? Then what 
are you going to do to ensure that there are police programs 
and the police training program is put in place there so that 
you generate the Iraqi local security forces that will make 
this a long-term success?''
    As I said, we've done it--we started it in Najaf, did it in 
Samara, we haven't been as successful in Samara because, 
largely, the Iraqis could never put together a local political 
leadership that wanted to make this succeed. I told the Deputy 
Governor up there the other day, I said, ``Look, we can't want 
this more than you do.''
    Fallujah is coming up on the first anniversary of the 
battle. I think what you're going to see is the great success 
that's gone on there inside Fallujah. Almost 70 percent of the 
people in Fallujah have electricity and running water. This is 
something that--those of you who were there shortly after the 
battle, I was there last week--it's amazing.
    So, we applied the same things in Tal Afar. Again, it's a 
holistic package done in advance, and then followed up with 
steady pressure to ensure that people don't take their eye off 
the ball after the battle is over, which is hard.
    Chairman Warner. Thank you very much.
    Senator Talent. Thank you, Mr. Chairman. I appreciate your 
indulgence.
    Chairman Warner. The subject of IEDs--that's the explosive 
devices which have taken such a heavy toll--we were going to 
largely cover in the classified session, but I think you can 
give us an assurance publicly that everything that can be 
brought to bear in the way of technology, equipment, people, 
and otherwise, are being devoted to try and contain that type 
of threat to our forces. Am I not correct, General Casey?
    General Casey. Senator, you are. I met with General Votel, 
head if the IED Defeat Task Force yesterday, and I will tell 
you that we continually try to find new things as the enemy 
adapts his tactics, and we continue to work on improving our 
capabilities to deal with these.
    Chairman Warner. Our committee regularly meets with the 
General.
    Gentlemen, thank you very much. We have had a very good 
hearing.
    The hearing stands adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                      IMPROVISED EXPLOSIVE DEVICES

    1. Senator Inhofe. General Abizaid and General Casey, there 
continues to be a great deal of media coverage with regard to 
improvised explosive devices (IEDs). It is apparent from our casualties 
that the biggest danger our military faces in Iraq results from IEDs. 
Coalition forces, Iraqi security forces, and Iraqi civilians face these 
same threats. General Joseph Votel, the director of the IED Defeat Task 
Force, briefed this committee in June that IED incidents, the discovery 
or detonation of a bomb, had surged recently and were currently running 
at about 30 per day. I applaud all the fine work that is being done by 
this Task Force in a very time critical environment to diminish any 
further escalation of these devices. Like my colleagues and all 
Americans, I remain concerned about what more we can do to keep the 
insurgency from continuing to make and adapt these devices, seemingly 
combating whatever offensive or defensive measures we put in place. 
This greatly concerns me. Without getting into any classified areas, 
what trends are we actually seeing since our committee had this 
briefing in June with regard to IED incidents?
    General Abizaid. The volume of IED attacks has continued to rise 
steadily and IED makers have refined their techniques and are focusing 
their energies in certain areas like explosive formed projectiles 
(EFPs) which are capable of penetrating some types of armored vehicles. 
There is also a growing trend towards under-vehicle attacks, the use of 
command-wired detonations, and the use of actuators which are triggered 
by the intended victims.
    While the number of attacks has risen, the rate of U.S. 
servicemembers killed or wounded in IED attacks has actually declined 
when compared to this same time period in last year. This can be 
credited to the improved tactics, techniques, and procedures being used 
by U.S., coalition, and Iraqi forces along with new technologies being 
developed by the Joint IED Defeat Task Force. In addition to new 
technologies and techniques, U.S., coalition, and Iraqi forces are 
improving ways to gain the support of local Iraqis in preventing IED 
incidents.
    General Casey. [Deleted.]

    2. Senator Inhofe. General Abizaid and General Casey, what 
assurance can you offer that initiatives are in the pipeline to defeat 
the insurgency's successful use of IEDs, especially of the vehicle 
borne IEDs?
    General Abizaid. To facilitate the efforts of the Joint IED Defeat 
Task Force, Central Command has also established its own Counter-IED 
Task Force. Functioning as a team, these two task forces identify enemy 
tactics, techniques, and procedures; evaluate the latest IED trends; 
identify operational needs and requirements of U.S. forces; and 
identify areas in which training can be improved to defeat IEDs. The 
teamwork of these two task forces has already succeeded in getting many 
new technologies fielded to attack the IED problem. Those initiatives 
have already placed into the hands of U.S. forces new means of 
conducting surveillance, locating buried or hidden IEDs, disrupting the 
functioning of IEDs, and identifying and locating individuals who make 
or emplace IEDs. These technologies continue to be refined, and 
resources are being allocated to develop those showing the most 
promise. In addition to receiving new technologies, U.S., coalition, 
and Iraqi forces are learning ways to gain the support of local 
populations in preventing IED incidents.
    General Casey. The Multi-National Force implemented an array of 
measures, both technical and operational, to defeat IEDs and vehicle-
borne IEDs throughout Iraq. Initiatives include establishing a Joint 
Task Force dedicated to countering IEDs, fielding electronic warfare 
equipment to counter radio controlled IEDs, improving armor for our 
inventory of vehicles, introducing new vehicles designed specifically 
for mined environments and improving tactics, techniques, and 
procedures.

    3. Senator Inhofe. General Abizaid and General Casey, the IED 
Defeat Task Force identified human intelligence (HUMINT) as critical in 
tracking and capturing the makers of these IEDs. What advances are we 
making in this arena?
    General Abizaid. [Deleted.]
    General Casey. We continue to improve our capability to exploit 
human intelligence. Recent initiatives include the establishment of a 
single, centrally located, interagency strategic debriefing center to 
facilitate more timely and effective debriefings to gain vital human 
intelligence information from foreign fighters and those who enable 
them. Another initiative is the formation of an intelligence-based 
development team designed to accelerate data base research and provide 
feedback on captured detainee documents and other media to forward 
maneuver elements for on-site exploitation and follow on operations.

    4. Senator Inhofe. General Abizaid and General Casey, are there any 
blockers to continuing to build our HUMINT capability as rapidly as we 
need to and what are we doing to overcome any such blockers?
    General Abizaid. [Deleted.]
    General Casey. We do face a challenge acquiring sources with 
sustained access to IED cells. To overcome that challenge, the Multi-
National Force in company with the Iraqi Transitional Government 
instituted telephone ``tips lines'' that provide not only effective and 
actionable IED leads from Iraqi citizens but also individuals willing 
to serve as sources.

    5. Senator Inhofe. General Abizaid and General Casey, I believe we 
all agree that the success of a new Iraq depends on Iraq being able to 
secure itself. We are making great progress in this area. I have seen 
some very positive changes in my two visits to Iraq this year. I 
commend the people of Iraq as they prepare to go to the voting booths 
in a few weeks to vote on the proposed constitution. The Iraqi 
population must continue to become ever more responsible for itself. In 
this vein, this is what I'd like to know. With the increasing 
casualties among the Iraqi security forces and civilians, are you 
seeing the Iraqi populace and the new Iraqi government providing 
critical information or taking definitive actions to ``help us, help 
them'' be a free people and defeat this insurgency by pinpointing where 
the insurgent is hiding, and where the IEDs are being manufactured?
    General Abizaid. The Iraqi populace and Government of Iraq are 
indeed providing critical information to U.S. forces. The Ministry of 
Interior (MOI) has instituted a very successful national tips hotline 
which allows concerned Iraqi citizens to call in information. During 
the month of October alone, there were 718 calls which provided 
actionable intelligence one of which resulted in the defusing of an 
IED. Between 1 May and 28 Oct 2005, there were 4,592 tips processed 
through the national tips hotline program. Additionally, there were 
over 40 reports in the month of October from sources who were motivated 
by their ``love of country.''
    General Casey. [Deleted.]

                     TROOP LEVELS AND END STRENGTH

    6. Senator Inhofe. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, recently, some in Congress have been 
pressing the DOD and the administration to reduce the number of troops 
in Iraq. They have a mission, a critical mission: to defeat the 
insurgency, train the Iraqi security forces to protect themselves, and 
enable a free Iraq. I strongly agree with the President in the belief 
that we base any withdrawal timeline on the mission, and only on the 
mission. There has been significant progress in Iraq. I have seen it. 
We expect continued progress there. Based on the results of their 
constitutional referendum on October 15, the Iraqis are then scheduled 
at the end of the year to hold their first election under their new 
constitution. Along with our Active-Duty Forces, we have relied heavily 
on our Reserve and Guard Forces, all of who have done an exemplary job. 
However, we have had some recruiting challenges, particularly in the 
Army and the Marine Corps. I am concerned about our maintaining an 
adequate end strength in our military forces to meet the rotational 
needs of the Iraqi freedom mission. Is this a concern you share?
    Secretary Rumsfeld. Thanks to you and the other members of this 
committee and the support of Congress, we have adequate strength levels 
to successfully meet present rotational needs in prosecuting the war on 
terrorism. Through the flexibilities allowed in law, the ongoing 
efforts to realign and conserve military manpower (e.g., by converting 
certain billets to civilian or contractor when not essential to 
rotation needs), continued prudent and judicious use of our Reserve 
Forces, and aggressive recruiting and retention programs, we have 
enough troops to meet current needs.
    Military operations in Iraq and Afghanistan have required prolonged 
use of some of our military capabilities, particularly our ground 
support forces. To minimize the strain on the individuals in these 
high-demand skill areas, we have used individuals from our air and 
naval forces with similar skill sets to meet theater mission needs. 
These forces have been well-prepared for their mission and have 
performed superbly. The flexibility afforded by this approach to force 
management has not only allowed us to provide qualified, effective 
forces for this operation, it has also increased our ability to 
effectively respond to future unforeseen crises.
    General Myers. Thanks to you and the other members of this 
committee and the support of Congress, we have adequate end strength to 
meet the needs of the Nation. However, current stresses on the force 
are significant and will remain so for the near-term. Accordingly, the 
Services are actively working to rebalance within and between Active 
and Reserve components to increase warfighting capability and improve 
responsiveness, to ease stress on our units, troops, and their 
families. Some of the initiatives include the Army's transition to 43 
``modular'' brigade combat teams, shifting billets across the Services' 
critical skills, and capitalizing on military to civilian conversions. 
Additionally, end strength is a significant focus item for the 
Quadrennial Defense Review. If at the end of the review it appears that 
our other efforts fall short of the projected force level requirements, 
I will not hesitate to recommend additional end strength.
    General Abizaid. Recruiting and retention remain a concern to 
everyone in uniform but this question is better answered by the 
Services since they are responsible for recruiting. Central Command's 
force requirements continue to be filled with properly trained and 
equipped units and individuals for our efforts throughout the Central 
Command Area of Responsibility but especially in Iraq and Afghanistan.
    General Casey. Recruiting and retention continue to be a concern to 
all of us in uniform but this question is better answered by the 
Services since they have responsibility for recruiting.

    7. Senator Inhofe. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, what do you see on the horizon with regard 
to the negative recruiting trend, particularly in the Army and the 
Marine Corps, and what plans are there to address this concern?
    Secretary Rumsfeld. A strong economy and low unemployment, while 
good for America, present challenges we already are working to 
overcome. Each component of the Army, for example, has expanded its 
number of recruiters, as well as the age constraints that had limited 
the pool of eligibles.
    The Department will continue to be attentive to the recruiting 
environment and actively seek the assistance of Congress with new and 
creative initiatives. Increased flexibility in the types of recruitment 
incentives the Department may employ, as well as an upward adjustment 
in the discretionary cap constraining those incentives, will be key to 
our success. We solicit your support of those initiatives.
    General Myers. We expect fiscal year 2006 to be a very challenging 
year for both Active and Reserve component recruiting and are 
particularly concerned with active Army, Army Reserve, and Army Guard. 
To mitigate the challenges, we have increased the numbers of 
recruiters, enhanced enlistment bonuses, and have focused our marketing 
strategy not only on potential recruits, but also on the influencers 
(parents, teachers, etc.) who play an important role in our overall 
effort.
    General Abizaid. Recruiting and retention continue to be a concern 
to all of us in uniform but this question is better answered by the 
Services since they have responsibility for recruiting. It should be 
noted that the Services continue to provide forces to meet the needs 
within Central Command's Area of Responsibility and the troops remain 
fully capable of completing the mission.
    General Casey. Recruiting and retention continue to be a concern to 
all of us in uniform but this question is better answered by the 
Services since they have responsibility for recruiting.

                             MEDIA COVERAGE

    8. Senator Inhofe. General Abizaid and General Casey, during my 
last two trips to Iraq I met many soldiers and marines who believe the 
media coverage is unbalanced. They want to know why the media is not 
sharing the many success stories that are occurring in Iraq. The 
soldiers and marines tell me that what they read does not fully reflect 
what they see happening on the ground. They tell me the successes 
achieved by our forces seem to not be newsworthy, with the media at 
every opportunity touting the insurgents' successes. With the exception 
of the coverage of the election in January, I must agree. It will be 
interesting to see what kind of coverage occurs after what I expect to 
be a successful constitutional referendum in mid-October. If it comes 
to believing what I read in the paper or see on television versus 
listening to what someone on ground is actually seeing, I think it's 
our young men and women there in Iraq who have it right.
    Take for example, these protesters here in Washington this past 
weekend who want to pull our troops out of Iraq. Many were probably 
there because they don't think we are being successful in Iraq due to 
what they are reading and seeing in the media. These protesters have a 
very simplified view of the result of pulling our troops out of Iraq. 
Either that or they are willing to toss away the opportunity to make a 
lasting and needed change in that region of the world.
    What will pulling out our troops mean? It means the country would 
dissolve into civil war because it does not yet have the necessary 
level of stability of the country to fend off these insurgents alone. 
It means these insurgents would then begin to export the very terror we 
have been fighting in Iraq. That's what these protesters would end up 
getting if we were to pull out our troops.
    What is your perception of the media coverage, how does that affect 
your mission, and what can we do to get a more balanced story?
    General Abizaid. The media trends towards reporting on the negative 
and/or sensational issues; that is the nature of the news business. To 
some extent, the events in Iraq and Afghanistan are viewed through a 
soda straw. The 24-hour news cycle compresses the allotted time for 
coverage of the issues which results in not every story being reported.
    As a result, the most unreported story in Iraq and Afghanistan is 
the true nature of the enemy. This is a despicable enemy that we need 
to understand. They are killing civilians, they are killing Muslims, 
and they are destroying Iraq's national infrastructure. We need to know 
what their motivations are, what their vision of the future is and what 
they are willing to do to accomplish their goals.
    General Casey. Media reports are, for the most part, accurate and 
unbiased, but they are also incomplete with respect to the 
accomplishments of the Iraqi and coalition forces. The Multi-National 
Force is rebuilding a nation with its Iraqi partners. Our day-to-day 
work and accomplishments contribute to that end. Coalition and Iraqi 
forces perform superbly under challenging conditions. I have no doubt 
that the trend of their performance will continue.
    I can tell you that American servicemembers deserve the full 
support of the American people and that the American public deserves to 
know the full story of their military's success in Iraq. I would 
appreciate anything that you, Senator, and your colleagues, can do to 
assist in that area.

    9. Senator Inhofe. General Abizaid, in an article earlier this year 
you stated, ``Politics will assure the defeat of the insurgency, 
provided the politics are open, transparent, and legitimate. It is 
clear we are moving in that direction.'' It seems to me that this same 
strategy has started to work in Lebanon, Libya, Afghanistan, and maybe 
someday in Egypt and Saudi Arabia to name just a few countries in the 
region. What do you see as the major obstacle to achieving an open, 
transparent, legitimate political environment in Iraq, what is your 
assessment of the changes we see taking place in the region, and are 
they sustainable?
    General Abizaid. The main obstacle to achieving an open, 
transparent, legitimate political environment in Iraq is providing 
inclusiveness in the political process for the diversity of religious, 
ethnic, and tribal influences throughout the country. Eventual success 
in Iraq will not be won by military operations on the ground, but by 
the formation of a central government that is representative of the 
people, and therefore fully supported by the people. This inclusiveness 
must be protected by a constitutional structure that guarantees the 
minority rights. If the Iraqi people truly believe that their voice is 
fairly represented in governmental decisions and that the government 
represents stability and a better future for them and their children, 
the insurgency will no longer have a place to hide. The need for 
inclusiveness during the political process is well-recognized at all 
levels of the political spectrum and continues to be a priority of all 
concerned.
    The recent political events observed throughout the region in 
Lebanon, Libya, and Afghanistan are indeed encouraging. These events 
also lend credibility to the concept that an open, transparent, and 
legitimate political process can significantly alter the direction in 
which a country is moving. The sustainability of these events 
throughout the region is difficult to predict, but our eventual success 
in Iraq and Afghanistan will certainly play a role in the continuation 
of future change throughout the region.

    10. Senator Inhofe. General Abizaid, in the same article you 
stated, ``The Afghans and Iraqis on this trip kept saying to me over 
and over again, `Are you going to stick with us?' I kept telling them 
over and over again, `Yes we will.' I ask the American people not to 
make a liar of me.'' What will happen in the region if we don't stick 
with them?
    General Abizaid. While it is hard to predict the unknown, it is 
possible to foresee certain possible outcomes. Leaving Iraq before the 
security forces and government are ready to take on the challenges of 
an evolving democratic state could have far reaching consequences for 
Iraq and the region as a whole. The greatest concern would be that the 
fledgling government would collapse and Iraq would devolve into civil 
war, with the country eventually splitting into autonomous regions. If 
this were to happen, Iraq could become a major terrorist sanctuary and 
a destabilizing influence for Iraq's surrounding neighbors, resulting 
in a regression from the gains in regional democratization that has 
been recently witnessed.
    With regard to Afghanistan, the effect of abandonment would be 
slower to evolve than in Iraq due to the more advanced progress of the 
political process and the greater degree of governmental control there. 
Yet, while greater maturity exists, the political, economic, and 
security infrastructure simply is not in place to guarantee the 
continued success of democracy in Afghanistan. The country could begin 
a gradual degeneration into a narco-terrorist state dominated by 
warlords and terrorist activities due to the presence of a substantial 
narcotics influence.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                             NATIONAL GUARD

    11. Senator Collins. Secretary Rumsfeld, just over 2 months ago, my 
State's Adjutant General stated that Maine had only approximately 30 
percent of the State's National Guard soldiers available for 
mobilization for Federal missions. He said that Maine's National Guard 
is ``building very quickly toward a crisis if, in the next two or three 
rotations, we still have 135,000 troops on the ground in Iraq.'' 
Eventually, we will run out of Guard members with time left on their 
mobilization clocks, particularly those serving in high-demand 
specialties such as intelligence, civil affairs, and military police. 
What are your plans to deal with this imminent problem?
    Secretary Rumsfeld. First, I must applaud the important 
contribution our Reserve components have made and continue to make in 
support of our global war on terrorism. We could not have provided all 
of the required capabilities to our commanders without their continued 
and steadfast support. To ensure we manage this support properly, we 
have maintained a judicious and prudent approach all along to ensure 
their utilization remained fair and appropriate.
    We have restricted the total aggregate time a reservist may be 
placed on active duty involuntarily to 24 months. We have insisted that 
our commanders request capabilities instead of units when requesting 
resources for Iraq and Afghanistan to ensure all Services have the most 
opportunities to support our efforts there, not just the traditional 
ground force providers. We have expanded the use of volunteerism. We 
constantly seek alternate manpower options, opening up additional 
opportunities for DOD civilian personnel, coalition forces, civilian 
contractors, and technological solutions. Though we are strained in 
some specific capabilities, these and other mitigation strategies have 
enabled us to preserve a significant portion of the Reserve component 
force.
    With respect to the Maine National Guard, over the course of four 
rotations, there are over 1,500 Maine guardsmen--or 49 percent of the 
currently assigned Maine Guard--who still have 24 months remaining on 
their mobilization clock (see table below).
    Further, the Department is now in its fourth year of rebalancing to 
relieve the specific stresses on the force that you mentioned in your 
question. From fiscal year 2003 to fiscal year 2005, the Services have 
rebalanced about 70,000 spaces of low demand structure into capability 
areas that are in high demand such as Intelligence, Civil Affairs, and 
Military Police. Rebalancing is also a continuous and iterative 
process. The Services have already planned about 55,000 spaces of 
additional rebalancing from fiscal year 2006 through fiscal year 2011. 
For example, the Army has plans to add about 25,000 Military Police 
spaces, about 3,000 Intelligence spaces, and about 1,000 Civil Affairs 
spaces.
    In addition to rebalancing, the Army's transition to modular 
brigades is increasing the number of Active brigades available, thus 
reducing the requirement to use Army National Guard brigades.

----------------------------------------------------------------------------------------------------------------
                                                 National Guard (All)               National Guard (Maine)
                                         -----------------------------------------------------------------------
                                             Army         Air        Total       Army         Air        Total
----------------------------------------------------------------------------------------------------------------
Total Currently Assigned:...............     333,177     106,246     439,423       1,937       1,262       3,199
----------------------------------------------------------------------------------------------------------------
Total Assigned, Previously Activated ISO      99,794      47,283     147,077         970         660       1,630
 ONE/OIF/OEF:...........................  30 percent  45 percent              50 percent  52 percent  51 percent
----------------------------------------------------------------------------------------------------------------
24 Months Remaining on clock (not yet        160,075      58,963     219,038         967         602       1,569
 activated):............................  48 percent  55 percent  50 percent  50 percent  48 percent  49 percent
----------------------------------------------------------------------------------------------------------------
12 Months Remaining on Clock (activated       36,022      33,020      69,042          86         381         467
 previously):...........................  11 percent  31 percent               4 percent  30 percent
----------------------------------------------------------------------------------------------------------------
Currently Mobilized (SELRES):...........      76,102       7,970      84,072         202         262         464
                                          23 percent   8 percent  19 percent  10 percent  21 percent  15 percent
----------------------------------------------------------------------------------------------------------------
Total Available for at least a 12 month      196,097      91,983     288,080       1,053         983       2,036
 rotation:..............................  59 percent  87 percent  66 percent  54 percent  78 percent  64 percent
----------------------------------------------------------------------------------------------------------------
Table is as of September 30,2005.


    12. Senator Collins. Secretary Rumsfeld, are there any plans, draft 
or otherwise, to alter the 24-month maximum call-up policy?
    Secretary Rumsfeld. No. We understand the intent of the law and are 
complying with it. Furthermore, changes to our policy would tend to 
generate long-term problems for our Reserve Forces.

    13. Senator Collins. Secretary Rumsfeld and General Myers, is the 
Department of Defense studying the possibility of creating new 
battalions within the National Guard that would focus only on homeland 
defense missions, where units would solely train with State and local 
authorities?
    Secretary Rumsfeld. No. There has been no national strategy change 
to justify the need to establish a separate role for the National 
Guard, under which it only performs homeland security related missions. 
There are already sufficient legal mechanisms in place that enable 
State and territorial governors to employ their National Guard forces 
in support of local authorities to meet a wide range of existing 
homeland security missions.
    General Myers. Although the Quadrennial Defense Review of 2005 is 
examining a variety of possible alternatives in meeting homeland 
defense requirements, to include potentially dedicating some National 
Guard structure to that mission, there are no plans at this time to 
create additional units solely for homeland defense. The Army and 
National Guard Bureau position is to maintain units which have full-
spectrum utility across the range of military operations, including 
major combat operations, stability and support operations, as well as 
homeland defense, with the exception of selected niche capabilities for 
homeland defense, such as the National Guard's Weapons of Mass 
Destruction-Civil Support Teams and Northern Command's Joint Task Force 
Civil Support. In essence, in order to provide the optimum level of 
capability to the Nation in meeting needs identified in the National 
Defense and Military Strategies, units are best structured to provide 
full-spectrum capabilities across a range of missions, versus single 
utility units with limited applicability.
                                 ______
                                 
               Questions Submitted by Senator John Thune

                       PROPOSED IRAQ CONSTRUCTION

    14. Senator Thune. Secretary Rumsfeld, there is evidence that 
Sunnis are mobilizing to vote down the proposed Iraqi constitution 
during the December referendum. If they are successful, what effect 
will that have on the duration that American troops will remain in 
Iraq?
    Secretary Rumsfeld. The December elections will be democracy in 
action as the Iraqi people express their will at the ballot box. The 
December 15 election will determine the composition of the Iraqi 
National Assembly and set the stage for negotiations over remaining 
constitutional issues. That the Sunnis are preparing to participate in 
the elections should be taken as a positive sign of Iraq's continuing 
political development.
    American troops remain in Iraq in support of our goal of achieving 
a peaceful, free, and democratic Iraq and at the request of the Iraqi 
government. Decisions about the presence of American troops in Iraq 
after the December election will be made according to the conditions 
faced at that time, particularly the growth in the capabilities of the 
Iraqi security forces.

    15. Senator Thune. Secretary Rumsfeld, are you committed to staying 
in Iraq until a constitution is accepted?
    Secretary Rumsfeld. Iraqis turned out in large numbers to pass the 
constitution in a referendum on October 15. The adoption of a 
constitution is an important step in Iraq's political development. The 
constitution, however, does not signal the end of the process. Iraqis 
continue to negotiate several major political and legal questions, and 
Iraq's National Assembly must pass a number of laws in support of the 
constitution. We remain committed to providing support for Iraq's 
political transition in support of our goal to achieve a peaceful, 
free, and democratic Iraq.

    16. Senator Thune. Secretary Rumsfeld, several news outlets are 
reporting that the December referendum could likely push Iraq into 
civil war between rival Shia factions and the Sunnis. I do not vouch 
for the veracity of those reports nor do I endorse the conclusion. 
However, suppose for a moment that this worst case scenario comes true, 
what role will our armed services play?
    Secretary Rumsfeld. Our armed services work to support two 
overarching strategic goals: the creation of strong Iraqi security 
forces and the simultaneous development of a free and open Iraqi 
political process. Achieving these goals provides a powerful incentive 
for Iraqis to reject violence and settle their differences at the 
ballot box and remain the best hope of achieving a peaceful, free, and 
democratic Iraq.
    Coalition forces have altered deployments and tactics on a daily 
basis as the Iraqi security forces assume new responsibilities as well 
as in response to changes in the threats posed by the insurgents. We 
will continue to work with the Iraqi security forces in support of the 
political process, adapting tactics to the conditions we face.

    17. Senator Thune. Secretary Rumsfeld, would the Department's 
experience in Somalia provide any lessons learned?
    Secretary Rumsfeld. The Department is relying on a variety of 
sources to inform its strategy, operations, and tactics in Iraq. While 
I will leave specific details about lessons of urban fighting and 
counterinsurgency to our military planners, I can say with certainty 
that we consider historical lessons when we discuss operations in Iraq.

                          SERVICE LIMITATIONS

    18. Senator Thune. Secretary Rumsfeld, many National Guard and 
Reserve soldiers are getting close to fulfilling their 24-month service 
limitation. What is the Department's plan for conducting operations in 
Iraq if the pool of Reserve and National Guard soldiers begins to 
dwindle because they have met their deployment requirements?
    Secretary Rumsfeld. There are 829,000 members of the Selective 
Reserve assigned, of which, approximately 455,000 have never been 
mobilized. After future reductions in Army National Guard combat 
formations, the Reserve components will provide approximately 30,000 to 
35,000 personnel per rotation. The pool of Reserve component forces 
appears to be sufficient at this time. The Services are continuing 
efforts to rebalance forces, including those in the Reserve components, 
to ensure the correct mix of forces.


                     MOBILIZATION SITE DEFICIENCIES

    19. Senator Thune. General Myers, soldiers deploying from South 
Dakota to the Iraq theater are using Fort Dix, New Jersey, as a 
mobilization site. My office has been contacted by some South Dakota 
guardsmen with reports of unsatisfactory conditions at Fort Dix such as 
overflowing dumpsters, unsanitary conditions in portable toilets, and 
backed up plumbing which required some soldiers to bath from a drinking 
water trailer or a ``water buffalo.'' Would the Department review these 
complaints and keep my office apprised of findings and any actions 
taken to correct these alleged deficiencies?
    General Myers. In this specific case, the Army's Installation 
Management Agency, U.S. Army Forces Command, and its subordinate 
continental First U.S. Army are jointly responsible for operations and 
facilities at Fort Dix, New Jersey. In order to best answer your 
question, the Joint Staff is formally asking the Department of the Army 
to respond directly to your office in this matter. Quality of life 
standards for our soldiers, sailors, airmen, marines, and their 
families are of the utmost concern across the Department.

                    SECURITY ROLE DURING REFERENDUM

    20. Senator Thune. General Casey, it is possible that tensions may 
arise in Iraq as the December referendum moves closer. What role are 
American troops going to play in providing security for Iraqis during 
the referendum?
    General Casey. As a point of clarification, Iraq's constitutional 
referendum took place on 15 October 2005. The political process that 
will take place in December will be an election of a new national 
government.
    American troops, as part of the coalition force, will have three 
broad roles during the election. They will advise Iraqi security force 
leadership, provide rapid response in support of the Iraqi election 
security plan, and perform counterinsurgency operations throughout the 
area of operations.

    21. Senator Thune. General Casey, will this role be defined by the 
Iraqi government or American policy makers?
    General Casey. The role of American troops, as part of the Multi-
National Force, is jointly agreed upon between the United Nations, the 
Independent Election Council Iraq, and the coalition forces.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                            IRAQI INSURGENCY

    22. Senator Levin. Secretary Rumsfeld, is the insurgency in Iraq 
weaker now than it was a year ago?
    Secretary Rumsfeld. The insurgency is failing at the strategic 
level. While insurgents still possess the resources to conduct 
operations, they have failed to prevent or derail the democratic 
political process in Iraq, which is the strategic process. Lacking any 
positive vision of the future, they have failed to win the hearts and 
minds of the overwhelming majority of Iraqis. Nevertheless, the 
insurgency continues to pose a potent tactical threat to coalition 
forces as well as the Iraqi people. Our strategy of fighting the 
insurgents while building the Iraqi security forces will be crucial to 
ending the insurgents' tactical capabilities.

    23. Senator Levin. Secretary Rumsfeld, is the Zarqawi network in 
Iraq weaker now than it was prior to the fall of Baghdad to coalition 
forces?
    Secretary Rumsfeld. Zarqawi can no longer rely on Iraqi territory 
as a safe haven from which he can plot regional terrorist operations. 
Coalition forces and in particular, the Iraqi security forces bring the 
battle to the insurgents, taking the Zarqawi network further and 
further from any hope of strategic success. The network does remain 
capable of potent tactical strikes increasingly directed against Iraqi 
civilians. These strikes, while very lethal, have isolated his network 
from the developing political process, limiting the network's 
viability.

    24. Senator Levin. Secretary Rumsfeld, at the hearing you said 
``Zarqawi was already in Iraq before the war ever started. Zarqawi was 
running terrorists out of Iraq in several countries before the war ever 
started.'' It sounded like you were suggesting that Zarqawi was running 
terrorist operations from Iraq with the knowledge and consent of the 
Government of Iraq. What was the view of the Intelligence Community at 
the time on whether Zarqawi was running terrorist operations in other 
nations from Iraq before the war, and whether the Government of Iraq 
knew of and permitted Zarqawi to run terrorist operations from Iraq?
    Secretary Rumsfeld. I do not wish to speak authoritatively on 
behalf of the Intelligence Community. However, I believe that the 
statement you cited above is consistent with my understanding of the 
Intelligence Community's position prior to the war. To the best of my 
knowledge, in the spring of 2003, the Intelligence Community believed 
Saddam Hussein regime elements were providing sanctuary to Zarqawi, 
Ansar al-Islam, and other terrorists.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                 CONFLICT IN IRAQ--POLICY AND STRATEGY

    25. Senator Akaka. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, the International Crisis Group (ICG) just 
released a report titled: ``Unmaking Iraq: A Constitutional Process 
Gone Awry'' in which they conclude that ``the situation appears to be 
heading toward de facto partition and full-scale civil war.'' Assuming 
for a moment that the ICG prediction is correct, do you believe that 
the United States would have to alter its current military deployments 
and tactics? If you do not concur with the ICG prediction, wouldn't it 
be a prudent policy to prepare for that possible contingency and if so, 
what is being done?
    Secretary Rumsfeld. Coalition forces frequently alter their 
deployments as the Iraqi security forces (ISF) assume new 
responsibilities, as well as in response to changes in insurgent 
tactics. The insurgents, for example, appear to be directing new 
attacks against the Iraqi people, and the ISF are developing the 
ability to protect their own citizens.
    Our strategic goals continue to be the creation of strong ISF and 
the simultaneous development of a free and open political process. 
Achieving these goals provides a powerful incentive for Iraqis to 
reject violence and settle their differences at the ballot box as they 
have already done twice. The ISF also remain the best hope of a 
peaceful, free, and democratic Iraq. We will continue to work with the 
ISF to achieve these goals, adapting our tactics to the conditions we 
face.
    General Myers. While there has been much speculation over the 
future of Iraq, I believe it is much more useful to deal with the facts 
when addressing Iraq's future. After 2\1/2\ years of insurgent warfare, 
Iraq is still a unified state. Terrorists like Zarqawi have tried to 
incite sectarian violence, but the Iraqi people have not divided. I 
believe the overwhelming majority of the Iraqi people and Iraqi leaders 
do not want a partitioned country. We do not need to alter our current 
military deployments and tactics. The Iraqis are developing a 
representative constitutional democracy with our assistance. They are 
doing this and are making tremendous progress despite the factional 
political environment. We are helping them mend their fissures. Our 
current military efforts at establishing a secure and stable 
environment do not need to be changed.
    General Abizaid. If that prediction is correct, and I do not 
believe it is, it would require a reevaluation of our national goals 
and objectives for Iraq at the very highest levels. Our involvement in 
a full-scale civil war would require a different mix of capabilities 
and personnel than we currently have on the ground because the mission, 
once defined, would be completely different. Our planners continually 
assess, with our coalition partners, emerging situations and ``what-
ifs'' to develop plans for those possibilities. A civil war would take 
our involvement to a different national policy level that would need to 
be clarified before the military planners make any specific plans for 
involvement.
    General Casey. Civil war is not a foregone conclusion in Iraq, but 
I would agree that it is prudent to plan for possible contingencies. We 
are constantly assessing our deployment plans and tactics as situations 
change.
    The Multi-National Force strategy works to prevent civil war by 
closing deep, pre-existing ethno-centric divisions and building 
capacity for the Sunni, Shia, and Kurds to participate in the political 
process and collectively govern a united country. Iraq's constitution, 
though not a perfect document, provides a basis for political 
resolution to the nation's most contentious issues and the conditions 
most likely to foment civil war.
    It is certainly prudent to prepare for contingencies. As part of 
the military planning process, we prepare for contingencies we identify 
as risks. We have identified actions to mitigate sectarian tension and 
we have prepared a contingency plan.

    26. Senator Akaka. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, Major General Richard Zahner recently 
stated that ``if you don't take off the terrorist element, the 
political process can't mature.'' I certainly agree with that 
assessment. However, a report by Anthony Cordesman of the Center for 
Strategic and International Studies concludes that Iraq has become one 
of the global centers for recruiting and training terrorists--the war 
seems to be creating more terrorists, not fewer. If there is an almost 
inexhaustible supply of terrorists being created in the Middle East and 
being attracted to Iraq, how do we ``take off the terrorist element?'' 
The situation is similar to water flowing over a broken dam or dike: it 
stops flowing once the water level on both sides even out--in the case 
of Iraq, that would leave our troops surrounded by terrorists.
    Secretary Rumsfeld. The terrorists understand that a free and open 
Iraq represents a strategic defeat for their cause and join the 
insurgency for this reason. Likewise, a free and open Iraq is a 
strategic victory for the United States and our partner nations in the 
global war on terrorism.
    This strategic victory can be achieved by denying the terrorists 
what they need to operate and survive, particularly support from inside 
Iraq. We are working to draw support away from the insurgency and 
toward the new Iraq. While the terrorists promise only hatred and 
violence, we support the vision of a free and democratic Iraq. Broad-
based participation in the political process, evidenced most recently 
by the constitutional referendum, shows the Iraqi people choosing the 
democratic process and rejecting terrorist extremism. Support from the 
Iraqi people means better intelligence for coalition forces, fewer 
recruits for the terrorists, and fewer places for the terrorists to 
hide. Iraq's political progress therefore remains a key part of our 
strategy to defeat the terrorists in Iraq.
    General Myers. I disagree with your assertion that there is ``an 
almost inexhaustible supply of terrorists being created in the Middle 
East.'' Hard core terrorists are not being created in Iraq, they are 
massing there for what they believe is a decisive battle. Some 
terrorists are exploiting the unstable areas in Iraq. However, unlike 
other global terrorist sanctuaries, we are actively pursuing them with 
Iraqi and coalition security forces and denying them safe areas from 
which to operate. The key to reducing the supply of terrorists is to 
create conditions, which are inhospitable to terrorism, much as a 
healthy body rejects the onslaught of disease. We must harness all the 
elements of national power to create good governance, economic 
opportunity, and the rule of law.
    General Abizaid. Although it is likely our presence there has drawn 
foreign terrorists to the country, it is also probable that it has 
significantly decreased the opportunity for terrorists to openly and 
freely recruit and train. USCENTCOM has had some successes in stemming 
the flow of foreign fighters coming into the country, especially in the 
Syrian border region and we are working with the Iraqi government on 
how they can provide long-term security in this region. We have also 
had many successes in eliminating numerous terrorist leaders. There is 
also evidence that the actions by foreign terrorists are not resonating 
with the average Iraqi and in some cases are being resented. This 
increases the chances that average Iraqis will report on these elements 
and in turn, increase the coalition's capability to neutralize them.
    Coalition forces will continue to train Iraqi security forces and 
along with the Iraqi government, will continue aggressive pursuit of 
terrorists. This multi-faceted approach to decrease the terrorist 
threat will provide an environment where the political process can 
mature allowing the U.S. to reduce the size of its footprint which 
should help reduce the attraction of foreign fighters to Iraq.
    General Casey. We employ two broad methods to ``take off the 
terrorist element'' in Iraq. First, the Multi-National Force, in 
partnership with the Iraqi security forces, conducts operations, such 
as the recent missions in Tal Afar and the Western Euphrates Valley, to 
defeat terrorists, foreign fighters, and those Iraqis who support them. 
Second, we are reestablishing Iraqi control of its national borders to 
stem the flow of foreign fighters into Iraq. Those two objectives will 
reduce the operational capability of the terrorists in the country and 
prevent others from entering.
    Simultaneously, we work in partnership with the Iraqi Transitional 
Government to enable the democratic political process. A strong, 
democratic government is the long-term solution to the insurgency in 
Iraq.

    27. Senator Akaka. Secretary Rumsfeld, General Myers, General 
Abizaid, and General Casey, a few hearings or briefings ago, we were 
told that the situation in southern Iraq around the city of Basra was 
peaceful. That seems to have changed. British troops stormed a police 
station looking for two captured British soldiers. An American 
journalist was murdered. Other Iraqis have been murdered on an almost 
daily basis. There are news reports that Islamic fundamentalists 
representing several different factions have taken control of the city, 
including police forces. Basra sits astride one of our critical lines 
of communication to the ports and to Kuwait. Now it appears that this 
strategically vital rear area may be in jeopardy. If this is the case, 
what went wrong with our strategy?
    Secretary Rumsfeld. The recent incidents in Basra are troubling, 
and they deserve our careful attention. However, it is important to 
keep these incidents in their proper perspective. The Department's 
recent report to Congress on measuring security and stability in Iraq 
noted that 50 percent of Iraq's people experience only 6 percent of 
insurgent attacks. Basra is located in an area that has been peaceful 
relative to the rest of Iraq but by no means completely free of 
violence.
    It is possible that additional incidents in Basra and in the 
southern part of Iraq will occur in the future, and given the relative 
quiet of that region, these incidents will tend to stand out from 
incidents occurring in locations experiencing more consistent violence. 
But these kinds of incidents do not represent a strategic threat. Our 
supply lines and lines of communication remain safe and open, our 
strategy in the south of Iraq remains an appropriate one. We will 
continue to monitor the situation closely and safeguard our 
communication and supply lines as necessary.
    General Myers. Because it is a city with many different political, 
religious, and tribal groups, Basra experiences periods of instability 
and crisis. The incidents you describe are examples of group loyalties 
or personal loyalties conflicting with the newly established democratic 
authorities. As the relationship between central, provincial, and 
municipal governments matures, these periodic incidents of instability 
will diminish.
    General Abizaid. The events to which you refer, while not 
insignificant, are isolated and not indicative of the overall situation 
in Basra and the surrounding Al Basra Province. Over the past 9 months 
violence in Basra has accounted for only 1.2 percent of all violence in 
Iraq, while Basra accounts for over 7 percent of the Iraqi population 
making Basra significantly more stable than a majority of the country. 
While attacks in the past 3 months leading to the successful 
constitutional referendum have increased slightly in Basra, they are 
not out of line with the expected increase in attacks across Iraq.
    General Casey. Basra remains one of our most peaceful and stable 
provinces averaging one attack per day. We will continue to maintain a 
coalition presence in this key province. Vetting of Iraqi security 
force recruits and continued professional development within their 
police forces will add to the region's stability and ensure long-term 
stability.

    [Whereupon, at 1:45 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
